Department of Defense                   Department of Defense
Inspector General                            Inspector General
4800 Mark Center Drive                  4800 Mark Center Drive
Alexandria, VA 22350-1500            Alexandria, VA 22350-1500

www.dodig.mil                                   www.dodig.mil

Defense Hotline 1.800.424.9098   Defense Hotline 1.800.424.9098
                                                                                           NERAL
                                                                               INSPECTOR GEDEFENSE
                                                                                        OF
                 	                                                         DEPARTMENT
                                                                                   RK C EN TER DRIVE
                 	                                                         4800 MA                0-1500
                                                                                    VIRGINIA 2235
                                                                        ALEXANDRIA,

                                                                                                                                                                ual Report to
                                                                                                                   ec  to r   G  eneral Semiann                                 detecting
                                                                   ep   ar  tm   en   t  of    Defense       In sp
                                                                                                                                   ,  20   12  . W   e  ar   e dedicated to
                                            present the D                                                                      30
                      I am pleased to                                                                ugh September                                                    programs and
                                               re po  rt in g   pe  ri od April 1 thro                         in g  th  e  eff  ec  tiveness of DoD
                                            e                                                               ov
                      Congress for th                                            use while impr
                              ev  en ti ng   fr au d, waste, and ab
                       and pr
                       operations.                                                                                                                                   ograms and
                                                                                                                           re  ct ly   impact DoD pr                                    re
                                                                                                     positi   on  to   di                                           ght to help ensu
                                                th or ity   pl  ac  es  us in a unique                          th  is en   d,   w e   conduct oversi                      of de fe nd  ing
                        Our statutory au                                  ss  en  ti al   ac   tivities. To                             l  th  e  cr iti ca   l mission
                                               stain mission          -e
                                                                                                e best equipped
                                                                                                                         to fu    llfi                                          rior care,
                        operations to su                              pe   rs  on   ne   l  ar                                   io  ns    in   A  fg  ha   nistan and war
                                             hter and DoD                                             related to oper
                                                                                                                              at
                        that the warfig                   rt   hi gh   lights our work                                at io  ns  , and inspection
                                                                                                                                                                 s.
                                 un tr  y. Th  is  re po                                       au  dits , in ve st ig
                         our co                                           gnificant
                                               e of our most si                                                                                                      encies within th
                                                                                                                                                                                         e
                         along with som                                                                                w ith    ou   r counterpart ag                              Fo  rc e
                                                                                                e work jo     in tly                                             it Servic e, A ir
                                                                       t  m   is si on    ,  w                                     nc    y,  N  av  al   A  ud
                                                our importan                                                            it Age                                                       e, Air
                          To accomplish                                   ,  in  cl ud    in   g the Army Aud                          C  ri m   in  al  In   ve  stigative Servic
                                               ght commun            ity
                                                                                                 ion Command,
                                                                                                                          Naval                                                  them for
                          Defense oversi                            in  al   In  ve  st  ig   at                                   ac  t  A  ud   it  A  ge   ncy. We thank
                                                Army Crim                                                                      tr
                          Audit Agency,                                                             the Defense Con
                                                 Sp  ec ia  l In  ve  stigations, and
                           Force Office of                                    rt.                                                                                                   reporting
                                                  ons to this repo                                                                                               fits during this
                           their contributi                                                                                        m   on    et ar  y  be   ne
                                                                                                         on in potential                                              counterpart law
                                                          s  th  at  id  en   tified $2.8 billi                        or  ki  ng     cl osely with our                              nvictions,
                            We issued 79 re
                                                   po  rt
                                                                               In  ve  st   ig at ive Servic     e,  w
                                                                                                                                                  ar re  st  s,  167 criminal co
                                                    ense Crim         in  al                                              sulted       in   72                                      ment. The
                            period. The Def                                    te d   in   ve  st igations that re                            bi  lli on    to   the U.S. govern
                                                    encies, cond         uc                                               rn of      $3   .3                                           allenges
                            enforcement ag                               ba   rm    en  ts   , ge  nerating a retu                      ar  e  so   m  e   of   th  e continuing ch
                                                     and 136 de                                                                     n
                            37 suspensions,                                                               f special concer
                                                                le d  12   ,201 contacts. O                                                                                              e ANSF
Principal Deputy             Defense Hotlin
                                                    e  ha  nd
                                                                           g:                                                             n   N  at io  na   l Se   curity Forces. Th
                                                       d, includ       in                                                            ha
                             we have identifie                                                            uipping the Afg
Inspector General
                                                              gh  t an   d   training and eq                                ili ty   in Afghanistan
                                                                                                                                                                  .
                                                                                                                                                                                         ficiaries,
                             •	    C   on  tr ac t ov  er si
                                                                                   ishi   ng    se  cu  rity  an d   st ab
                                                                                                                                                 ox  im    at el y   9.5 million bene
                                                                           ta  bl                                                            pr                                        personnel
Lynne M. Halbrooks.                                                    es                                                               ap
                                                              r for                                                       ices to
                                    is a critical pilla                     st em    ,  w   hi  ch provides serv                        ic  al  ca  re  re   qu   ired by military
                                                          Health       Sy                                                es. Med                                                    ion and
                              •	 The Military e duty personnel and their famili especially in the areas of rehabilitat
                                     including activ                    se    in the next seve
                                                                                                           ral years,
                                                   ed   to   in  cr ea
                                     is expect
                                                                                                                                                                                            s.
                                      transition care
                                                              .                                                                                                        oD IG employee
                                                                                                                   ti on   an   d  ac   hi  evements of D                      of  th e  ov ersight
                                                                                   ti on      fo r th  e dedica                                    ci es  , an   d   members
                                                         s my appr         ec   ia                                          efense        ag  en                                       , Marines,
                                I want to expres                                       ili   ta ry  services, the D                                  .  W   e  th   ank the soldiers
                                                        commen          d   th  e   m
                                                                                                        d devotion to th
                                                                                                                                  em       issi  on                                   rough unity.
                                Additionally, I                             es  si on   al   is m   an                                   go   al  to   ac   hi  ev  e excellence th
                                                          their prof                                        ifice inspire ou
                                                                                                                                      r
                                 community for                                 service and sacr
                                                            en   w   ho  se                                                                                                           as we strive
                                 sailors, and       ai rm
                                                                                                                                                        an  d   th   e Department
                                                                                                                             t of Con        gr  es  s                               ency ; improve
                                                                           ar  d  to    th   e  co  ntinued suppor                          ta bi  lit y,  in  te grity, and effici
                                  In closing, we lo
                                                            ok forw                                           promote accoun                                              dollars.
                                                      te  ns  iv e  ov   er  si ght functions to                     m  os   t effi  ci  en   t use of taxpayer
                                  to use our ex                                                                   e
                                                                                         ; and ensure th
                                                            and operations
                                   DoD programs


                                                                                                                        ooks
                                                                                                       Lynne M. Halbr
                                                                                                                  ep ut y
                                       				                                                            Principal D
                                       				
STATISTICAL HIGHLIGHTS


SUMMARY OF AUDIT ACTIVITIES

 Reports Issued 	                                                           59
 Monetary Benefits													
 	        Recommendations Made on Funds Put to Better Use	        $2.8 billion
 	        Achieved Monetary Benefits (Funds Put to Better Use)	 $59.7 million

SUMMARY OF DEFENSE CRIMINAL INVESTIGATIVE SERVICE ACTIVITIES

Total Returned to the U.S. Government1	                                                   $3.3 billion
	        Recovered Government Property	                                                  $1.5 million
	        Civil Judgments/Settlements	                                                      $2 billion
	        Criminal Fines, Penalties, Restitution and Forfeitures	                          $1.3 billion
	        Administrative Recoveries2	                                                    $39.9 million
Investigative Cases
	Arrests	                                                                                         72
	Charges	                                                                                        179
	Convictions	                                                                                    167
	Suspensions	                                                                                     37
	Debarments	                                                                                     136

SUMMARY OF ADMINISTRATIVE INVESTIGATIONS

 Complaints Received	                                                                           1,173
 Complaints Closed	                                                                               551
        Senior Official	                                                                          323
        Whistleblower Reprisal	                                                                   228

SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES

 Existing and Proposed Regulations Reviewed	                                                     165
 Evaluation Reports Issued	                                                                        4
 Inspector General Subpoenas Issued	                                                             273
 Contractor Disclosures Received	                                                                 92

SUMMARY OF INTELLIGENCE ACTIVITIES

 Intelligence and Special Program Assessment Reports Issued	                                        9

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES

 Assessment Reports Issued	                                                                         7

SUMMARY OF DEFENSE HOTLINE ACTIVITIES

 Contacts	                                                                                    12,201
        Cases Opened	                                                                          1,930
        Cases Closed	                                                                          1,269




1 Includes investigations conducted jointly with other law enforcement organizations.
2 Includes contractual agreements and military non-judicial punishment.

   ii SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                                                       CONTENTS
1. OVERVIEW
	        MISSION & ORGANIZATION.............................................................................................................................................2
                      MISSION................................................................................................................................................................2
                      ORGANIZATION..................................................................................................................................................3
	        EXECUTIVE SUMMARY.........................................................................................................................................................4
                      OVERVIEW............................................................................................................................................................4
                      PRIORITIES............................................................................................................................................................4
                      CORE MISSION AREAS......................................................................................................................................5
                      ENABLING MISSION AREAS ...........................................................................................................................7
	        IG HIGHLIGHTS.......................................................................................................................................................................7
                      AFGHANISTAN....................................................................................................................................................7
                      WARRIOR CARE................................................................................................................................................ 10
2. CORE MISSION AREAS
	AUDITS................................................................................................................................................................................... 12
                      ACQUISITION PROCESSES AND CONTRACT MANAGEMENT........................................................... 12
                      FINANCIAL MANAGEMENT.......................................................................................................................... 21
                      JOINT WARFIGHTING AND READINESS................................................................................................... 28
                      INFORMATION ASSURANCE, SECURITY AND PRIVACY...................................................................... 30
                      HEALTH CARE................................................................................................................................................... 32
                      EQUIPPING AND TRAINING IRAQI AND AFGHAN SECURITY FORCES ......................................... 34
                      NUCLEAR ENTERPRISE.................................................................................................................................. 40
	INVESTIGATIONS................................................................................................................................................................. 41
                      PROCUREMENT FRAUD................................................................................................................................ 41
                      PUBLIC CORRUPTION.................................................................................................................................... 42
                      PRODUCT SUBSTITUTION............................................................................................................................ 44
                      HEALTH CARE FRAUD.................................................................................................................................... 45
                      TECHNOLOGY PROTECTION....................................................................................................................... 46
	INSPECTIONS....................................................................................................................................................................... 49
                      HEALTH AND SAFETY...................................................................................................................................... 49
                      JOINT WARFIGHTING AND READINESS.................................................................................................. 51
                      INFORMATION ASSURANCE, SECURITY AND PRIVACY..................................................................... 52
	        ADMINISTRATIVE INVESTIGATIONS............................................................................................................................. 53
                      WHISTLEBLOWER REPRISAL INVESTIGATIONS..................................................................................... 53
                      INVESTIGATIONS OF SENIOR OFFICIALS................................................................................................. 56
3. ENABLING MISSION AREAS
	        CONGRESSIONAL TESTIMONY AND BRIEFINGS...................................................................................................... 60
	        DOD HOTLINE...................................................................................................................................................................... 61
	        WHISTLEBLOWING AND TRANSPARENCY................................................................................................................. 63
	PROGRAMS .......................................................................................................................................................................... 64
	        OUTREACH ACTIVITIES..................................................................................................................................................... 66
4. SERVICES
	        ARMY...................................................................................................................................................................................... 70
                      ARMY AUDIT AGENCY................................................................................................................................... 70
                      ARMY CRIMINAL INVESTIGATION COMMAND..................................................................................... 75
	        NAVY....................................................................................................................................................................................... 82
                      NAVAL AUDIT SERVICE.................................................................................................................................. 82
                      NAVAL CRIMINAL INVESTIGATIVE SERVICE............................................................................................ 91
	        AIR FORCE............................................................................................................................................................................. 98
                      AIR FORCE AUDIT AGENCY.......................................................................................................................... 98
                      AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS.............................................................................102
5. APPENDICES
         A.	 AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED..........................................................................106
         B.	 REPORTS CONTAINING POTENTIAL MONETARY BENEFITS..........................................................................117
         C.	 FOLLOW-UP ACTIVITIES...........................................................................................................................................118
         D.	 CONTRACT AUDIT REPORTS ISSUED...................................................................................................................120
         E.	 STATUS OF ACTION ON POST-AWARD CONTRACTS......................................................................................121
         F.	 STATUS OF REPORTS WITH ACTION PENDING.................................................................................................122
         G.	 CONTRACT AUDITS WITH SIGNIFICANT FINDINGS........................................................................................128
         H.	 RESULTS OF PEER REVIEWS.....................................................................................................................................133
         I.	 ACRONYMS...................................................................................................................................................................134
		                                                                                                                                  APRIL 1, 2012 TO SEPTEMBER 30, 2012 iii
REPORTING REQUIREMENTS


The Inspector General Act of 1978, as amended, states that each inspector general shall no later than April 30 and October 31 of each
year prepare semiannual reports summarizing the activities of the office during the immediately preceding six-month periods ending
March 31 and September 30. The IG Act specifies reporting requirements for semiannual reports. The requirements are listed below and
indexed to the applicable pages.

REFERENCES          REQUIREMENTS                                                                                                      PAGE
Section 4(a)(2)     “review existing and proposed legislation and regulations...make recommendations...”                              N/A

Section 5(a)(1)     “description of significant problems, abuses, and deficiencies...”                                                11-58

Section 5(a)(2)     “description of recommendations for corrective action...with respect to significant problems, abuses, and         11-58
                    deficiencies...”

Section 5(a)(3)     “identification of each significant recommendation described in previous semiannual reports on which cor-         N/A
                    rective action has not been completed...”
Section 5(a)(4)     “a summary of matters referred to prosecutive authorities and the prosecution and convictions which have          11-58
                    resulted.”
Section 5(a)(5)     “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” instances where infor-     N/A
                    mation requested was refused or not provided”
Section 5(a)(6)     “a listing, subdivided according to subject matter, of each audit report, inspection report, and evaluation re-   106-116
                    port issued” showing dollar value of questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)     “a summary of each particularly significant report...”                                                            11-58

Section 5(a)(8)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     118
                    the total dollar value of questioned costs...”
Section 5(a)(9)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     118
                    the dollar value of recommendations that funds be put to better use by management...”
Section 5(a)(10)    “a summary of each audit report, inspection report, and evaluation report issued before the commencement          118
                    of the reporting period for which no management decision has been made by the end of reporting period...”
Section 5(a)(11)    “a description and explanation of the reasons for any significant revised management decision...”                 N/A

Section 5(a)(12)    “information concerning any significant management decision with which the Inspector General is in                N/A
                    disagreement...”
Section 5(a)(13)    “information described under Section 05(b) of the Federal Financial Management Improvement Act of 1996...” N/A
                    (instances and reasons when an agency has not met target dates established in a remediation plan)
Section 5(a)(14)    “An Appendix containing the results of any peer review conducted by another Office of Inspector General           133
                    during the reporting period...”
Section 5(a)(15)    “A list of any outstanding recommendations from any peer review conducted by another Office of Inspector          N/A
                    General that have not been fully implemented, including a statement describing the status of the implemen-
                    tation and why implementation is not complete...”
Section 5(a)(16)    “Any peer reviews conducted by DoD IG of another IG Office during the reporting period, including a list of       133
                    any outstanding recommendations made from any previous peer review...that remain outstanding or have
                    not been fully implemented...”
Section 5(b)(2)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     119
                    the dollar value of disallowed costs...”
Section 5(b)(3)     “statistical tables showing the total number of audit, inspection, and evaluation reports and the dollar value    119
                    of recommendations that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)     “a statement with respect to audit reports on which management decisions have been made but final action          128-132
                    has not been taken, other than audit reports on which a management decision was made within the preced-
                    ing year...”
Section 8(f )(1)    “information concerning the number and types of contract audits...”                                               120
Section 5 note      “an annex on final completed contract audit reports...containing significant audit findings.”                     122-127

  iv SEMIANNUAL REPORT TO THE CONGRESS
           1


Overview
Mission



                                  Serving the Congress
                                  and the Department
                                  Department of Defense Inspector General is an
                                  independent, objective agency within the U.S.
                                  Department of Defense that was created by the
                                  Inspector General Act of 1978, as amended.
                                  DoD IG is dedicated to serving the warfighter
                                  and the taxpayer by conducting audits,
                                  investigations, inspections and assessments that
                                  result in improvements to the Department. DoD
                                  IG provides guidance and recommendations to
                                  the Department of Defense and the Congress.

                                  Mission
                                  Provide independent, relevant and timely over-
                                  sight of the Department of Defense that:
                                  •	 Supports the warfighter.
                                  •	 Promotes accountability, integrity and 	 	
                                  	efficiency.
                                  •	 Advises the secretary of defense and 	 	
                                  	Congress.
                                  •	 Informs the public.

                                  Vision
                                  Be a model oversight organization in the federal
                                  government by leading change, speaking truth
                                  and promoting excellence; a diverse organization,
                                  working together as one professional team,
                                  recognized as leaders in our field.

                                  Core Values
                                  •	   Integrity
                                  •	   Efficiency
                                  •	   Accountability
                                  •	   Excellence

                                  Goal 1
                                  Promote economy, efficiency and effectiveness.

                                  Goal 2
                                  Identify, deter and investigate fraud, waste and
                                  abuse.

                                  Goal 3
                                  Engage, enable and empower our people.

                                  Goal 4
                                  Achieve excellence through unity.

2 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                               Organization



                                                          Secretary of Defense



                                                            Inspector General




                                                                           Intelligence &
                                                     Administrative                                                         Special Plans &
       Auditing             Investigations                                Special Program        Policy & Oversight
                                                     Investigations                                                           Operations
                                                                            Assessments




Auditing                                               Intelligence and Special
The Office of the Deputy Inspector General for         Program Assessments
Auditing conducts audits on all facets of DoD          The Office of the Deputy Inspector General for
operations. The work results in recommenda-            Intelligence and Special Program Assessments
tions for reducing costs; eliminating fraud, waste     provides oversight (audits, evaluations and in-
and abuse of authority; improving performance;         spections) across the full spectrum of programs,
strengthening internal controls; and achieving         policies, procedures and functions of the intelli-
compliance with laws, regulations and policy.          gence enterprise, special access programs, nucle-
                                                       ar enterprise and related security issues within
Investigations                                         DoD.
The Office of the Deputy Inspector General
for Investigations leads the Defense Criminal          Policy and Oversight
Investigative Service, which protects America’s        The Office of the Deputy Inspector General
warfighters by conducting criminal and civil           for Policy and Oversight provides oversight
investigations in support of crucial national          and policy for audit, investigative and hotline
defense priorities.                                    activities within DoD; conducts engineering
                                                       assessments of DoD programs and provides
Administrative Investigations                          technical advice and support to DoD IG
The Office of the Deputy Inspector General for         projects; and operates the DoD IG subpoena and
Administrative Investigations investigates and         contractor disclosure programs.
oversees investigations of allegations regarding
the misconduct of senior DoD officials, both           Special Plans and Operations
civilian and military; whistleblower reprisal          The Office of the Deputy Inspector General for
against service members, defense contractor            Special Plans and Operations provides assess-
employees and DoD civilian employees                   ment oversight to facilitate informed decision-
(appropriated and nonappropriated fund);               making by senior civilian and military leaders
and improper command referrals of service              of the DoD and Congress to accomplish priority
members for mental health evaluations.                 national security objectives.

                                                                                                            APRIL 1, 2012 TO SEPTEMBER 30, 2012 3
Executive Summary



                                    Overview                                             Administrative Investigations in fiscal year 2012,
                                                                                         closed a total of 80 investigations and conducted
                                    The Inspector General Act of 1978, as amended,       oversight reviews of 411 investigations conduct-
                                    states that the inspector general is responsible     ed by ther service and defense agency IGs involv-
                                    for conducting audits, investigations and inspec-    ing whistleblower reprisal, restriction of service
                                    tions and for recommending policies and pro-         members from contacting an IG or member of
                                    cedures to promote economical, efficient and         Congress, procedurally improper mental health
                                    effective use of agency resources and programs       referrals and senior official misconduct.
                                    that prevent fraud, waste, abuse and misman-
                                    agement. The IG Act also requires the inspector      Intelligence and Special Program Assessments is-
                                    general to keep the Department and Congress          sued nine reports that addressed management
                                    fully and currently informed about problems          challenges of the intelligence enterprise as it sup-
                                    and deficiencies in the Department’s operations      ports joint warfighting and readiness; informa-
                                    and the need for corrective action.                  tion assurance, security and privacy; health and
                                                                                         safety; and the nuclear enterprise.
“DCIS opened 271                    During this reporting period, DoD IG contin-
cases, closed 274 cases             ued directing its resources toward those areas of    Policy and Oversight issued four evaluation re-
                                    greatest risk to the Department of Defense. DoD      ports primarily addressing its oversight of audit
and has 1,779 ongoing
                                    IG is dedicated to serving the warfighter and the    quality control programs in DoD agencies and
investigations.”                    taxpayer by conducting audits, investigations        the military departments. Policy and Oversight
                                    and inspections that result in improvements to       also issued three Department-wide policies, re-
                                    the Department. DoD IG provides guidance and         viewed 165 existing and proposed directives and
                                    recommendations to the Department and Con-           instructions, issued 273 IG subpoenas and pro-
                                    gress. The work of each component as of Sept.        cessed 92 contractor disclosures.
                                    30, 2012, is summarized below.
                                                                                         Special Plans and Operations issued seven as-
                                    Auditing issued 59 reports with 386 recommen-        sessment reports with 91 recommendations that
                                    dations identifying potential cost savings and       addressed a wide range of issues, including U.S.
                                    funds that could be put to better use; ensuring      and coalition efforts to develop the Afghan lo-
                                    the safety of service members; addressing im-        cal police and the Afghan Air Force, the DoD
                                    provements in DoD operations, financial report-      Combating Trafficking in Persons program in
                                    ing and accountability; ensuring the Department      Afghanistan and the Wounded Warrior Battal-
                                    complied with statutory mandates; and identify-      ion at Camp Pendleton, Calif.
                                    ing new efficiencies. Of those reports, 37 percent
                                    addressed acquisition processes and contracting      As of Sept. 30, 2012, the DoD IG workforce to-
                                    issues; 24 percent addressed financial manage-       taled 1,571 employees, not including military
                                    ment issues; 12 percent addressed joint warfight-    personnel and contractors.
                                    ing and readiness issues; 7 percent addressed in-
                                    formation assurance, security and privacy issues;
                                    5 percent addressed health and safety issues; and
                                    15 percent addressed equipping and training
                                                                                         Priorities
                                                                                         As a Department-wide priority, the secretary of
                                    Iraq and Afghan National Security Forces.            defense identified the need to improve effective-
                                                                                         ness and efficiencies in business operations to
                                    INV-Defense Criminal Investigative Service           sustain mission-essential activities.
                                    opened 271 cases, closed 274 cases and has 1,779
                                    ongoing investigations. Cases resolved in this       In support of this focus, DoD IG uses its exten-
                                    reporting period primarily addressed criminal        sive oversight capabilities to promote economy,
                                    allegations of procurement fraud, public cor-        efficiency and effectiveness throughout the De-
                                    ruption, product substitution, illegal transfer of   partment. DoD IG performs audits, investiga-
                                    technology and health care fraud.                    tions and inspections to support the Depart-
                                                                                         ment’s goals to:

  4 SEMIANNUAL REPORT TO THE CONGRESS
•	
•	
     Prevail in today’s wars.
     Prevent and deter conflict.
                                                     Audits                                                      “We identified that the
                                                     •	   We identified that DoD plans to spend more             Army's cost-reimburs-
•	   Prepare to defeat adversaries and succeed in
                                                          than $15 billion to develop and implement               able services contract
     a wide range of contingencies.
                                                          Enterprise Resource Planning systems.                  for logistics support of
•	   Preserve and enhance the all-volunteer
                                                          Schedule delays and cost increases for the             Stryker vehicles lacked
     force.
                                                          systems resulted in DoD continuing to use
•	   Reform the business and support functions
                                                          outdated legacy systems and diminishing
                                                                                                                  adequate cost-control
     of the defense enterprise.                                                                                   metrics and a tangible
                                                          the estimated savings associated with trans-
                                                          forming business operation through busi-                           deliverable.”
We performed audits, inspections and assess-
                                                          ness system modernization efforts. In addi-
ments of key programs and operations. We also
                                                          tion, the impact of schedule delays increases
consulted on a variety of Department initiatives
                                                          the risk that DoD will not achieve an audit-
and issues. DoD IG is focusing work efforts on
                                                          able Statement of Budgetary Resources by
preventing and detecting fraud, waste and abuse
                                                          FY 2014 or accomplish its goal of full finan-
and improving efficiency and effectiveness in
                                                          cial statement audit readiness by FY 2017.
critical areas for the Department such as:
                                                          Report No. DODIG-2012-111
•	 Acquisition processes and contract
                                                     •	   We identified that the Army's cost-reim-
     management.
                                                          bursable services contract for logistics sup-
•	 Financial management.
                                                          port of Stryker vehicles lacked adequate
•	 Joint warfighting and readiness.
                                                          cost-control metrics and a tangible deliv-
•	 Information assurance, security and privacy.
                                                          erable. The contractor was authorized to
•	 Health care.
                                                          spend about $1.4 billion, but DoD IG cal-
•	 Equipping and training Iraqi and Afghan
                                                          culated the operational support costs for
     Security Forces.
                                                          Stryker vehicles at about $1.1 billion for
•	 Nuclear enterprise.
                                                          five years, resulting in about $335.9 mil-            DoD IG reviewed the Army's contract for
                                                          lion that the contractor used to accumulate           logistics support of Stryker vehicles.
Our investigations resulted in criminal, civil and
                                                          inventory that could have been put to bet-
administrative actions. We report on the follow-
                                                          ter use. As a result of the audit, the project
ing investigative priorities for crimes impacting
                                                          manager for Stryker Brigade Combat Team
the Department:
                                                          identified $152.4 million in excess inven-
•	 Procurement fraud.
                                                          tory that will be used to reduce program
•	 Public corruption.
                                                          year 2011 and 2012 contract requirements.
•	 Product substitution.
                                                          Report No. DODIG-2012-102
•	 Health care fraud.
                                                     •	   We identified improvements in the pharma-
•	 Technology protection.
                                                          ceutical distribution process for procure-
                                                          ment, delivery and inventory control for
Core Mission Areas                                        pharmaceuticals at Afghan National Army
                                                          medical facilities and depots; however, ad-
We issued 79 reports identifying $2.8 billion in
                                                          ditional improvements were needed. We
potential monetary benefits. We achieved $59.7
                                                          noted that not all facilities reviewed main-
million in financial savings based on manage-
                                                          tain pharmaceutical accountability controls
ment completed corrective actions to reports is-
                                                          and did not properly use or complete all
sued this year and in previous reporting periods.
                                                          required forms. We determined that ANA
                                                          officials in coordination with Combined
In addition, DCIS investigations were the basis
                                                          Security Transition Command-Afghanistan
for 72 arrests, 179 criminal charges, 167 crimi-
                                                          did not effectively communicate or train all
nal convictions, 37 suspensions and 136 debar-
                                                          ANA personnel, nor develop procedures
ments, as well as $3.3 billion returned to the
                                                          instructing personnel how to implement
government.
                                                          logistics guidance and how to collect and
                                                          accurately report on pharmaceutical us-


                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 5
Executive Summary



                                         age data. Additionally, contractors were               short-barreled rifles, fully automatic weap-
                                         not delivering all of the pharmaceuticals              ons, armored helicopters and armored per-
                                         in accordance with contract requirements.              sonnel carriers. Academi also faced allega-
                                         ANA was at an increased risk because us-               tions of violations of the Foreign Corrupt
                                         age data cannot be relied upon to develop              Practices Act for activity in both Iraq and
                                         requirements and mismanagement, theft                  Sudan, to include unlicensed training of
                                         and waste of U.S. funded pharmaceuticals.              foreign nationals and firearms violations.
                                         Report No. DODIG-2012-083                              Seventeen criminal charges were brought
                                                                                                against the company. On Aug. 7, 2012, a
                                                                                                bill of information and a deferred prosecu-
                                    Investigations                                              tion agreement were unsealed. In the DPA,
                                    •	   We investigated allegations that computer              the company admitted to certain facts set
                                         consulting firm Accenture LLP accepted                 forth in the bill of information and agreed
                                         improper payments amounting to kickbacks               to a $7.5 million fine. The agreement also
                                         from hardware and software vendors and                 acknowledged and referenced a $42 million
                                         other alliance partners in exchange for Ac-            settlement between the company and the
                                         centure’s recommendation of these vendors’             Department of State to settle allegations of
                                         products to government end users. Five                 violations of the Arms Export Control Act
                                         other computer-consulting firms previously             and the International Trafficking in Arms
                                         settled similar allegations with the govern-           Regulations.
                                         ment and on June 12, 2012, Accenture was
                                         ordered to pay the two relators $14 million
                                         of the total $63 million Accenture payment        Inspections
                                         to settle the fraud allegations.                  •	   We inspected U.S.-controlled and occupied
“...pharmaceutical                  •	   We investigated GlaxoSmithKline, Inc. and              facilities in Afghanistan for compliance
                                         determined that the pharmaceutical com-                with electrical and fire protection standards.
company unlawfully
                                         pany unlawfully promoted certain prescrip-             To date, more than 1,000 findings concern-
promoted certain pre-                    tion drugs, failed to report certain safety            ing electrical and fire protection issues have
scription drugs, failed                  data and reported false prices. GSK illegally          been identified; those posing significant or
to report certain safety                 sold pharmaceuticals for the treatment of              life threatening issues have been designated
data and reported false                  diseases and ailments not indicated or ap-             for immediate corrective action.
                                         proved by the Food and Drug Administra-           •	   We assessed U.S. and coalition efforts to
prices. ”
                                         tion. In addition, GSK employees persuad-              train, equip and field the Afghan Air Force.
                                         ed certain physicians, by payments and/or              In 2005, U.S. and coalition forces began
                                         gifts, to encourage other physicians to pre-           fielding air advisors and rebuilding the AAF,
                                         scribe the GSK pharmaceuticals for both                which was virtually destroyed by the end of
                                         on-label and off-label use. On July 2, 2012,           the Soviet and civil wars. As of February
                                         the Department of Justice entered into a civ-          2012, the AAF was comprised of more than
                                         il settlement with GSK for approximately $2            5,300 personnel and 88 aircraft, including
                                         billion. On July 5, 2012, GSK pleaded guilty           the G-222 fixed-wing aircraft and the Mi-17
                                         to two counts of introducing a misbranded              helicopter. By 2016, the AAF is expected to
                                         drug into interstate commerce and one                  grow to more than 8,000 personnel and 145
                                         count of failure to report safety data. The re-        aircraft. Currently, coalition military per-
                                         sulting criminal plea agreement totaled an             sonnel, predominantly from the Air Force,
                                         additional $1 billion.                                 but also including air advisors from 16 part-
                                    •	   We investigated Academi, LLC, formerly                 ner nations, are training and mentoring the
                                         known as Blackwater Worldwide, for allega-             AAF.
                                         tions of violating export laws and the Inter-     •	   In February 2012, DoD IG initiated the
                                         national Emergency Economic Powers Act.                F-35 AS9100 Quality Management System
                                         The alleged violations were of requirements            assessment to review conformity to speci-
                                         involving the manufacture and shipment of              fied quality management system(s), con-

  6 SEMIANNUAL REPORT TO THE CONGRESS
     tractual quality clauses, and internal quality
     processes and procedures for the F-35 Joint
                                                      Congressional
     Strike Fighter. As of September 2012, more       Testimony & Briefings
     than 190 findings were identified and four       During the reporting period, DoD IG leaders
     notices of concern sent to the F-35 Program      testified seven times before Congress on sub-
     Office. All findings were accepted and will      jects including comprehensive contingency
     be addressed and implemented to the maxi-        contracting; oversight of the transition from a
     mum practicable extent.                          military-led to a civilian-led mission in Iraq; and
                                                      oversight regarding the Federal Voting Assis-              DoD IG reviewed the F-35 quality

Administrative
                                                                                                                 management system.
                                                      tance Program. DoD IG received 150 new con-
                                                      gressional inquiries and closed 140 cases. New
Investigations                                        inquiries involved requests related to reprisal in-
•	   In FY 2012, DoD IG focused on transform-         vestigations; concerns with testing standards for
     ing itself into a model administrative inves-    Army combat helmets; and concerns with the
     tigative agency by expeditiously responding      TRICARE mail order pharmacy program.
     to the Government Accountability Office

                                                      IG Highlights
     recommendations made in February 2012
     regarding the Whistleblower Protection
     Program and the conduct of reprisal inves-
                                                                                                               IG Highlights
     tigations; implementing initiatives to reduce
     investigative cycle time; and incorporating
                                                      Afghanistan
     performance metrics into a new, state-of-
     the-art complaint database management            Background
     system.                                          DoD continues to face many challenges in ex-
•	   The Department substantiated 22 of 137 (16       ecuting its overseas contingency operations.
     percent) investigations of whistleblower re-     DoD IG provides effective oversight based on
     prisal; and 20 of 33 (61 percent) investiga-     those challenges and high-risks. Operations in
     tions of improper mental health referrals/       Afghanistan are the primary emphasis area and
     restriction. There was one investigation in-     accordingly, the majority of DoD IG focus in
     volving improper restriction from contact-       Southwest Asia supports operations in Afghani-
     ing an IG or member of Congress, and it          stan.
     was not substantiated.
•	   The Department substantiated 83 of 321           The Afghan National Security Forces are a criti-
     (26 percent) investigations of senior official   cal pillar for establishing security and stability
     misconduct.                                      in Afghanistan. Following the removal of the
                                                      Taliban from power in 2002, DoD and coalition
                                                      members have focused on establishing an effec-
                                                      tive and capable ANSF. The long-term goal was
Enabling Mission Areas                                to build and develop ANSF that were nation-
                                                      ally respected; professional; ethnically balanced;
                                                      democratically accountable; organized, trained
DoD Hotline                                           and equipped to meet the security needs of the
The DoD Hotline received 12,201 contacts from         country; and increasingly funded from govern-
the public and members of the DoD community:          ment of Afghanistan revenue.
7 percent by mail, 12 percent from the Internet,
29 percent by email and 52 percent by telephone.      In 2003, DoD IG commenced oversight of Af-
Based on these contacts, the hotline opened           ghanistan related efforts starting with coalition
1,930 cases. The hotline also closed 1,169 cases      support funds. Since 2005, DoD IG continuously
this reporting period.                                emphasized effective oversight on equipping and
                                                      training the Afghan National Security Forces;
                                                      first focusing on tools to conduct periodic as-

                                                                                                            APRIL 1, 2012 TO SEPTEMBER 30, 2012 7
IG Highlights



                                    sessments of the capability and readiness of the          and surcharges assessed on ASF fund or-
                                    Afghanistan Ministry of Defense and the Afghan            ders.
                                    National Army. In 2006 and subsequent years,         •	   Need for improved vocational training ef-
                                    DoD IG issued several joint reports on training           forts to develop maintenance capabilities.
                                    and equipping the Afghanistan National Police        •	   Need for better accountability for night vi-
                                    and deployed investigators on a rotational basis          sion devices.
                                    to Afghanistan focusing on procurement fraud         •	   Lack of clearly defined police training con-
                                    and cases of corruption of U.S. and Afghan con-           tract requirements not clearly defined.
DoD IG found cost overruns and      tractors, service members and other public of-       •	   Electrical and fire protection standards in
schedule delays for ANSF Mi-17s.    ficials. DoD IG also reviewed efforts to build the        U.S.-occupied facilities.
                                    ANSF logistics and medical capabilities; medical     •	   Lack of DoD Combating Trafficking in Per-
                                    care provided at Afghan hospitals; contracting            sons program.
                                    processes; developing equipment requirements;        •	   Development of the Afghan Air Force.
                                    management of the goods and materiel; as well        •	   Development of the Afghan local police.
                                    as the use of funds designated to support train-     •	   Need for improved contract administration
                                    ing and equipping the ANSF. Oversight on ma-              of small arms procured.
                                    teriel designated for the ANSF have included the     •	   Need for improved development of individ-
                                    administration and oversight of contracts for             ual equipment requirements.
                                    items such as rotary wing aircraft, airplanes, am-   •	   Contract oversight that could have pre-
                                    munition, radios and night vision devices.                vented deficiencies in critical construction
                                                                                              project.
                                    Other DoD IG oversight related to Afghanistan        •	   Need for improved training and guidance
                                    includes quality and safety of military construc-         for pharmaceutical distribution.
                                    tion projects; accountability of property, such as   •	   Planning and execution challenges in devel-
                                    contractor managed government owned proper-               oping and training afghan local police.
                                    ty and Army high demand items; care transition
                                    process of service members wounded in Afghan-        Additional Afghanistan-related reports issued
                                    istan; and safety equipment for military mem-        this period addressed needs to improve controls
                                    bers and personnel including body armor and          of Commander’s Emergency Response Program
                                    armored vehicles. In addition, Afghanistan re-       funds provided to U.S. Agency for International
                                    lated oversight also included controls over cash;    Development and deficiencies in contract over-
                                    controls and accountability for arms, ammuni-        sight for a construction project.
                                    tion and explosives; controls over use of obliga-
                                    tion and disbursement of Afghanistan Security        DCIS continues its predominantly procurement
                                    Forces Funds; accounting for real property; Lo-      fraud and corruption related investigative efforts
                                    gistics Civil Augmentation Program transition;       in support of operations in Southwest Asia and
                                    medical billings for contractors; depot and spare    Afghanistan. DCIS work has resulted in incar-
                                    parts supporting operations. Among the areas of      ceration and fines, forfeitures and restitution, as
                                    the investigative emphasis, DCIS primarily fo-       well as suspensions and debarments from doing
                                    cuses on bribery, procurement fraud, bid rigging     business with the U.S. government. As of Sept.
                                    and theft of resources.                              30, 2012, DCIS had 121 open investigations
                                                                                         related to operations in Afghanistan and had
                                    Recent Activities                                    134 closed investigations. One recent case, run
                                    During this period, Afghanistan related over-        jointly with the Army Criminal Investigation
                                    sight remains focused on ANSF matters as well        Command, Air Force Office of Special Investi-
                                    as investigating alleged fraud and corruption.       gations and the Special Inspector General for
                                    ANSF related reports issued this period address      Afghanistan Reconstruction addressed military
                                    the following challenges:                            personnel receiving bribes from DoD contrac-
                                    •	 Significant cost overruns and schedule de-        tors in exchange for fraudulently verifying the
                                         lays for Mi-17.                                 receipt of concrete bunkers and barriers. This
                                    •	 Need for improved cost accounting for fees        case has resulted in nine of 18 defendants being

  8 SEMIANNUAL REPORT TO THE CONGRESS
sentenced so far, with total time of incarceration    efforts and takes into consideration:
of 155 months and more than $1.5 million in           •	 U.S. and   Afghan government's strategic
fines, forfeitures and restitution.                        goals, objectives, initiatives and priorities
                                                           related to reconstruction.
Other notable Afghanistan related activities dur-     •	 The amount of funding requested, appropri-
ing this reporting period include the issuance of          ated, obligated, and spent in various recon-
the FY 2013 Comprehensive Oversight Plan for               struction sectors and programs.
Southwest Asia DoD IG and the Joint Strategic         •	 Congressional and other stakeholder con-
Oversight Plan for Afghanistan Reconstruction.             cerns about reconstruction efforts.
                                                      •	 The risks DoD IG foresees in the next FY
In September 2012, the Southwest Asia Joint                related to Afghanistan’s reconstruction.
Planning Group, led by DoD IG, issued the FY
2013 Comprehensive Oversight Plan for South-          The plan identifies 13 strategic issues and de-
west Asia. The FY 2013 COPSWA incorporates            scribes focus areas within each of these issues
the planned and ongoing oversight by the in-          to guide the development of audits, inspections,
spectors general of DoD, Department of State          and evaluations that will provide oversight for
and USAID; the Special Inspectors General for         the major reconstruction programs in the com-
Iraq and Afghanistan Reconstruction; the Army         ing fiscal year.
Audit Agency; Navy Audit Service; and Air
Force Audit Agency. Additionally, the FY 2013         Through this plan, the oversight community will
update describes GAO’s ongoing oversight ef-          be able to conduct comprehensive oversight of
forts related to Southwest Asia.                      the reconstruction effort. This plan enables the
                                                      oversight community to better leverage its col-
With Afghanistan as the primary area of empha-        lective resources and capabilities to cover issues
sis, the FY 2013 COPSWA is divided into two           most critical to Afghanistan reconstruction and
sections. The first section pertains to oversight     to provide Congress, U.S. implementing agen-
projects that focus on operations in Afghanistan.     cies and the American people with more focused
The second section of the COPSWA pertains to          assessments to improve the efficiency and effec-
oversight projects that focus on operations in        tiveness of critical reconstruction programs and
other areas of Southwest Asia. To better show the     to mitigate fraud, waste and abuse.
strategic areas of concentration by the collective
oversight agencies, DoD IG categorized the on-        Way Forward
going and planned projects in the COPSWA by           In FY 2013, DoD IG focus in Afghanistan will
the identified strategic issues listed in the Joint   continue to be the management and execution
Strategic Oversight Plan for Afghanistan Recon-       of safety of personnel, the Afghanistan Security
struction.                                            Forces Fund, military construction and the ad-
                                                      ministration and oversight of contracts support-
In July 2012, the Joint Strategic Planning Sub-       ing coalition forces. In addition, DoD IG over-
group for Oversight of Afghanistan Recon-             sight in Afghanistan will also address matters
struction, a subgroup of the Southwest Asia           pertaining to the drawdown of forces in Afghan-            DoD IG is focused on oversight in
Joint Planning Group, issued the Joint Strategic      istan and shifting of operations. The eventual
                                                                                                                 Afghanistan.
Oversight Plan for Afghanistan Reconstruction,        drawdown of forces in Afghanistan will present
the first comprehensive Afghanistan-related           unique challenges for conducting effective inves-
oversight plan issued. Overall, the Joint Strate-     tigations into fraud and theft. To address those
gic Oversight Plan for Afghanistan identifies 22      challenges, in the coming months, DoD IG is
strategic issues, of which 13 address reconstruc-     meeting with military officials in Afghanistan,
tion issues. Since 2002, Offices of Inspectors        Kuwait and Qatar to discuss the military’s exit
General, GAO and DoD service audit agencies           strategy and remaining footprint in theater to
have issued 202 reports on audits, inspections        ensure that effective critical oversight remains in
and evaluations of Afghanistan reconstruction         place as the mission evolves.
efforts. This oversight plan builds on these past

                                                                                                            APRIL 1, 2012 TO SEPTEMBER 30, 2012 9
IG Highlights



                                     Warrior Care                                           determine the number and type of medical staff
                                                                                            needed in Guam to ensure that the increased
                                                                                            number of beneficiaries have adequate access to
                                     Background                                             health care. The audit revealed that Navy Medi-
                                     Taking care of military personnel is a priority        cine West did not adequately identify and assess
                                     of the 2010 Quadrennial Defense Review and             the risks associated with not expanding specialty
                                     is a priority for DoD IG. Of special concern is        care in Guam, for example neurology, neona-
                                     the proper care and support to the tens of thou-       tal intensive care unit and gastroenterology, al-
  DoD IG assessed medical care for
                                     sands of soldiers, sailors, airmen and Marines,        though the beneficiary population was projected
  wounded warriors.                  wounded during combat actions in Operations            to increase from 14,195 in FY 2005 to 37,467 by
                                     Iraqi and Enduring Freedom. In addition to             FY 2020. Further, Navy Medicine West assumed
                                     providing health care for active duty personnel,       the aeromedical evacuation system that moved
                                     managing the overall health of 9.7 million eli-        374 patients out of Guam in FY 2010 could
                                     gible beneficiaries is a continuing challenge for      handle the increased requirements resulting
                                     the Military Health System. The DoD budget for         from the Guam realignment without coordinat-
                                     health care costs in FY 2012 was approximately         ing with the Air Force. DCIS investigations have
                                     $53 billion, an increase of about 74 percent from      resulted in jail time for health care providers
                                     FY 2005, and up from $19 billion in FY 2001.           who do not provide adequate care, and in one
                                     Accomplishing this health care priority during         case, diverted funds designated for programs
                                     a time of contingency operations and looming           related to wounded warrior care. In 2012, Abi-
                                     fiscal austerity will be a challenge. In this envi-    gail John plead guilty to federal program fraud
                                     ronment, it is critical for DoD IG to maintain         and embezzlement. John was a bookkeeper for
                                     vigorous oversight of the health care challenges       the Louisiana Veterans Research and Education
                                     facing the Department by focusing on fraud,            Corporation, a non-profit corporation operating
                                     waste and abuse; containing costs; and improv-         in New Orleans, which had a contract with the
                                     ing programs affecting the health and safety of        Army to study the neuropsychological effects of
                                     service members and employees.                         military deployment in military troops. Louisi-
                                                                                            ana Veterans Research and Education Corpo-
                                     Recent Activities                                      ration received more than $2 million from the
                                     Medical care required by military personnel is         Army for research. John admitted that, in a four
                                     expected to increase in the next several years,        year period, she stole more than $1 million of
                                     especially in the areas of rehabilitation and tran-    federal funds programmed for long term psy-
                                     sition care. It is critical for DoD IG to maintain     chological studies of deployed veterans.
                                     oversight to ensure that wounded warriors re-
                                     ceive the high-quality health care they deserve.       Way Forward
                                     To this end, DoD IG conducted an assessment            DoD IG will continue to focus oversight and in-
                                     at the Wounded Warrior Marine Battalions at            vestigative resources on the critical area of pro-
                                     Camp Pendleton, Calif. The report highlighted          viding health care for service members and their
                                     a number of significant challenges, including          families. The challenge will remain significant
                                     lengthy transition times (average: 24 months);         for service members return from deployments
                                     lack of dedicated primary medical care manage-         with physical and psychological health issues,
                                     ment for warriors; lack of sufficient support for      to include traumatic brain injuries. The Depart-
                                     warriors, family members and support persons;          ment will also continue to address the psycho-
                                     lack of adequate computer system interfaces            logical effects of deployment on family. Another
                                     used to track warrior recovery and transition          DoD IG concern is contractor medical person-
                                     progress; travel challenges for warriors at Twen-      nel being properly licensed and credentialed
                                     tynine Palms; and ineligibility to transfer unused     as it is the key to ensuring appropriate care for
                                     post 9/11 G.I. Bill benefits. In the second of a se-   wounded warriors. This includes contracts for
                                     ries of reports relating to the realignment of ser-    the actual care of military personnel, as well as
                                     vice members and their families to Guam, DoD           contracts for research in the general field of mili-
                                     IG audited the methodology and plan used to            tary medicine.

  10 SEMIANNUAL REPORT TO THE CONGRESS
                     2


Core Mission Areas
               Core Mission Areas



                                                                 The following are highlights of DoD IG audit         performed, thus leaving the Department vulner-

               Audits                                            work during the reporting period. DoD IG con-
                                                                 ducted audits in the following categories:
                                                                                                                      able to increased fraud, waste, abuse and misuse
                                                                                                                      of taxpayer monies. During this reporting peri-
                                                                 •	 Acquisition processes and contract manage-        od, DoD IG issued reports addressing contract-
                                                                     ment.                                            ing weaknesses, to include:
                                                                 •	 Financial management.                             •	 Contingency contracting.
                                                                 •	 Joint warfighting and readiness.                  •	 Inadequate review of contractor invoices for
                                                                 •	 Information assurance, security and pri-               accuracy and appropriateness.
                                                                     vacy.                                            •	 Inappropriate use of funds on contracts.
                                                                 •	 Health care.                                      •	 Insufficient oversight of contractor perfor-
                                                                 •	 Equipping and training Iraqi and Afghan                mance to ensure contractors met contract
                                                                     security forces.                                      requirements.
                                                                 •	 Nuclear enterprise.                               •	 Inadequate requirements definition devel-
                                                                                                                           opment jeopardizing whether the end prod-
                                                                                                                           uct would meet user needs.
                                                                 Acquisition Processes &
                                                                 Contract Management                                  DoD IG oversight of DoD performance-based
                                                                                                                      logistics contracting efforts continued to identi-
                                                                 The Department continues its reform agenda
                                                                 with more emphasis being placed on enhanc-           fy issues concerning the reasonableness of spare
                                                                 ing how DoD does business, reducing the “cost        parts pricing and management of inventory.
                                                                 of doing business” and implementing changes
                                                                 in practices that result in improved business        Contingency Contracting: A Framework for
                                                                 practices. The Department is alert to these ef-      Reform – 2012 Update
                                                                 ficiencies at a time of greater fiscal uncertainty   Overview: DoD IG issued an update to DODIG
                                                                 while striving to preserve the force structure and   Report No. D-2010-059, “Contingency Con-
                                                                 meet modernization needs. The Department has         tracting: A Framework for Reform,” May 14,
                   United States Department of Defense           emphasized its commitment to improving effi-         2010. The 2012 update provided DoD field
                   Office of Inspector General
                                                                 ciency through the Better Buying Power initia-       commanders and contract managers with in-
                                                                 tive, which it continues to refine and build upon    formation on contracting problems related to
                                                                 to reduce costs and provide the highest possible     contingency operations that DoD IG identified
                      Contingency Contracting:                                                                        and reported from April 2, 2010, through March
                      A Framework for Reform                     value to the warfighter and the taxpayer.
                           2012 Update                                                                                31, 2012. In this report, DoD IG discussed cur-
DEFENSE

ne                                                               The Department continues to experience ineffi-       rent contingency contracting problems and re-
                                                                                                                      emphasized the ongoing problems identified in
312-664-1151    Report No. DODIG-2012-134   September 18, 2012

                                                                 ciencies and wasteful use of funds in its acquisi-
                                                                 tion and contracting efforts. The continuing con-    the 2010 contingency contracting report. Since
                                                                 tracting challenges for the Department include       issuing that report, DoD IG personnel issued
                                                                 obtaining adequate competition in contracting,       38 reports and were involved with 20 fraud in-
                                                                 defining contract requirements, overseeing con-      vestigations pertaining to overseas contingency
                                                                 tract performance, obtaining fair and reasonable     operations. These reports and investigations
                                                                 prices and maintaining contract documentation        identified a variety of problems relating to DoD
                                                                 for contract payments.                               officials not properly awarding, administering or
                                                                                                                      managing contingency contracts in accordance
               “The Department                                   The Department faces several challenges when it      with federal and DoD policies.
                                                                 comes to contract oversight and administration.      Findings: DoD IG identified nine systemic con-
               has emphasized
                                                                 DoD IG audits continue to identify that with-        tracting problem areas relating to contingency
               its commitment to                                                                                      operations. The five most prevalent problem ar-
               improving efficiency                              out proper oversight, the Department cannot be
                                                                 certain that contractors are performing in accor-    eas reported were:
               through the Better Buying                         dance with contract requirements, cannot sup-        •	 Oversight and surveillance.
               Power initiative ...”                             port payments of award or incentive fees, cannot     •	 Financial management.
                                                                 support the certification of invoices for services   •	 Contract pricing.
                                                                 performed and cannot ensure that services are        •	 Requirements.

                12 SEMIANNUAL REPORT TO THE CONGRESS
•	 Property accountability.                         due to changes in initial assumptions and failed
Additionally, the 20 fraud investigations focused   to use the USACE costs when DoDEA officials
on three contracting areas: source selection,       received the costs after the DoDEA deadline. As
oversight and surveillance, and financial man-      a result, DoDEA officials reduced the USACE
agement.                                            project costs on the DoD form 1391 for the FY
Result: The DoD IG reports contained 311 rec-       2012 military construction projects in Europe by
ommendations addressing nine systemic con-          $15.3 million. DoDEA was at risk for not hav-
tracting problem areas. As of Aug. 21, 2012,        ing enough funding to complete the projects to
263 audit report recommendations were closed        DoDEA facility standards. Further, the director,
while the remaining 48 recommendations are          DoDEA, changed school requirements but did
still open. For the five most prevalent problem     not complete a business case analysis or pre-
areas, DoD IG personnel recommended DoD:            pare a cost estimate as required for new initia-
•	 Develop quality assurance surveillance           tives by secretary of defense guidance. This oc-
      plans and properly designate contracting      curred because the director, DoDEA, incorrectly
      officer’s representatives.                    determined that the process to develop the 21st
•	 Review all invoices and reconcile the ser-       century specifications was sufficient to fulfill the
      vices and products received.                  business case analysis requirement and incor-
•	 Properly determine fair and reasonable           rectly decided that cost estimates prepared for
      prices.                                       individual military construction projects met
•	 Properly define and compete all require-         the secretary of defense guidance. As a result,
      ments.                                        DoDEA officials did not know the full impact on
•	 Establish records and maintain accountabil-      a school building’s size or cost for incorporating
      ity for government property.                  21st century education facilities into the FY 2012
Report No. DODIG-2012-134                           military construction projects.
                                                    Result: Among other recommendations, DoD
DoD Education Activity Needed Better Planning       IG recommended:
for Military Construction Projects                  •	 The principal deputy undersecretary of
Overview: In FY 2010, DoD Education Activ-               defense for personnel and readiness re-
ity began a major facilities renovation and con-         quire responsible DoDEA officials to use
struction initiative, valued at $3.7 billion. DoD        the construction agents’ costs for develop-
IG reviewed the DoDEA requirements process               ing construction requirements or provide
for military construction projects in Europe,            documented and approved rationales and
specifically whether military construction re-           methodologies for deviating from policy.
quirements for DoD Dependents’ Schools-Eu-          •	 The director, DoDEA, complete a business                 DoD IG reviewed DoDEA military
rope projects were accurate and reliable, and            case analysis, to include developing cost es-          construction requirements in Europe.
whether they met DoDEA standards. The DoD                timates to build a 21st Century Education
IG review included the FY 2012 planned proj-             Facility Specifications school.
ects in Europe, which included six schools and a    Report No. DODIG-2012-136
programmed budget of $248.5 million.
Findings: DoDEA officials could not support         Improved Oversight, Lack of Invoice Reviews
the accuracy and reliability of the costs of the    and Potential Antideficiency Act Violation
requirements for the six FY 2012 projects in        May Have Occurred on the Kuwait Observer
Europe. Specifically, DoDEA officials did not       Controller Team Task Orders
consistently use the costs provided by the U.S.     Overview: This is the third in a series of audits on
Army Corps of Engineers, as required by DoD         the Warfighter Field Operations and Customer
guidance. This occurred because DoDEA of-           Support contract. DoD IG determined whether
ficials disagreed with the methodology USACE        the Army Program Executive Office for Simula-
used to develop the unit costs. However, the        tion, Training and Instrumentation obtained fair
methodology DoDEA used did not result in the        and reasonable prices and appropriately devel-
unit costs submitted to Congress. Additionally,     oped surveillance and oversight processes and
they altered USACE supporting facilities’ costs     procedures for the Kuwait Observer Controller

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 13
Core Mission Areas



                                           Team task orders, valued at $195.2 million.          into an agreement with the contractor to lease
                                           Findings: Army PEO for Simulation, Training          office space for GFEBS program personnel. The
                                           and Instrumentation officials did not review         GFEBS contracting officer approved the addi-
                                           contractor interim invoices, totaling $192.7 mil-    tion of the leased space to the GFEBS contract
                                           lion, for the task orders, because the contracting   without first making sure that PEO Enterprise
                                           officer used a quality assurance surveillance plan   Information Systems personnel met all legal
                                           that did not include procedures for reviewing        requirements. As a result, PEO Enterprise In-
                                           contractor invoices. Additionally, Defense Con-      formation Systems personnel circumvented
“...personnel                              tract Audit Agency auditors did not audit the        congressional and DoD oversight processes for
                                           costs claimed on the invoices as DCAA had not        leased office space, resulting in $23.6 million in
circumvented                               audited the contractor since 2005. Army PEO          improper payments. In addition, the govern-
congressional and DoD                      for Simulation, Training and Instrumentation         ment potentially lost approximately $0.5 million
oversight processes                        personnel reimbursed the contractor for approx-      in interest when the GFEBS contracting officer’s
for leased office                          imately $70,000 in questioned direct travel costs.   representative authorized payments of the lease
space, resulting in the                    Additionally, the contracting officer potentially    in advance. In addition, GFEBS personnel inap-
                                           violated the Antideficiency Act by obligating        propriately authorized $5.5 million in annual
authorization of $23.6                     Iraq Security Forces funds on the Kuwait Ob-         operation and maintenance funds for lease pay-
million in improper                        server Controller Team task order because the        ments for the office. Further, PEO Enterprise
payments.”                                 contracting officer did not verify the purpose of    Information Systems personnel violated Section
                                           the funding before obligating those funds to the     2353 “Contracts: Acquisition, Construction, or
                                           task order.                                          Furnishing of Test Facilities and Equipment,”
                                           Result: DoD IG recommended the principal as-         Title 10, United States Code, when they used at
                                           sistant responsible for contracting, Army PEO        least $4.7 million in research, development, test
                                           for Simulation, Training and Instrumentation,        and evaluation funds for building modifications
                                           have the contracting officer review claimed air-     to the office space. As a result of inappropriately
                                           fare costs to determine whether the costs are al-    authorizing operation and maintenance funds
                                           lowable and update the Kuwait Observer Con-          and using funding for purposes other than those
                                           troller Team quality assurance surveillance plan     authorized, GFEBS and PEO Enterprise Infor-
                                           to require program and in-country oversight          mation Systems personnel may have violated the
                                           personnel to review prime and subcontractor          Antideficiency Act.
                                           interim invoices to verify that costs claimed are    Result: DoD IG recommended the Army Ac-
                                           necessary and reasonable. Additionally, the resi-    quisition and Logistics officials coordinate with
                                           dent auditor, Raytheon Network Centric System        their general counsel and DoD general counsel
                                           Resident Office, DCAA, should develop and            to determine the legal effects of the inappropri-
                                           implement procedures to verify that the Army         ate lease and whether any additional potential
                                           does not reimburse the contractor for potentially    ADA violations have occurred. PEO Enterprise
                                           unallowable costs.                                   Information Systems officials should obtain rati-
                                           Report No. DODIG-2012-115                            fication of the contract by the General Services
                                                                                                Administration. If not ratified, the secretary of
                                           Inappropriate Leasing for the General Fund           the Army should take appropriate action to re-
                                           Enterprise Business System Office Space              solve the improper payments. Army contract-
                                           Overview: DoD IG performed this audit to de-         ing executives should require that contracting
                                           termine whether the Army properly modified           officers maintain documentation authorizing
                                           the General Fund Enterprise Business System          the lease before awarding DoD contracts for the
                                           contract to include funding for leased space         leasing of office space. Army comptroller offi-
                                           for the GFEBS project office and appropriately       cials should report and initiate a review of the
                                           funded the modifications.                            potential ADA violations. Army management
DoD IG reviewed the GFEBS contract to      Finding: The Army inappropriately modi-              agreed with the recommendations.
include funding for leased office space.   fied the GFEBS contract to obtain and mod-           Report No. DODIG-2012-125
                                           ify leased space for an office. Specifically, the
                                           GFEBS contracting officer improperly entered

 14 SEMIANNUAL REPORT TO THE CONGRESS
Project Planning Resulted in Outstanding             building deficiencies and initiate appropriate
Building       Deficiencies    and      Decreased    actions to correct the deficiencies. Additionally,
Functionality of the Main Fire Station at Naval      DoD IG recommended that the commander,
Station Great Lakes                                  Navy Region Midwest, and commanding officer,
Overview: DoD IG initiated this audit in             Naval Facilities Engineering Command Midwest,
response to allegations to the DoD Hotline and       review the actions of personnel involved in
determined whether Project RM-005-07, “Repair        preparing and reviewing project documentation,
Fire Station Building 106,” at Naval Station Great   determine who did not exercise due diligence in
Lakes was adequately justified and properly          planning a project to correct existing fire station        DoD IG reviewed the fire station at Naval
planned. DoD IG also examined whether the            problems and take appropriate administrative               Station Great Lakes.

fire station renovation design incorporated the      actions. Management was responsive to DoD
appropriate criteria; whether replacing the fire     IG-recommended corrective actions.
station would have been more economical than         Report No. DODIG-2012-132
the renovation project; and whether the Navy
would incur additional costs for basic items not     Better Cost-Control Measures Needed on the
included in the renovation.                          Army’s Cost-Reimbursable Services Contract
Findings: Facility improvements to the main          for Logistics Support of Stryker Vehicles
fire station at Naval Station Great Lakes were       Overview: DoD IG evaluated the effectiveness
justified; however, after the renovation, fire       of the contractor logistics support strategy
station personnel were still subject to potential    for the Stryker family of vehicles. The Project
health and safety risks, and emergency response      Management Office for Stryker Brigade Combat
times were worse because of the reduced              Team entered into the contract with a singular
functionality of the fire station. The Navy          focus to achieve an operational readiness rate             DoD IG evaluated the contract for
incorrectly estimated that a renovation project      goal of 90 percent and actually achieved an                logistics support of Stryker vehicles.

was the most economical method to address            operational readiness rate in excess of 96 percent.
building deficiencies. Personnel from the Navy       Findings: PMO Stryker and the Army
Facilities Engineering Command Midwest and           Contracting Command-Warren contracting
Public Works Department, Naval Station Great         officer did not implement adequate cost-control
Lakes, did not properly plan efforts to rebuild      procedures on the cost-reimbursable services
or renovate the fire station. Officials included     contract valued at about $1.5 billion from March
inaccurate information to justify the renovation     2007 to February 2012 because they did not:
project, excluded several design requirements for    •	 Adequately define performance-based
fire stations and performed ineffective reviews           contract requirements in clear, specific
of planning documentation. Additionally,                  and objective terms with measurable
Great Lakes Public Works Department officials             outcomes. The contract included a metric
overstated the costs for building a new fire              for availability (90 percent operational
station, while DoD IG analysis showed that                readiness rate), but did not include essential
building a new fire station would have saved              metrics relating to cost-per-unit usage
approximately $6.2 million over the life of the           (for example, miles driven) and logistics
project. In addition, the renovation resulted in          footprint (that is, dollars in inventory).
changes to the fire station layout, which caused     •	 Establish the cost-reimbursable contract as
firefighters’ average emergency response time to          one of the basic contract forms: either the
increase by approximately 17 to 18 percent.               completion-form contract in which the
Result: Naval Facilities Engineering Command              contractor is required to deliver a specified,
Midwest officials initiated action to address             definitive end product or the term-form
deficiencies covered under the contractor’s               contract in which the contractor is required
warranty for the repair project; however, building        to provide a specified level of effort for a
deficiencies remain. DoD IG recommended that              stated period of time.
the regional fire chief, Navy Region Midwest,        •	 Establish an effective means to measure
and the Public Works Officer, Public Works                operational costs and ensure that the level
Department Great Lakes, identify existing                 of operational funding was tied to the actual

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 15
Core Mission Areas



                                               workload required to sustain the Stryker             sure that tactical wheeled vehicles received the
                                               vehicle, but instead, used estimates made            necessary repairs and maintenance. DoD IG re-
                                               years earlier.                                       viewed Army Field Support Battalion-Kuwait’s
                                         Consequently, the Stryker contractor logistics             oversight of the $848.91 million contract, task
                                         support contract had no tangible deliverable;              order with ITT Corporation.
                                         neither complied with nor met the intent of                Findings: The contractor did not effectively ex-
                                         DoD performance-based logistics guidance; and              ecute maintenance for tactical wheeled vehicles
                                         did not meet Federal Acquisition Regulation                in Kuwait. In response, DoD contracting per-
                                         requirements for a cost-reimbursable contract. In          sonnel issued 149 corrective action and contract
                                         addition, the Army had no means to measure the             discrepancy reports, show cause and cure no-
                                         efficiency of the contractor’s cost performance or         tices, and a partial termination for default. How-
                                         actual cost overruns or underruns in relation to           ever, the contractor’s performance still did not
                                         the fixed fee. Also, the sole focus on operational         meet contract requirements. Army Contracting
                                         readiness created an incentive for the contractor          Command-Rock Island used a contract type and
                                         to spend all available funds on Army inventory,            method that did not incentivize the contractor
                                         valued by the contractor at about $676.2 million,          to perform quality work. As a result, warfight-
                                         resulting in little if any, cost risk for the contractor   ers in Southwest Asia and their missions were at
                                         or incentive to control cost. The contractor was           risk. Further, the Army Prepositioned Stock-5
                                         authorized to spend about $1.4 billion on the              set may not be ready for timely issuance to the
                                         contract, but DoD IG calculated the operational            United States and its allies in response to contin-
                                         support costs for Stryker vehicles at about $1.1           gency operations. Direct theater support equip-
                                         billion for the first five years, resulting in about       ment was not always ready to meet deadlines in
                                         $335.9 million used to accumulate inventory that           support of contingency operations. In addition,
                                         could have been put to better use. As a result of          contractor personnel left Army Prepositioned
                                         the audit, PMO Stryker Brigade Combat Team                 Stock-5 and direct theater support equipment
                                         identified $152.4 million in excess inventory              exposed to theft and damage, which jeopardized
                                         that will be used to reduce program year 2011              Army Field Support Battalion-Kuwait person-
                                         (October 2011 to February 2012) and program                nel’s ability to issue that equipment as required.
                                         year 2012 (March 2012 to February 2013)                    DoD IG informed ACC-Rock Island of these
                                         contract requirements.                                     problems in October 2011, and in November
                                         Result: Management comments were responsive                2011, the executive deputy to the commanding
                                         to the recommendations, and management is                  general, Army Materiel Command, responded
                                         taking action to address cost-control measures,            and stated that ACC-Rock Island planned to
                                         contract-type and operational support funding              award a new contract by June 1, 2012. However,
                                         issues. PMO Stryker Brigade Combat Team is                 in February 2012, the procuring contracting offi-
                                         performing a business case analysis to determine           cer issued a modification exercising option year
                                         whether performance-based logistics is the                 two at $302 million. Additionally, Army Field
                                         appropriate strategy and cost-reimbursable is              Support Battalion-Kuwait personnel did not pro-
                                         the appropriate contract type to execute logistics         vide appropriate contract oversight to validate
                                         support of Stryker vehicles. Additionally, PMO             that repairs were needed and labor hours billed
                                         Stryker Brigade Combat Team will continue to               were accurate. Army Sustainment Command
                                         monitor operational support costs and consider             did not sufficiently staff Army Field Support
                                         currently available inventory to satisfy future            Battalion-Kuwait with experienced personnel
                                         requirements.                                              to oversee the contract. In addition, the quality
                                         Report No. DODIG-2012-102                                  assurance maintenance work plan did not re-
                                                                                                    quire Army Field Support Battalion-Kuwait per-
                                         Adequate Contract Support and Oversight                    sonnel to approve repairs before the contractor
                                         Needed for the Tactical Wheeled Vehicle                    could begin work or review contract labor hours
                                         Maintenance Mission in Kuwait                              billed. As a result, contractor personnel ordered
DoD IG reviewed contract oversight for   Overview: DoD IG determined whether DoD                    and installed almost four million repair parts
tactical wheeled vehicle maintenance.
                                         provided appropriate contract oversight to en-             and billed $160.8 million for maintenance labor


 16 SEMIANNUAL REPORT TO THE CONGRESS
hours worked and the Army did not have assur-        •	 DLA did not have an effective and consis-
ance that those costs were justified.                     tent oversight process to validate that prices
Result: DoD IG recommend that the com-                    paid for PACE awards at DLA Supply Cen-
mander, Army Sustainment Command, in coor-                ters were fair and reasonable and, as a result,
dination with the executive director, ACC-Rock            might not have obtained fair and reasonable
Island, amend the current contract to include             prices.
provisions that incentivize the contractor for ef-   •	 DLA programmed PACE to use a pricing
ficient and economical performance and award a            criterion, which was generally excessive, for
new contract before option year two ends. DoD             fully automated awards more than $3,000.
IG also recommended that the commander,                   DLA did not ensure that the 91,413 pro-
Army Sustainment Command, sufficiently staff              curements, totaling more than $1.3 billion,
Army Field Support Battalion-Kuwait to carry              were the best value in terms of cost to the
out their oversight mission, that the director,           government.
Defense Contract Management Agency-Kuwait            •	 In addition, DLA excluded priority 01 and
establish procedures that require oversight per-          selected priority 02 and 03 purchase re-
sonnel to approve maintenance before the con-             quests for non-stocked items from PACE
tractor begins work, and the executive director,          due to urgency of need, but processed the
ACC-Rock Island, ensure that contract labor               remaining priority 02 and 03 items through
hours billed are reviewed.                                PACE. DLA awarded 15,462 priority 02 and
Report No. DODIG-2012-099                                 03 requisitions an average of 23 days and
                                                          delivered them an average of 75 days after
Controls       Governing      the    Procurement          the requisition date, which could have im-                “DLA did not have an
Automated Contract Evaluation System Need                 pacted mission capability.                              effective and consistent
Improvement                                          Result: DoD IG recommended the DLA direc-
                                                                                                                      oversight process to
Overview: DoD IG analyzed 333,304 Procure-           tor:
ment Automated Contract Evaluation automat-          •	 Implement a PACE process that complies                         validate that prices
ed awards, totaling more than $1.5 billion from           with public law regarding electronic signa-               paid for PACE awards
FY 2008 through FY 2010, to determine whether             tures.                                                            at DLA Supply
Defense Logistics Agency Supply Centers uni-         •	 Standardize supply center oversight.                             Centers were fair
formly applied the controls and rules governing      •	 Establish variable increments for price                        and reasonable ...”
Procurement Automated Contract Evaluation                 ranges in determining best value.
awards, whether DLA had a process to validate        •	 Identify the impact of processing all priority
that prices were fair and reasonable and whether          02 and 03 non-stocked requests similarly to
DLA made PACE awards for best value.                      those already excluded.
Findings: Although DLA personnel generally           Report No. DODIG-2012-098
applied the controls and rules governing PACE
awards in a uniform manner, DLA did not en-          The Army Needs to Recoup Funds Expended
sure that PACE complied with public law or           on Property Damaged in an Accident at a
develop an effective and consistent process to       Development Subcontractor’s Facility
validate fair and reasonable prices, and it might    This report is FOUO.
not have used pricing that determined the best       Report No. DODIG-2012-091
value.
•	 DLA allowed the PACE system, rather than          Audit of the Joint Land Attack Cruise Missile
     contracting officers, to award fully auto-      Defense Elevated Netted Sensor
     mated contracts by affixing contracting of-     This report is FOUO.
     ficers’ signatures, violating public laws and   Report No. DODIG-2012-121
     the Federal Acquisition Regulation. DLA
     did not ensure that PACE properly formed        Acquisition of the Navy Organic Airborne and
     333,304 contracts, totaling more than $1.5      Surface Influence Sweep Needs Improvement
     billion from FY 2008 through 2010, result-      Overview: As part of an audit of the Navy’s
     ing in invalid obligations.                     preparation of the Organic Airborne and Surface


                                                                                                            APRIL 1, 2012 TO SEPTEMBER 30, 2012 17
Core Mission Areas



                                   Influence Sweep program for the low-rate initial          OASIS demonstrates that it meets revised
                                   production decision, DoD IG reviewed the Na-              and realistic shock-capability requirements.
                                   vy’s efforts to define system requirements and to      •	 Update test planning to schedule the opera-
                                   develop a testing plan to support procuring the           tional assessment of the OASIS integrated
                                   OASIS. The overall expected cost for developing           with the MH-60S helicopter, to include
                                   and procuring the OASIS was $290.5 million.               shock testing, to synchronize with test plan-
                                   Findings: The Navy did not update requirements            ning for the MH-60S helicopter and to in-
                                   in the draft capability production document after         clude a reliability-growth plan to support
DoD IG reviewed requirements for   a contractor’s analysis showed the OASIS would            the low-rate initial production decision re-
procuring OASIS.                   not work after sustaining a shock wave of 65 per-         view.
                                   cent of the shock-capability requirement. The          Report No. DODIG-2012-101
                                   Navy delayed providing funds for completing
                                   studies to determine the lowest shock require-         Navy Organic Airborne and Surface Influence
                                   ment needed for OASIS mission effectiveness.           Sweep Program Needs Defense Contract
                                   Without fully defined capability requirements,         Management Agency Support
                                   the Navy cannot determine whether OASIS is             Overview: DoD IG determined whether the
                                   effective, suitable and affordable to produce and      Defense Contract Management Agency support
                                   deploy. The program manager, mine warfare,             of the Organic Airborne and Surface Influence
                                   planned the low-rate initial production decision       Sweep development contract was effective.
                                   review to occur before the system completed            Findings: DoD IG identified internal control
                                   shock testing and iterative (periodically repeat-      weaknesses in the Navy’s management of the
                                   ed) production readiness reviews. The program          OASIS contract. DCMA officials and the pro-
                                   manager, mine warfare, stated that shock testing       gram manager, mine warfare, did not effectively
                                   would delay other testing efforts and considered       transition the program integrator and program
                                   a single production reliability review with ear-       support team requirements for the OASIS con-
                                   lier design reviews as negating the need for the       tract. DCMA did not have policies and proce-
                                   iterative production readiness reviews. The pro-       dures for the transition of program support
                                   gram manager canceled and did not reschedule           requirements when the contractor changed geo-
                                   an operational assessment because of delays in         graphic locations and there was a breakdown in
                                   completing predecessor testing. The program            communication within DCMA. As a result, the
                                   manager and staff did not review the draft test        program manager did not benefit from assess-
                                   and evaluation master plan to verify that testing      ments of cost, schedule and technical perfor-
                                   schedules were synchronized with test planning         mance that DCMA could provide to help meet
                                   for the MH-60S helicopter and that the Test and        program goals during the engineering and man-
                                   Evaluation Master Plan addressed reliability           ufacturing phase. Nor did the program manager
                                   growth. The Navy could commit to acquiring             request DCMA program management support
                                   four low-rate initial production units, costing        after the memorandum of agreement expired. He
                                   $15 million, which may not meet testing needs          considered the expired agreement valid and was
                                   to support the full-rate production decision in        not aware of the requirement to annually update
                                   FY 2015. The Navy plans to acquire 38 more             it. Additionally, the program manager did not
                                   units at a cost of $140.6 million.                     identify program data analyses DCMA could
                                   Result: DoD IG recommended the Navy:                   have provided before tasking a support contrac-
                                   •	 Revise the draft OASIS capability pro-              tor. He believed the OASIS program primarily
                                        duction document to establish a realistic         needed technical oversight during the engineer-
                                        shock-capability requirement, with cost and       ing and manufacturing development phase. As
                                        mission impacts, and add required manu-           a result, the program manager expended funds
                                        facturing, joint capabilities and threat infor-   during a 38-month period for services from a
                                        mation to determine whether the program           support contractor and did not obtain earned
                                        should continue to completion.                    value management analysis, monthly progress
                                   •	 Revise OASIS exit criteria for the low-rate         reports or monthly program assessments from
                                        initial production review to include that         either DCMA or the support contractor.

18 SEMIANNUAL REPORT TO THE CONGRESS
Result: As a result of the audit, the director,            prices DoD paid were fair and reasonable
DCMA Orlando, took action to assign a pro-                 for 24 contract actions, valued at $72 mil-
gram integrator and program support team to                lion.
the OASIS program. Further, the acting execu-        •	 AQD-Herndon contracting officials did not
tive director for DCMA engineering and analy-              adequately compete two contract actions,
sis modified DCMA policy to provide manda-                 valued at $1.3 million, and did not support
tory direction for transitioning program support           the use of sole-source contracts for three
requirements between contract management                   contract actions, valued at $1.3 million.
offices. Additionally, the director and the pro-     •	 DoD requesting activity officials performed
gram manager established a memorandum of                   inadequate reviews of contractor cost pro-
agreement for supporting the OASIS program.                posals for 31 contract actions, valued at
Additionally, DoD IG recommended that the                  $77.1 million.
director, DCMA, validate contractor’s earned         •	 DoD requesting activity officials prepared
value management system and update the Major               inadequate independent government cost
Program Support Instruction to include guid-               estimates for 38 contract actions, valued at
ance on transitioning program support between              $84.1 million.
DCMA offices. In addition, DoD IG recom-             •	 AQD-Herndon and AQD-Sierra Vista used
mended the program executive officer, Littoral             other federal agencies’ and existing DoD
Combat Ships, perform a review of the other                contracts to make purchases for DoD for 44
programs in the Littoral Combat Ship portfo-               contract actions, valued at $95.3 million.
lio to determine whether program managers            The reasonable pricing problems occurred be-
are maximizing the use of DCMA services. The         cause AQD-Herndon and AQD-Sierra Vista
DCMA, executive director of Engineering and          contracting officials relied on incomplete DoD
Analysis Directorate and the Navy program ex-        requesting activities’ reviews of contractor cost
ecutive officer of Littoral Combat Ships, agreed     proposals and inadequate DoD requesting ac-
with the recommendations.                            tivities independent government cost estimates
Report No. DODIG-2012-081                            as their primary basis for determining that the
                                                     prices DoD paid were fair and reasonable. The
DoD FY 2010 Purchases Made Through the               competition problems occurred because AQD-                    “DoD IG and DOI IG
Department of the Interior                           Herndon contracting officials did not attempt to              reviewed 56 contract
Overview: The National Defense Authorization         obtain more offers after receiving only one offer.
                                                                                                                       actions, valued at
Act for FY 2008 requires DoD IG and the De-          DoD IG and DOI IG also identified five poten-
partment of the Interior IG to review DoD pro-       tial bona fide needs rule violations, valued at                  $133.4 million...”
cedures for interagency purchases made through       $6.9 million. The problems occurred because the
DOI. DoD IG and DOI IG reviewed 56 contract          policy for Economy Act orders and non-Econ-
actions, valued at $133.4 million, which officials   omy Act orders is not consistent. In addition,
from two DOI contracting offices, the Acquisi-       the “reasonable time” standard for Economy
tion Services Directorate-Herndon and Acquisi-       Act orders is unclear. As a result, AQD-Sierra
tion Services Directorate-Sierra Vista, awarded      Vista accepted DoD purchases up to the end of
for DoD requesting activities, to determine          the fiscal year, sometimes on Sept. 30, 2010. This
whether the purchases were made in accordance        made it difficult, if not impossible, for contract
with laws, policies and procedures.                  performance to begin during the funds’ period
Findings: Generally, DOI contracting and re-         of availability, as required by the DoD Regula-
source management officials complied with            tion 7000.14-R, “DoD Financial Management
laws, policies and procedures. Prior significant     Regulation.” Thirty-eight of 81 DoD military
problems with DOI billing DoD in advance and         interdepartmental purchase requests, related to
DOI using DoD expired funds have been fixed.         27 of the 56 contract actions, were not specific,
Improvements can still be realized in other con-     because DoD requesting activities did not follow
tracting areas. Specifically:                        existing guidance related to the need to be spe-
•	 AQD-Herndon and AQD-Sierra Vista con-             cific when defining requirements.
     tracting officials did not support that the     Result: The secretary of the interior should di-

                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 19
Core Mission Areas



                                        rect the DOI National Business Center to in-          sessing contractor’s performance and reporting
                                        struct AQD-Herndon and AQD-Sierra Vista to            the Advanced Metering Infrastructure project,
                                        inform DoD requesting agencies of their intent        valued at $24.8 million. The AMI is a system
                                        to use DoD and other federal agency contracts         that records customers’ energy consumption,
                                        for DoD purchases as well as better support           collects metering data (electric, gas, water and
                                        reasonable pricing determinations for DoD             steam) and transmits the data to a centralized
                                        purchases. Likewise, the undersecretary of de-        data repository.
“Naval Facilities                       fense for acquisition, technology and logistics       Findings: Naval Facilities Engineering Com-
Engineering Command                     should instruct DoD requesting activities to ob-      mand Southwest officials did not have effective
Southwest officials                     tain prior approval from their respective heads       controls in place to ensure adequate planning,
                                        of contracting when DOI uses contracts from           contractor performance and accurate reporting
did not have effective
                                        other federal agencies for DoD purchases. The         of the project. NAVFAC Southwest officials ex-
controls in place...”                   undersecretary should also initiate a change          pedited the planning process to secure Recov-
                                        to the Defense Federal Acquisition Regulation         ery Act funds and Engineering Service Center
                                        Supplement to include information contained           officials were unclear about their roles and re-
                                        in the USD (AT&L) Nov. 24, 2010, and April            sponsibilities for meeting the requirements of
                                        27, 2011, memoranda. The undersecretary of            Public Law 109-58, “Energy Policy Act of 2005.”
                                        defense (comptroller)/chief financial officer         Therefore, the Navy lacked reasonable assurance
                                        should change the DoD Financial Management            that $24.8 million of Recovery Act funds were
                                        Regulation so that policy for Economy Act or-         appropriately justified and the installation of
                                        ders matches that for non-Economy Act orders,         the meters was properly planned. Additionally,
                                        requiring severable services to begin during          NAVFAC Southwest officials did not properly
                                        the funds’ period of availability. The comptrol-      oversee the installation of the advanced meters
                                        ler should also instruct DoD components to            as the officials did not develop quality assurance
                                        comply with existing guidance on the need to          plans because they were waiting for the contrac-
                                        be specific when defining requirements, includ-       tor’s final design packages. As a result, there
                                        ing a clear description of the services or goods      was no reasonable assurance that the meters in-
                                        being purchased and a period of performance,          stalled conform to the contract’s requirements.
                                        when they prepare military interdepartmental          In addition, NAVFAC Southwest officials did
                                        purchase requests. The assistant secretary of the     not ensure the contractor completed the nine
                                        Army (financial management and comptroller)           task orders for the AMI project within agreed
                                        should instruct activities with potential bona        upon milestones because they did not have an
                                        fide needs rule violations to initiate action and     effective project manager to oversee the con-
                                        oversee the process to adjudicate the potential       tractor’s performance. As a result, seven of the
                                        violations. The secretary of the interior; under-     nine task orders were at risk of missing the AMI
                                        secretary of defense for acquisition, technology      timeline mandated in the Energy Policy Act
                                        and logistics; undersecretary of defense (comp-       of 2005. NAVFAC officials did not insert Fed-
                                        troller)/chief financial officer; and the assistant   eral Acquisition Regulations clause 52.211-12,
                                        secretary of the Army (financial management           Liquidated Damages, in eight of the nine task
                                        and comptroller) generally agreed with the rec-       orders. The absence of the liquidated damages
                                        ommendations.                                         clause may have contributed to the delays in the
                                        Report No. DODIG-2012-072                             AMI project. Lastly, NAVFAC Southwest of-
                                                                                              ficials did not adequately review data the con-
                                        American Recovery and Reinvestment Act–               tractor submitted to FederalReporting.gov, the
                                        Implementation of the Advanced Metering               central governmentwide data collection system
                                        Infrastructure Requirements for Planning,             for Recovery Act projects.
                                        Contractor’s Performance and Reporting Was            Result: DoD IG recommended the command-
                                        Ineffective                                           ing officer, Naval Facilities Engineering Com-
                                        Overview: DoD IG determined whether DoD               mand, issue guidance clearly defining the roles
                                        ensured the appropriate use of Recovery Act           and responsibilities to comply with the require-
                                        funds by conducting adequate planning, as-            ments of the Energy Policy Act 2005; appoint a


 20 SEMIANNUAL REPORT TO THE CONGRESS
project and design manager to oversee the de-          covery Act’s goal—to preserve and create jobs.
sign and installation of advanced meters; and re-      Result: DoD IG recommended the command-
view the performance of the officials responsible      ing officer, NAVFAC Mid-Atlantic:
for not including the liquidated damages clause.       •	 Repair all deteriorations and deficiencies
Report No. DODIG-2012-127                                   in the recently renovated NOSC using con-
                                                            tract warranties and oversee the repairs be-
American Recovery and Reinvestment Act–                     ing performed.
Ineffective Controls Over the Contractor’s             •	 Prepare a quality assurance plan for future
Performance and Reporting for Modernization                 construction projects.                                 DoD IG reviewed funds for Advanced
of the Navy Operational Support Center in              •	 Validate contractor-reported data to detect              Metering Infrastructure project.

Charlotte, N.C.                                             and correct significant reporting errors.
Overview: DoD IG reviewed the Navy Opera-              •	 Determine whether the contracting officer
tional Support Center modernization project in              acted within the scope of duties and take
Charlotte, N.C., valued at $2.3 million by evalu-           administrative actions where necessary.
ating the effectiveness of government controls         Report No. DODIG-2012-095
over the contractor’s performance and report-
ing on selected Recovery Act projects, including
contracts awarded to qualified small businesses.       Financial Management                                                  “A key effort in
Findings: Although Naval Facilities Engineer-          The Department’s financial management chal-                            addressing the
ing Command Mid-Atlantic officials effectively         lenges adversely affect its ability to provide              Department’s financial
validated the contractor’s self-certification as a     reliable, timely and useful financial and man-              management challenges
small business status, they did not have effective     agerial data needed to support operating, bud-
                                                       geting and policy decisions. Gaps in the financial
                                                                                                                    is its ability to produce
controls over the contractor’s performance and
                                                       framework impact the accuracy, reliability and                    auditable financial
reporting for the NOSC modernization project.
NAVFAC Mid-Atlantic officials did not prepare          timeliness of budgetary and accounting data,                             statements...”
a quality assurance plan because they considered       and financial reporting, thereby reducing the
the contractor’s quality control plan as sufficient.   effectiveness of decision-making by leaders at
Without a plan, NAVFAC Mid-Atlantic officials          all levels. A key effort in addressing the Depart-
did not have procedures in place to provide ad-        ment’s financial management challenges is its
equate oversight of the contractor’s performance       ability to produce auditable financial statements
of the newly modernized NOSC building, which           and achieve an unqualified opinion on those fi-
showed deterioration in the recently renovated         nancial statements.
areas, such as roof leaks, deteriorating asphalt
and renovated walls that could not support the         In an attempt to standardize and develop an ef-
newly installed doors. NAVFAC Mid-Atlantic             fective financial management process through-
officials did not conduct market research analy-       out the Department, DoD embarked on various
sis because they considered the market research        efforts to implement new financial management
unnecessary, and instead, used previous market         systems and associated business processes. Prop-
research conducted. Without conducting mar-            erly planned and integrated systems, with strong
ket research, NAVFAC officials could not ensure        internal controls, are critical in providing useful,
that they selected the best contractor to conduct      timely and complete financial management data
quality assurance surveillance. NAVFAC of-             and in achieving auditability.
ficials did not ensure the contractor accurately
reported the number of jobs funded for the             However, timely and effective implementation of
project because they considered the contractor-        the Enterprise Resource Planning systems is also
reported data valid. As a result, the contractor       critical for the Department to achieve its finan-
underreported the jobs for the NOSC modern-            cial improvement and audit readiness goals. The
ization project. By underreporting the number          Department’s progress in implementing ERPs,
of full-time equivalents, NAVFAC Mid-Atlantic          especially in FY 2013, is a critical challenge and
officials adversely affected the quality of data re-   any implementation delays or systems that do
ported to the public in Recovery.gov and the Re-       not meet the intended objectives could jeopar-
                                                       dize the Department’s ability to meet its audit-

                                                                                                              APRIL 1, 2012 TO SEPTEMBER 30, 2012 21
Core Mission Areas



                                          ability goals. DoD senior leaders have demon-        of full financial statement audit readiness by FY
                                          strated a commitment to improving financial          2017. The DoD deputy chief management of-
                                          management and have recognized some of the           ficer and the chief management officers of the
                                          impediments and actions necessary to improv-         military departments did not verify that busi-
                                          ing the Department’s financial management            ness processes were streamlined and efficient as
                                          data, processes, internal controls and related fi-   required by Public Law 111-84, “National De-
                                          nancial systems.                                     fense Authorization Act For FY 2010,” Section
                                                                                               1072, “Business Process Reengineering,” Oct.
“DoD senior leaders                       The secretary of defense has elevated audit read-    28, 2009. DoD officials relied on the Program
have demonstrated                         iness to an “all hands” DoD-wide effort. DoD IG      Management Offices’ self-compliance assertions
                                          is providing oversight to the Department to as-      when they certified and approved funding of
a commitment to
                                          sist in its efforts to reach audit readiness.        $302.7 million, instead of reviewing the business
improving financial                                                                            processes and verifying the accuracy, complete-
management...”                            During this reporting period, DoD IG issued          ness and reliability of the PMO submissions.
                                          reports addressing improvements needed in            As a result, there is an increased risk the ERP
                                          developing and implementing the ERP systems,         systems will incur additional delays and cost in-
                                          data quality, adequacy of internal controls and      creases to ensure the systems are as streamlined
                                          Fund Balance with Treasury reconciliations.          and efficient as possible.
                                                                                               Result: DoD IG recommended that the DoD
                                          Enterprise Resource Planning Systems Schedule        Deputy Chief Management Office and the chief
                                          Delays and Reengineering Weaknesses Increase         management officers of the Army, Navy and
                                          Risks to DoD’s Auditability Goals                    Air Force develop procedures to review busi-
                                          Overview: DoD IG initiated this review in re-        ness processes and limit funding to programs
                                          sponse to a congressional request related to the     that are not demonstrating adequate business
                                          reported cost increases and schedule delays of       process reengineering. In addition, DoD IG rec-
                                          some of the DoD Enterprise Resource Planning         ommended that the undersecretary of defense
                                          systems. Specifically, Congress wanted DoD IG        (comptroller)/chief financial officer update the
                                          to determine whether the investment in ERP           Financial Improvement and Audit Readiness
                                          systems would result in reliable information and     Plan to link material weaknesses’ resolutions to
                                          auditable financial statements and records. DoD      DoD ERP systems and track the effect of DoD
                                          IG evaluated the ERP systems identified as nec-      ERP systems on DoD’s goals of obtaining audit-
                                          essary for DoD to produce auditable financial        able financial statements.
                                          statements to determine the changes in costs         Report No. DODIG-2012-111
                                          of the ERP systems during development and
                                          implementation, the impact of schedule changes       Logistics Modernization Program System
                                          on the DoD goal to be auditable by 2017, and         Procure-to-Pay Process Did Not Correct
                                          whether the Department and services have pro-        Material Weaknesses
                                          vided sufficient oversight of the ERP systems        Overview: DoD IG determined whether ap-
                                          during their development and implementation.         propriate internal controls were in place within
                                          Findings: The six ERP systems reviewed expe-         the Logistics Modernization Program system to
                                          rienced cost increases of $8 billion and sched-      ensure proper recording of accounting transac-
                                          ule delays ranging from 1.5 to 12.5 years during     tions related to the purchase of goods and ser-
DoD IG reviewed controls within the
                                          system development and implementation. As            vices.
Logistics Modernization Program system.   a result of the schedule delays, DoD continues       Findings: Army financial and system managers
                                          to use legacy systems, which diminishes the          did not reengineer LMP to perform procure-
                                          estimated savings associated with transform-         to-pay functions correctly or correct known
                                          ing business operations through business sys-        material weaknesses. The LMP developers did
                                          tem modernization. In addition, the impact of        not identify the system requirements needed to
                                          schedule delays increases the risk that DoD will     correct the root causes of material weaknesses,
                                          not achieve an auditable Statement of Budget-        and Army managers did not review control ac-
                                          ary Resources by FY 2014 or accomplish its goal      tivities to assess internal control effectiveness.

 22 SEMIANNUAL REPORT TO THE CONGRESS
As a result, Army managers continued the use of      and Management System Financial Data                      “DEAMS lacked critical
costly business processes, and LMP failed to pro-    Overview: The Air Force’s auditability is depen-           functional capabilities
vide reliable financial data. As of Aug. 31, 2011,   dent on successfully deploying the Defense En-
LMP activities reported more than $10.6 billion      terprise Accounting and Management System.
                                                                                                                    needed to generate
in abnormal balances within the procure-to-          The current DEAMS life-cycle cost estimate                   accurate and reliable
pay general ledger accounts. LMP system access       is $2.1 billion. As of March 31, 2012, DEAMS               financial management
controls did not establish data integrity for the    expenditures totaled approximately $322.2 mil-                      information.”
procure-to-pay process because Army manag-           lion. DoD IG determined whether the DEAMS
ers did not provide effective oversight over the     fulfilled selected functional capabilities needed
development and implementation of system ac-         to generate accurate and reliable financial man-
cess templates. Therefore, LMP data were at risk     agement information.
of unauthorized and fraudulent use. In addition,     Findings: DEAMS lacked critical functional
the Army Enterprise Systems Integration Pro-         capabilities needed to generate accurate and re-
gram Management Office did not determine the         liable financial management information. DE-
Standard Financial Information Structure data        AMS managers did not maintain an adequate
attributes needed to establish the vendor master     Chart of Accounts. In addition, DEAMS did not
database and populate the correct domain val-        report Standard Financial Information Structure
ues for Army systems to process procure-to-pay       financial data directly to the Defense Depart-
transactions correctly. Army managers did not        mental Reporting System. Functional Manage-
create the single source of vendor master data       ment Office personnel did not monitor changes
needed to develop, manage and maintain trad-         to the COA and document policies and proce-
ing partner information. As a result, the Army       dures for modifying the COA, and DoD and Air
allotted about $1.3 million to develop vendor        Force management initially decided not to re-
information for two systems but did not resolve      port financial data directly to DDRS until fourth
material weaknesses related to accounts payable      quarter FY 2016. DEAMS data lacks validity and
and intragovernmental eliminations.                  reliability. Unless the unauthorized changes and
Result: The deputy chief management officer          inconsistencies in the DEAMS COA are correct-
should review legacy registration processes to       ed, DoD and Air Force management cannot rely
determine whether DoD can incorporate regis-         on DEAMS information to make sound busi-
try databases into the system for award manage-      ness decisions. Further, DEAMS management
ment. Other recommendations included:                cannot ensure updates to the DEAMS COA are
•	 Develop a plan of action and milestones to        performed correctly and consistently. In addi-
     bring the LMP into compliance with the          tion, the approved plan for reporting directly
     DoD requirements.                               to DDRS may challenge the Air Force’s ability
•	 Modify LMP to cease the automatic obliga-         to obtain audit readiness for the Statement of
     tion of unmatched disbursements.                Budgetary Resources before the end of FY 2014.
•	 Review unobligated balances.                      Further, unforeseen delays with reporting Stan-
•	 Develop a system edit check to identify ac-       dard Financial Information Structure financial
     tivity exceeding allotted amounts.              data directly to DDRS may impede the ability of
The Army should also create and manage ven-          the Air Force to achieve audit readiness on the
dor master data based on the system for award        remaining financial statements by FY 2017.
management and establish a vendor master data        Result: DoD IG recommended that the assistant
manager. Further, the Army should improve            secretary of the Air Force for financial manage-
LMP system access controls and assess the LMP        ment and comptroller perform validations of the
procure-to-pay business process. The deputy          corrective actions for the unauthorized changes
chief management officer and Department of           and inconsistencies in the DEAMS COA before
the Army agreed with the recommendations.            further deployment to ensure the corrective ac-
Report No. DODIG-2012-087                            tions are operating as intended. The functional
                                                     manager, DEAMS Functional Management Of-
An Unreliable Chart of Accounts Affected             fice, should implement monitoring controls to
Auditability of Defense Enterprise Accounting        identify inconsistencies in the DEAMS COA

                                                                                                         APRIL 1, 2012 TO SEPTEMBER 30, 2012 23
Core Mission Areas



                                        data, determine whether inconsistencies in the       DFAS-Indianapolis, to update the Army’s Of-
                                        account data affected any other areas of the sys-    fice of Management and Budget Circular A-123
                                        tem and document policies and procedures for         documentation for DDRS-B financial reporting
                                        modifying the DEAMS COA.                             system processes. The director, DFAS-Indianap-
                                        Report No. DODIG-2012-140                            olis, should retain DDRS-B feeder files, main-
                                                                                             tain support for and report all Electronic Error
                                        Defense Departmental Reporting System-               Correction and Transaction Analysis adjust-
                                        Budgetary Not Effectively Implemented for the        ments, and add procedures on DDRS-B journal
                                        Army General Fund                                    voucher preparation and approval. Management
                                        Overview: DoD IG determined whether the              agreed with the recommended corrective ac-
                                        Defense Departmental Reporting System-               tions.
                                        Budgetary was effectively implemented for the        Report No. DODIG-2012-096
                                        Army General Fund and whether the March
                                        2010 Army General Fund data was reliable.            Improvements Needed in How the Defense
DoD IG reviewed data for the Army       Findings: Defense Finance and Accounting             Finance and Accounting Service Adjusts and
General Fund.                           Service-Indianapolis management did not ef-          Supports Billing Rates
                                        fectively implement DDRS-B for processing ac-        Overview: DoD IG determined whether the
                                        counting data used in preparing Army General         methodology the Defense Finance and Account-
                                        Fund budget execution reports and financial          ing Service used to estimate the workcounts and
                                        statements. Specifically, DFAS-Indianapolis per-     direct costs for retired military pay accounts and
                                        sonnel did not:                                      accounting services for the FY 2011 stabilized
                                        •	 Document DDRS-B financial reporting               billing rates complied with applicable laws and
                                             processes and controls.                         regulations. Additionally, DoD IG determined
                                        •	 Retain 157 of the 241 feeder files and pro-       whether DFAS had taken action to reduce rates
                                             vide files in a timely manner for audit.        through greater efficiencies.
“DFAS did not                           •	 Maintain supporting documentation for             Findings: DFAS did not comply with DoD Fi-
comply with DoD                              and adequately report $713.9 billion in         nancial Management Regulation requirements
                                             Electronic Error Correction and Transac-        when returning $35.5 million to DoD custom-
Financial Management                         tion Analysis adjustments.                      ers in FY 2011. The DFAS resource management
Regulation                              •	 Maintain adequate supporting documenta-           representative misinterpreted guidance from the
requirements when                            tion for $26.2 billion, coordinate $44.7 bil-   Revolving Funds Directorate, undersecretary of
returning $35.5 million                      lion and report to DoD management $90           defense (comptroller)/chief financial officer and
to DoD customers in FY                       billion in journal voucher adjustments pre-     DoD. As a result, DFAS did not properly align
                                             pared for March 2010.                           costs with outputs, potentially causing the ac-
2011...”                                This occurred because DFAS-Indianapolis man-         cumulated operating result to increase. Addi-
                                        agement did not have adequate controls over          tionally, DFAS also did not adjust the FY 2012
                                        DDRS-B processing of Army General Fund fi-           billing rates for all services in returning $128.7
                                        nancial data to ensure compliance with DoD           million to DoD customers. DFAS had not de-
                                        financial management requirements. These             veloped procedures to routinely compare costs
                                        control deficiencies created uncertainty about       and revenues at the output levels. As a result,
                                        the validity of the $2.1 trillion reported in the    DFAS distorted the FY 2012 billing rates. Final-
                                        March 2010 export file and amounts reported          ly, DFAS personnel did not maintain sufficient
                                        on the Army General Fund financial statements        documentation to demonstrate full compliance
                                        and budget execution reports. Unless the con-        with DoD guidance for rate development. This
                                        trol deficiencies are corrected, the Army may        occurred because DFAS did not establish a pol-
                                        not be able to meet the mandated FY 2014 State-      icy to maintain budgetary documentation. As
                                        ment of Budgetary Resources and FY 2017 DoD          a result, DFAS could not demonstrate that FY
                                        financial statement audit readiness deadlines.       2011 workcounts or $52.9 million of direct cost
                                        Result: DoD IG recommended that the assistant        for retired military pay accounts and $254.1 mil-
                                        secretary of the Army (financial management          lion of direct cost for accounting services were
                                        and comptroller) coordinate with the director,       based on historical results. Additionally, DoD

 24 SEMIANNUAL REPORT TO THE CONGRESS
IG determined that DFAS took action to reduce             to detect duplicates unless all five critical
rates through efficiencies, but was unable to de-         data fields matched (10 duplicate payments
termine any effect on customer billing rates.             valued at $161,962).
Result: DoD IG recommended the undersecre-           •	 Business Activity Monitoring, the automat-
tary of defense comptroller/chief financial offi-         ed detection tool, did not identify duplicates
cer enforce policies for returning accumulated            when data in specific fields were different,
operating result through rate adjustments unless          input was more than 25 days apart or the
the undersecretary of defense comptroller/chief           amount was $250 or less (nine duplicate
financial officer can support using billing cred-         payments valued at $113,096).
its. The DFAS director of resource management        DFAS made 11 duplicate payments valued at
should:                                              $162,547. DFAS took prompt action to initiate
•	 Establish procedures to routinely iden-           collection on the duplicate payments identified.
      tify the outputs responsible for significant   In addition, DFAS Cleveland accounts payable
      changes in net operating result and recon-     did not report seven improper payments, valued
      ciling accounting services workload.           at $682,839, because DFAS Enterprise Standards
•	 Provide customers with additional informa-        and Solutions Directorate did not provide spe-
      tion on accounting services and a monthly      cific guidance on improper payment reporting.
      comparative analysis of actual and antici-     This resulted in an understatement on Navy and
      pated workcounts.                              DoD improper payment reports.
•	 Develop policy to identify and maintain           Result: DoD IG recommended that DFAS devel-
      budgetary documentation.                       op and implement a review of manually-inputted
Management mostly agreed with the recom-             invoices to detect payments that are identified as
mendations.                                          possible duplicates by edit checks; revise One
Report No. DODIG-2012-131                            Pay edit controls to detect possible duplicates
                                                     when less than five critical fields match; and ex-
DFAS Controls Over Duplicate Payments in One         pand logic for the automated detection tool. In               “DoD IG recommended
Pay were Generally Effective, but Opportunities      addition, DFAS should issue specific guidance                   that DFAS develop and
for Improvement Existed                              for reporting improper payments.                                   implement a review
Overview: From Oct. 1, 2009, through March           Report No. DODIG-2012-130                                        of manually-inputted
31, 2011, DFAS made more than one million
payments, valued at approximately $53 billion,       Questionable Data Cast Doubt on the Need                              invoices to detect
through One Pay. DoD IG statistically selected       for Continuing the Defense Transportation                            payments that are
a sample of 331 unique payment records, valued       Coordination Initiative                                           identified as possible
at approximately $9 million, from a population       Overview: DoD IG determined whether the                              duplicates by edit
that had characteristics of duplicate payments.      Defense Transportation Coordination Initiative                                 checks.”
DoD IG determined whether the DFAS pro-              Program Management Office oversight of the
cesses were effective at detecting and preventing    third-party logistics contractor was effective and
improper payments processed through the One          whether the contract reduced costs. The con-
Pay system, focusing on processes for detecting      tract, valued at $1.76 billion, was awarded in Au-
and preventing duplicate payments.                   gust 2007 for three base years, two option years
Findings: Although DFAS processes for detect-        and two award-term option years.
ing and preventing improper duplicate payments       Findings: The DTCI PMO personnel did not
in One Pay were generally effective, there were      provide sufficient oversight of the contract, and
opportunities for improvement. DFAS processes        the contractor reported unverified cost reduc-
allowed duplicate payments because:                  tions of $167.4 million for 699,157 freight ship-
•	 DFAS Cleveland Accounts Payable Direc-            ments from March 2008 through September
     torate did not have procedures to review in-    2010. The reductions were not verifiable be-
     voices after technicians’ input and evaluate    cause of questionable data. In addition, DTCI
     possible duplicates (one duplicate payment      PMO officials did not develop and include in
     valued at $585).                                the contract an effective methodology to estab-
•	 One Pay edit controls were not configured         lish baseline transportation costs and calculate

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 25
Core Mission Areas



                                          cost reductions from shipments and did not ef-       the remaining balances. The Army also cor-
                                          fectively implement the Quality Assurance Sur-       rected a $0.4 million overstatement of its non-
                                          veillance Plan. As a result, DTCI PMO officials      monetary proceed balance. Army and Air Force
                                          did not identify that $118 million of reported       personnel did not always perform and docu-
                                          cost reductions were based on flawed baseline        ment analyses to support the negotiated settle-
                                          transportation costs or that it is questionable      ment amounts for seven installation closures.
                                          whether these reductions were achieved; and          As a result, they were unable to show that the
                                          PMO officials did not deduct $56.9 million in        resulting $19.4 million in compensation repre-
DoD IG reviewed the Defense               program costs from reported cost reductions. If      sented an adequate return on DoD investment
Transportation Coordination Initiative.   the $167.4 million in cost reductions were offset    in those installations. This occurred because of
                                          by the $118 million in questionable cost reduc-      inadequate DoD policy. DoD and host nation
                                          tions and $56.9 million in program costs, then       governments had already finalized the residual
                                          costs were about $7.5 million greater than cost      value settlements this audit reviewed and thus
                                          reductions. The exercise of future contract op-      cannot change them. DoD needs to improve its
                                          tions will require implementing corrective ac-       processes for the benefit of future residual value
                                          tions to verify that program benefits occur and      negotiations.
                                          offset the contract costs.                           Result: DoD IG recommended that the under-
                                          Result: : Among the recommendations, DoD IG          secretary of defense (comptroller)/chief finan-
                                          recommended that the commander, Transpor-            cial officer should provide results of the review
                                          tation Command, not exercise future options on       of unused monetary proceeds. In addition, the
                                          the DTCI contract until he can certify that there    deputy undersecretary of defense for installa-
                                          are cost reductions. In addition, the commander      tions and environment and the commander,
                                          should revise oversight guidance.                    U.S. European Command, should revise DoD
                                          Report No. DODIG-2012-108                            policy to require greater analysis and documen-
                                                                                               tation to support residual value settlements.
“DoD IG evaluated                         DoD Can Improve Its Accounting for Residual          Finally, the commander, U.S. European Com-
whether DoD personnel                     Value from the Sale of U.S. Facilities in Europe     mand, should assign responsibility for pursuing
                                          Overview: Public Law 101-510, “The National          residual value for the West Ruislip housing units
properly accounted                        Defense Authorization Act for FY 1991,” Sec-         and require greater coordination between the
for residual value                        tion 2921, “Closure of Foreign Military Instal-      military departments for future residual value
transactions for                          lations,” as amended, specifies that the secretary   agreements with host nations.
facilities returned to                    of defense should ensure that the United States      Report No. DODIG-2012-082
host nations in Europe.”                  receives consideration equal to the fair market
                                          value of the improvements it made to facilities      Action Needed to Improve the Completeness
                                          that will be returned to host countries. DoD IG      and Accuracy of DEERS Beneficiary Data
                                          evaluated whether DoD personnel properly ac-         Overview: DoD IG assessed the completeness
                                          counted for residual value transactions for fa-      and accuracy of beneficiary data contained in
                                          cilities returned to host nations in Europe.         the Defense Enrollment Eligibility Reporting
                                          Findings: Although DoD organizations used            System. DoD IG selected a statistical sample of
                                          residual value settlement proceeds appropriate-      DEERS beneficiaries and compared the sample
                                          ly, they did not maintain adequate controls on       data to available supporting documentation.
                                          more than $8 million of unused monetary and          Findings: DEERS beneficiary supporting docu-
                                          nonmonetary proceeds. DoD personnel did not          mentation was not complete, and DEERS data
                                          provide adequate oversight and monitor and re-       was not always accurate. Specifically, of the 9.4
                                          view $7.6 million of unused monetary proceeds.       million uniformed service beneficiary records,
                                          DoD organizations should use the monetary            DEERS supporting documentation did not ad-
                                          proceeds to offset facility expenses. During the     equately (based on statistical sampling):
                                          audit, the undersecretary of defense (comptrol-      •	 Substantiate the identity of 2.1 million
                                          ler)/chief financial officer personnel began re-          beneficiaries.
                                          searching the unused monetary proceeds and           •	 Demonstrate the eligibility of 2.8 million
                                          planned to complete the actions and clean up              beneficiaries.

 26 SEMIANNUAL REPORT TO THE CONGRESS
•	    Support between one and five critical data      Program funds to the U.S. Agency for                           “DoD IG reviewed
      fields, such as name and date of birth, asso-   International Development were adequate to                  three CERP funded EA
      ciated with 5.7 million beneficiaries.          ensure compliance with Economy Act order
•	 Contain date of birth, gender, name or re-         requirements. DoD IG reviewed three CERP
                                                                                                                   orders totaling $40.1
      lationship records of 199,680 beneficiaries.    funded EA orders totaling $40.1 million that                            million...”
This occurred because the Defense Manpower            DoD placed with USAID in the fourth quarter
Data Center lacked procedures to identify when        of FY 2009.
Real-time Automated Personnel Identification          Findings: CENTCOM-Joint Theater Support
System personnel did not scan and store DEERS         Contracting Command and USFOR-A officials
beneficiary identity documentation, and DoD           did not establish adequate controls over
policy was vague on requiring Real-time Auto-         interagency acquisitions when transferring $40.1
mated Personnel Identification System person-         million in CERP funds to USAID. C-JTSCC
nel to scan and store sufficient documentation        and USFOR-A officials did not advance funds
to verify DEERS beneficiary eligibility. Further,     to USAID appropriately; monitor EA order
the Defense Manpower Data Center lacked pro-          execution adequately; or prevent USAID from
cedures to verify that supporting documenta-          using cost-plus-fixed-fee contracts that provided
tion existed and to validate that DEERS benefi-       no incentives. DoD had conflicting guidance
ciary data were accurate. As a result, DoD lacked     on advancing funds under EA orders, and
certainty that only eligible beneficiaries were       the EA orders did not clearly define roles and
enrolled in DEERS and received military iden-         responsibilities or procedures for monitoring the
tification cards. Specifically, RAPIDS personnel      execution of interagency agreements. C-JTSCC
inappropriately issued military identification        also did not properly review USAID contracts to
cards without obtaining or maintaining docu-          determine if they would sufficiently meet DoD
mentation that supported DEERS records. Addi-         needs. As a result, CENTCOM and USFOR-A
tionally, the extent of the unsupported and inac-     will not receive the goods and services as
curate data adversely affected the integrity of the   ordered in the EA orders. In addition, USAID
DoD process for issuing military identification       spent funds on projects not authorized in the
cards. Action to improve DEERS data is needed,        EA orders. Unless controls are improved, DoD
as evidenced by the 2,495 instances, which were       is at increased risk of unmet performance when
identified by the TRICARE Management Activ-           transferring to Department of State or USAID,
ity, of ineligible beneficiaries who obtained un-     a significant portion of the $400 million of
authorized health care benefits.                      Afghanistan infrastructure funds appropriated
Result: The director, Defense Human Resources         for FY 2011 and the $400 million authorized
Activity, should issue policy requiring RAPIDS        for FY 2012. C-JTSCC potentially violated the
personnel to scan and store eligibility documen-      Purpose Statute by inappropriately authorizing
tation. In addition, the director, Defense Man-       the transfer of $27.6 million of CERP funds
power Data Center, should implement addition-         to USAID because the construction projects
al procedures to validate that DEERS supporting       primarily benefitted U.S. forces. In addition,
documentation exists and that the DEERS data is       USAID officials inappropriately obligated $9.6
accurate. The director, Defense Human Resourc-        million of CERP funds that were not a DoD
es Activity and Defense Manpower Data Center,         bona fide need in FY 2009 and inappropriately
agreed with DoD IG’s recommendations.                 obligated $17.6 million of CERP funds on out-of
Report No. DODIG-2012-069                             scope projects that were not properly approved
                                                      by DoD. As a result, C-JTSCC and USAID may
DoD Needs to Improve Controls Over Economy            have committed Antideficiency Act violations
Act Orders with U.S. Agency for International         and USAID may have improperly used DoD
Development                                           funds.
Overview: DoD IG determined whether                   Result: DoD IG recommended DoD acquisition
U.S. Central Command and U.S. Forces-                 and logistics officials and DoD comptroller
Afghanistan controls over the interagency             officials should update guidance to clarify
transfer of Commander’s Emergency Response            that advance payments are not allowed for EA

                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 27
Core Mission Areas



                                    orders and to include procedures for properly         will impede the ability of DoD to achieve audit
                                    monitoring interagency acquisitions. C-JTSCC          readiness for the Statements of Budgetary
                                    and USFOR-A needed to update procedures               Resources by the end of FY 2014. Unlike DFAS-
                                    and establish controls over the development           Indianapolis, DFAS-Columbus was performing
                                    and monitoring of EA orders. Army comptroller         complete, transaction-level reconciliations. Also,
                                    officials should coordinate with DoD comptroller      other than allowing $16.1 million in Defense
                                    officials to review potential ADA violations and      Information Systems Agency disbursements and
                                    request that USAID return the $17.6 million it        collections to remain unmatched for more than
                                    used on out-of-scope projects.                        four years, DFAS-Columbus provided evidence
                                    Report No. DODIG-2012-117                             it had adequate procedures for researching and
                                                                                          resolving variances.
                                    Defense Finance and Accounting Service Needs          Result: DoD IG recommended the director,
                                    to Improve the Process for Reconciling the Other      DFAS-Indianapolis,         develop        systems
                                    Defense Organizations’ Fund Balance with              infrastructure, implement systemic processes and
                                    Treasury                                              dedicate resources for reconciling Other Defense
                                    Overview: This is one in a series of reports          Organizations Fund Balance with Treasury
                                    relating to the reconciliation of the other defense   accounts. The director, DFAS Columbus,
                                    organizations fund balance with Treasury              should coordinate with the director, DISA,
                                    accounts. DoD IG evaluated the adequacy of            and resolve the $16.1 million in transactions
                                    audit trails and assessed the Other Defense           that have remained unmatched since May
                                    Organizations’ Fund Balance with Treasury             2007. Management was fully responsive to the
                                    reconciliation processes.                             recommendations.
                                    Finding: DFAS-Indianapolis did not perform            Report No. DODIG-2012-107
                                    adequate, transaction level reconciliations of the
                                    Other Defense Organizations Fund Balance with
“The Department
                                    Treasury general ledger accounts. Specifically,       Joint Warfighting and
will face many
challenges in the
                                    DFAS-Indianapolis did not develop processes for
                                    retrieving the detailed transactions supporting
                                                                                          Readiness
                                                                                          The Department will face many challenges in the
near future in joint                the cash management report in a timely manner,        near future in joint warfighting and readiness.
warfighting and                     match the transactions supporting the cash            Among them are a decreasing budget; planned
readiness.”                         management report to the detailed transactions        drawdown of forces from Afghanistan; the need
                                    recorded in the accounting systems or research,       to reset equipment and personnel across the ser-
                                    and if necessary, resolve the variances between       vices; a return to full-spectrum training; and an
                                    the two sets of data. This occurred because           enhanced focus on the Pacific theater. The de-
                                    DFAS-Indianapolis did not develop the systems         sired end-state remains the same: provide the
                                    infrastructure, implement systemic processes          right force, the right personnel and the right
                                    or fully dedicate the necessary resources for         equipment and supplies in the right place, at the
                                    performing transaction level reconciliations of       right time and in the right quantity, across the
                                    the other defense organizations fund balance          full range of military operations. DoD IG report-
                                    with Treasury accounts. DFAS-Indianapolis             ed on the DoD preparation efforts to respond to
                                    reported that it was responsible for reconciling      natural or man-made disasters and the account-
                                    723 other defense organizations appropriations        ability and disposition of equipment from mili-
                                    with disbursements and collections, totaling          tary units drawing down from Iraq.
                                    approximately $141 billion. Without adequate
                                    fund balance with Treasury reconciliations,           Better Oversight Needed for the National
                                    DFAS-Indianapolis could not support the               Guard’s Weapons of Mass Destruction Civil Sup-
                                    adjustments it was making to the other defense        port Teams
                                    organizations fund balance with Treasury              Overview: DoD IG evaluated the planning and
                                    accounts, which caused amounts reported on the        reporting of the National Guard’s Weapons of
                                    other defense organizations financial statements      Mass Destruction Civil Support Teams in re-
                                    to be unreliable. Unreliable financial statements     sponse to intentional or unintentional release

 28 SEMIANNUAL REPORT TO THE CONGRESS
of chemical, biological, radiological, nuclear or   Overview: DoD IG evaluated the ability of the
high-yield explosives, and natural or man-made      combatant commands to plan and execute for-
disasters.                                          eign disaster relief operations to prevent insta-
Findings: The four WMD CSTs reviewed had            bility in their areas of responsibility. Addition-
plans for each phase of operation (pre-op-          ally, DoD IG assessed the support provided by
erational, operational and post-operational)        DoD organizations to enable the COCOMs to
identified in the Army Field Manual 3-11.22,        effectively conduct foreign disaster relief opera-
“Weapons of Mass Destruction-Civil Support          tions.
Team Operations,” December 2007. Those plans        Findings: The U.S. European, Central, Southern             DoD IG evaluated planning of the WMD
should improve the WMD CSTs’ ability to pre-        and Pacific Commands have effectively planned              Civil Support Teams.

pare for, prevent, protect against and respond      and executed several foreign disaster relief oper-
to incidents involving chemical, biological, ra-    ations. Additionally, DoD organizations provid-
diological, nuclear or high-yield explosives and    ed satisfactory support to COCOM foreign di-
natural or man-made disasters. However, the         saster relief operations. However, improvements
four WMD CSTs reviewed did not fully meet           in foreign disaster relief operations are needed,
the reporting requirements to keep the National     such as formalizing response procedures, pro-
Guard Bureau aware of their movements and           moting information sharing, increasing phase-
operations. Specifically, the WMD CSTs did not      zero activities, promoting the sharing of lessons
provide required termination, situation and af-     learned and updating DoD Directive 5100.46,
ter action reports, and complete information for    “Foreign Disaster Relief,” Dec. 4, 1975. Improve-
after action reports. In addition, the National     ments are needed because COCOMs may not
Guard Bureau records showed that the WMD            have known about or been required to imple-
CSTs conducted 409 response, stand-by and as-       ment best practices for foreign disaster relief.
sist missions from FY 2008 to FY 2011, while        In addition, the undersecretary of defense for
the teams’ records showed a total of 640 mis-       policy did not update the 37-year-old directive
sions for the same time period. This occurred       on foreign disaster relief in a timely manner. As
because National Guard Bureau-J3, Domestic          a result, the most efficient practices for foreign
Operations Directorate personnel did not clar-      disaster relief are not available to all COCOMs.
ify reporting expectations or adequately oversee    This is especially important to COCOMs that
how the WMD CSTs implemented the reporting          have not executed a large foreign disaster relief
requirements identified in the National Guard       operation, such as U.S. Africa Command, to
Regulation 500-3/Air National Guard Instruc-        prevent similar obstacles already faced and over-
tion 10-2503, “Weapons of Mass Destruction          come at other commands. Additionally, a lack
Civil Support Team Management.” Therefore,          of updated guidance can lead to inconsistent
the National Guard Bureau did not have situ-        interpretations of authorities and responsibili-
ational awareness of WMD CSTs’ ability to im-       ties to provide foreign disaster relief assistance.
mediately respond to the spectrum of WMD-           Without best practices and up-to-date guidance,
related disasters.                                  DoD is less likely to achieve efficiencies when
Result: DoD IG recommended that the direc-          handling potential and actual disasters.
tor, National Guard Bureau-J3, Domestic Op-         Result: The commanders, U.S. European, Cen-
erations and Force Development Directorate,         tral, Southern, Pacific and Africa Commands,
develop a written oversight plan in coordination    should implement best practices for foreign
with personnel from each Joint Force Headquar-      disaster relief in key areas, such as command
ters-State that verifies compliance with mission    procedures, information sharing, phase-zero
reporting requirements and provides feedback        activities and dissemination of lessons learned.
to WMD CST on omissions and errors.                 In addition, the undersecretary of defense for
Report No. DODIG-2012-110                           policy, in coordination with the geographic
                                                    combatant commanders, should identify steps
Most Geographic Combatant Commands                  to improve information sharing with non-DoD
Effectively Planned and Executed Disaster Relief    partners during foreign disaster relief opera-
Operations, but Improvements Needed                 tions. U.S. European, Central, Southern, Pacific

                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 29
Core Mission Areas



                                       and Africa Commands’ comments were respon-            that the executive director, ACC-Rock Island,
                                       sive to the recommendation. Comments from             determine whether any remedial actions are ap-
                                       the undersecretary of defense for policy were         propriate for not meeting contract requirements.
                                       partially responsive but met the intent of the        In addition, the executive director, ACC-Rock
                                       recommendations.                                      Island, and the commander, DCMA-Kuwait,
                                       Report No. DODIG-2012-119                             determine whether any administrative actions
                                                                                             against contract oversight officials are appropri-
                                       Wholesale Accountability Procedures Need              ate, and that the executive director, ACC-Rock
                                       Improvement for Redistribution Property               Island, update the performance work statement
                                       Assistance Team Operations                            to include specific RPAT requirements.
                                       Overview: From Oct. 18 through Dec. 18, 2011,         Report No. DODIG-2012-138
                                       Camp Virginia Redistribution Property Assis-
                                       tance Team officials relieved units of account-       DoD’s Management of the Redistribution
                                       ability for approximately 2,300 vehicles and          Property Assistance Team Operations in Kuwait
                                       24,600 items. DoD IG determined whether the           Overview: This was the first in a series of
DoD IG determined if DoD effectively   Army had accountability over major end items          reports on RPAT operations in Kuwait. DoD IG
managed RPAT operations in Kuwait.
                                       of equipment (Class VII) turned-in at Camp            determined whether DoD effectively managed
                                       Virginia, Kuwait.                                     RPAT operations in Kuwait to ensure DoD was
                                       Findings: The Army did not have adequate con-         prepared to handle the anticipated amount of
                                       trols over the accountability of items turned-in      materiel (equipment) related to the drawdown
                                       at the Camp Virginia RPAT yard. Specifically,         from Iraq. For this report, DoD IG reviewed
                                       Camp Virginia RPAT contractors did not use            the process for turning in equipment at the
                                       automated procedures to obtain wholesale ac-          Camp Virginia, Kuwait RPAT yard, along with
                                       countability, properly upload items into the vis-     verifying selected documentation related to the
                                       ibility system or account for all Army Commu-         turn-in process.
                                       nications-Electronics Command items at Camp           Findings: Camp Virginia RPAT officials effec-
                                       Virginia. This occurred because Army Sustain-         tively managed operations in Kuwait to accom-
                                       ment Command and ACC-Rock Island officials            plish their primary mission of supporting the
                                       did not update the performance work statement,        drawdown of U.S. forces from Iraq. Specifically,
                                       and ACC-Rock Island and DCMA-Kuwait offi-             Camp Virginia RPAT officials relieved units of
                                       cials did not appoint a contracting officer’s rep-    accountability for their theater provided equip-
                                       resentative until five months after the contractor    ment before redeploying to their home stations.
                                       began operations. In addition, the quality assur-     Result: During the review, DoD IG provided
                                       ance representative and contracting officer rep-      RPAT officials with observations based on con-
                                       resentative’s audits of the contractor did not pro-   cerns with the four-corners process, “frustrated”
                                       vide assurance that the contractor met contract       equipment and security controls. Camp Virginia
                                       requirements. As a result, of the 297 reviewed        RPAT officials implemented corrective actions
                                       items turned-in at the Camp Virginia RPAT             throughout the audit to address DoD IG con-
                                       yard, 84 items, valued at approximately $6 mil-       cerns.
                                       lion, were not accounted for; 149 items, valued       Report No. DODIG-2012-071
                                       at approximately $33 million, were not account-
                                       ed for timely; and 14 vehicles, valued at ap-
                                       proximately $5.5 million, had multiple records        Information Assurance,
                                       in the inventory systems. Inaccurate or delayed
                                       accountability of items in the inventory systems
                                                                                             Security and Privacy
                                                                                             The Department views information as a strategic
                                       does not accurately represent the Army’s assets       asset. With the increase of both state-sponsored
                                       and increases the vulnerability for loss or theft.    and independent cyber threats, the Department
                                       Result: Among other recommendations, DoD              is recognizing the growing importance of lead-
                                       IG recommended that the commander, Army               ing a strong and secure presence in cyberspace.
                                       Sustainment Command, conduct a reconcilia-            As identified in the Department’s strategy for
                                       tion of all items turned-in at Camp Virginia and      operating in cyberspace, the continuing growth

30 SEMIANNUAL REPORT TO THE CONGRESS
of networked systems, devices and platforms          privacy.                                                     “With the increase of
means that cyberspace is an integral part of         Findings: Between Aug. 1, 2011, and July 31,                  both state-sponsored
the capabilities the Department relies upon to       2012, the DoD audit community and Govern-
complete its mission. The DoD networks are un-       ment Accountability Office issued 32 reports
                                                                                                                 and independent cyber
der constant attack from cyber security threats      and two testimonies addressing a wide range of             threats, the Department
launched from the Internet or from malicious         IA weaknesses that persist throughout DoD sys-                   is recognizing the
software embedded in email attachments, re-          tems and networks. Reports issued during the                  growing importance
movable media or embedded in the hardware            reporting period most frequently cited weak-                    of leading a strong
that DoD procures. The Department must ad-           nesses in the IA categories of risk management,
dress challenges in potential adversarial activity   configuration management, identity and access
                                                                                                                 and secure presence in
to include theft or exploitation of data; disrup-    management, and asset management. The infor-                          cyberspace. ”
tion or denial of access or service that affects     mation security weaknesses in DoD networks
the availability of networks, information or net-    continued to provide unauthorized personnel
work-enabled resources; and destructive action       the opportunity to modify, steal, inappropriately
including corruption, manipulation or direct         disclose and destroy sensitive DoD data. Persis-
activity that threatens to destroy or degrade net-   tent weaknesses in information security policies
works or connected systems. DoD IG recognizes        and practices continued to threaten the avail-
the challenge the Department has ensuring the        ability, integrity, authentication, confidentiality
security and privacy of DoD information, and         and non-repudiation of critical information and
DoD IG issued reports this period addressing         information systems used to support operations,
physical access controls, system controls and the    assets and personnel.
DFAS information assurance vulnerability man-        Result: In this summary report, DoD IG iden-
agement program.                                     tified recommendations from previous reports.
                                                     Therefore, this report contained no new recom-
Summary of Information Assurance Weaknesses          mendations and was provided for information
as Reported by Audit Reports Issued from Aug.        purposes only.
1, 2011, Through July 31, 2012                       Report No. DoDIG-2012-145
Overview: DoD IG summarized audit reports,
issued between Aug. 1, 2011, and July 31, 2012,      DoD Should Procure Compliant Physical
that contained findings on information assur-        Access Control Systems to Reduce the Risk of
ance weaknesses in DoD. This summary report          Unauthorized Access
is to provide a reference document that identi-      Overview: DoD IG determined whether the
fies audit reports containing findings about in-     services developed, procured and maintained
formation assurance weaknesses in DoD and            physical access control systems that were com-
supports DoD IG response to the requirements         pliant with Homeland Security Presidential Di-
of Public Law 107-347, Title III, “Federal Infor-    rective-12, “Policy for a Common Identification
mation Security Management Act,” section 3545,       Standard for Federal Employees and Contrac-
Dec. 17, 2002. This report is the 14th informa-      tors,” Aug. 27, 2004, and Federal Information
tion assurance summary report issued by DoD          Processing Standard 201, “Personal Identity
IG since January 1999. To remain consistent          Verification of Federal Employees and Contrac-
with the Department of Homeland Security FY          tors,” Incorporating Change 1, March 2006.
2012 FISMA reporting metrics, the IA weakness        Findings: DoD did not realize potential cost ef-
categories used in this year’s report have been      ficiencies associated with standardization when
updated from the previous summary reports.           procuring physical access control systems and
The updated IA weakness categories support a         physical access control equipment. Further, the
more efficient and effective DoD IG response to      services procured and fielded physical access
the FISMA reporting metrics. The information         control systems that did not comply with Feder-
assurance categories include reporting metrics       al Information Processing Standard 201 authen-
identified by the Department of Homeland Se-         tication and interoperability requirements. The
curity for agency inspectors general, chief infor-   secretary of defense principal staff assistants did
mation officers and senior agency officials for      not provide oversight to ensure the procurement

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 31
Core Mission Areas



                                       and fielding of compliant physical access con-        Improvements Needed to Strengthen the
                                       trol systems. The services spent approximately        Defense Enrollment Eligibility Reporting
                                       $35 million to procure and field noncompliant         System Security Posture
                                       physical access control equipment that need           Overview: DoD IG determined whether con-
                                       replacing or upgrades. Until DoD components           trols were designed and effectively implemented
                                       procure and field compliant physical access con-      over the Defense Enrollment Eligibility Report-
                                       trol systems and physical access control equip-       ing System to deter and protect sensitive data
                                       ment, DoD will continue to delay its ability to       from compromise by internal and external cy-
                                       increase government efficiency, enhance secu-         ber threats.
                                       rity and increase protection against terrorist        Findings and Result: This report is FOUO.
                                       exploitation. Additionally, the services procured     Report No. DODIG-2012-090
                                       and fielded, or planned to field, physical access
                                       control systems at 18 installations that did not      Improvements Needed to the Defense Finance
                                       meet operational and mission requirements.            and Accounting Service Information Assurance
                                       This occurred because the services did not al-        Vulnerability Management Program
                                       ways perform adequate installation evaluations        Overview: DoD IG determined whether the
                                       to ensure infrastructure limitations and mission      Defense Finance and Accounting Service imple-
                                       requirements were properly considered. As a           mented effective processes for managing and
                                       result, the services spent resources on physical      mitigating system vulnerabilities.
                                       access control equipment that may not be used         Findings and Result: This report is FOUO.
                                       at some installations and will not realize the full   Report No. DODIG-2012-080
                                       security benefits associated with Homeland Se-
                                       curity Presidential Directive-12.
                                       Result: In December 2011, DoD IG issued quick         Health Care
                                       reaction memoranda to the services, identified        The Department seeks to better manage DoD
                                       purchases of noncompliant physical access con-        health benefits in a way that improves quality
                                       trol equipment and made suggestions for cor-          and satisfaction, while more responsibly man-
                                       rective actions. Suggestions for corrective ac-       aging costs by building a shared commitment
                                       tions included ensuring physical access control       to health care. The Department of Defense must
                                       systems complied with federal authentication          continue to provide the highest quality care
                                       requirements and purchasing physical access           and service, while ensuring fiscally responsible
DoD IG conducts reviews related to
military health care.                  control equipment that is listed on the Gen-          management. The DoD strategy is to continue
                                       eral Services Administration approved product         to ensure the military force is medically ready
                                       list. As a result, the Army and Navy responded        to deploy, reduce the generators of ill health
                                       with their respective plan of action. Addition-       while encouraging healthy behaviors, provide
                                       ally, DoD IG recommended the undersecretary           the highest quality that is patient- and family-
                                       of defense for personnel and readiness establish      centered and responsibly manage the total cost
                                       milestones for the Department’s full implemen-        of health care.
                                       tation of Homeland Security Presidential Di-
                                       rective-12, require DoD components to report          During this reporting period, DoD IG issued
                                       semiannually on implementation efforts and            reports addressing DoD efforts in reporting the
                                       ensure DoD components are held accountable            location of deployed service members; planning
                                       for missed milestones. Additionally, DoD IG           for the availability of specialty care associated
                                       recommended the services require all contracts        with the Guam realignment efforts; and efforts
                                       for physical access control systems mandate           to obtain proper cost reimbursements from
                                       compliance with Federal Information Process-          contractors receiving medical treatment at DoD
                                       ing Standard 201, ensure physical access control      medical treatment facilities in Southwest Asia.
                                       equipment is procured from the GSA Approved
                                       Products List and require site surveys that ad-       Reporting the Daily Location of Deployed
                                       dress all installation operational requirements.      Service Members Generally Adequate; However,
                                       Report No. DODIG-2012-122                             the Navy Needs Improvement

32 SEMIANNUAL REPORT TO THE CONGRESS
Overview: DoD IG performed this audit as a          health care to develop and implement a billing
result of a request from the Office of the Assis-   system. The working group designated DFAS to
tant Secretary of Defense (Health Affairs). DoD     perform billing, but the group did not assign a
IG assessed DoD’s effectiveness in reporting the    functional proponent to oversee the billing sys-
daily location of deployed service members for      tem. DoD IG estimated that DoD did not bill
use in health surveillance. Specifically, DoD IG    contractors for at least $8.1 million in health care
evaluated the status of the military departments’   expenses for FY 2010. This estimate does not in-
implementation of daily service member loca-        clude missed opportunities to bill contractors
tion reporting to the Defense Manpower Data         for health care between FY 2006 to 2009, when               DoD IG reviewed location reporting of
Center.                                             DoD issued guidance. In addition, DoD com-                  deployed service members.

Findings: The Army, Air Force and Marine            ponents experienced data reliability problems
Corps reported the daily location of deployed       that affected the accuracy of the bills, totaling
service members; however, the Navy did not          $84,116, for contractor health care provided in
report the required deployment information.         February 2011. This occurred because the DoD
The Office of the Assistant Secretary of the Navy   working group decided to use two nonfinancial
(Manpower and Reserve Affairs) did not task         databases that were not intended for billing and
the appropriate Navy commands to establish          staff at medical treatment facilities in Southwest
clear roles and responsibilities for implement-     Asia and contractor personnel made data input
ing the daily location reporting requirements.      errors. As a result, DoD under-billed contrac-
Therefore, the Defense Manpower Data Center         tors for health care provided in February 2011
did not have comprehensive DoD daily service        by at least $128,850. Without improvements to
member deployment records available for users       the billing process, it is likely that DFAS will
to monitor, assess and control or reduce health     continue to under-bill.
risks from service member exposures to occupa-      Result: DoD IG recommended that the under-
tional and environmental hazards.                   secretary of defense (comptroller)/chief finan-
Result: DoD IG recommended that the assistant       cial officer chair a meeting with the undersec-
secretary of the Navy (manpower and reserve af-     retary of defense for acquisition, technology
fairs) task the appropriate commands to estab-      and logistics and the undersecretary of defense
lish roles and responsibilities for implementing    for personnel and readiness to assign a DoD
daily location reporting for deployed service       functional proponent for billing contractors for
members. Management was responsive to the           health care. Additionally, DoD IG recommend-
recommended corrective action.                      ed that the undersecretary of defense (comptrol-
Report No. DODIG-2012-112                           ler)/chief financial officer, DoD, in coordination
                                                    with the DoD working group and the propo-
DoD Needs to Improve the Billing System for         nent, establish controls to correct the problems
Health Care Provided to Contractors at Medical      that were identified; review the current billing
Treatment Facilities in Southwest Asia              system for accuracy; and bill for health care pro-
Overview: The previous commander, U.S. Cen-         vided to contractor personnel before February
tral Command, requested this audit. DoD IG          2011 and amounts under-billed in 2011.
followed up on the actions taken by manage-         Report No. DODIG-2012-106
ment in relation to previously recommend-
ed corrective actions in DoD IG Report No.          Guam Medical Staffing Plan Needs Improve-
D-2009-078, “Health Care Provided by Military       ment to Ensure Eligible Beneficiaries Will Have
Treatment Facilities to Contractors in Southwest    Adequate Access to Health Care
Asia,” May 4, 2009.                                 Overview: This is the second in a series of re-
Findings: In April 2011, DoD began billing con-     ports regarding the adequacy of medical plans
tractors for health care provided in Southwest      related to the realignment of service members
Asia; however, improvements to the billing sys-     and their families to Guam. DoD IG determined
tem are needed. DoD officials took more than        whether the methodology and plan used to de-
five years from the issuance of DoD guidance        termine the number and type of medical staff
that required contractor reimbursement for          needed for eligible beneficiaries in Guam ensure

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 33
Core Mission Areas



                                        that beneficiaries have adequate access to care,        and capable ANSF. The long-term goal has been
                                        given the expected population increases result-         to build and develop ANSF that were nation-
                                        ing from the realignment to Guam.                       ally respected; professional; ethnically balanced;
                                        Findings: The Navy Medicine West methodol-              democratically accountable; organized, trained
                                        ogy for determining medical staffing require-           and equipped to meet the security needs of the
                                        ments was reasonable. However, the resulting            country; and increasingly funded from govern-
                                        plan did not adequately identify and assess the         ment of Afghanistan revenue.
                                        risks associated with not expanding specialty
                                        care in Guam although the beneficiary popula-           Since 2005, a DoD IG core emphasis area is to
                                        tion was projected to increase from 14,195 in FY        provide effective oversight on equipping and
                                        2005 to 37,467 by FY 2020. For example, Navy            training ANSF. DoD IG’s initial effort in 2005
                                        Medicine West personnel did not adequately              focused on a management decision model that
                                        plan for nine specialties that are available to         can be used to conduct periodic assessments of
                                        beneficiaries in Okinawa, Japan, such as neu-           the capability and readiness of the Afghanistan
                                        rology, neonatal intensive care unit and gastro-        Ministry of Defense and the Afghan National
                                        enterology. Navy Medicine West personnel did            Army. In 2006, DoD IG in conjunction with the
                                        not apply their methodology for determining             Department of State OIG, issued a joint report
                                        medical staffing requirements to the specialties        on training and equipping the Afghanistan Na-
                                        that the U.S. Naval Hospital Guam did not pro-          tional Police.
                                        vide; and assumed the aeromedical evacuation
                                        system that moved 374 patients (including 64            DoD IG and DoS OIG, have issued several ad-
                                        urgent and priority patients) out of Guam in FY         ditional joint reports on training the ANP. DoD
                                        2010 could handle the increased requirements            IG has also reviewed efforts to build the ANSF
                                        resulting from the Guam realignment without             logistics and medical capabilities as well as con-
                                        coordinating with the Air Force. Consequently,          tracting processes; developing equipment re-
                                        the Navy Medicine West plan did not sufficiently        quirements; manage goods and materiel provid-
                                        mitigate the risks associated with not providing        ed; and use funds designated to support training
                                        additional specialty care in such a remote loca-        and equipping the ANSF.
                                        tion and ensure the beneficiaries in Guam will
                                        have adequate access to health care.                    DoD IG issued reports addressing challenges in
                                        Result: DoD IG recommended that the chief,              providing effective training, adequate contract-
                                        Navy Medicine West apply the staffing meth-             ing for services and materiel and development
                                        odology for specialties that U.S. Naval Hospital        of equipment requirements.
                                        Guam does not provide; coordinate with the Air
                                        Force to determine if the aeromedical evacua-           Mi-17 Overhauls Had Significant Cost Over-
                                        tion system can handle future demands; and              runs and Schedule Delays
                                        identify and assess the risks of not providing          Overview: DoD IG determined whether DoD
                                        certain specialty care and develop plans for miti-      personnel performed proper oversight, manage-
                                        gating unacceptable risks.                              ment and pricing of two Counter Narcoterror-
                                        Report No. DODIG-2012-088                               ism Technology Program Office task orders for
                                                                                                the overhaul of Mi-17 helicopters.
                                                                                                Findings: Army contracting and program man-
DoD IG reviewed task orders for the
                                        Equipping and Training                                  agement officials did not perform adequate
overhaul of Mi-17 helicopters.
                                        Iraqi and Afghan                                        oversight and management of Counter Narco-
                                                                                                terrorism Technology Program Office contracts
                                        Security Forces                                         for the overhaul of Mi-17 aircraft. Specifically,
                                        The Afghan National Security Forces are a criti-        the contracting officers and program manage-
                                        cal pillar for establishing security and stability in   ment officials did not adequately support the
                                        Afghanistan. Following the removal from power           contractor’s oversight of its subcontractor. The
                                        of the Taliban in 2002, DoD and coalition mem-          subcontractor denied the DoD and contractor
                                        bers have focused on establishing an effective          quality assurance personnel access to its over-

 34 SEMIANNUAL REPORT TO THE CONGRESS
haul facility. The subcontractor’s aircraft over-     sonable estimates of actual costs on foreign mili-
haul took 12 to 20 months longer than planned,        tary sales cases funded by ASFF appropriations.
failed to identify unsanctioned parts that must       Specifically, DSCA collected the following sur-
be replaced and cost the government $16.4 mil-        charges:
lion in unnecessary costs. The Army Space and         •	 Administrative: more than $848 million
Missile Defense Command, Contracting and                   from cases funded by FY 2005 through FY
Acquisition Management Office contracting of-              2011 ASFF appropriations, but its cost re-
ficers did not adequately determine pricing and            cords did not support the surcharge rate.
negotiation for contract modifications on two         •	 Contract administration services: an un-
task orders. The contracting officer did not ade-          known amount and it could not compare
quately justify $90.4 million in task order modi-          actual expenses to surcharges collected.
fications as fair and reasonable.                     •	 Transportation expense: an unknown
Result: DoD IG recommended that (1) the                    amount and it could not identify the ex-
Army debarment official consider whether sus-              penses for each ASFF case.
pension or debarment is warranted for the sub-        DSCA did not have adequate policies and proce-
contractor and its affiliates; (2) the deputy as-     dures that required preparation of detailed cost
sistant secretary of the Army for procurement         accounting records to support surcharge rates
review the contracting officers’ performance; (3)     with actual cost data or to use available cost data
the program executive officer, Aviation, conduct      when reviewing the contract administration
training for contracting officer’s representatives;   services and transportation expense surcharge
and (4) the assistant secretary of the Army for       rates. In addition, DSCA did not have policies
acquisition, logistics and technology conduct         to determine whether it properly used ASFF ap-
a review of project management personnel ac-          propriations when it made transfers between
tions. DoD IG recommended that the executive          the administrative and transportation expense
director, Aviation and Missile Life Cycle Man-        surcharge accounts. As a result, it was unclear
agement Command/Space and Missile Defense             whether DSCA assessed appropriate surcharges
Command Contracting Center, implement a               to pay for the actual expenses for ASFF cases
process to use cost and price analysts to assist      or how much of the $2.8 billion balance in the
contracting officers in making fair and reason-       three surcharge accounts resulted from high
able price determinations and establish controls      rates for ASFF cases. Further, a DSCA transfer
to verify that they use cost or price analyses,       of $130 million from the administrative account
obtain cost and pricing data, and document fair       to clear deficits in the transportation account
and reasonable price determinations.                  may have subsidized sales of military equipment
Report No. DODIG-2012-135                             and services to foreign governments with ASFF
                                                      appropriations. Improved cost accounting and a
Fees and Surcharges Assessed on Afghanistan           DoD working group would facilitate cost-saving                  “DSCA did not have
Security Forces Fund Orders Need Improved             measures, such as those advocated by the secre-                    adequate policies
Cost Accounting                                       tary of defense. Such measures could reduce fu-
                                                                                                                          and procedures
Overview: DoD IG reviewed the fees and sur-           ture estimated administrative surcharges DSCA
charges assessed by DoD components when               expects to collect on ASFF cases, which would                         that required
they fulfilled orders funded by the Afghanistan       help free up funds for operations in Afghanistan.                    preparation of
Security Forces Fund and how they identified          Result: DoD IG recommended the undersec-                               detailed cost
their actual costs to support the fees and sur-       retary of defense (policy) establish a working                   accounting records
charges assessed.                                     group to review surcharge policies, rates and ac-
                                                                                                                     to support surcharge
Findings: The U.S. Army Corps of Engineers            counting requirements related to ASFF orders.
and the Air Force Center for Engineering and          The director, DSCA, should implement policy                                 rates...”
the Environment generally had appropriate cost        to require detailed cost accounting procedures.
accounting procedures; however, the Defense           The policy should ensure that the DSCA rates
Security Cooperation Agency did not maintain          reasonably reflect actual costs for ASFF cases,
adequate cost accounting records that showed          identify actual contract administration servic-
whether three surcharge rates represented rea-        es and transportation expenses, and establish

                                                                                                            APRIL 1, 2012 TO SEPTEMBER 30, 2012 35
Core Mission Areas



                                       controls to segregate appropriated and foreign      monthly contracting officer’s representatives’ re-
                                       country funds in the surcharge accounts.            port templates to properly monitor the contrac-
                                       Report No. DODIG-2012-128                           tor’s performance of vocational training.
                                                                                           Report No. DODIG-2012-104
                                       DoD needs to Improve Vocational Training Ef-
                                       forts to Develop the Afghan National Security       Accountability of Night Vision Devices Pro-
                                       Forces Infrastructure Maintenance Capabilities      cured for the Afghan National Security Forces
                                       Overview: DoD IG determined whether voca-           Needs Improvement
                                       tional training provided under the contracts to     Overview: DoD IG reviewed DoD, ANSF and
                                       conduct operations and maintenance services         contractor accountability for 7,157 night vision
                                       for the Afghan National Security Forces was ef-     devices and associated spare tubes procured for
                                       fective in developing ANSF infrastructure main-     the ANSF.
                                       tenance capabilities.                               Findings: DSCA officials, NATO Training Mis-
DoD IG reviewed accountability for     Findings: Vocational training provided un-          sion-Afghanistan/Combined Security Transi-
night vision devices.
                                       der the operations and maintenance contracts        tion Command-Afghanistan officials, ANSF
                                       did not effectively develop ANSF infrastruc-        officials and DoD contractors did not maintain
                                       ture maintenance capabilities. Specifically, U.S.   complete accountability for NVDs and associ-
                                       Army Corps of Engineers and Combined Se-            ated spare tubes procured for the ANSF. Specifi-
                                       curity Transition Command-Afghanistan of-           cally, DoD IG identified:
                                       ficials did not require the contractor to imple-    •	 342 NVD serial numbers were missing
                                       ment vocational training at nine of the 18 ANSF          from the Security Cooperation Information
                                       sites required by the contracts. This occurred           Portal and 88 NVD serial numbers were
                                       because CSTC-A Infrastructure Training Advi-             missing from the Operational Verification
                                       sory Group officials were still developing their         of Reliable Logistics Oversight Database
                                       transition strategy and assessing the feasibility        during DoD IG’s shipping document rec-
                                       of implementing training at additional sites. In         onciliations.
                                       addition, USACE officials did not incorporate       •	 113 NVD serial numbers were missing
                                       measurable performance standards in the con-             from Security Cooperation Information
                                       tracts or conduct sufficient quality assurance           Portal and 40 NVD serial numbers were
                                       activities because officials considered the vo-          missing from the Operational Verification
                                       cational training portion of the contracts to be         of Reliable Logistics Oversight Database in
                                       negligible in relation to the value of operations        DoD IG’s Security Cooperation Informa-
                                       and maintenance services to be performed.                tion Portal and the Operational Verification
                                       CSTC-A will continue to be at an increased risk          of Reliable Logistics Oversight Database
                                       for not meeting its goal to transition facility          comparisons.
                                       operations and maintenance responsibilities to      •	 75 NVDs were unaccounted for during
                                       the ANSF by the end of 2014. In addition, the            DoD IG’s physical inventory.
                                       approximately $10.3 billion planned U.S invest-     •	 397 discrepancies existed in the contractor’s
                                       ment in facilities may be diminished if ANSF are         database and 518 discrepancies across four
                                       unable to maintain their infrastructure.                 units’ property books during DoD IG’s ac-
                                       Result: Among other recommendations, DoD                 countable record reconciliations.
                                       IG recommended that CSTC-A execute existing         This occurred because:
                                       transition strategy initiatives and develop new     •	 DSCA officials did not provide adequate
                                       initiatives to accelerate development of ANSF            oversight to verify that U.S. Army Com-
                                       infrastructure maintenance capabilities. In ad-          munications-Electronics Command and
                                       dition, CSTC-A, in coordination with USACE               NTM-A/CSTC-A officials properly imple-
                                       officials, should accelerate training implementa-        mented procedures.
                                       tion at ANSF sites with an Infrastructure Train-    •	 NTM-A/CSTC-A officials did not always
                                       ing Advisory Group presence. DoD IG also                 reconcile the NVDs received to the ship-
                                       recommended that USACE, in coordination                  ping documents, use Security Cooperation
                                       with CSTC-A officials, update the contracts and          Information Portal for NVD accountability,

36 SEMIANNUAL REPORT TO THE CONGRESS
      perform complete physical inventories and      increased by $145.3 million in the first four                        “As a result, the
      provide adequate oversight of DoD con-         months of the contractor’s performance and                      Army did not receive
      tractors and ANSF officials.                   contractor officials still had not reached the
                                                                                                                     potential cost savings
•	 U.S. Army Communications-Electronics              staffing levels required in the contract at the time
      Command officials did not provide ad-          of the DoD IG review. The DCMA-Afghanistan                          by competing the
      equate oversight of DoD contractors.           administrative contracting officer inappropri-                              contract.”
As a result, NVDs and associated spare tubes are     ately authorized the prime contractor to award a
more vulnerable to theft or loss, officials cannot   subcontract for a power plant upgrade that was
rely on the data as a tool to determine NVD re-      outside the scope of the work of the prime con-
quirements, and officials cannot perform effec-      tract. As a result, the Army did not receive po-
tive end-use monitoring.                             tential cost savings by competing the contract.
Result: DoD IG recommended the director,             Result: DoD IG recommended that the ex-
DSCA, should provide adequate oversight of           ecutive director, ACC-Rock Island, direct the
U.S. Army Communications-Electronics Com-            ACC-Rock Island procuring contracting officer
mand and NTM-A/CSTC-A. The commanding                to verify that the contractor does not request
general, NTM-A/CSTC-A, should reconcile all          funding for unnecessary positions and perform
NVDs; use the Security Cooperation Informa-          thorough cost analysis for contract changes.
tion Portal; perform complete physical invento-      Additionally, DoD IG recommended that the
ries; retain documentation; and verify adequate      procuring contract officer, ACC-Rock Island,
oversight and proper implementation of NVD           document a formal determination on whether
accountability guidance. The commanding gen-         an out-of-scope contract action occurred. DoD
eral, U.S. Army Communications-Electronics           IG recommended that the deputy command-
Command, should verify adequate oversight of         ing general for support, CSTC-A, monitor de-
DoD contractors. Management was responsive           ficiencies related to infrastructure for planned
to DoD IG recommendations.                           training efforts and that the commander, DC-
Report No. DODIG-2012-103                            MA-Afghanistan, review the actions of the ad-
                                                     ministrative contracting officer and determine
Afghan National Police Contract Requirements         whether any administrative actions are appro-
Were Not Clearly Defined but Contract                priate. Management comments were responsive
Administration Improved                              to the recommendations.
Overview: DoD IG, in ongoing series of reviews       Report No. DODIG-2012-094
of the Afghan National Police contract, issued a
report on whether the Army appropriately ad-         Improving Army Contract Award and
ministered the ANP contract, valued at approxi-      Management for Small Arms Acquired Using
mately $1.2 billion as of Jan. 31, 2012, in accor-   Afghanistan Security Forces Funds
dance with federal and DoD guidance.                 Overview: DoD IG evaluated contract award,
Findings: Army contracting officials at Army         pricing and quality assurance provisions for 45
Contracting Command-Aberdeen Proving                 contract actions, valued at approximately $103.2
Ground did not appropriately award and ad-           million. Army Contracting Command used
minister the ANP contract in accordance with         these contract actions to procure small arms,
federal and DoD guidance. CSTC-A person-             including accessories and spare parts, with Af-
nel made substantial changes to the statement        ghanistan Security Forces Funds.
of work immediately after contract award and         Findings: ACC officials did not properly award
the contractor more than doubled the size and        or manage 19 contract actions in accordance
cost of its program management office. CSTC-         with regulations and did not include specific
A, International Security Assistance Force Joint     quality requirements in the contract for 13 con-
Command, and Army contracting officials did          tract actions because they did not perform all
not adequately define contract requirements or       necessary contracting procedures when acceler-
identify that the contractor omitted key pro-        ating procurements. Specifically, ACC contract-
gram office positions from its proposal during       ing officials did not:
the source selection process. The ANP contract       •	 Properly compete or adequately justify

                                                                                                            APRIL 1, 2012 TO SEPTEMBER 30, 2012 37
Core Mission Areas



“DoD IG determined                            sole-source awards for six actions.             Development of Individual Equipment Require-
whether the process                     •	    Adequately determine foreign subcontrac-        ments for the Afghan National Army Needs Im-
                                              tor qualifications for 13 actions.              provement
for developing the                      •	 Adequately address contractor nonperfor-           Overview: DoD IG determined whether the
individual equipment                          mance for two actions.                          process for developing the individual equipment
requirements for                        •	 Require anything other than a visual in-           requirements for sustainment of the Afghan Na-
sustainment of the                            spection to verify the quantity and weapon      tional Army was adequate. Specifically, DoD IG
Afghan National Army                          type before acceptance for 13 actions.          reviewed the planning and processes for deter-
                                        As a result, ACC contracting centers may have         mining sustainment requirements for 15 types
was adequate.”                          overpaid on six contract actions and foreign-         of ANA individual equipment items in three
                                        manufactured small arms may be of lower qual-         commodity areas with a total cost of approxi-
                                        ity, delivered late or not at all. In addition, ACC   mately $667.6 million.
                                        contracting officials did not document the re-        Findings: NATO Training Mission-Afghani-
                                        quirement for 25 contract actions and the use of      stan/Combined Security Transition Command-
                                        commercial acquisition procedures for 10 con-         Afghanistan officials did not develop adequate
                                        tract actions. Contracting officials did not main-    sustainment requirements for the 15 types of
                                        tain a letter of offer and acceptance and docu-       ANA individual equipment items. Specifically,
                                        mentation to support the commercialization of         officials did not develop supportable recapital-
                                        the small arms in the contract file. Therefore,       ization and maintenance requirements. This oc-
                                        the ACC contracting officials may procure the         curred because NTM-A/CSTC-A:
                                        incorrect item or quantity and may be using ac-       •	 Relied on anecdotal evidence, experience
                                        quisition procedures that limit the government’s           and professional judgment to develop the
                                        ability to monitor and inspect the small arms.             recapitalization rates.
                                        Result: DoD IG recommended the executive di-          •	 Could not determine the items identified
                                        rector, ACC, require contracting officials to:             for recapitalization or the process used
                                        •	 Develop standard operating procedures for               to develop the requirements in FY 2007
                                              assessing foreign subcontractor capability.          through FY 2011.
                                        •	 Promptly resolve contractor nonperfor-             •	 Did not request all necessary maintenance
                                              mance.                                               data from contractors.
                                        •	 Review the contracting officials’ actions for      •	 Did not request subject-matter expertise
                                              the task order.                                      from the Life Cycle Management Com-
                                        •	 Include specific contract dates for obtaining           mands in developing sustainment require-
                                              the end-user certificate and delivering the          ments.
                                              small arms.                                     As a result, NTM-A/CSTC-A:
                                        •	 Include specific quality requirements and          •	 Had no assurance that 2,613 individual
                                              inspection and acceptance provisions in the          equipment items, costing $5.6 million,
                                              contract.                                            planned for recapitalization in FY 2012
                                        •	 Maintain approved letters of offer and ac-              were sufficient to replace irreparably dam-
                                              ceptance and market research used to sup-            aged or lost items.
                                              port the commercial item determination in       •	 Had no assurance that items would be avail-
                                              the contract file.                                   able to replace a potential 29,569 irrepara-
                                        DoD IG recommended that the commanding                     bly damaged or lost ANA individual equip-
                                        general, U.S. Army Security Assistance Com-                ment items, valued at approximately $49
                                        mand, develop guidance that requires approved              million, acquired before FY 2012.
                                        letters of offer and acceptance be provided to        •	 Did not have information to make informed
                                        contracting officers. The executive director,              decisions on ANA individual equipment
                                        ACC, and the deputy to the commanding gener-               sustainment requirements.
                                        al, Army Security Assistance Command, agreed          Result: The commanding general, NTM-A/
                                        with the recommendations.                             CSTC-A should develop and implement a plan
                                        Report No. DODIG-2012-093                             to:
                                                                                              •	 Identify and obtain data necessary to sup-

 38 SEMIANNUAL REPORT TO THE CONGRESS
   port ANA individual equipment recapital-           cal Distribution
   ization and maintenance requirements.              Overview: DoD IG conducted this audit in re-
•	 Determine the condition of individual              sponse to a February 2011 assessment that DoD
   equipment items acquired before FY 2012            IG performed at the Afghan National Army Na-
   and identify recapitalization requirements.        tional Military Hospital, Kabul, Afghanistan, on
•	 Obtain information from subject-matter             health care and sanitation. DoD IG determined
   experts to assist with the development of          whether the pharmaceutical distribution pro-
   sustainment requirements.                          cess within the ANA health care system was ef-
Report No. DODIG-2012-092                             fective.
                                                      Findings: Although the ANA pharmaceutical
Better Contract Oversight Could Have                  distribution process improved since February
Prevented Deficiencies in the Detention Facility      2011, the procurement, delivery and inventory
in Parwan, Afghanistan                                control processes for pharmaceuticals at medi-
Overview: DoD IG initiated this audit in re-          cal facilities and depots could be improved. Spe-
sponse to a concern from the commander, Task          cifically, Afghan Logistics Command officials
Force Protector. In May 2010, the commander           effectively received, accounted for and prepared
identified deficiencies that existed within the de-   pharmaceuticals for issuance to the forward
tention facility in Parwan, Afghanistan, includ-      supply depots and National Military Hospital.
ing major infrastructure systems (for example,        However, of the six supply depots and medical               DoD IG reviewed contract oversight at a
sewage and fire suppression systems).                 facilities reviewed, four did not have or main-             detention facility in Afghanistan.

Findings: The U.S. Army Corps of Engineers            tain pharmaceutical accountability controls and
Afghanistan Engineer District-North officials         none properly used or completed all Ministry
accepted the detention facility from the contrac-     of Defense forms. The new distribution process
tor in September 2009, although major deficien-       was still early in its implementation. Specifically,
cies existed. Specifically, the contractor used       ANA officials, in coordination with Combined
materials in major infrastructure systems that        Security Transition Command-Afghanistan,
did not conform to the contract specifications.       did not effectively communicate with or train
USACE Afghanistan Engineer District-North             all ANA personnel. In addition, Afghan Medi-
officials did not provide adequate oversight over     cal Command officials, in coordination with
the construction of the detention facility and        CSTC-A, did not develop procedures instruct-
did not comply with their internal policies re-       ing medical facility personnel how to implement
garding oversight of the contractor’s warranty.       logistics guidance and how to collect and accu-
As a result, major infrastructure systems had         rately report on pharmaceutical usage data. In
recurring deficiencies requiring replacement or       addition, none of the 11 vendors, which Afghan
repair. These deficiencies increased safety and       Acquisition, Technology and Logistics officials
security risks to DoD personnel and detainees.        selected for a $4.7 million contract to procure
Result: Among other recommendations, DoD              pharmaceuticals and medical supplies, delivered
IG recommend that the commander, USACE                all of the pharmaceuticals in accordance with
Afghanistan Engineer District-North, identify         contract requirements. Officials did not fully
and perform a review of personnel responsible         document vendor evaluations during source se-
for the inadequate oversight of the construction      lection. As a result, ANA is at an increased risk
and initiate administrative action if deemed ap-      that the usage data cannot be relied upon to de-
propriate; direct the contracting officer to main-    velop pharmaceutical requirements and there is
tain copies of all acceptance-testing results in      an increased risk of mismanagement, theft and
the official contract file and train personnel on     waste of U.S.-funded pharmaceuticals. In addi-
the need to adhere to formal warranty proce-          tion, CSTC-A is at risk of not being able to tran-
dures.                                                sition the distribution process to complete ANA
Report No. DODIG-2012-089                             control.
                                                      Result: DoD IG commended CSTC-A and
Additional Guidance and Training Needed to            ANA officials for corrective actions taken or
Improve Afghan National Army Pharmaceuti-             planned in response to preliminary concerns

                                                                                                             APRIL 1, 2012 TO SEPTEMBER 30, 2012 39
Core Mission Areas



                                        identified during the audit, such as improving     Force. Air Force comments were responsive for
                                        access controls, providing training and issuing    10 of the 16 recommendations.
                                        guidance. DoD IG recommended that the com-         Result: The majority of the remaining recom-
                                        mander, CSTC-A, direct mentors to assist ANA       mendations will be addressed by the upcoming
                                        personnel to develop a communication strategy      revision to Air Force Manual 31-108. The report
                                        and training program, provide training and is-     is classified.
                                        sue guidance for medical facilities, and ensure    Report No. DoDIG-2012-079
                                        acquisition, technology and logistics officials
“... the Air Force has                  maintain and include sufficient documentation      Assessment of Air Force Global Strike Com-
reduced manning at                      on vendor evaluation and selection process.        mand Organizational Structures, Roles and Re-
20th Air Force and 8th                  Report No. DODIG-2012-083                          sponsibilities
Air Force headquarters                                                                     Overview: DoD IG reviewed the command re-
                                                                                           lationships of Air Force Global Strike Command
while increasing their
relevance.”                             Nuclear Enterprise                                 and its subordinate organizations. The objective
                                                                                           was to assess the effectiveness and efficiency of
                                        National security of the U.S. nuclear enterprise
                                        extends to providing oversight for evaluating      current command relationships. DoD IG also
                                        policies, procedures, plans and capabilities of    examined potential efficiencies and security ad-
                                        security and control of nuclear weapons.           vantages derived from alternative organizational
                                                                                           structures at Minot Air Force Base, N.D.
                                        Review of United States Air Force Nuclear          Findings: DoD IG determined that Air Force
                                        Weapon Security Program                            Global Strike Command took a proactive role
                                        Overview: This report examined the policies,       with regard to enhancing the Air Force’s nu-
                                        practices, plans and capabilities for physical     clear enterprise focus prior to initiation of the
                                        security and control of nuclear weapons in Air     DoD IG assessment. As a result, the Air Force
                                        Force custody. It examined the vulnerabilities     has reduced manning at 20th Air Force and 8th
                                        determined by the Air Force; the physical im-      Air Force headquarters while increasing their
                                        provements accomplished; and how tactics,          relevance. DoD IG identified manpower and
                                        training and procedures were changed to miti-      command and control improvements that could
                                        gate these vulnerabilities. The progress was       potentially be utilized at Minot Air Force Base
                                        compared with the 2008 DoD nuclear weapon          to further enhance efficiency and effectiveness.
                                        physical security roadmap and what has yet to      Result: Comparable efficiencies will likely be
                                        be done was identified.                            realized via initiatives undertaken by Air Force
                                        Findings: The report provided actionable rec-      Global Strike Command prior to commence-
                                        ommendations that will strengthen the security     ment of the DoD IG review and as a result, there
                                        of nuclear weapons in the custody of the Air       were no recommendations.
                                                                                           Report No. DoDIG-2012-113




 40 SEMIANNUAL REPORT TO THE CONGRESS
The following cases are highlights of investiga-      She had previously pleaded guilty to conspiracy
tions conducted by DCIS and its federal law en-
forcement partners during the reporting period.
                                                      to money launder. The De La Mazas were or-
                                                      dered to jointly pay restitution of $860,863 and
                                                                                                          Investigations
DCIS investigations are listed under the follow-      satisfy an Aug. 31, 2012, money judgment of an
ing categories:                                       additional $860,863, which collectively totaled
•	 Procurement fraud.                                 $1.7 million. On the same day, a forfeiture of
•	 Public corruption.                                 $672,000 of real estate property was ordered to
•	 Product substitution.                              help satisfy the restitution order.
•	 Health care fraud.
•	 Technology protection                              $63.7 Million Settlement by Accenture LLP for
                                                      Alleged False Claims
                                                      Overview: A multi-agency joint investigation
Procurement Fraud                                     with DCIS disclosed that several computer-con-
Procurement fraud investigations continue to          sulting firms, including Accenture LLP, were in-
comprise a major part of the DCIS inventory           volved in giving or accepting kickbacks. Accen-
of cases. Procurement fraud includes but is not       ture accepted improper payments amounting to
limited to cost and labor mischarging, defective      kickbacks from hardware and software vendors
parts, defective pricing, price fixing, bid rigging   and other alliance partners in exchange for Ac-
and counterfeit parts.                                centure’s recommendation of vendors’ products
                                                      to government end users. Thus far, the following
The potential damage relating to procurement          computer-consulting firms have settled similar
fraud extends well beyond financial losses. It        allegations: EMC-$87.5 million; CSC-$1.4 mil-
poses serious threats to the ability of the De-       lion; IBM-close to $3 million; and Pricewater-
partment to achieve its operational objectives        house Coopers-$2.3 million.
and can negatively impact the implementation          Result: On Sept. 9, 2011, the Department of
of programs.                                          Justice entered into a civil settlement agreement
                                                      with Accenture, in which Accenture agreed
Ex-Army Master Sergeant and Wife Guilty in            to pay $63.7 million to settle the fraud allega-
Theft Scheme                                          tions. On June 12, 2012, the Eastern District
Overview: A joint investigation with the Army         of Arkansas issued a court order granting two
Criminal Investigations Command, Defense Lo-          whistleblowers 22 percent of the $63.7 million
gistics Agency OIG and the Air Force Office of        Accenture settlement, or $14 million.
Special Investigations disclosed that Francisco
Javier De La Maza and Gabriela De La Maza             $225,000 Settlement by Medico Industries for
were involved in a scheme of illegally obtaining      Alleged False Claims
and selling large quantities of excess govern-        Overview: A joint investigation with Naval
ment property from the Defense Reutilization          Criminal Investigative Service and Army Crim-
and Marketing Service. During a six-year period       inal Investigation Command determined that
Francisco De La Maza illegally obtained comput-       Medico Industries Inc. submitted erroneous cer-
ers, computer-related equipment and uniforms,         tificates of compliance to the government that
which he sold for financial gain. The scheme in-      stated that all deliveries were in conformance
cluded forging the signature of the commander         with specifications required under the contract.
of his military unit at Fort Sam Houston, Texas,      Medico improperly provided nonconforming
to gain access to the DRMS depots.                    tail cone assemblies for mortar illumination
Result: On Sept. 4, 2012, Francisco De La Maza        rounds (M767) and smoke rounds (M819) un-
was sentenced to 40 months confinement and 36         der a Joint Munitions Command contract.
months supervised release. He had previously          Result: On May 30, 2012, the Department of
pleaded guilty to theft of government property        Justice entered into a settlement agreement and
and aggravated identity theft. Gabriela De La         release with Medico, in which Medico agreed to
Maza was sentenced to 60-months probation.            pay $225,000 to settle the fraud allegations.


                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 41
Core Mission Areas



                                           DLA Supplier Aerofab and Affiliates Debarred
                                           Overview: A joint investigation with NCIS dis-
                                                                                                    Public Corruption
                                                                                                    Public corruption within DoD impacts national
                                           closed that Aerofab Inc. and affiliated companies
                                                                                                    security and safety and degrades the overall mis-
                                           Alpha Aerospace, Century Metals and owners
                                                                                                    sion of the warfighter. When brought to light,
                                           Jamie and Dona Tindall supplied nonconform-
                                                                                                    corruption undermines public trust and confi-
                                           ing/substitute products to DoD. Under DLA’s
                                                                                                    dence in the government and wastes billions in
                                           quality suppliers list for distributors, Aerofab
                                                                                                    tax dollars every year. DCIS is in a unique posi-
                                           supplied nonconforming solenoid valves, a criti-
                                                                                                    tion to investigate allegations of public corrup-
                                           cal application item, for use on towing tractors
                                                                                                    tion. Investigative tools and methods such as
                                           for the F-18 aircraft. The Tindalls created a new
                                                                                                    undercover operations, electronic surveillance
                                           affiliate after disqualification of a previous affili-
                                                                                                    and informants can provide a compelling wit-
                                           ate to continue the scheme of providing noncon-
                                                                                                    ness to the actual exchange of bribe money or
                                           forming materials by obtaining awards under
                                                                                                    a backroom handshake that seals an illegal deal
                                           the quality suppliers list of distributors program.
                                                                                                    and supplies critical evidence to send the cul-
                                           Result: On May 21, 2012, the Navy debarred
                                                                                                    prits to prison.
                                           Aerofab, Inc., Alpha Aerospace, Century Metals,
                                           Jamie Tindall and Dona Tindall from govern-
                                                                                                    Crowley Liner Services Ordered to Pay $17 Mil-
                                           ment contracting for ten years.
                                                                                                    lion Criminal Fine for Price Fixing Scheme on
                                                                                                    Freight Services between the United States and
                                           Language Contract Fraud Result in Three Years
                                                                                                    Puerto Rico
                                           in Jail for Owners
                                                                                                    Overview: A joint investigation with DCIS, FBI
                                           Overview: A joint investigation with Small Busi-
                                                                                                    and the Department of Transportation OIG dis-
                                           ness Administration OIG disclosed that Eduar-
                                                                                                    closed that Crowley Liner Services, Inc. engaged
                                           do Blanchet and Daniel Guillan misrepresented
                                                                                                    in a conspiracy to fix rates and surcharges for
                                           MiLanguages Corporation as a small business.
DCIS investigated Crowley Liner Services                                                            shipping freight between the United States and
                                           In 2002, B.I.B. Consultants, owned by Blanchet
for price fixing.                                                                                   Puerto Rico from as early as May 2002 until at
                                           and operated by Guillan, received a $50 million
                                                                                                    least April 2008. In 2005, the Army Surface De-
                                           small business set-aside contract to teach for-
                                                                                                    ployment and Distribution Command, Regional
                                           eign languages to special forces. As a result of the
                                                                                                    Domestic Contract Division, contracted with
                                           award, B.I.B. grew into a large business and nei-
                                                                                                    Crowley and other companies for shipping a va-
                                           ther B.I.B. nor any of its affiliates were eligible to
                                                                                                    riety of cargo for DoD, such as heavy equipment,
                                           bid on any subsequent small business contracts.
                                                                                                    perishable food items, medicines and consumer
                                           Knowing this, Blanchet and Guillan formed Mi-
                                                                                                    goods to Puerto Rico. Crowley conspired with
                                           Languages and misrepresented its ownership to
                                                                                                    others to fix rates, divide customers, rig bids and
                                           bid on small business set-aside contracts. Mi-
                                                                                                    add surcharges to shipping between the United
                                           Languages fraudulently bid on and was subse-
                                                                                                    States and Puerto Rico for DoD and commercial
                                           quently awarded a $100 million small business
                                                                                                    customers.
                                           set-aside contract to teach foreign languages to
                                                                                                    Result: On July 31, 2012, Crowley Liner Servic-
                                           the military.
                                                                                                    es Inc. pleaded guilty to one count of violating
                                           Result: MiLanguages, B.I.B Consultants, Blan-
                                                                                                    the Sherman Antitrust Act and agreed to pay a
                                           chet and Guillan were previously suspended
                                                                                                    $17 million fine for its role in a conspiracy to fix
                                           from doing business with the government. On
                                                                                                    prices in the coastal water freight transportation
                                           Feb. 28, 2012, Blanchet and Guillan were each
                                                                                                    industry.
                                           found guilty of five counts of wire fraud and one
                                           count of conspiracy. On May 31, 2012, Blanchet
                                                                                                    Former Army Corps of Engineers Employee
                                           and Guillan were each sentenced to 36 months
                                                                                                    Pleads Guilty to Multimillion-Dollar Bribery
                                           imprisonment, followed by three years of super-
                                                                                                    Scheme
                                           vised release. In addition, an order of forfeiture
                                                                                                    Overview: A joint investigation conducted by
                                           was entered for $10.9 million.
                                                                                                    DCIS, Internal Revenue Service-Criminal In-
                                                                                                    vestigation, Immigration and Customs Enforce-


 42 SEMIANNUAL REPORT TO THE CONGRESS
ment-Homeland Security Investigations and             ing motor fuel taxes. The subjects stole aviation               “This scheme was
Army CID determined that John Alfy Salama             fuel from Briggs Army Airfield, El Paso, Texas,                in connection with
Markus, a former U.S. Army Corps of Engi-             for commercial use in Richard Baca’s company
                                                                                                                  more than $50 million
neers employee accepted bribes while deployed         trucks. Campos and Quintero were employees
to Tikrit, Iraq. This scheme was in connection        of Trajen Flight Support, which operated the                  in USACE contracts
with more than $50 million in USACE contracts         refueling station at Briggs AAF. Trajen Flight                 awarded to foreign
awarded to foreign companies in Iraq. From July       Support was reimbursed for all paid motor fu-                 companies in Iraq.”
2007 to June 2008, Markus accepted at least $3.7      els excise taxes at the airbase. Quintero would
million in bribe payments for USACE contracts         notify Richard Baca when to fuel his trucks at
awarded to multiple companies associated with         the airfield. Quintero and Campos would then
two foreign contractors. Markus and a coworker        produce false inventory records to conceal the
were involved in the review and award process         stolen fuel from the Army. Finally, Baca would
for contractors seeking USACE contracts in            pay $1.50 to $1.75 a gallon to Quintero or Cam-
Iraq, as well as the administration, oversight        pos for the fuel, and on occasion, resell the fuel
and modification of such contracts, post-award.       for up to $2.90 a gallon.
Markus admitted that he and his coworker par-         Result: Previously, all four suspects and both
ticipated in a scheme to provide favorable official   RJ Baca Trucking and Rolling Rock Trucking
action and assistance to co-conspirators for the      were debarred from doing business with the
benefit of their associated companies, includ-        government. Following a guilty plea to a crimi-
ing obtaining and disseminating confidential          nal indictment, on May 22, 2012, Richard Baca
bid and internal USACE pricing information            was found guilty of one count of conspiracy to
and approving payments to these companies.            commit theft and later ordered to 60 months
Markus opened and established control over,           probation. Following a guilty plea to a crimi-
multiple foreign bank accounts in Jordan and          nal indictment, on May 24, 2012, Luis Campos
Egypt to receive illegal bribe payments from the      found guilty of one count of conspiracy to com-
foreign contractors. Markus used these accounts       mit theft and was later sentenced to four months
to transfer bribes from foreign contractors to at     confinement and three years supervised release.
least 11 bank accounts established by Markus in       Following a guilty plea to a criminal informa-
New Jersey and Pennsylvania. Markus also ad-          tion, on May 25, 2012, Fernando Baca was ad-
mitted that, with the proceeds of his wire fraud      judged guilty of two counts of false statements
scheme and bribery offenses, he paid for the          and one count of conspiracy to commit theft and
construction of a custom-built home worth ap-         was later sentenced to 15 months confinement
proximately $1.11 million.                            and three years supervised release. Following a
Result: On Sept. 7, 2012, Markus pleaded guilty       guilty plea to a criminal information, on May
to three counts of a 54-count indictment charg-       31, 2012, Tomas Quintero was adjudged guilty
ing him with wire fraud, conspiracy to commit         on two counts of tax evasion and one count of
bribery and conspiracy to defraud the U.S. gov-       conspiracy to commit theft and later sentenced
ernment, money laundering and tax offenses.           to 30 months confinement and three years su-
Two other USACE employees and two foreign             pervised release. All four co-defendants were or-
contractors were also charged in the July 2011        dered to jointly-and-severally pay restitution of
indictment. Sentencing is scheduled for January       $291,817 to the Defense Energy Support Center
2013.                                                 and $26,511 to DOT. In addition, Quintero and
                                                      Fernando Baca were ordered to pay $43,806 and
Trucking Company Owners and Former Em-                $25,504 to the IRS, respectively.
ployees Sentenced for Involvement in Motor Fu-
els Tax Evasion Scheme                                Seven Guilty Pleas in Wide-Ranging Bribery
Overview: A joint investigation with DOT OIG,         Scheme at Naval Air Station North Island, Calif.
Internal Revenue Service and Army CID dis-            Overview: A joint investigation with the FBI,
closed that Richard J. Baca, Fernando J. Baca,        NCIS, IRS-Criminal Investigation and the Gen-
Luis C. Campos and Thomas H. Quintero con-            eral Services Administration OIG identified a
spired to steal DoD aviation fuel and avoid pay-      scheme in which prime contractors conspired

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 43
Core Mission Areas



                                        to provide bribes to certain Naval Air Station       Unauthorized Product Substitution Team and
                                        North Island, Calif., employees in exchange for      partners with the Intellectual Property Rights
                                        millions in fictitious work orders under DoD         Center, focusing on thwarting the proliferation
                                        contracts for various goods and services. The        of counterfeit parts.
                                        NAS North Island employees, Donald Vangun-
                                        dy, Kiet Luc, David Lindsay and Brian Delany,        $36 Million Qui Tam Settlement by ATK-
                                        accepted more than $1 million in checks, retail      Thiokol for Alleged Sale of Defective Parts
                                        gift cards, flat screen televisions, home furnish-   Overview: A joint investigation with AFOSI dis-
                                        ings, appliances, high-end bicycles, model air-      closed that ATK-Thiokol allegedly sold defective
                                        planes and home remodeling services in return        illumination flares to the Army and Air Force
                                        for millions of dollars in fraudulent contract       that could prematurely ignite if dropped from
                                        orders. Michael Grave, John Newman and Paul          lower heights than specified in the contract, cre-
                                        Grubiss were the owners and/or officers of three     ating a significant safety hazard. The flares burn
                                        companies that were allowed to circumvent the        in excess of 3,000 degrees Fahrenheit for more
                                        bidding process to exclude competition. In addi-     than five minutes and are used for night combat
                                        tion, the NAS North Island employees ignored         and search and rescue operations. U.S. forces in
                                        nondelivery of ordered items and signed off as       Iraq and Afghanistan have used the flares exten-
                                        accepting delivery of items that were not deliv-     sively. The U.S. government alleged ATK know-
                                        ered. An additional conspirator, Jesse Denome,       ingly delivered flares incapable of withstanding a
                                        president of J.D. Machine Technical, Inc., and       10-foot drop test without exploding or igniting,
                                        Kaiser Defense, LLC., previously pleaded guilty      as required by the contract specifications. The
                                        to conspiracy to commit bribery and filing a         investigation showed that the flares could ignite
                                        fraudulent tax return for work directed to De-       if dropped from a height less than three feet.
                                        nome’s businesses by the same NAS North Island       Result: On April 23, 2012, the Department of
                                        employees.                                           Justice entered into a civil settlement agreement
                                        Result: On April 24, 2012, a federal court judge     with ATK, in which ATK agreed to pay the U.S.
                                        accepted guilty pleas from the four former Navy      government $21 million to resolve allegations of
                                        contracting employees and three prime contrac-       fraud in this qui tam lawsuit. ATK also agreed to
                                        tors to federal charges including conspiracy to      a separate payment of $4.5 million to the relator.
                                        commit bribery and wire fraud.                       Finally, ATK agreed to provide $15.9 million of
                                                                                             in-kind services to retrofit existing flares to meet
                                                                                             contract specifications.
“Nonconforming                          Product Substitution
products not only                       DCIS supports DoD and its warfighting mission        Air Force and Boeing Reach $1 Million
disrupt readiness                       through timely, comprehensive investigations of      Settlement
and waste economic                      products that are counterfeit, defective or sub-     Overview: A joint investigation with AFOSI dis-
resources, but                          standard, or do not conform with the require-        closed that the Boeing Company provided defec-
                                        ments of the contract. Nonconforming products        tive or non-conforming parts to the Air Force for
also threaten the                       not only disrupt readiness and waste economic        the F-15C Eagle. On Nov. 2, 2007, during a ba-
safety of military                      resources, but also threaten the safety of mili-     sic fighter training exercise the non-conforming
and government                          tary and government personnel and other end-         part, a longeron, caused an in-flight break-up of
personnel...”                           users. When substituted products are provided        an F-15C Eagle. A longeron is a thin strip of ma-
                                        to DoD deliberately, mission-critical processes      terial to which the skin of an aircraft is fastened.
                                        and capabilities can be severely impacted until      The pilot was able to eject and sustained non-life
                                        they are removed from the DoD supply chain.          threatening injuries. But the aircraft was com-
                                        DCIS works with federal law enforcement part-        pletely destroyed. The cause of the accident was
                                        ners, supply centers and the defense industrial      determined to be the failure of the upper right
                                        base to ensure that DoD contractors provide the      longeron. The contract specifications required
                                        correct part or component to meet DoD require-       the longeron to be .10 inches thick. The inves-
                                        ments. DCIS actively participates in the Defense     tigation revealed the Boeing-supplied longerons
                                        Supply Center-Columbus Counterfeit Material/         varied in thickness from 0.039 to 0.073 inch.

 44 SEMIANNUAL REPORT TO THE CONGRESS
Result: On Sept. 7, 2012, the Air Force reached
an administrative settlement agreement with the
                                                    Health Care Fraud
                                                    The rising cost associated with health care is a
Boeing Company for $1 million. The settlement
                                                    national concern and DCIS has experienced a
agreement requires Boeing to provide the Air
                                                    corresponding increase in health care investi-
Force with $1 million worth of longerons deliv-
                                                    gations. Of particular concern to DCIS are the
ered under a no-cost purchase order.
                                                    allegations of potential harm to DoD military
                                                    members and their dependents. In addition to
DK Enterprises Pays $325,000 to Settle Allega-
                                                    patient harm, typical investigations scrutinize
tions of False Claims
                                                    health care providers involved in corruption
Overview: A joint investigation with the Small
                                                    or kickback schemes, overcharging for medical
Business Administration OIG and GSA OIG
                                                    goods and services, marketing of drugs for off-
disclosed that DK Enterprises Inc. allegedly sub-
                                                    label uses and unauthorized people receiving
mitted false claims to the government seeking
                                                    TRICARE health care benefits. DCIS continues
payment for items manufactured or originating
                                                    to proactively target health care fraud through
in non-designated countries. DKE entered into a
                                                    participation in federal task forces and under-
GSA contract to sell goods to government agen-
                                                    cover operations.
cies over GSA’s advantage website. The contract
required that the goods were made in America.
                                                    Oncologist Pays $1 Million Settlement for Use of
From May 1, 2001, to Dec. 30, 2007, DKE alleg-
                                                    Unapproved Cancer Treatment Drugs
edly violated the Trade Agreements Act by pro-
                                                    Overview: A joint investigation with the Food
viding goods that were made in China.
                                                    and Drug Administration and Health and Hu-
Result: On May 1, 2012, the Department of Jus-
                                                    man Services OIG disclosed that Dr. Abid Nisar,
tice entered into a civil settlement agreement
                                                    purchased and administered FDA nonapproved
with DKE, in which DKE agreed to pay $325,000
                                                    prescription medications to beneficiaries of
to settle the allegations of fraud.
                                                    Medicare, TRICARE and state Medicaid pro-
                                                    grams. From Feb. 9, 2010 through Dec. 15, 2010,           DCIS investigated the purchase of FDA
Calnet, Inc. Pays $18.1 million to Settle False                                                               nonapproved prescriptions.
                                                    Nisar, owner of Hematology and Oncology, pur-
Claims Allegations for Language Translation
                                                    chased medications from foreign drug distribu-
and Linguistic Services at Guantanamo Bay,
                                                    tors and unlicensed wholesale drug distribu-
Cuba and Other Locations.
                                                    tors in the United States. After administering
Overview: DCIS investigated Calnet Inc. based
                                                    the unapproved drugs to cancer patients, Nisar
on allegations that the company allegedly inflat-
                                                    submitted claims for payment to state and fed-
ed the subcontractor invoices billed to the Army
                                                    eral health care programs. Nisar purchased these
Intelligence and Security Command for transla-
                                                    drugs from businesses associated with James
tion and linguistics services that mission essen-
                                                    Newcomb and Sandra Behe.
tial personnel performed. The settlement related
                                                    Result: Previously, Newcomb pleaded guilty to
to three contracts, in which Calnet allegedly
                                                    one count of conspiracy to cause the introduc-
withheld payment to mission essential person-
                                                    tion of adulterated prescription drugs into inter-
nel and did not fully reimburse mission essen-
                                                    state commerce and on Aug. 23, 2012 was sen-
tial personnel for their costs. Calnet overstated
                                                    tenced to two years of imprisonment and three
provisional indirect rates and general overhead
                                                    years of supervised release. Behe pleaded guilty
rates on each contract.
                                                    to one felony count of introducing adulterated
Result: On May 21, 2012, the Department of
                                                    prescription drugs into interstate commerce and
Justice entered into a civil settlement agreement
                                                    on June 22, 2012 was sentenced to five years’
with Calnet, in which Calnet agreed to pay $18.1
                                                    probation and ordered to serve 200 hours of
million to resolve allegations that the company
                                                    community service. Nisar previously pleaded
submitted false claims to DoD. Pursuant to a
                                                    guilty to three counts of receipt of misbranded
separate agreement with the relators, the U.S.
                                                    prescription drugs from interstate commerce.
government paid them $2.6 million out of the
                                                    On May 25, 2012, Nisar was fined $25,000, sen-
funds, and Calnet paid the relator’s counsel an
                                                    tenced to two years probation and ordered to
additional $75,000.

                                                                                                         APRIL 1, 2012 TO SEPTEMBER 30, 2012 45
Core Mission Areas



                                    perform 200 hours of community service. On           the physician members of Diagnostic Associates
                                    May 21, 2012, Department of Justice entered into     to refer patients to HCA facilities. On July 31,
                                    a civil settlement agreement with Nisar, in which    2007, HCAPS purchased the Diagnostic Associ-
                                    Nisar agreed to pay $1 million to resolve allega-    ates practice and hired the existing physicians.
                                    tions that he submitted false claims for payment     Concurrent with the purchase, HCA and its
                                    to the Medicare, TRICARE, Illinois Medicaid          subsidiaries entered into allegedly unlawful lease
                                    and Missouri HealthNet programs. The settle-         agreements with Diagnostic Associates, which
                                    ment agreement also stipulated that Nisar would      included inflated lease payments and the unlaw-
                                    be excluded from federal health care programs        ful termination or release of lease agreement(s).
                                    for a period of seven years.                         From Aug. 1, 2007, through July 31, 2011, HCA
                                                                                         through Parkridge submitted claims to federal
“ ...unlawfully promoted            $3 Billion Settlement and Plea by GlaxoSmith-        health care programs and the State of Tennessee
certain prescription                Kline for the Sale of “Off-Label” Pharmaceuticals    Medicaid program for patient services that were
drugs, failed to report             Overview: A joint investigation with FBI, HHS        influenced by physicians who allegedly benefit-
certain safety data and             OIG and FDA-Office of Criminal Investigations        ted from the prohibited financial arrangements
                                    disclosed that from 1997 to 2003, GlaxoSmith-        between HCA and Diagnostic Associates.
reported false prices.”
                                    Kline, Inc. unlawfully promoted certain pre-         Result: On June 14, 2010, the Department of
                                    scription drugs, failed to report certain safety     Justice entered into a civil settlement agreement
                                    data and reported false prices. GSK created a        with HCA, in which HCA agreed to pay a total
                                    sales culture that illegally sold pharmaceuticals    of $16.5 million to settle the allegations of fraud.
                                    for the treatment of diseases and ailments not in-   According to the agreement, HCA will pay the
                                    dicated or approved by the FDA. In addition, the     government $15.6 million and will pay the state
                                    GSK sales force persuaded certain physicians by      of Tennessee $807,000. The TRICARE portion of
                                    payments and/or gifts to encourage other physi-      the claims from that settlement is $1.3 million.
                                    cians to prescribe both the off-label and on-label
                                    GSK pharmaceuticals.                                 Nextcare Urgent Care Enters Into $10 Million
                                    Result: On July 2, 2012, the Department of Jus-      Settlement after Alleged False Claims
                                    tice entered into a civil settlement with GSK for    Overview: A joint investigation with the FBI
                                    approximately $2 billion, including $89.4 mil-       and Office of Personnel Management OIG re-
                                    lion to TRICARE. On July 5, 2012, GSK pleaded        vealed that Nextcare Urgent Care submitted al-
                                    guilty to two counts of introducing a misbranded     legedly false claims to Medicare, TRICARE, the
                                    drug into interstate commerce and one count of       Federal Employees Health Benefits Program
                                    failure to report safety data. GSK entered into a    and some state Medicaid programs. From Jan. 1,
                                    criminal plea agreement that totaled $1 billion,     1996, through July 31, 2010, Nextcare allegedly
                                    including a criminal fine of $956.8 million and      engaged in charging for medically unnecessary
                                    forfeited assets of $43.2 million.                   allergy tests, charging for medically unnecessary
                                                                                         respiratory tests and improperly charging for
                                    $16.5 Million Settlement by HCA Inc. to Settle       services not rendered.
                                    False Claims                                         Result: On July 2, 2012, the Department of
                                    Overview: A joint investigation with HHS OIG         Justice entered into a civil settlement agree-
                                    and the Tennessee Bureau of Investigation dis-       ment with Nextcare, in which Nextcare agreed
                                    closed that HCA, Inc. allegedly submitted false      to pay $10 million, including $991,000 to
                                    claims to the federal health care programs and       TRICARE, to settle the allegations of fraud.
                                    the state of Tennessee Medicaid program seek-
                                    ing payment for patient services performed.
                                    The investigation showed that HCA, through
                                    its subsidiaries Parkridge Medical Center and
                                                                                         Technology Protection
                                                                                         DCIS continues to play a vital role in the protec-
                                    HCA Physician Services, entered into a series        tion of military technology. DCIS accomplishes
                                    of financial transactions with Diagnostic Asso-      its mission by investigating individuals and or-
                                    ciates of Chattanooga and paid remuneration          ganizations attempting to steal or illegally ex-
                                    and other financial benefits intended to induce      port technology critical to the furtherance of the

 46 SEMIANNUAL REPORT TO THE CONGRESS
DoD national security mission. DCIS also ac-        United Technologies Subsidiary Pleads Guilty                      “Pratt & Whitney
tively represents the interests of the Department   to Criminal Charges For Helping China De-                      Canada Corporation
at multiple interagency task forces charged with    velop New Attack Helicopter
the enforcement and reform of export policy.        Overview: A joint investigation with ICE-
                                                                                                                     pleaded guilty to a
Through these collaborative efforts and infor-      HSI, the Department of Commerce and the                       criminal information
mation sharing, DoD is better able to focus its     FBI determined that Pratt & Whitney Canada                    for willfully violating
efforts and maintain technological supremacy.       Corporation, a Canadian subsidiary of the                          the Arms Export
                                                    Connecticut-based defense contractor United                          Control Act...”
Naturalized U.S. Citizen Pleads Guilty to           Technologies Corporation, violated the Arms
Illegally Attempting to Export Missile System       Export Control Act and made false statements
Components                                          in connection with illegal exports to China of
Overview: A joint investigation with the De-        U.S. origin military software used in the devel-
partment of Homeland Security, Department           opment of China’s first modern military attack
of Commerce, IRS and Chicago Police Depart-         helicopter, the Z-10.
ment revealed that Andro Telemi, a naturalized      Result: On June 28, 2012, UTC, its U.S.-based
U.S. citizen born in Iran, attempted to procure     subsidiary Hamilton Sundstrand Corpora-
components manufactured for use in the tube-        tion and Pratt & Whitney Canada Corporation
launched optically-tracked wire-guided missile      agreed to pay more than $55 million as part of
system. The components are listed on the U.S.       a global settlement with the Departments of
Munitions List as components designed for           Justice and State in connection with the arms
“launch vehicles, guided missiles, ballistic mis-   export violations involving China and for mak-
siles, rockets, torpedoes, bombs and mines.”        ing false statements to the U.S. government
Telemi was attempting to illegally export the       concerning these illegal exports. The agreement
subcomponents to a procurement agent for the        stipulated that all three UTC entities pay a $35
security and law enforcement forces of the Is-      million civil penalty and $13.8 million as a de-
lamic Republic of Iran.                             ferred prosecution penalty. PWC pleaded guilty
Result: On July 26, 2012, Telemi pleaded guilty     to a criminal information for willfully violating
to one count of attempting to illegally export      the Arms Export Control Act and making false
missile system components from the United           statements in its voluntary disclosure statement
States to Iran in violation of the Arms Export      to the Department of State. PWC was sentenced
Control Act. Sentencing is pending.                 to pay a $4.6 million criminal fine and agreed to
                                                    forfeit $2.3 million, which is the estimated total
California Man Convicted of Stealing Sensitive      gross profit arising from willfully causing the
Military Equipment                                  export of defense articles without a license.
Overview: A joint investigation with ICE-
Homeland Security Investigations and the De-        Academi/Blackwater to Pay $7.5 Million Fine
partment of Commerce determined that James          and a $42 Million Settlement
Barclay stole sensitive and restricted Air Force    Overview: A joint investigation conducted with
equipment, including night vision goggles and       the FBI, the IRS, the Bureau of Alcohol, Tobac-
military life support radios, from March Air Re-    co, Firearms and Explosives, and ICE-HSI ex-
serve Base, Riverside, Calif. These items are re-   amined allegations that Academi, LLC violated
stricted from export by the International Traffic   export laws and the International Emergency
in Arms Regulation and Department of Com-           Economic Powers Act. The alleged violations
merce regulations.                                  involved the manufacture and shipment of
Result: On June 4, 2012, Barclay pleaded guilty     short-barreled rifles, fully automatic weapons,
to one count of theft of government property.       armored helicopters and armored personnel
On Aug. 28, 2012, Barclay was sentenced to 108      carriers. Academi, formerly known as Blackwa-
months incarceration with supervised release        ter Worldwide and Xe Services, LLC, also faced
for three years and ordered to pay restitution in   allegations of violations of the Foreign Corrupt
the amount of $311,105.                             Practices Act for activity in both Iraq and Sudan,
                                                    to include unlicensed training of foreign nation-

                                                                                                         APRIL 1, 2012 TO SEPTEMBER 30, 2012 47
Core Mission Areas



“ ...DCIS received                      als and firearms violations. Seventeen criminal      Contractor Pays $531,000 for Violation of DoD
information from the                    charges were brought against the company.            IA Requirements1
Joint Task Force-Global                 Result: On Aug. 7, 2012, a bill of information       Overview: In February 2009, DCIS received
Network Operations                      and a deferred prosecution agreement were un-        information from the Joint Task Force-Global
                                        sealed involving Academi/Blackwater. In the          Network Operations regarding a compromise of
regarding a compromise
                                        deferred prosecution agreement, the company          computers belonging to a cleared DoD contrac-
of computers...”                        admitted to certain facts set forth in the bill of   tor. The investigation disclosed that the DoD
                                        information and agreed to a $7.5 million fine.       contractor’s business enterprise network was
                                        The agreement also acknowledged and refer-           not operated in accordance with the DoD Infor-
                                        enced a $42 million settlement between the           mation Assurance Certification and Accredita-
                                        company and the Department of State to settle        tion Program as specified in the contract. The
                                        allegations of violations of the Arms Export         DoD contractor’s network was compromised
                                        Control Act and the International Trafficking        and personally identifiable information for
                                        in Arms Regulations. Through the deferred            DoD employees was put at risk of unauthorized
                                        prosecution agreement, the U.S. government           disclosure.
                                        acknowledged the company’s efforts to reform         Result: In September 2011, the DoD contrac-
                                        its conduct and to mitigate the damage caused        tor paid the U.S. government $531,654 after the
                                        by that conduct.                                     contracting officer found the contactor failed to
                                                                                             comply with required information technology
                                                                                             security standards.




                                                                                             1 This entry corrects the information provided on page 39 of Octo-
                                                                                             ber 1, 2011 - March 31, 2012 Semiannual Report.

 48 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                Inspections
The following summaries highlight inspections,        an investigation and changes to DoD policy.
assessments and evaluations conducted by DoD          In 2004, official reports chronicled allegations
IG the following categories:                          of forced labor and debt bondage against U.S.
•	 Health and safety.                                 contractors in Iraq. These incidents were con-
•	 Joint warfighting and readiness.                   trary to U.S. government policy regarding offi-
•	 Information assurance, security and                cial conduct and reflected poorly on DoD. The
     privacy.                                         “William Wilberforce Trafficking Victims Pro-
                                                      tection Reauthorization Act of 2008” requires
                                                      DoD IG to investigate a sample of contracts
Health and Safety                                     for which there is a heightened risk that a con-
DoD IG has identified health care as one of the       tractor may engage in acts related to trafficking
critical management and performance challeng-         in persons. DoD IG reviewed a sample of 240
es facing the Department. The military health         DoD contracts that had a place of performance
care system provides services to approximately        Afghanistan for compliance with the law. DoD
9.5 million beneficiaries, including active duty      IG visited nine U.S. military installations and
personnel and their families. Of special concern      conducted more than 110 interviews, including
is the proper care and support to the thousands       meeting with 78 personnel from contracting of-
of soldiers, sailors, airmen and Marines wound-       fices, and 145 local and third-country national
ed due to combat actions in Operations Iraqi          contractor employees. In addition, DoD IG
and Enduring Freedom.                                 reviewed DoD criminal investigative case data
                                                      related to combating trafficking in persons that
Medical care required by military personnel is        occurred in Afghanistan.
expected to increase in the next several years,       Findings: DoD IG found that the mandatory
especially in the areas of rehabilitation and tran-   CTIP clause was included in 93 percent of the
sition care. It is critical for DoD IG to maintain    240 contracts reviewed, a significant improve-
vigorous oversight of the health and safety chal-     ment from previous assessments. Further, a
lenges facing the Department, not only to en-         local supplemental CTIP clause concerning liv-
sure that wounded warriors receive high-quality       ing conditions and retention of passports was
health care but that DoD health care dollars are      included in 89 percent of contracts reviewed. A
spent wisely and prudently. DoD IG supports           second local clause concerning contractor de-
this priority by focusing its oversight efforts       mobilization was included in 91 percent of re-
on preventing and detecting fraud, waste and          viewed contracts written after the requirement
abuse, and improving efficiency and effective-        was established in November 2010. However,
ness of the programs affecting the health and         U.S. Central Command subordinate commands
safety of service members and employees.              in Afghanistan had not developed localized pol-
                                                      icies, procedures or training regarding combat-
Evaluation of DoD Contracts Regarding                 ing trafficking in persons.                                      “DoD IG reviewed
Combating Trafficking in Persons: Afghanistan         Result: DoD IG recommended that the assis-                            DoD criminal
Overview: Over the past decade, Congress              tant secretaries for acquisition of the military
passed legislation to address its concern regard-                                                                  investigative case data
                                                      departments ensure that the applicable CTIP
ing allegations of contractor and U.S. forces in-                                                                    related to combating
                                                      Federal Acquisition Regulation clause is in-
volvement in sexual slavery, human trafficking        cluded in all contracts identified as deficient in            trafficking in persons
and debt bondage. Prior to 2000, allegations          the DoD IG review. Further, the commander,                          that occurred in
of sexual slavery, sex with minors and human          CENTCOM, should ensure that all commands                              Afghanistan.”
trafficking involving U.S. contractors in Bosnia      operating in their area of responsibility, includ-
and Herzegovina led to criminal investigations        ing Afghanistan, develop CTIP policies, proce-
by the U.S. government. In 2002, a report al-         dures and localized training supplements and
leging that women trafficked from the Philip-         make sure that CTIP is incorporated into the
pines, Russia and Eastern Europe were forced          Command Inspection Program.
into prostitution in bars in South Korea fre-         Report No. DODIG-2012-086
quented by U.S. military personnel resulted in


                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 49
Core Mission Areas



“The report highlighted             Assessment of DoD Wounded Warrior Matters-            Assessment of the Federal Voting Assistance
a number of significant             Wounded Warrior Battalion–West Headquar-              Program Implementation of the Military and
                                    ters and Southern California Units                    Overseas Voter Empowerment Act
challenges in the
                                    Overview: In 2007 and 2008, the Army and Ma-          Overview: The Uniformed and Overseas Citi-
Wounded Warrior                     rine Corps established warrior care and transi-       zens Absentee Voting Act of 1986, amended by
Battalion-West.”                    tion programs to manage the care and transition       the Military and Overseas Voter Empowerment
                                    either back to military units or into civilian life   Act of 2009, specified that the right to vote was
                                    for the wounded, ill and injured from Opera-          fundamental. The law explained that many lo-
                                    tion Iraqi Freedom and Operation Enduring             gistical, geographical, operational and environ-
                                    Freedom. There are 29 Warrior Transition Units        mental barriers restricted the ability to vote for
                                    in the Army with approximately 10,000 soldiers        military and other eligible overseas citizens. Ac-
                                    and two Marine Wounded Warrior Battalions in          cordingly, the law established various programs
                                    the Marine Corps with approximately 1,000 Ma-         and requirements intended to help military and
                                    rines. Marine Corps Base Camp Pendleton, Ca-          eligible overseas citizens register, vote and have
                                    lif., is the home of the 1st Marine Expeditionary     their votes counted, including requiring the
                                    Force, which comprises the 1st Marine Division,       military services to have an installation voting
                                    1st Marine Logistics Group and elements of the        assistance office on every installation worldwide,
                                    3rd Marine Air Wing. The Wounded Warrior              with the exception of those in a war zone.
                                    Battalion-West is located at Camp Pendleton           Findings: DoD IG found that the conclusions on
                                    and includes detachments located at Military          military voter participation cited in the Federal
                                    Treatment Facilities and at Department of Vet-        Voting Assistance Project’s 2010 Post Election
                                    erans Affairs Polytrauma Rehabilitation Cen-          Survey Report to Congress would have been
                                    ters. Among the Camp Pendleton warriors were          more effective if more people had responded to
                                    severely burned patients, amputees, traumatic         the survey and, most importantly, that many of
                                    brain injury and post-traumatic stress disorder       the 229 Installation Voting Assistance Offices
                                    patients, and other wounded, ill or injured.          that were required by the 2009 Military and
                                    Findings: The report highlighted a number of          Overseas Voter Empowerment Act to be estab-
                                    significant challenges in the Wounded Warrior         lished were not reasonably accessible since, in
                                    Battalion-West. These include: lengthy transi-        about 50 percent of the cases, DoD IG was un-
                                    tion times (average: 24 months); a lack of dedi-      able to contact Installation Voting Assistance
                                    cated primary medical care management for             Offices using the FVAP website contact list.
                                    warriors; lack of sufficient support for warriors     Result: DoD IG recommended that Federal Vot-
                                    family members and support persons; lack of           ing Assistance Program design a survey that will
                                    adequate computer system interfaces used to           increase the 2012 post-election survey response
                                    track warrior recovery and transition progress;       rate. Further, due to the fact that younger mili-
                                    travel challenges for warriors at Twentynine          tary personnel were the biggest DoD military
                                    Palms; and ineligibility to transfer unused post-     population segment and that Voting Assistance
                                    9/11 G.I. Bill benefits.                              Offices were likely not the most cost effective
                                    Result: DoD IG recommend that Camp Pend-              way to reach out to them given their familiarity
                                    leton management implement processes to re-           and general preference for communicating via
                                    duce lengthy warrior transition times, policies       social media and obtaining information from
                                    that appropriately accommodate warriors’ tran-        Internet websites, DoD IG recommended Feder-
                                    sition location preferences and programs that         al Voting Assistance Program develop a legisla-
                                    enable support persons to effectively contrib-        tive proposal requesting relief from the Military
                                    ute to warrior healing and transition. DoD IG         and Overseas Voter Empowerment Act’s man-
                                    recommended Camp Pendleton management                 dated requirement for the military services to
                                    ensure that computer systems used to facilitate       maintain voting assistance offices on all instal-
                                    warriors’ healing and transition interface appro-     lations worldwide so the services may focus on
                                    priately and develop policies for determining ef-     other methods to optimize their voter assistance
                                    fective medical case manager patient loads.           efforts.
                                    Report No. DODIG-2012-120                             Report No. DODIG-2012-123

 50 SEMIANNUAL REPORT TO THE CONGRESS
Joint Warfighting and                                proposed coalition forces available to support
                                                     the program; and the MOI logistics system did
Readiness                                            not provide timely equipment, fuel and ammu-
DoD IG has identified joint warfighting and          nition support to the ALP program.
readiness, and training and equipping the Iraq       Result: The ALP report resulted in the ISAF
and Afghan Security Forces as critical manage-       commander publishing a fragmentary order,
ment and performance challenges facing the           used to send timely changes of existing orders
Department. While the Department is continu-         on his vision for the future of the ALP and the
ing to equip the Iraq Security Forces through        House Committee on Armed Services wrote to                 DoD IG assessed efforts to develop the
the Office of Security Cooperation-Iraq, operat-     the secretary of defense for an update on prog-            Afghan Local Police.

ing under Chief of Mission authority at the U.S.     ress in addressing the areas of concern identi-
Mission-Iraq, it is also engaged in the mission      fied in the report.
to train, equip and mentor the Afghan Security       Report No. DODIG-2012-109
Forces. Between now and the completion of the
scheduled drawdown of combat forces at the           Assessment of U.S. Government and Coalition
end of 2014, DoD will continue training, equip-      Efforts to Train, Equip and Field the Afghan Air
ping, partnering and mentoring the ANSF to           Force
enable it to assume the leading security opera-      Overview: Afghan military air capabilities were
tions role.                                          virtually destroyed by the end of the Soviet and
                                                     civil wars. In 2005, U.S. and coalition forces be-
Assessment of U.S. Government and Coalition          gan fielding air advisors and rebuilding the Af-
Efforts to Develop the Afghan Local Police           ghan Air Force. As of February 2012, the AAF
Overview: To a great extent, the success of the      was comprised of more than 5,300 personnel
counterinsurgency campaign being conducted           and 88 aircraft, including the G-222 (C-27A
against the Taliban and extremist anti-govern-       variant) fixed-wing aircraft, the Mi-17 helicop-
ment elements depends on how well the Afghan         ter and the first three dedicated training aircraft
National Security Forces provides protection         (Cessna 182). By 2016, the AAF is expected to
for the Afghan people and gains their trust. The     grow to more than 8,000 personnel and 145 air-
responsibility to protect the Afghan people falls    craft. Currently, coalition military personnel,
most directly on the Afghan National Police,         predominantly from the U.S. Air Force, but also
which operates as the direct interface with the      including air advisors from 16 partner nations,
population in provinces and districts around         are training and mentoring the AAF.
the country. Of note in this area is the success     Findings: The assessment identified a number
of the Afghan Local Police initiative, supported     of areas of concern including: senior Afghan of-
by both International Security Assistance Forces     ficials responsible for the Afghan Air Force did
and the Afghan Ministry of Interior, to devel-       not have a common vision for the roles, mis-
op, train and equip part-time policemen at the       sions and capabilities of the AAF; the training,
village level to provide security in largely rural   guidance and oversight of air advisors assigned
areas where the presence of the ANSF is insuf-       to train the AAF needed reinforcement to en-
ficiently strong to prevent armed insurgent infil-   able the effective conduct of air advisor flying
tration and activities. As of April 2012, the ALP    duties; and different air worthiness standards
strength was approximately 12,900 and on track       among the U.S. military services excluded the
to reach the goal of 30,000 at 99 MOI-approved       use of U.S. Army aviators as advisors on the
sites across Afghanistan by the end of 2014.         Afghan-owned Mi-17 helicopters.
Findings: The assessment identified weaknesses       Result: As part of the report, DoD IG issued a
in the areas of planning and execution. DoD          management memorandum to the command
IG found there was no approved ISAF plan for         highlighting major challenges at an air base in
making the Afghan Local Police initiative an         Afghanistan. The memorandum resulted in
enduring program; the Ministry of Interior-          command attention, additional resources and
approved expansion of the ALP program over           improved command relationships at the air
the next year could quickly outpace current and      base. According to the commander of the co-

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 51
Core Mission Areas



                                             alition training mission, the quick oversight of     Result: This report is FOUO.
                                             DoD IG “may have saved (Air Force) lives.”           Report No. DoDIG-2012-105
                                             Report No. DODIG-2012-141

                                             Assessment of Afghan National Security Forces        Information Assurance,
                                             Metrics--Quarterly
                                             Overview: : DoD IG selected, summarized and
                                                                                                  Security and Privacy
                                                                                                  One of the challenges that DoD faces is defend-
                                             concisely presented six months of quantitative       ing its information and information systems
                                             and qualitative metrics deemed indicative of         against cyber threats. On a daily basis, DoD
                                             progress toward the goal of developing a sus-        information technology infrastructures are at-
                                             tainable Afghan National Security Force for          tacked by those wanting to not only steal DoD
                                             transition to Afghan control by 2014. Reports        information but also do harm to DoD programs,
                                             will be produced separately for the Afghan Na-       operations and personnel. As stated in the Qua-
                                             tional Police and the Afghan National Army.          drennial Defense Review, “in the 21st century,
                                             Findings: This report, providing an overview of      modern armed forces simply cannot conduct ef-
                                             the development of the Afghan National Army,         fective high-tempo operations without resilient,
                                             was released on May 15, 2012.                        reliable information and communication net-
                                             Result: This report is confidential.                 works and assured access to cyberspace. DoD
                                             Report No. DODIG-2012-034.2                          must actively defend its networks.”
                                             Assessment of Afghan National Security Forces        Summary of FY 2011 Inspections on
                                             Metrics--Quarterly                                   Security, Intelligence, Counterintelligence
                                             Overview: DoD IG selected, summarized and            and Technology Protection Practices at DoD
                                             concisely presented six months of quantitative       Research, Development, Test and Evaluation
                                             and qualitative metrics deemed indicative of         Facilities
                                             progress toward the goal of developing a sus-        Overview: This report summarizes the inspec-
                                             tainable Afghan National Security Force for          tion results from the DoD and service OIGs
                                             transition to Afghan control by 2014. Reports        and, where available, noted the best practices of
                                             will be produced separately for the Afghan Na-       each. DoD IG assessed an acquisition category
DoD IG assessed inspections at research,
development, test & evaluation facilities.   tional Police and the Afghan National Army.          ID program; the service IGs selected 34 of 118
                                             Findings: This report, providing an overview of      research, development, test and evaluation fa-
                                             the development of the Afghan National Police,       cilities under their purview for inspection. The
                                             was released on Sept. 28, 2012.                      inspections ensure a uniform system of periodic
                                             Result: This report is confidential.                 reviews for compliance with directives concern-
                                             Report No. DODIG-2012-034.3                          ing security, intelligence, counterintelligence
                                                                                                  and technology protection practices. DoD and
                                             Review of Stability Operations Information           service IGs used the recently published biennial
                                             Centers in Afghanistan                               version of inspection guidelines that focused on
                                             Overview: The report was an evaluation of the        eight key issue areas related to program protec-
                                             Stability Operations Information Centers in          tion for reference.
                                             Afghanistan to determine if they improved the        Findings: There were no recommendations.
                                             ability of intelligence to provide critical infor-   Result: This report is FOUO.
                                             mation regarding the population, economy and         Report No. DODIG-2012-142
                                             government of Afghanistan to senior leaders
                                             and commanders in the field.                         DoD Efforts to Protect Critical Program
                                             Findings: DoD IG made five recommendations           Information: The Navy’s EA-18G “Growler”
                                             that were designed to improve DoD capabilities       Overview: This was the third and final report in
                                             in Afghanistan, but will also ensure that the les-   a series of assessments to determine how DoD
                                             sons learned are meaningfully captured and can       protects critical program information. The re-
                                             thereby be leveraged during future joint opera-      port used the Navy’s EA-18G category ID pro-
                                             tions.                                               gram of record as a case study to establish how

 52 SEMIANNUAL REPORT TO THE CONGRESS
the Department protects critical program in-         DoD IG investigates and conducts oversight re-
formation. The assessment was done in coor-
dination with DoD research, development, and
                                                     views of investigations of allegations involving
                                                     the misconduct of senior DoD officials, both
                                                                                                            Administrative
acquisition, counterintelligence and security
subject matter experts and focused on eight key
                                                     civilian and military; whistleblower reprisal
                                                     against service members, defense contractor
                                                                                                            Investigations
issue areas related to program protection.           employees and DoD civilian employees (ap-
Findings: DoD IG made six recommendations            propriated and nonappropriated fund); and
in support of the protection of critical program     improper command referrals of service mem-
information. The Office of the Under Secretary       bers for mental health evaluations. The follow-
of Defense for Intelligence, the Office of the Un-   ing sections highlight implementation of GAO
der Secretary of Defense for Policy and Navy of-     recommendations, whistleblower reprisal and
ficials concurred with the recommendations and       senior official investigations conducted by the
have taken steps to address identified issues.       directorates for whistleblower reprisal investiga-
Result: This report is classified.                   tions and investigations of senior officials, and
Report No. DODIG-2012-124                            oversight reviews of investigations conducted by
                                                     the service/defense agency IGs.
Assessment of Security within the Department
of Defense - Security Policy
Overview: The report was the third in a series of    Whistleblower Reprisal
assessments designed to provide an overall re-
view of security policies and procedures within
                                                     Investigations
                                                     WRI is responsible for investigating and con-
the Department. The assessment was responsive        ducting oversight reviews of investigations
to a request from the undersecretary of defense      conducted by the military service and defense
for intelligence and focused on the effectiveness    agency IGs into allegations of whistleblower re-
of DoD security policies.                            prisal made by DoD military service members,
Findings: The report included a finding identi-      nonappropriated fund instrumentality employ-
fying a need for an overarching security policy      ees and DoD contractor employees under Title
to provide a platform for functional integration,    10 of the U.S.C. and American Reinvestment
governance and strategic resource management.        and Recovery Act. WRI additionally investi-
Result: There were no recommendations; how-          gates allegations that military members were
ever, the deputy undersecretary of defense for       restricted from communicating with a member
intelligence and security commented and de-          of Congress or an IG. WRI also investigates, on
tailed progress made in support of a compre-         a discretionary basis, allegations of reprisal filed
hensive security policy, citing the forthcoming      by DoD appropriated fund civilian employees.
publication of a new security issuance.              Finally, WRI is responsible for investigating and
Report No. DODIG-2012-114                            reviewing investigations of alleged procedural
                                                     violations of DoD Directive 6490.1, “Mental
                                                     Health Evaluations of Members of the Armed
                                                     Forces.”

                                                     DoD IG is committed to maintaining the De-
                                                     partment’s whistleblower protection program as
                                                     a model for the federal government by improv-
                                                     ing the timeliness and quality of reprisal inves-
                                                     tigations. During the reporting period, DoD IG
                                                     implemented numerous enhancements to WRI’s
                                                     investigative and oversight functions:
                                                     •	 Streamlined the complaint intake, review
                                                          and report writing processes.
                                                     •	 Established several new positions focused
                                                          on administration, policy, training and out-

                                                                                                            APRIL 1, 2012 TO SEPTEMBER 30, 2012 53
Core Mission Areas



                                         reach and filled key investigative vacancies     P&R for investigations they conduct. WRI meets
                                         to address the ever increasing number of         regularly with the service IGs and has met with
                                         whistleblower reprisal complaints filed          representatives of the Boards for Correction of
                                         with DoD IG and the military services.           Military Records. All service Boards for Correc-
                                    •	   Provided robust training and outreach to         tion of Military Records have instituted changes
                                         DoD IG and component IG staff.                   to better facilitate identification and resolution
                                    •	   Revised written policies and procedures.         of petitions filed under the Military Whistle-
                                    •	   Strengthened whistleblower reprisal over-        blower Protection Act.
                                         sight functions.
                                                                                          Finally, DoD IG redesigned its legacy case man-
“...DoD IG has                      Progress      Toward      Implementing      GAO       agement database, which enables tracking of
procured a new,                     Recommendations                                       remedies for complainants and corrective action
                                    In February 2012, the GAO issued its report,          for responsible management officials in cases of
state-of-the-art case               “Actions Needed to Improve DoD’s Military             substantiated allegations of reprisal. More im-
management system                   Whistleblower Reprisal Program,” GAO-12-              portantly, DoD IG has procured a new, state-of-
with far greater                    362, and made several recommendations. DoD            the-art case management system with far greater
capabilities, which                 IG continues making significant strides toward        capabilities, which is projected to be deployed
is projected to be                  implementing GAO recommendations:                     first quarter of FY 2013.
                                    •	 Developed an extensive template library
deployed first quarter                   for investigation-related correspondence.        The new system has built-in prompts for follow
of FY 2013.”                        •	 Instituted a new report of investigation           up with the services on remedial and corrective
                                         template, which incorporates policy chang-       actions. It will also produce detailed reports on
                                         es related to the elements of proof in repri-    timeliness, types of retaliatory actions taken by
                                         sal cases.                                       responsible management officials, and compli-
                                    •	 Drafted revisions to DoD Directive                 ance with statutory reporting and notification
                                         7050.06, “Military Whistleblower Protec-         requirements.
                                         tion.”
                                    •	 Issued Part I of the Administrative Inves-
                                         tigations Manual, which provides detailed        Reprisal Investigations
                                         guidance to investigators, incorporating         During FY 2012, the Department received a
                                         the Council of the Inspectors General on         total of 1,069 complaints involving reprisal, re-
                                         Integrity and Efficiency, “Quality Stan-         striction from communicating with a member
                                         dards for Investigations.”                       of Congress or IG and procedurally improper
                                                                                          mental health evaluation referrals and closed a
                                    The manual also includes procedures by which          total of 513 complaints. The chart on page 55 de-
                                    the newly established oversight teams will di-        picts types of complaints received.
                                    rectly monitor the progress of service and de-
                                    fense agency IG investigations and track com-         The chart on page 56 shows the number and
                                    mand actions taken in response to substantiated       type of complaints closed by DoD IG and the
                                    reprisal complaints.                                  service/defense agency IGs during FY 2012. Of
                                                                                          the 513 complaints closed, 340 were dismissed
                                    To reduce cycle time, DoD IG instituted a stan-       due to insufficient evidence to warrant an inves-
                                    dard time frame (10 days) in which complain-          tigation; three were withdrawn; and 170 were
                                    ants must provide additional required informa-        closed following full investigation. Of the 170
                                    tion. Failure to do so will result in case closure.   investigations closed, 32 involved procedurally
                                    As required by 10 U.S.C. § 1034, DoD IG con-          improper mental health evaluation referrals (20
                                    sistently notifies the Office of the Under Secre-     substantiated [63 percent]); one involved re-
                                    tary of Defense, Personnel and Readiness, when        striction from communicating with a member
                                    the time to complete investigations exceeds the       of Congress or IG (not substantiated); and 138
                                    statutory 180-day time frame. The service and         involved whistleblower reprisal (22 substanti-
                                    defense agency IGs make notifications to OUSD         ated [17 percent]).


 54 SEMIANNUAL REPORT TO THE CONGRESS
Substantiated       Whistleblower       Reprisal/       der discrimination and harassment by the Figure 2.1
Restriction                                             director. The adjudicating official directed 1,069 Complaints Received FY 2012
•	 Two Marine Corps civilian officials influ-           that the subject performance                    69 (6%)
    enced an initial below-average performance          appraisal be rescinded and re-                Mental Health
                                                                                                                          5 (1%)
                                                                                                       Procedural
    report of a subordinate in reprisal after the       placed with a new performance         22 (2%)              Military Restriction
    subordinate reported safety deficiencies and        appraisal accurately reflecting NAFI Reprisal                                227 (21%)
    improper training of Marines to his com-            the complainant’s job perfor- 85 (8%)                                    Civilian Reprisal
    manding officer and the Headquarters Ma-            mance and that the responsible Defense
                                                                                        Contractor
    rine Corps Sports Division.                         management official receive ap- Reprisal
•	 An Air Force colonel and a master sergeant           propriate disciplinary action.
    denied an Air Force Reserve member a pro-
    motion in reprisal for the member’s pro-        Corrective Action Taken on
    tected communication. The member had            Whistleblower Cases Closed in
    alleged to an equal opportunity officer that    Previous Reporting Periods
    another unit member made inappropriate          •	 An Army colonel was removed
    racial comments during an annual training           from command, received an un-
    tour. Corrective action is pending.                 favorable evaluation report and
•	 An Army company commander threat-                    a general officer reprimand for
    ened a soldier with involuntary separation          denying a subordinate soldier
                                                                                                           661 (62%)
    from the Army and disapproval of the sol-           an in-place consecutive over-                   Military Reprisal
    dier’s active duty extension in reprisal for        seas tour and issuing the subor-
    the soldier’s protected communication. The          dinate a referred evaluation report for filing
    soldier had complained to an IG about the           an IG complaint.
    commander’s abuse of authority. Addition-       •	 An Army major received a general officer
    ally, the commander made comments to the            reprimand for downgrading a subordinate
    soldier during a counseling session restrict-       officer’s promotion recommendation in re-
    ing the soldier from communicating with             prisal for filing an IG complaint. In the same
    an IG. Corrective action is pending.                case, an Army lieutenant colonel received a
•	 A Navy lieutenant commander submitted a              downgraded evaluation report for attempt-
    supplemental letter to lower a subordinate’s        ing to restrict a subordinate officer from fil-
    performance report in reprisal for the sub-         ing an IG complaint.
    ordinate having alleged to the chain of com-    •	 An Army captain received verbal counsel-
    mand maltreatment toward staff members              ing and training for not following the pro-
    by the lieutenant commander. Corrective             cedural requirements in referring a service
    action is pending.                                  member for an emergency mental health
•	 An Air Force senior master sergeant delayed          evaluation.
    acting on a subordinate’s recruiting pack-      •	 An Air Force Reserve colonel received a
    age, causing the subordinate to miss the            general officer reprimand for denying a
    submission deadline, in reprisal for the sub-       subordinate a retraining request for filing
    ordinate’s protected communication. The             an equal opportunity complaint against the
    subordinate had alleged that the squadron           colonel. In the same case, an Air Force Re-
    commander committed fraud by allowing a             serve master sergeant received a letter of ad-
    pilot to work one week per month and not            monishment for not recommending an air-
    requiring the pilot to document his remain-         man for promotion because the airman filed
    ing time. The senior master sergeant retired        an equal opportunity complaint against the
    before corrective action could be taken.            master sergeant.
•	 A nonappropriated fund instrumentality           •	 The Air Force Board for Correction of Mili-
    director gave a subordinate a downgraded            tary Records recently granted relief to a re-
    performance appraisal in reprisal for the           tired lieutenant colonel after they reviewed
    subordinate’s protected communication to            a July 2011 substantiated reprisal investi-
    the Equal Opportunity Office alleging gen-          gation involving unfavorable actions taken

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 55
Core Mission Areas



                                                   against the officer by a management offi-               most senior DoD officials (three-star and above
                                                   cial. The Air Force Board for Correction of             general/flag officers and equivalents), senior of-
                                                   Military Records directed that the officer’s            ficials in the joint or defense intelligence com-
                                                   officer selection brief be amended; a perfor-           munity, and allegations not suitable for assign-
                                                   mance report and promotion recommen-                    ment to service IGs. DoD IG conducts oversight
                                                   dation form be declared void and removed                reviews of service/defense agency investigations
                                                   from his record; and that the officer meet a            of misconduct involving one- and two-star gen-
                                                   special selection board with the above cor-             eral/flag officers and equivalents. WRI assumed
Figure 2.2
                                                   rections to his record.                                 responsibility for investigating allegations of
Complaints Closed During FY 2012
                                                                                                           reprisal involving senior officials. DoD IG com-
                                                                                                                            pletely revised and reissued the
                         Reprisal, Restriction and Mental Health Procedural                                                 portion of the Administrative
                                 Complaints Closed During FY 2012                                                           Investigations Manual that spe-
                                                                                                           Substantiation   cifically applies to senior official
                                Total Closed     Dismissed   Withdrawn      Investigated   Substantiated
                                                                                                               Rate
                                                                                                                            investigations. ISO also created
      Type Complaint                                                  Closed by DoD IG
                                                                                                                            templates for notifications to
            Civilian Reprisal       113             104           2              7              0                0%
                                                                                                                            subjects, information memos, re-
            Military Reprisal       81              68            0              13             2               15%         ports of investigation and closure
 Defense Contractor Reprisal        64              59            0              5              0                0%         correspondence. These templates
              ARRA Reprisal          1               0            0              1              1              100%         improve timeliness and ensure
               NAFI Reprisal        19               7            1              11             1                9%         consistent case processing. The
           Reprisal Subtotal        278             238           0              37             4               11%         oversight branch represents DoD
   Mental Health Procedural          1               0            0              1              1              100%         IG’s commitment to oversight of
                                                                                                                            military department and agency
               DoD IG Total         279             238           3              38             5               13%
                                                                                                                            IG investigations involving se-
                                                                                                                            nior DoD officials.
      Type Complaint                             Closed by Component IG with Oversight Review by DoD IG
            Civilian Reprisal        1               0            0              1              0              0%           During FY 2012, DoD IG con-
            Military Reprisal       198             99            0              99             18             18%          ducted several sensitive investi-
           Reprisal Subtotal        199             99            0             100             18             18%          gations that received significant
         Military Restriction        2               1            0              1              0               0%
                                                                                                                            media coverage and directly af-
                                                                                                                            fected the Department. In one
   Mental Health Procedural         33               2            0              31             19             61%
                                                                                                                            instance, DoD IG substantiated
           Component Total          234            102            0             132             37             28%
                                                                                                                            allegations against the director of
               Grand Totals         513            340            3             170             42             25%          a defense agency whose leader-
                                                                                                                            ship style was inconsistent with
                                               Investigations of Senior                                    expected standards and contributed to a sig-
                                                                                                           nificant number of senior officials leaving the
                                               Officials                                                   agency. In another case, DoD IG substantiated
                                               To promote public confidence in the integrity               allegations of using official travel for primar-
                                               of DoD leadership, DoD IG conducts or pro-                  ily personal reasons and incurring additional
                                               vides oversight on all investigations into alleged          costs to the government. As a result of a third
                                               misconduct by senior DoD officials (brigadier               substantiated case, DoD IG recommended that
                                               general/rear admiral and above, members of the              travel standards relating to reimbursement for
                                               senior executive service and senior political ap-           dependent travel on military aircraft be modi-
                                               pointees). Misconduct allegations are noncrimi-             fied to clarify the definition of “full coach fare.”
                                               nal in nature and typically involve ethics or reg-          In every instance, DoD IG investigated the facts
                                               ulatory violations. Specialized units within each           and circumstances of the case and presented a
                                               military department Office of Inspector General             timely and independent report of investigation
                                               conduct the majority of senior official investiga-          to management officials for appropriate action.
                                               tions. DoD IG investigates allegations against the          In FY 2012, the Department received 815 com-

 56 SEMIANNUAL REPORT TO THE CONGRESS
plaints of senior official misconduct and closed    Figure 2.3
639. Of the 639 complaints closed, 318 were         Senior Official Complaints Closed During FY 2012
dismissed due to lack of a credible allegation of
misconduct and 321 were closed following in-                            Senior Official Complaints Closed During FY 2012
vestigation. Of those 321, 42 investigations were                                        Total Closed   Dismissed    Investi-      Substanti-    Substantiation Rate
                                                                                                                     gated         ated
closed by DoD IG and 279 investigations were
closed by service IGs with oversight by DoD IG.      Senior Official’s Affiliation                                  Closed by DoD IG
It was determined that 83 of the closed inves-
                                                     Army                                    102           99             3             1                  33%
tigations, (26 percent) contained substantiated
                                                     Navy                                    48            42             6             2                  33%
allegations.
                                                     Air Force                               45            39             6             2                  33%

Examples of Substantiated Senior Official Cases      Marine Corps                             4                4          0             0                  0%

The following is a list of substantiated cases:      COCOM/ Defense Agency                   161           134            27            5                  19%
•	 A general officer improperly accepted gifts                                Subtotal       360           318            42            10                 24%
    given to him because of his official position                                                         Closed by Component IG with
                                                     Senior Official’s Affiliation
    and failed to report them in violation of the                                                          Oversight Review by DoD IG
    Joint Ethics Regulation.                         Army                                    142                         142            29                 20%
•	 A flag officer failed to properly secure and      Navy                                    32                           32            10                 31%
    protect classified information.                  Air Force                               78                           78            24                 31%
•	 A general officer improperly supported a          Marine Corps                             8
                                                                                                               0
                                                                                                                          8             2                  25%
    non-federal entity in violation of the Joint
                                                     COCOM/ Defense Agency                   19                           19            8                  42%
    Ethics Regulation.
                                                                              Subtotal       279                         279            73                 26%
•	 A senior official failed to treat subordinates
                                                     TOTALS                                  639           318           321            83                 26%
    with dignity and respect and engaged in
    behavior that was inconsistent with the
    standards expected of a member of the se-       Figure 2.4
    nior executive service.                         Types of Senior Official Misconduct Investigations
•	 A senior official violated merit principles
                                                                                                   Integrity
    by directing a subordinate employee not to                                                                       Gifts
    apply for another government position.                                                                                           Reprisal
•	 A general officer used his public office for                    Inappropriate Relationship
                                                                                                                                         Prohibited Personnel
    private gain by receiving both federal and
    state pay and benefits. The general officer                                                                                                 Practice
    failed to terminate the dual-status military          Misuse of Position
    position and received almost $200,000 in
    pay he was not entitled to receive.
•	 A general officer utilized military aircraft
    for personal reasons and mismanaged mo-
    rale and welfare funds.
•	 A general officer engaged in misconduct
    relating to official and unofficial travel,
    his spouse’s travel on military aircraft, use
    of government resources and personnel,
    and acceptance of gifts from a prohibited                  Dignity
    source.                                                  and Respect
                                                                                                                                                Other 


                                                                                                                                 Misuse of
                                                                                     Travel/Misuse of GOV                       Subordinates




                                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 57
Core Mission Areas



Summary of Performance                                                     DoD IG Profile
During this reporting period, DoD IG continued directing its resources
towards those areas of greatest risk within the Department and addressed
                                                                           Staffing and Budget
a variety of issues by conducting audits of programs, investigating        As of Sept. 30, 2012, DoD IG workforce totaled 1,571
criminal activity and assessing key operations.                            employees. The FY 2012 budget is $346.9 million.
Audit reports focused on:
•	 Acquisition processes and contract management.
•	 Financial management.
•	 Joint warfighting and readiness.                                        Office Locations
•	 Information assurance, security and privacy.
•	 Health care.                                                            DoD IG is headquartered in Alexandria, Va. Field audit
•	 Equipping and training Iraqi and Afghan Security Forces.                and investigation offices are located across the United
•	 Nuclear enterprise.                                                     States including California, Missouri, Georgia, Texas,
Investigations focused on:                                                 Ohio, Pennsylvania and Florida. In addition, DoD IG has
•	 Procurement fraud.                                                      offices across the world including Germany, South Korea,
•	 Public corruption.                                                      Afghanistan, Qatar and Kuwait.
•	 Product substitution.
•	 Health care fraud.
•	 Technology protection.
Inspections focused on:                                                    About DoD IG Employees
•	 Health and safety.
                                                                           DoD IG is a knowledge-driven organization and employs
•	 Joint warfighting and readiness.
                                                                           experts in fields of auditing, criminal investigations,
•	 Information assurance, security and privacy.
                                                                           computer security, intelligence, hotline complaints,
In addition, DoD IG assessed key operations in a variety of areas by
                                                                           whistleblower reprisal and many others.
conducting assessments and intelligence reviews. DoD IG investigated
senior officials and reprisal complaints; conducted policy and peer
reviews; and managed programs, such as contractor disclosure and the
DoD Hotline.




 58 SEMIANNUAL REPORT TO THE CONGRESS
                    3


Enabling Mission Areas
Enabling Mission Areas



                                         DoD IG witnesses testified at seven congressio-        National Army Pharmaceutical Distribution,”
Congressional                            nal hearings during the reporting period.              issued on May 7, 2012.

Testimony and On  April 17, 2012, the Acting Inspector General
              Lynne Halbrooks, testified before the Subcom-
                                                                                                On July 24, 2012 Deputy Inspector General for
                                                                                                Special Plans and Operations retired Ambas-
Briefings     mittee on Contracting Oversight, Senate Com-
              mittee on “Homeland Security and Governmen-
                                                                                                sador Kenneth Moorefield testified before the
                                                                                                Subcommittee on Oversight and Investigations,
                                         tal Affairs Holds Hearing on The Comprehensive         House Armed Services Committee on “Afghan
                                         Contingency Contracting Reform Act of 2012.”           National Security Forces and Security Lead
                                         Halbrooks discussed the agency views on S.             Transition: The Assessment Process, Metrics
                                         2139, the Comprehensive Contingency Con-               and Efforts to Build Capability.” Moorefield dis-
                                         tracting Reform Act of 2012, and the impact this       cussed DoD IG oversight efforts regarding the
                                         proposed legislation would have for DoD IG,            ANSF and provided a summary of the conclu-
                                         specifically the provision creating of a lead IG       sions, observations and recommendations from
                                         for contingency operations.                            selected reports initiated over the past year.

                                         On June 28, 2012, Special Deputy Inspector             On Sept. 12, 2012, Deputy Inspector General for
                                         General for Southwest Asia J.T. Mickey McDer-          Special Plans and Operations retired Ambas-
                                         mott testified before the Subcommittee on Na-          sador Kenneth Moorefield testified before the
                                         tional Security, Homeland Defense and Foreign          Subcommittee on National Security, Homeland
                                         Operations, House Committee on Oversight and           Defense, and Foreign Operations House Over-
                                         Government Reform on “The Transition from a            sight and Government Reform on “The Facts
                                         Military to a Civilian-Led Mission in Iraq.” Mc-       and Circumstances Surrounding Alleged Cor-
                                         Dermott discussed past and ongoing DoD IG              ruption and Mismanagement at the U.S. Taxpay-
                                         oversight regarding the transition from a mili-        er-funded Dawood National Military Hospital.”
Deputy IG Kenneth Moorefield testifies   tary to a civilian-led mission in Iraq, specifically   Moorefield discussed DoD IG oversight regard-
on the Afghan Security Forces.
                                         reviews regarding the Office of Security Coop-         ing U.S. military and coalition efforts to develop
                                         eration-Iraq.                                          the ANSF health care system, including at the
                                                                                                Dawood National Military Hospital in Kabul,
                                         On July 10, 2012, Deputy Inspector General for         Afghanistan.
                                         Special Plans and Operations retired Ambas-
                                         sador Kenneth Moorefield testified before the          On Sept. 13, 2012, Deputy Inspector General for
                                         Subcommittee on Oversight and Investigations,          Special Plans and Operations retired Ambas-
                                         House Armed Services Committee on “Account-            sador Kenneth Moorefield testified before the
                                         ability and Reform Efforts at the Afghan Nation-       Subcommittee on “Military Personnel, House
                                         al Military Hospital.” Moorefield discussed DoD        Armed Services Committee on the Federal
                                         IG oversight regarding U.S. military and coali-        Voting Assistance Program.” Moorefield dis-
                                         tion efforts to develop the management, medi-          cussed oversight regarding the Federal Voting
                                         cal care services, and logistical capability and       Assistance Program, specifically Report No.
                                         accountability of the Dawood National Military         DoDIG‐2012‐123, “Assessment of the Federal
                                         Hospital in Kabul, Afghanistan.                        Voting Assistance Program Implementation of
                                                                                                the Military and Overseas Voter Empowerment
                                         On July 24, 2012, Deputy Inspector General for         Act,” released on Aug. 30, 2012.
                                         Auditing Daniel Blair, testified before the Sub-
                                         committee on National Security, Homeland               During the reporting period, DoD IG had 59
                                         Defense, and Foreign Operations on “Improve-           meetings with members of Congress and their
                                         ments and Challenges in the Afghan National            staffs and received 150 new congressional in-
                                         Army Pharmaceutical Distribution Process.”             quiries and closed 140 cases, including inquiries
                                         Blair discussed the audit of the Afghan National       related to allegations of fraud, waste and abuse;
                                         Army pharmaceutical distribution process, Re-          financial management, and senior official inves-
                                         port No. DODIG-2012-083, “Additional Guid-             tigations.
                                         ance and Training Needed to Improve Afghan

 60 SEMIANNUAL REPORT TO THE CONGRESS
DoD Hotline is a confidential and reliable vehi-         closed.
cle for military service members, DoD civilians,
contractor employees and the public to report
                                                    •	   545 cases referred to the military services
                                                         were closed.
                                                                                                             DoD Hotline
fraud, waste, mismanagement, abuse of author-       •	   94 cases referred to other defense agencies
ity, threats to homeland security and leaks of           were closed.
classified information.                             •	   Four cases referred to non-DoD agencies
                                                         were closed.
DoD Hotline received 12,201 contacts from the
general public and members of the DoD com-          An additional 1,004 cases were not referred and
munity: 7 percent via mail, 29 percent via email,   dismissed without action.
12 percent via the Internet and 52 percent via
telephone. Based on these contacts the hotline      Through the DoD Joint Inspectors General
initiated 1,930 cases. Of those cases, 1 percent    course, the DoD Hotline routinely provides IGs
were referrals from the Government Account-         from the combatant commands, military depart-
ability Office, and 7.5 percent were congressio-    ments and defense agencies with insight into the
nal complaints.                                     complaint referral and oversight process man-
                                                    aged by the hotline.
Open Cases
The 1,930 cases opened this reporting period re-    This training opportunity seeks to familiarize
late to the following categories:                   IGs with the process by which the DoD Hotline
•     Internal misconduct (709).                    program serves a diverse Department and its
•	 Reprisal related (335).                          multiple IG programs with a macro focus on is-
•	 Finance (199).                                   sues negatively impacting the Department.
•	 Contract administration (194).
•	 Government property (92).                        DoD Hotline staff met with secretary level rep-
•	 Personnel matters (104).                         resentatives from the military departments to
•	 Programs (107).                                  discuss efforts to improve the processing of DoD
•	 Military support services (13).                  Hotline complaints and to leverage ways to min-
•	 Medical (25).                                    imize the impact of DoD Hotline inquiries on
•	 Mental health evaluation (1).                    military missions and resources.
•	 Non-appropriated fund (2).
•	 Recovery Act (5).                                Topics of discussion included processing pro-
•	 Security (50).                                   cedures; confidentiality; types of complaints re-
•	 Procurement (54).                                ferred for inquiry; lines of communication; and
•	 Other (22).                                      suggested improvements. The data obtained will
•	 Safety (7).                                      be used to evaluate and further refine hotline
•	 Trafficking in persons (11).                     procedures and training materials.


Closed Cases
During this reporting period the DoD Hotline
closed 1,169 cases.
•	 526 cases referred within DoD IG were




                                                                                                        APRIL 1, 2012 TO SEPTEMBER 30, 2012 61
Enabling Mission Areas



                                   Hotline Case Referrals                              Figure 3.1
                                                                                       Distribution of Method of Hotline Contacts Received
                                   The DoD Hotline initiated 1,930 cases to the fol-
                                   lowing activities:
                                                                                                               7% U.S. Mail
                                   Military Departments		                      	
                                       	      AF			                              168
                                     	        Army	                              477                                                 29% Email
                                       	      Navy		                             145
                                       	      USMC		                              28
                                       	      JS			                               92
                                   DoD IG			
                                       	      ISO		                              121
                                       	      WRI			                             246
                                     	        Hotline			                         291
                                   	          Audits		                            23
                                     	        OGC		                                2
                                       	      Investigations		                    92
                                     	        ISPA	                                8       52% Telephone                      12% Internet
                                     	        OPR		                                4
                                     	        SPO			                               1
                                     	        APO			                               8
                                     	        Investigative P&O	                   2   Figure 3.2
                                     	        P&O			                               3   Distribution of Cases Initiated by Category
                                   Defense Agencies/DoD Field Activities		
                                   	          Civilian Personnel Mgmt. Office	     2         Internal Misconduct                                 709
                                   	DCMA	                                         12             Reprisal Related             335
                                     	        DODEA 	                             21                      Finance         199
                                     	        DCAA			                             17    Contract Administration           194
                                     	        DECA			                             14                    Programs       107
                                       	      DFAS				                            36           Personnel Matters       104
                                     	        DIA			                               3       Government Property        92
                                   	DISA			                                        3                Procurement      54
                                     	DLA				 27                                                         Security    50
                                       	      DSS			                               7                     Medical 25
                                       	      DTRA				                             2                        Other 22
                                         	    MDA				                              2    Military Support Services 13
                                       	      NGA				                              4       Trafficking in Persons 11
                                       	      NSA			                               2                        Safety 7
                                         	    PFPA			                              3                Recovery Act 5
                                   	          TRICARE Mgmt. Activity	              7    Non-appropriated Funds 2
                                   	WHS	                                           3    Mental Health Evaluation 1
                                   Office of the Secretary of Defense
                                   	AAFES				 6
                                   	          ADMIN & MGMT		                       1
                                   	          Policy		                             1
                                       	      AT&L			                            	 5
                                   	OSD			                                        18
                                   	P&R	                                           8
                                   	          Reserve Affairs	                     1
                                   	MEPCOM	                                        1
                                   	OGC	                                           2
                                   	          Health Affairs	                      2
                                   	          Public Affairs	                      1
                                   	Intelligence	                                  1
                                   	          Non DoD	                             7



62 SEMIANNUAL REPORT TO THE CONGRESS
Of the 12,201 contacts received by the DoD
Hotline, 335 of those cases related to repri-
                                                    •	   On Aug. 12, 2008, a DoD IG investigation
                                                         found that the complainant was subjected      Whistleblowing &
sal allegations. Of these reprisal contacts, 25
related to warrior care. As it has since 2005,
                                                         to a constructive termination after dis-
                                                         closing irregularities with the awarding         Transparency
DoD IG continued to provide protection for               of contracts and violations of the Federal
defense intelligence and counterintelligence             Acquisition Regulation. DoD IG referred
employees and military members under the                 the report of investigation to the Army
authority of the Inspector General Act of                for appropriate remedies. Complainant
1978, as amended.                                        and the Department of the Army entered
                                                         into a remedial settlement agreement to
Qui tam whistleblowers continue to provide               resolve the claim of reprisal. Disciplinary
DCIS with actionable information leading to              action was not taken as the responsible
the prosecution of fraud cases. Prominent on             management official moved to another
the DCIS docket during this reporting period             federal agency. This case fell within a se-
were the following qui tam cases:                        ries of cases accepted due to the impor-
•	 An investigation of Accenture, LLC for                tance of disclosures regarding operations
    allegedly accepting improper payments                in Southwest Asia.
    amounting to kickbacks from hardware            •	   On Oct. 26, 2010, a DoD IG investigation
    and software vendors and other alliance              found that the complainant’s access to
    partners in exchange for Accenture’s rec-            classified information was suspended for
    ommendation of the vendors’ products to              disclosing information to congressional
    government end users. The two relators               staff, government officials and the news
    who brought the case to the attention of             media regarding the quality of medical
    the Department received a combined $14               treatment provided for a civilian intelli-
    million of Accenture’s $63 million settle-           gence employee injured by an improvised
    ment with the U.S. government.                       explosive device during Operation Iraqi
•	 An investigation of ATK-Thiokol for                   Freedom. DoD IG referred the report of
    the alleged sale of defective illumination           investigation to the commander, Army
    flares to the Army and Air Force. The de-            Intelligence and Security Command, for
    fect could cause the flares to prematurely           appropriate remedies. A list of complet-
    ignite creating a significant safety hazard          ed corrective actions included improved
    to U.S. forces in Iraq and Afghanistan.              training implemented based on the DoD
    ATK agreed to pay the U.S. government                IG report, the addition of an attorney ad-
    $21 million to resolve allegations of fraud          visor position at the employee’s higher
    in this qui tam lawsuit. The relator will re-        headquarters level and the creation of a
    ceive a separate payment of $4.5 million             follow-up system for report to the Army
    from ATK, and the company also agreed                Central Clearance Facility handling secu-
    to provide $15,967,160 of in-kind services           rity clearance matters. The complainant
    to retrofit existing flares to meet contract         and the Department of the Army also en-
    specifications.                                      tered into a settlement agreement before
                                                         the Merit System Protection Board. This
DoD IG requires command and management                   case focused on security clearance deci-
officials to provide a response regarding cor-           sion-making reviewed as a pretext for re-
rective action taken within 60 days of issu-             prisal and the other importance of disclo-
ing a report. At the 90-day point, the report            sures regarding operations in Southwest
is transferred to the director, whistleblowing           Asia.
and transparency for tracking. Commands re-
sponded to DW&T during this reporting pe-
riod in two significant cases:



                                                                                                        APRIL 1, 2012 TO SEPTEMBER 30, 2012 63
Enabling Mission Areas



                                   Subpoena Program                                              The DoD IG subpoena is a useful tool for le-

Programs                           The DoD IG’s authority to issue subpoenas is
                                   derived from the Inspector General Act of 1978,
                                                                                                 gally obtaining business, personnel, financial,
                                                                                                 and state and local government records. Records
                                   as amended. The IG Act authorizes IGs to is-                  obtained by DoD IG subpoenas may be used to
                                   sue subpoenas in matters that involve fraud and               locate witnesses, confirm statements made by
                                   abuse in Department programs and operations.                  witnesses or subjects, and provide other relevant
                                   Historically, most DoD IG subpoenas were is-                  information. DoD IG has issued more than 500
                                   sued on fraud related matters. During 2005, DoD               subpoenas during each of the past three years
                                   IG recognized the need to expand the Subpoena                 in support of DoD criminal investigations, au-
                                   Program into non-fraud related crimes (i.e. vio-              dits and evaluations. The below chart shows the
                                   lent crime, cybercrime, child pornography, theft              number of DoD IG subpoenas issued during FY
                                   of government property, etc.). During 2008, after             2012 with an overall description of the case-type.
                                   a successful trial period, DoD IG made the is-
                                   suance of subpoena for certain specifically enu-              Information gathered from DoD IG subpoenas
                                   merated general crimes permanent.                             played a significant role in the resolution of the
                                                                                                 following investigations:
                                   A DoD IG subpoena request must meet three                     •	 A defense contractor was investigated for
                                   criteria: the subpoena can only be issued for in-                  providing forged warranties for installing
                                   vestigations within the statutory authority of the                 construction parts on several buildings lo-
                                   IG; the information sought must be reasonably                      cated on a military installation. The cost
                                   relevant to the IG investigation, audit, investiga-                billed to the government included the cost
                                   tion or evaluation; and, the subpoena cannot be                    of those warranties. A DoD IG subpoena
                                   unreasonably broad or burdensome.                                  was used to obtain documents from the
                                                                                                      contractor which corroborated the allega-


                                 Figure 3.3
                                 553 Subpoenas Issued by Type of Investigation FY 2012


                                                                                               5 (1%)
                                                                                          National Security
                                                                                34 (6%)                              75 (14%)
                                                             36 (6%)             Other
                                                  Theft/Larceny of Government                                     Computer Related
                                                        Property or Funds                                             Crime


                                                 26 (5%)
                                            Public Corruption




                                        69 (12%)
                                   Pay, Allowance &
                                   Entitlement Fraud                                                                                   137 (25%)
                                                                                                                                     Crimes Against
                                                                                                                                        Persons




                                                                        171 (31%)
                                                                       Procurement
                                                                          Fraud

64 SEMIANNUAL REPORT TO THE CONGRESS
     tion. The contractor received a fine in excess   Figure 3.4
     of $100,000 and was debarred from govern-        755 Total Contractor Disclosures FY 2012
     ment contracting.                                                      7 (.9%) Other
•	   A military member was investigated for con-          85 (10.97%)
                                                        Product Integrity        4 (.52%) Buy American
     spiring with a woman to kill her husband.
     After the woman induced her husband to
     meet at a pre-designated location, the mili-
     tary member hit the husband on the head
     with a blunt force instrument and stabbed
     him in the back causing serious bodily
     harm. Basic subscriber information from
     email accounts identified with the military
     member and the woman were obtained as a
     result of a DoD IG subpoena and that infor-
     mation was used to corroborate the conspir-
     acy. The military member was sentenced to
     12 years confinement and a dishonorable                                       679 (87.61%) Financial Gain
     discharge for aggravated assault and con-        encourages contractors to demonstrate their
     spiracy to commit murder. The spouse was         commitment to a code of business ethics and
     convicted of joint attempted murder and          self-governance by reporting potential fraud.
     aggravated assault and sentenced to six and      The Contractor Disclosure Program requires
     one half years confinement.                      federal contractors to notify the inspector gener-
•	   A military officer was investigated for di-      al when violations of criminal law and the False
     recting contracts to a contractor with whom      Claims Act occur in the performance of a federal
     he had a personal relationship, allowing         contract or subcontract valued above $5 million.
     that contractor to perform work prior to the     During this reporting period, 92 contractor dis-
     contract’s award, and misuse of a govern-        closures were received.
     ment telephone by allowing that contractor
     to make long distance telephone calls that       Asset Forfeiture Program
     were charged to the government. DoD IG           The DCIS asset forfeiture program continues
     subpoenas were issued to obtain the officer’s    to provide effective forfeiture support to DCIS
     financial records, fund transfer records and     investigations involving fraud, waste and abuse
     email accounts. Information obtained from        by including forfeiture counts in all indictments,
     the subpoenas corroborated the allegations,      criminal information and consent agreements
     and the officer was fined $300,000 or serve                                                                 Figure 3.5
                                                      when warranted by the evidence.
     five years confinement.                                                                                     Asset Forfeiture Items
•	   A defense contractor was investigated for        The program’s goal is to                                             97% Cash/Currency
     failing to conduct required testing and in-      deter criminal activity
     spections of landing gear on military air-       by depriving criminals
     craft. Information obtained from the con-        of property used or                                                       2% Financial Instruments
     tractor as a result of a DoD IG subpoena         acquired through ille-                                                          1%
     corroborated allegations that the contractor     gal activity both in the                                                      Vehicle,
     did not possess the necessary equipment to                                                                             Jewelry/Precious Items,
                                                      United States and in                                                          Vessels,
     perform the tests and failed to perform the      Southwest Asia.                                                     Furniture/Household Items,
     required testing. A civil action resulted in a                                                                           Artwork/Collection
     $400,000 recovery.                                                                                                          Real Property
                                                      Since the start of the
                                                      program, in May 2007, DCIS has participated in
Contractor Disclosure Program                         the seizure of assets totaling $803 million.
The Contractor Disclosure Program facilitates
defense contractors’ compliance with Federal
Acquisition Regulation Rule 2007-006, which
implements Public Law 110-252. This program

                                                                                                                 APRIL 1, 2012 TO SEPTEMBER 30, 2012 65
Enabling Mission Areas


                                                                         Figure 3.6
                                                                         Results - Asset Forfeiture Program
                                   and Final Orders of Forfeiture in
                                   the amount of $870 million,

                                   During FY 2012 DCIS partici-
                                   pated in investigations which led
                                   to court orders of final forfeiture
                                   in the amount of $262 million
                                   and seizures in the amount of
                                   $250 million.

                                   Assets that have been seized or
                                   forfeited include bank accounts,
                                   real property, jewelry, computer
                                   equipment, vehicles, watercraft,
                                   a life insurance policy and com-
                                   memorative coins.




                                   Interagency Initiatives
Outreach
                                                                                           by developing policies, standards, and approach-
                                                                                           es to aid in the establishment of a well-trained


Activities
                                                                                           and highly skilled workforce in the offices of the
                                   Southwest Asia Joint Planning Group
                                                                                           inspectors general. DoD IG is an active partici-
                                   The Southwest Asia Joint Planning Group is a
                                                                                           pant in the CIGIE and serves as editor-in-chief
                                   coordinating body for U.S. government organi-
                                                                                           of the Journal of Public Inquiry.
                                   zations conducting oversight over U.S. military
                                   and civilian activities in Southwest Asia. The
                                                                                           Defense Council on Integrity and Efficiency
                                   group meets quarterly to coordinate and de-
                                                                                           The Defense Council on Integrity and Efficiency
                                   conflict oversight activities. The group last met
                                                                                           is chaired by DoD IG and meets on a quarterly
                                   in February 2012. In July 2012, the Joint Strate-
                                                                                           basis to discuss issues of common interest, share
                                   gic Planning Subgroup for Oversight of Afghan-
                                                                                           information and best practices, and build closer
                                   istan Reconstruction, a subgroup of the South-
                                                                                           working relationships among members of the
                                   west Asia Joint Planning Group, issued the Joint
                                                                                           oversight community within the Department of
                                   Strategic Oversight Plan for Afghanistan Re-
                                                                                           Defense. Key areas of focus during the reporting
                                   construction. The Joint Strategic Oversight Plan
                                                                                           period included the Federal Voting Assistance
                                   for Afghanistan identifies 22 strategic issues, of
                                                                                           Program, procurement fraud investigations,
                                   which 13 address reconstruction issues and nine
                                                                                           contractor compliance programs, suspension
                                   address other than reconstruction issues.
                                                                                           and debarment and the Reducing Over-Classi-
                                                                                           fication Act.
                                   Council of Inspectors General for Integrity and
                                   Efficiency
                                                                                           Intelligence Community Inspectors General Fo-
                                   The Council of the Inspectors General for In-
                                                                                           rum
                                   tegrity and Efficiency was statutorily established
                                                                                           DoD IG participates in the Intelligence Com-
                                   as an independent entity within the executive
                                                                                           munity IG Forum, which promotes and furthers
                                   branch by the Inspector General Reform Act of
                                                                                           collaboration, cooperation, and coordination
                                   2008. Its purpose is to address integrity, econ-
                                                                                           among the inspectors general of the intelligence
                                   omy and effectiveness issues that transcend in-
                                                                                           community. The IC IG Forum meets quarterly
DoD IG received eight awards at    dividual government agencies; and increase the
                                                                                           to discuss issues of common concern, and to
CIGIE’s annual awards ceremony.    professionalism and effectiveness of personnel
                                                                                           plan how to address them collaboratively. In Au-

66 SEMIANNUAL REPORT TO THE CONGRESS
gust 2012, and at the request of the Senate Select   of suspected fraud impacting these programs is
Committee on Intelligence, DoD IG and IC IG          reported to DCIS and the appropriate MCIO in
initiated an accountability review of disciplinary   a timely manner.
actions taken within the intelligence community
as a result of substantiated IG investigations of    National Cyber Investigative Joint Task Force
misconduct. DoD IG and IC IG anticipate is-          DCIS, along with 18 other federal law enforce-
suing the report during the first quarter of FY      ment and intelligence agencies, is an active
2013.                                                member of the National Cyber Investigative
                                                     Joint Task Force. The task force is mandated by
Joint Intelligence Oversight Coordination Group      presidential order as the focal point for all gov-
The Deputy Inspector General for Intelligence        ernment agencies to coordinate, integrate, and
and Special Program Assessments chairs the           share information related to domestic cyber
Joint Intelligence Oversight Coordination            threat investigations. The FBI is the administra-
Group, which meets quarterly. The group pro-         tive head of the task force, and each member
motes and furthers collaboration, cooperation,       agency retains its own autonomy and authori-
coordination and information sharing among           ties. Task force members work together to not
the inspectors general and auditors general of       only respond to current cyber crimes, but also
the Department of Defense. The objectives are        to identify key players and schemes with an eye
to support the DoD inspectors general and au-        towards predicting, and thus stopping, cyber-
ditors general in the performance of audits, in-     attacks in their earliest stages. The task force also
spections and evaluations within their respective    maintains extensive partnerships with industry
departments and agencies as well as strengthen       and the private sector to raise threat awareness
their collective role and effectiveness to enhance   and identify emerging cyber threats. DCIS field
their support of the National Intelligence Strat-    agents also participate in various cyber task
egy. Finally, the group seeks to optimize utiliza-   forces across the country, working hand in hand
tion of resources, increase efficiency and avoid     with other agencies to combat cyber crime that
duplication of effort among DoD inspectors and       impacts DoD programs and operations.
auditors general.
                                                     Conferences/Briefings/Train-
Small Business Innovative Research/Small
Business Technology Transfer Program                 ing
The National Defense Authorization Act of 2012
[Sec. 5143(c)] requires inspectors general of        AI Training Symposiums
federal agencies involved in the Small Business      Administrative Investigations hosted two train-
Innovation Research/Small Business Technol-          ing symposiums during FY 2012 open to DoD
ogy Transfer Program submit an annual report         and service/defense agency IG personnel. The
to the House and Senate Small Business Com-          training included topics such as ethics, travel,
mittees and the House Science Committee re-          interview techniques, oversight and report writ-
garding SBIR/STTR investigations. DCIS has           ing.
participated in the SBIR/STTR Fraud Working
Group across the country since 2009. National        DoD APEX Senior Executive Orientation                         Administrative Investigations hosted

Science Foundation OIG has led the group since       Principal Deputy Inspector General Lynne Hal-                 training symposiums in FY 2012.

its inception, and the member IGs work together      brooks recently spoke at the APEX Senior Ex-
to combat fraud, waste and abuse in SBIR/STTR        ecutive Orientation Program Sept. 12, 2012.
programs. National Science Foundation provid-        Through the APEX program, DoD civilians new
ed Congress with a comprehensive set of com-         to the senior executive service spent one week in
ments from working group members designed            Washington, DC, and another at various com-
to strengthen anti-fraud provisions in the reau-     batant commands and military installations
thorization bill. Many of the recommendations        gaining exposure to the totality of the Depart-
of the group were incorporated into final legisla-   ment’s operations and first-hand knowledge
tion. DoD IG coordinates with the various DoD        of its challenges and opportunities. Halbrooks
SBIR/STTR program offices to ensure all matters      spoke to attendees about how DoD IG fulfills its

                                                                                                             APRIL 1, 2012 TO SEPTEMBER 30, 2012 67
Enabling Mission Areas



                                      statutory mission and its role within the defense   General Lynne Halbrooks spoke to the Ameri-
                                      oversight community to include senior official      can Institute of Certified Public Accountants in
                                      and whistleblower reprisal investigations.          Washington DC at their National Governmental
                                                                                          Accounting and Auditing Update Conference
                                      Marine Corps IG Symposium                           East. Halbrooks participated in a panel exam-
                                      On Aug. 8, 2012, Principal Deputy Inspector         ining emerging issues in the inspectors general
                                      General Lynne Halbrooks spoke to more than 70       community. Inspector General Phyllis Fong,
                                      military and civilian attendees at the Inspector    Department of Agriculture and Inspector Gen-
                                      General of the Marine Corps Symposium, host-        eral Daniel Levinson, Department of Health and
                                      ed by the Maj. Gen. Juan Ayala, the inspector       Human Services also presented. Additionally, on
                                      general of the Marine Corps. Halbrooks spoke        Aug. 21, 2012, Deputy Inspector General Daniel
                                      about the organization’s mission and provided       Blair and Mark Easton, deputy chief financial of-
PDIG Halbrooks speaks at the Marine   examples of recent work.                            ficer, Office of the Under Secretary of Defense
Corps IG Symposium.
                                                                                          (Comptroller), and Asif Kahn, director, Finan-
                                      Navy IG Symposium                                   cial Management and Assurance, GAO, deliv-
                                      On July, 18, 2012, Principal Deputy Inspector       ered a joint presentation on “DoD’s Progress in
                                      General Lynne Halbrooks spoke to more than          Achieving Auditability.”
                                      120 military and civilian attendees at the Naval
                                      Inspector General Symposium hosted by Vice          Policy and Oversight Training
                                      Adm. James Wisecup, the Naval inspector gen-        During FY 2012, DoD IG conducted 19 subpoe-
                                      eral. She spoke about DoD IG’s mission and pro-     na courses and trained 456 Military Criminal
                                      vided an overview of the organization’s work.       Investigative Organization agents in both their
                                                                                          basic and advanced criminal investigative train-
                                      National Governmental Accounting and                ing courses.
                                      Auditing Update Conference East
                                      On Aug. 20, 2012, Principal Deputy Inspector




68 SEMIANNUAL REPORT TO THE CONGRESS
           4


Services
Services



                                       ARMY AUDIT AGENCY                                   repair sources, rather than using the source of

Army                                   To accomplish its mission, U.S. Army Audit
                                       Agency relies on a workforce of highly-trained
                                                                                           repair that provided the best value.
                                                                                           Findings: USAAA found that although the
                                                                                           Army established an integrated process team to
                                       professional auditors, many with advanced de-       identify core quantities for secondary item repair
                                       grees and professional certifications. USAAA’s      at depots, it did not have a process to provide
                                       staff consists of approximately 600 employees       this information to item managers. Because item
                                       and is organized into 20 functional audit teams     managers did not know how many secondary
                                       that provide audit support to all aspects of Army   item repairs were necessary to meet core capa-
                                       operations.                                         bility requirements, they maximized the use of
                                                                                           organic sources of repair. Item managers should
“USAAA’s goal is to be                 USAAA also maintains a significant presence in      have identified the quantity of repairs that ex-
a highly sought-after                  the U.S. Central Command area of responsibil-       ceeded core requirements to determine the best
                                       ity assisting Army commanders. At the end of        value source for those repairs. Further, when
and integral part of the
                                       September 2012, it had 31 deployed auditors in      Aviation and Missile Life Cycle Management
Army ...”                              Kuwait and Afghanistan. Overall, USAAA has          Command contracted for repairs, the contracts
                                       deployed more than 200 auditors since 2002 and      it used had ceilings specifying maximum repair
                                       issued more than 200 reports on Operations En-      quantities. Thus, even if the contractor was able
                                       during and Iraqi Freedom.                           to repair items more economically, the contract
                                                                                           limited the number of repairs item managers
                                       USAAA’s goal is to be a highly sought-after and     could leverage to the contractor.
                                       integral part of the Army by providing timely       Result: USAAA reported that the Army could
                                       and valued services that focus on the evolving      improve this process by ensuring item managers
                                       needs of Army leadership. To ensure its audits      are aware of the quantity of secondary item re-
                                       are relevant to the needs of the Army, USAAA        pairs necessary to meet core capability require-
                                       aligned their audit coverage with the Army’s        ments, and it should reemphasize the need to use
                                       highest priority and high-risk areas, as deter-     the best value source of repair for requirements
                                       mined by its enterprise-level risk assessment and   above core. Additionally, USAAA reported that
                                       input from Army senior leaders.                     the Aviation and Missile Life Cycle Management
                                                                                           Command could modify contracts to ease ceil-
                                       During the second half of FY 2012, USAAA pub-       ings, which would allow greater flexibility in le-
                                       lished 115 reports, made more than 300 recom-       veraging additional repairs to contractors when
                                       mendations and identified about $900 million of     prudent. Increasing the number of repairs done
                                       potential monetary benefits. The following are      by a contractor for the two sample repair pro-
                                       highlights of significant USAAA reports.            grams reviewed by USAAA could save the Army
                                                                                           up to $12 million in FY 2013 and about $54.7
                                       National Source of Repair Selection Process –       million through the FYs 2013–2017 Program
                                       Phase II                                            Objective Memorandum.
                                       Overview: At the request of the Office of the       Report No. A-2012-0151-ALM
                                       Deputy Chief of Staff, G-4, USAAA audited Life
                                       Cycle Management Command processes for as-          Predeployment Training Equipment
                                       signing secondary item repair work to organic       Overview: At the request of the Office of the
                                       (in-house) and contracted sources of repair.        Deputy Chief of Staff, G-4, USAAA evaluated
                                       USAAA evaluated whether repair decisions re-        the processes used to identify predeployment
USAAA reported Army’s process for      sulted in the best value for the Army. USAAA        training equipment requirements and its associ-
assigning repair work could improve.   performed its review at TACOM Life Cycle Man-       ated sustainment cost. PDTE is a pool of theater-
                                       agement Command and the Aviation and Mis-           unique equipment that augments unit modified
                                       sile Life Cycle Management Command. USAAA           tables of organization and equipment shortages.
                                       concluded that the Army process for assigning       Findings: USAAA reported the PDTE program
                                       repair work could be improved. The process in       supported unit training needs; however, the type
                                       place emphasized maximizing the use of organic      and amount of equipment exceeded require-

 70 SEMIANNUAL REPORT TO THE CONGRESS
ments. A USAAA analysis showed the program               identifiable information) versus unclassi-
had 8,230 pieces of excess equipment valued at           fied data.
more than $600 million and that approximately       •	 Guidance on sanitizing BlackBerry devices.
$103 million of that equipment could be used        •	 A requirement to track hard-drive compo-
to reduce or eliminate Army-wide equipment               nents after they were removed from a de-
shortages. USAAA also found that the Army                vice.
had a sufficient process to estimate PDTE re-       •	 Guidance on leased information technology
quirements. However, Army activities did not             equipment other than computers.
provide sufficient support for requirements,        In addition, USAAA reviewed contracts for
maintain equipment usage data or periodically       leased equipment and found that they did not
adjust requirements. Further, the Army’s PDTE       clearly and completely address sanitizing hard
included equipment that did not meet the intent     drives.
of the program and on hand quantities often ex-     Result: By helping the Army improve its guid-
ceeded authorizations and were underutilized.       ance on the sanitizing and disposal process, and
The Army had a sufficient process to identify       by addressing the requirements in contracts for
sustainment requirements and that PDTE ac-          leased equipment, USAAA reduced the risk that
countability, maintenance management and            sensitive Army information could be released
utilization of the low-usage program were suf-      outside the Army.
ficient. However, moving towards only funding       Report No. A-2012-0107-FMT
authorized PDTE and establishing a more trans-
parent budgeting process would improve fiscal       Printer Management, Chief Information
management. The added costs of maintaining          Officer/G-6
excess equipment and equipment that did not         Overview: At the request of the Office of Chief
meet the intent of the program reduced the as-      Information Officer/G-6, USAAA audited print-
surance the Army gained the intended benefits       er management within the Army.
from its PDTE investment.                           Findings: USAAA reported that the three in-
Result: Based on the current table of distribu-     stallations it visited had more than three times
tion and allowances, the Army could reduce          as many printers on hand than necessary and
equipment sustainment costs by approximately        did not have a clear picture of the costs they
$33.4 million if it transferred the excess equip-   incurred on printing. This was because the
ment to other Army commands such as Army            Army had not published guidance or metrics
Forces Command.                                     for printer management and it had not actively
Report No. A-2012-0165-ALM                          managed its printer fleet. As a result, the Army
                                                    is expending unnecessary resources to support
Disposal of Excess Information Technology           its current printer fleet. USAAA recommended
Equipment                                           that the Army (1) issue a printer moratorium
Overview: USAAA reviewed how the Army was           and instruct Army activities not to purchase new
sanitizing and disposing of excess information      printers or enter into leased agreements until the
technology equipment. These processes are vital     activities perform an organizational analysis of
to protecting the Army’s information from unin-     printer needs, taking into account the need to
tended release as the Army goes through normal      eliminate unused or underused equipment and
lifecycle replacement of its IT equipment.          to reduce printing, and (2) develop guidance on
Findings: USAAA reported that the Army gen-         managing printers.                                        USAAA reviewed Army management
erally sanitized and disposed of excess IT equip-   Result: USAAA estimated that, by reducing the             of information technology equipment.
ment in accordance with Army policy, but some       number of printers needed at the three installa-
policies and guidelines needed to be improved       tions alone, the Army could avoid future lifecy-
to better protect Army information from unin-       cle replacement costs of about $2.9 million over
tended release. Specifically, the Army had not      the next six years. The Army could achieve ad-
established:                                        ditional savings if it made better use of printer
•	 A mechanism for identifying which devices        functions, such as duplexing and draft quality
     process sensitive data (such as personally     printing, which use less paper and toner.

                                                                                                         APRIL 1, 2012 TO SEPTEMBER 30, 2012 71
Services



                                Report No. A-2012-0113-FMT                           Findings: At the five sites USAAA visited, offi-
                                                                                     cials:
                                Bandwidth Requirements for Connecting Army           •	 Returned 57 of 63 medically cleared claim-
                                Installations to the Global Information Grid,             ants back to work from July 1, 2007, through
                                Chief Information Officer/G-6                             Dec. 31, 2010.
                                Overview: USAAA audited the processes the            •	 Used the DoD Pipeline Reemployment Pro-
                                Army used to identify and plan for future band-           gram to return 25 of the 63 claimants back
                                width needs and how they manage and allocate              to work from July 1, 2007, through Dec. 31,
                                current bandwidth used to connect Army instal-            2010, at four of the five sites visited, saving
                                lations to the global information grid.                   the Army about $26 million in future life-
                                Findings: USAAA reported that the Army did                time costs.
                                not have a process to identify and plan for future   Although the Army returned medically cleared
                                bandwidth requirements; instead bandwidth            claimants back to work and used DoD’s Pipe-
                                was allocated on a reactionary basis that did not    line Program to offset costs, the Army did not
                                take into account emerging requirements. This        capture information related to medically cleared
                                is because personnel responsible for review-         claimants who returned to work because it did
                                ing bandwidth requests did not have access to        not have a formal process in place to capture this
                                information or tools that would allow them to        information on a frequent and consistent ba-
                                perform a comprehensive review. Additionally,        sis. Consequently, the Army could not provide
                                the Army’s available bandwidth was unman-            sufficient oversight to effectively maximize the
                                aged. The Army’s processes were not typically        return-to-work programs’ potential, minimize
                                flexible enough to adapt quickly to changing         costs and measure the success of the return–to-
                                requirements. This includes an unwillingness to      work initiatives. In addition, DoD officials re-
                                prioritize Internet traffic to meet mission needs    ported that only 16 of 76 Army activities used
                                on a day-to-day basis. The Army also used a          the Pipeline Program during FY 2011, and five of
                                large portion of available bandwidth to access       60 activities had not used the program at all since
                                nonmission information. As a result, at certain      its inception. Both the program administrators
                                installations the Army was struggling to have        who were unfamiliar with the program’s require-
                                enough available bandwidth to satisfy mission        ments and qualifications and a lack of clear guid-
                                needs. This problem is likely to get worse as the    ance might have contributed to why Pipeline
                                Army moves to provision of information tech-         Program funding sometimes was not used. Since
                                nology services at the enterprise level.             2008, the Army has contributed about $14.8 mil-
                                Result: USAAA recommended a series of ac-            lion to the program but has used only about $8.5
                                tions to ensure that bandwidth managers are          million in funding to return medically cleared
                                better informed about future bandwidth re-           claimants back to work. Future fiscal constraints
                                quirements. USAAA also developed and recom-          may also affect the Army’s ability to use the Pipe-
                                mended a process by which local network enter-       line Program in the upcoming years. As a result,
                                prise centers can manage bandwidth effectively       the Army might not fully realize the programs’
                                to ensure bandwidth is more readily available to     benefits of offsetting future first-year salary costs
                                meet mission needs.                                  when it returns previously injured claimants
                                Report No. A-2012-0127-FMT                           back to work.
                                                                                     Result: If the Army carries out the recommenda-
“The Army has spent             Army Workers’ Compensation Program: Use of           tions in this report, USAAA estimate about $9.6
nearly $2 billion in            Return-to-Work Programs and Initiatives              million could be saved over the next six years.
                                Overview: The Army has spent nearly $2 billion       Report No. A-2012-0114-IEE
the last 11 years
                                in the last 11 years to provide wage replacement
to provide wage                 and medical benefits to federal civilian employ-     Second Destination Transportation Funding
replacement and                 ees for on-the-job injuries and illnesses. USAAA     Requirements
medical benefits                conducted an audit to verify that program ad-        Overview: At the request of the deputy chief of
to federal civilian             ministrators effectively used return-to-work         staff, G-4, USAAA performed this audit to verify
                                programs and initiatives.                            that the Army had appropriate information to
employees...”
 72 SEMIANNUAL REPORT TO THE CONGRESS
identify funding requirements for Second Desti-        •	   Command leadership at the Army installa-
nation Transportation when building a program               tions was not enforcing the requirement for
objective memorandum.                                       unit commanders to collect the basic allow-
Findings: USAAA found that the Army needed                  ance for subsistence from their soldiers dur-
improvements in its methods for calculating and             ing field training.
keeping supporting documents that justified            •	 Command G-1s were not providing nec-
the second destination transportation funding               essary oversight to ensure their S-1s were
requirements. Of the $709 million in FY 2013                processing and submitting the collection
second destination transportation requirements              actions for the unit’s soldiers after the unit
shown in the FYs 2013 to 2017 POM, USAAA                    returned from field training.
reviewed about $392 million and found the              •	 S-1s were generally unaware that they were
Army did not:                                               responsible for initiating the personnel ac-
•	 Use prescribed budgetary procedures for                  tion to collect basic allowance for subsis-
      about $355 million (91 percent);                      tence from their unit’s soldiers.
•	 Maintain sufficient supporting documenta-           Result: The Army could potentially achieve
      tion for about $93 million (24 percent); and     about $24 million in savings during FYs 2012 to
•	 Use an appropriate method to apply infla-           2017 by increased command emphasis to unit
      tion factors.                                    commanders on their responsibility to collect
These issues occurred because the Army did not         basic allowance for subsistence from their sol-
have guidance for determining second destina-          diers during periods of field training.
tion transportation requirements and maintain-         Report No. A-2012-0170-FMF
ing supporting documentation. Additionally,
personnel who were responsible for developing          Family Readiness Support Assistants, Staffing
and submitting second destination transporta-          and Utilization
tion requirements did not have sufficient bud-         Overview: USAAA audited whether family
getary expertise.                                      readiness support assistants were assigned, used
Result: The Army lacked assurance that it bud-         and trained in accordance with established guid-
geted for the correct amount of Second Destina-        ance.
tion Transportation requirements. The $3.6 bil-        Findings: USAAA reported that family readi-
lion in requirements in FYs 2013 to 2017 POM           ness support assistants generally provided the
may have been understated by about $228 mil-           support the Family Readiness Support Assistants            USAAA reviewed how the Army uses
                                                                                                                  family readiness support assistants.
lion.                                                  Program intended. Specifically, most family
Report No. A-2012-0163-ALS                             readiness support assistants performed specific
                                                       administrative duties as required by Depart-
Basic Allowance for Subsistence Pay for Soldiers       ment of the Army headquarters and command
Participating in Field Training                        guidance and by contracts. The Army had the
Overview: USAAA performed an audit of basic            appropriate position description and contract
allowance for subsistence pay for soldiers par-        requirements to ensure that personnel had the
ticipating in field training to verify that soldiers   necessary skills and qualifications to perform
receiving basic allowance for subsistence were         their actual duties. Component commands also
properly charged for meals while conducting            had effective procedures to ensure family readi-
training in the field in accordance with DoD and       ness support assistants were trained properly to
Army directives.                                       avoid prohibited duties such as fundraising and
Findings: USAAA reported that the Army does            duplicating family support. However, USAAA
not routinely charge soldiers receiving basic al-      determined that family readiness support assis-
lowance for subsistence for government meals           tants staffing requirements needed to be reallo-
provided to them during field duty. USAAA              cated with operational requirements throughout
found the Army commands they reviewed had              the Army. Current staffing assignments were
an overall lack of command emphasis for col-           standardized across the Army based on a con-
lecting basic allowance for subsistence from           cept plan and adjusted to align personnel at vari-
their soldiers. Specifically:                          ous organizational levels within a unit’s struc-

                                                                                                             APRIL 1, 2012 TO SEPTEMBER 30, 2012 73
Services



                                        ture. USAAA’s comparative analysis of the total       Summary Report: Audit of American Recovery
                                        number of family readiness groups that the fam-       and Reinvestment Act of 2009 Phase III – Project
                                        ily readiness support assistants in their review      Outcomes and Recipient Reporting
                                        showed that potential misalignments or imbal-         Overview: USAAA completed its second and
                                        ances existed. Additionally, the Army needed to       final phase of audits in support of DoD IG
                                        adjust budgetary rates schedules to correspond        oversight requirement for Recovery Act plans
                                        with family readiness support assistants’ salaries.   and implementation. For this final phase,
                                        Result: The Army could save as much as $46.8          USAAA audited the Army’s implementation of
USAAA reviewed 85 projects related to   million annually by adjusting staffing require-       the Recovery Act for 85 projects valued at $194
Recovery Act plans.                     ments and budgetary rates to reallocate person-       million at 10 installations/activities. USAAA
                                        nel resources properly.                               verified that installation/activity personnel:
                                        Report No. A-2012-0143-IEM                            •	 Achieved planned outcomes for Recovery
                                                                                                    Act projects.
                                        Audit of Overseas Contingency Operations Re-          •	 Took sufficient actions to ensure recipient
                                        source Reporting                                            reporting met transparency requirements.
                                        Overview: At the request of the assistant chief       Findings: USAAA reported that the Army
                                        of staff for installation management, USAAA           sufficiently managed the 85 Recovery Act
                                        performed a review of the overseas contingency        projects they reviewed at 10 Army installations
                                        operations funding execution for representative       and activities to achieve planned outcomes.
                                        Army Force Generation installations for FYs           The Army generally took sufficient actions to
                                        2008 to 2010.                                         ensure recipient reporting met transparency
                                        Findings: USAAA reported that OCO funding             requirements. Specifically, the Army generally:
                                        sometimes was not used in accordance with pol-        •	 Achieved Recovery Act goals and objectives
                                        icy and guidance. For example:                              by competitively awarding firm, fixed-price
                                        •	 Controls over OCO fund requests and sub-                 contracts, posting contract award informa-
                                             sequent fund use sometimes were not in                 tion as required, and preparing detailed
                                             place to ensure funds were used only for               statements of work and providing contract
                                             their intended purposes. This resulted in              oversight.
                                             executing about 9 percent more than ap-          •	 Met established project objectives and en-
                                             proved requirements.                                   abled the Army to contribute to Recovery
                                        •	 Two active component sites that USAAA                    Act goals.
                                             visited used almost 40 percent of their OCO      •	 Provided sufficient contract oversight by
                                             funds ($218 million of $575 million) to                maintaining quality assurance plans.
                                             supplement their base budget and to fund         •	 Ensured contractors met reporting require-
                                             base operations support. Thus, overall, the            ments. Most sites had a process in place to
                                             four garrisons used about one-fourth of the            ensure recipients reported project data ac-
                                             $948 million in OCO funds they received                cording to the Federal Acquisition Regula-
                                             for noncontingency-related base operations             tion and Recovery Act requirements for
                                             support for FYs 2008 through 2010. This                timeliness, accuracy and completeness.
                                             happened because guidance was interpreted        •	 Prevented significant inaccuracies in recip-
                                             incorrectly and oversight was incomplete.              ient-reported data and ensured the timely
                                        The “Cost of War” report was overstated and                 reporting of the data.
                                        enduring base operations support requirements         However, USAAA found a systemic issue with
                                        were understated. This could potentially lead to      the review process of recipient reports for
                                        future base budget funding shortages.                 projects managed by the U.S. Army Corps of
                                        Result: USAAA identified potential savings of         Engineers. USAAA determined that the process
                                        more than a half million dollars annually at one      was not sufficient for ensuring recipient reports
                                        Reserve Component installation if they used           met the transparency requirements of the
                                        more economical business practices.                   Recovery Act.
                                        Report No. A-2012-0161-IEO                            Result: USAAA made a recommendation in a
                                                                                              site report to the director, National Contracting

 74 SEMIANNUAL REPORT TO THE CONGRESS
Organization, USACE to correct the systemic           crimes, with an overall solve rate of 95 percent.
issue. In addition, USAAA identified several          The solve rate for general crimes was 62 percent
isolated instances that affected or could have        in comparison with the national average of 18
affected an installation’s or activity’s ability to   percent. More than $260 million in recoveries
achieve their project outcomes and instances          and cost avoidance was generated by Army CID
where quality assurance inspections were              during the reporting period.
not properly documented. USAAA made
recommendations to correct the issues identified      Significant emphasis was placed on the conduct
for each installation or activity in separate site    of sexual assault and death investigations to
reports. These audits facilitated accountability      help meet the intent of DoD and Department
and provided assurance that the Army’s Recovery       of the Army leadership in reducing the number
Act spending was transparent and met the other        of sexual assaults and suicides that affect the
goals of the Act.                                     Army community. Army CID continued to hire
Report No. A-2012-0188-IEE                            additional dedicated sexual assault investigators
                                                      and formed special victims units to improve

ARMY CRIMINAL
                                                      the quality of sexual assault investigations and
                                                      increased efforts to hold offenders accountable

INVESTIGATION
                                                      for their actions. The forensic experiential
                                                      trauma interview technique developed by Army

COMMAND
                                                      Military Police School is a ground-breaking
                                                      procedure that has resulted in vastly improved
                                                      victim interviews and in the collection of
Significant Activities                                additional testimonial evidence in sexual assault
The Army Criminal Investigation Command               cases. More than 200 criminal investigators
is a combat ready organization dedicated to           and attorneys from all the services, as well as
providing the Army with critical investigative        the Coast Guard, have attended and completed
support, actionable criminal intelligence,            the course in FY 2012. Increased competency
logistics security and protective services for        and improved investigative products have
senior DoD personnel around the globe. During         been produced by the course graduates who
the reporting period the Army CID had 473             are providing prosecutors the information and
agents and other personnel forward-deployed           evidence necessary to successfully prosecute and
in support of ongoing contingency operations          secure convictions of sexual assault offenders.
in Kuwait, Iraq and Afghanistan. This support
extended beyond normal criminal investigations        Specialized Unit Operations
and included logistics security operations;
training host nation law enforcement personnel;       Protective Services
detainee investigations; and the use of forensic      The Protective Services Battalion conducted
sciences and criminal investigative techniques        continuous worldwide executive protection
to aid combatant commanders in identifying,           from assassination, kidnapping and injury for
targeting, capturing, deterring and prosecuting       designated senior high-risk personnel of the
insurgents and criminal elements that pose a          DoD, the Joint Chiefs of Staff and the Department
threat to U.S. forces.                                of the Army, to include their respective foreign         An Army CID special agent provides
                                                                                                               security to Gen. Raymond Odierno.
                                                      counterparts during official visits to the
For FY 2012, Army CID generated more than             United States. The PSB also provided oversight
4,329 new reports of investigation and more           of training and operational effectiveness of
than 3,750 non-report of interest investigative       combatant commander protective services in
sequence actions. In spite of the demanding           U.S. Southern Command and U.S. Forces Korea.
case load, Army CID maintained a solve rate           Since April 2012, PSB conducted five Operation
of 99 percent for drug crimes, 93 percent for         Enduring Freedom and three Operation New
violent persons crimes, 94 percent for economic       Dawn travel missions, 52 travel missions to
fraud crimes and 98 percent for miscellaneous         outside the continental United States, 182

                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 75
Services



                                continental United States missions (excluding        overseas contingency operations in support of
                                the daily protection of principals within the        the various military operations under Operation
                                national capital region), and three visiting         Enduring Freedom and Operation New Dawn.
                                foreign counterpart missions for ministers, chiefs   Since April 2012, 98 reports of investigations
                                of defense and Army chief of staff equivalents       were initiated with approximately $244 million
                                within the national capital region and throughout    in total recoveries and $2.5 million returned to
                                the continental United States. Additionally, the     the U.S. Army; outside the continental United
                                PSB provided staff for 69 foreign counterpart        States, 13 reports of investigation were initiated
                                missions for ministers, chiefs of defense and        and more than $571 million in fines and
                                Army chief of staff equivalents attending the        restitution were realized.
                                NATO conference held in Chicago, Ill, between
“More than 1,075                May 19-21, 2012. The PSB continues to provide        U.S. Army Criminal Investigation Laboratory
insurgents were                 temporary protective support to the former           The Army Criminal Investigative Laboratory’s
uniquely identified             secretary of defense, the Honorable Robert M.        Expeditionary Forensic Laboratory-2 deployed
                                Gates and for former chairman of the joint chiefs    to Afghanistan April 20, 2012, and continued the
using latent prints             of staff, Admiral Michael Mullen. The Battalion’s    mission of providing forensic support throughout
and DNA processed               protective intelligence section conducted full       the theater of operations. The EFL-2, along with
from captured enemy             spectrum threat assessments for every low-,          Combined Joint Task Force Paladin, Texas, has
materiel...”                    medium- and high-risk travel mission and for         technical oversight and support of four smaller
                                each Personal Security Vulnerability Assessment,     satellite labs located at Camp Stone Herat, Camp
                                which incorporated terrorist and criminal            Marmal Mazar-e-Sharif, the multi-national lab
                                threat data into a comprehensive risk analysis       at Camp Warehouse Kabul and the Australian
                                program. The PSB continued to deploy special         lab in Tarin Kowt Uruzgan that provide support
                                agents to Afghanistan to lead protective service     on a regional basis. The EFL-2 has a robust
                                details for senior U.S. combat commanders,           capability to conduct forensic examinations for:
                                including the commander, Combined Security           explosive triage, latent prints, DNA, chemistry,
                                Transition Command Afghanistan/NATO                  electronic engineering, firearms and tool marks
                                Training Mission Afghanistan; the commander,         and forensic/biometric enabled intelligence
                                Combined Joint Task Force 1st Cavalry Division/      analysis. With this capability, the EFL-2 is able
                                Regional Command East–Afghanistan; and the           to provide timely intelligence used for linking
                                commander, Combined Joint Task Force 82nd            known insurgents forensically to captured enemy
                                Airborne Division/Regional Command South             materiel, such as IEDs, weapons, documents and
                                Afghanistan.                                         other materials that are used for targeting and
                                                                                     prosecution in Afghan courts. The Afghanistan
                                Major Procurement Fraud                              Captured Materiel Exploitation Laboratories are
                                The Major Procurement Fraud Unit continues           under the operational control of Combined Joint
                                to focus its efforts on countering fraud and         Task Force Paladin.
                                corruption related to contingency operations.
                                Its global mission is to conduct criminal            Forensic examinations were conducted on more
                                investigations into allegations of fraud             than 297,000 exhibits, completing more than
                                associated with major Army system acquisition        6,300 cases. More than 1,075 insurgents were
                                programs, to recover Army funds, insure the          uniquely identified using latent prints and DNA
                                integrity of the Army procurement process, and       processed from captured enemy materiel and
                                deter future crimes to preserve soldier safety       matching it to known reference samples in DoD
                                and Army readiness. The Major Procurement            databases. Of those identifications, 680 came
                                Fraud Unit investigates allegations of fraud         from latent prints submitted to the Biometrics
                                affecting contracting operations in contingency      Identity Management Agency and searched
                                environments throughout the world. Currently         in the Automated Biometric Identification
                                there are five forward operating investigative       System database and 395 identifications came
                                offices in Afghanistan and Kuwait, focused on        from DNA submitted to the Armed Forces
                                contingency fund contractual fraud involving         DNA identification laboratory. Once they were

 76 SEMIANNUAL REPORT TO THE CONGRESS
identified, 257 “be on the lookout” notices were         personnel wounded in action. The clearance
issued, 113 insurgents were detained, and 101            patrol collected and packaged the IED rem-
insurgents were convicted and sentenced in               nants and transferred them to the Afghani-
Afghan court. Afghan court statistics show that          stan Captured Material Exploitation labora-
when evidence is matched forensically to the             tory where Rahmin Gul’s DNA was found
insurgent there is a 94 percent conviction rate on       on the IED. As a result of this match, he was
cases using DNA and 92 percent conviction rate           captured by coalition forces on March 21,
on cases using latent prints.                            2011. On Aug. 6, 2012, the Afghan court
                                                         sentenced Rahmin Gul to eight years in an
Two examples of how EFL-2 forensic analyses              Afghan prison.
were used to get insurgents off the battlefield
follow:                                              The EFL-2 spearheaded initiatives to improve
•	 On April 7, 2010, a coalition forces vehicle      forensic support to the Afghanistan Theater of
     struck an improvised explosive device. The      Operations through assisting with court charting
     initial explosion injured five coalition sol-   cases containing multiple latent prints for each
     diers. After a recovery team reported to the    record print to link those prints to the evidence
     scene, a second IED detonated. The second       to be used by Afghan prosecutors in court. Using
     explosion injured two additional coalition      its reach-back facilities in the continental United
     soldiers. The IED components were collect-      States allows examiners in theater to concentrate
     ed from the incident scene and transferred      on their heavy case load. Since April 22, 2012,
     to the Afghanistan Captured Materiel Ex-        EFL-2 completed 111 cases that involved devel-
     ploitation Laboratory. A search of the Ad-      oping court charts for Afghan Court trials.
     vanced Battlespace Information System bio-
     metrically matched Khalid Naim’s record         The EFL-2 supported future Afghan forensic
     fingerprints to those found on the seized       training by sending its forensic science officer to
     material. Naim was captured and detained        work with the NATO rule of law field support
     by coalition forces June 8, 2011. When the      mission, which is responsible for leading the
     court date was established, Combined Joint      planning effort. The planning team identified
     Task Force Paladin published the prosecu-       three objectives:
     tion support packet, which consolidated the     •	 Enhance the Afghan Criminal Techniques
     forensic evidence and biometrics data. In-           Academy in Parwan province to ensure it
     cluded was a court chart, developed by the           is capable of teaching its technicians the fo-          The Reach Back Operations Center
     Afghanistan Captured Material Exploita-              rensic techniques so they can sustain the ca-           provides premier forensic support.

     tion laboratory, of the latent print from the        pability after the departure of coalition forc-
     IED and record print for Naim, presented             es. The next techniques class will include
     side-by-side, showing the minutia points.            students from Herat who will be taught by
     The Afghan prosecutor used the translated            the Afghan instructors, with U.S. contracted
     packet as part of his presentation in court.         instructors as mentors.
     On July 15, 2012, the Afghan court sen-         •	 Improve the capabilities of the Ministry of
     tenced Khalid Naim to 12 years in an Af-             the Interior Central Laboratory in Kabul.
     ghan prison.                                         Currently, the lab has aging equipment that
•	 On Sept. 16, 2010, a coalition forces route-           was gifted from a variety of international
     clearance patrol responded to an IED on a            donors. The NATO support mission is de-
     route in Regional Command East. The coali-           veloping courses of action to move them
     tion forces recovered a command wire IED             into a new facility.
     in the immediate area of the search. While      •	 Establish a regional forensic lab in Herat
     clearance patrol exploited the site, another         that has the support of MOI leadership; a
     escort patrol passed through the area and            location has been identified and planning
     a second command wire IED detonated on               continues between the NATO Rule of Law
     that patrol. The detonation resulted in one          Field Support Mission and DoD IG’s MOI
     coalition forces vehicle disabled and three          partners.

                                                                                                            APRIL 1, 2012 TO SEPTEMBER 30, 2012 77
Services



                                The Expeditionary Forensic Division’s Reach          Review Secretariat that was conducting periodic
                                Back Operations Center, continues to provide         reviews of Guantanamo detainees.
                                premier forensic support to six geographi-           The CITF attorneys and analysts in Guantanamo
                                cally dispersed Afghanistan Captured Materiel        reviewed, redacted and declassified nearly 30,000
                                Exploitation Laboratories, as well as to other       pages of records and processed about 1,500
                                contingency operations outside the continen-         documents for release to military commissions
                                tal United States. The Reach Back Operations         and the federal court as part of the DoD Security
                                Center added chemistry capability during this        Classification/Declassification Review Team for
                                period. This new laboratory is equipped with         use in future proceedings. In support of overseas
                                the same equipment utilized in theater as well       contingency operations in Afghanistan, CITF:
                                as some more technologically advanced equip-         •	 Deployed agents to two new initiatives and
                                ment. This equipment allows for future analysis           emerging missions: supporting Shafafiyat’s
                                and quantification of post-blast materials and            Major Crimes Task Force, established by
                                other evidence associated with suspected IEDs.            the Afghan National Directorate of Security
                                The expansion of analysis of trace-level mate-            with the support of the United States to bat-
                                rials such as hair, glass, paint and adhesives is         tle graft and corruption, and the U.S. Special
                                also being considered. This additional capability         Operations Command Criminal Prosecu-
                                will assist with chemistry cases being returned           tion Sensitive Site Exploitation Refinement
                                from theater as well as for training.                     Team.
                                                                                     •	 Continued to support Task Force 2010 and
“... CITF began                 DoD Criminal Investigation Task Force                     Combined Joint Interagency Task Force
providing                       The Army CID continued to serve as the executive          435.
analytical support              agency for the DoD Criminal Investigation Task       •	 Provided intelligence reach-back capabili-
                                Force, which conducts criminal investigations             ties in support of those task forces.
and investigative               of suspected terrorists in Guantanamo Bay,           •	 Developed information and evidence that
information it                  Cuba, and suspected terrorists and insurgents             led to convictions of terrorists and insur-
developed about                 in Afghanistan, and ultimately helps remove               gents involved in attacks using IEDs.
detainees to the DoD            terrorists and insurgents from the battlefield. To   •	 Developed information about individuals
Periodic Review                 carry out its mission, the Criminal Investigative         and networks involved in capturing prop-
                                Task Force had teams of Army CID special                  erty from the United States and its coalition
Secretariat ...”                agents, attorneys and analysts in the continental         partners that led to the recovery of stolen
                                United States, Guantanamo and Afghanistan.                U.S. government property.
                                                                                     •	 Trained Afghan law enforcement and judi-
                                The CITF teams continued working with the                 ciary personnel.
                                DoD Office of Military Commissions of the
                                chief prosecutor with pretrial hearings for          At the Shafafiyat’s Major Crimes Task Force,
                                detainees Khalid Sheikh Mohammed, suspected          CITF agents mentored Afghan law enforcement
                                of masterminding the 9/11 attack; the four men       officers working on high-profile corruption cases
                                charged with murder in violation of the law of       of Afghan officials and networks, and provided
                                war and seven other charges in connection with       training on investigating organized crime,
                                the planning and execution of the 9/11 attack;       weapons trafficking and other crimes. At the
                                and Abd al-Rahim Hussayn Muhammad Abdu               Criminal Prosecution Sensitive Site Exploitation
                                al-Nashiri, who allegedly was in charge of           Refinement Team, agents collected and preserved
                                planning and preparing for the Oct. 12, 2000,        evidence as close to the point of capture as possible
                                attack on the USS Cole in the Port of Aden,          for use in potential prosecution or continued
                                Yemen, in which 17 U.S. sailors were killed.         detention of detainees. Agents conducted more
                                                                                     than 300 interviews of detainees in Afghanistan
                                In a new initiative related to Guantanamo            at the detention facility in Parwan in support of
                                detainees, CITF began providing analytical           Combined Joint Interagency Task Force 435. A
                                support and investigative information it             CITF attorney served as the officer in charge of
                                developed about detainees to the DoD Periodic        the Justice Center in the Parwan Investigations

 78 SEMIANNUAL REPORT TO THE CONGRESS
Unit, and agents, analysts and attorneys working    amounts of evidence collected, profiling and the
at the Justice Center prepared more than 300        identification of individuals for questioning and
investigative reports on detainees, most of         prosecution in Afghanistan in support of the
whom allegedly possessed or planted IEDs.           rule-of-law.
The conviction rate of Afghans prosecuting
the cases worked on by CITF at the Justice          The LEP Program in Afghanistan accomplished
Center in Afghanistan’s antiterrorism court has     the following in the past six months:
consistently been about 80 percent. The CITF        •	 On April 7, 2012, an Afghan National Army
agents assigned to Task Force 2010 developed             patrol detained four suspects involved in
investigative leads identifying individuals,             an IED incident. On April 8, 2012, TF Bull-
companies and locations used to house and                dog LEPs mentored the ANA on detainee
store stolen property. The operations resulted in        processing. The LEPs met with an Afghan
recovering 14 U.S. shipping containers valued            noncommissioned officer who was trained
at more than $188,000 and 124 High Mobility              along with 22 other ANA soldiers in bio-
Multipurpose Wheeled Vehicles valued at $8.6             metric collection in December 2011. The
million from the Afghan National Directorate of          LEPs used the situation as an opportunity
Security.                                                to have the previously trained NCO train
                                                         the ANA students on the procedures of
The CITF attorneys and analysts worked with              biometric collection. The four detainees
attorneys from the Office of Special Inspector           were photographed then fingerprinted by
General for Afghanistan Reconstruction and               the ANA NCO. The NCO then collected a
shared information to augment operational                known saliva sample from each detainee via
knowledge of criminal networks in and around             buccal swab instructing the other soldiers.
Afghanistan.                                             Soldiers present indicated they understood
                                                         the procedures as they were demonstrated
Law Enforcement and                                      and seemed enthusiastic about the lessons
                                                         learned. All fingerprint cards and collec-
Professionals Program                                    tion swabs were retained by the LEP to be
The Law Enforcement Professionals Program is             turned into the Afghanistan Captured Ma-
an ongoing, Army CID managed, program that               teriel Exploitation Laboratories for analysis
supports both the Army and the Marine Corps              and comparison.
during contingency operations. The LEP Pro-         •	 On April 8, 2012, Task Force Spartan LEPs
gram embeds experienced former law enforce-              arranged a demonstration of homemade
ment personnel at all echelons from corps to bat-        explosives test kits conducted by the Task
talion and some select companies.                        Force Shahkine commander and mem-
                                                         bers at Forward Operating Base Salerno
The LEP mission is to advise, assist, mentor             for the Chief National Directorate of Secu-
and train U.S., host nation and coalition forces         rity prosecutor for Khost province and the
in various criminal enterprise investigative and         investigative prosecutor. The demonstra-
analytical law enforcement skill sets used in            tion was to educate the prosecutors on the            Task Force Spartan LEPs demonstrated
counter-IED operations, counter-narcotics and            value of the test kits as evidence and por-           homemade explosives test kits.
counter insurgency operations. The LEPs are an           tray the capability of properly trained Af-
integral component of a comprehensive civil-             ghan National Security Forces to employ
military counter-insurgency campaign.                    the kits operationally. Its members advised
The LEP personnel assist commanders with                 the prosecutors how the testing would be
enhanced expertise and methodology to un-                documented by photography and written
derstand, identify, penetrate, interdict and sup-        notes as to time, date, location and suspect
press international insurgent and criminal-like          information (name, date of birth, etc.) and
network enterprises. The LEP Program, through            informed them that the entire testing of the
advising, assisting, training and mentoring,             samples was conducted by Afghans. Taken
has been a great success enabling significant            together, the prosecutors were convinced

                                                                                                         APRIL 1, 2012 TO SEPTEMBER 30, 2012 79
Services



                                            that the test kit results would be strong evi-       were related to the IED network and pos-
                                            dence in the courts and were in agreement            sessed evidence of insurgent activity. Upon
                                            that the homemade explosives test kits were          completion of the cordon and search, the
                                            valid evidentiary material. The prosecutors          detained insurgents and evidence were re-
                                            stated that evidence obtained and docu-              turned to Forward Operating Base Ghazni
                                            mented by Afghans carries greater weight             for further investigation. The IED network
                                            in an Afghan court and the probability of            operating west of Forward Operating Base
                                            conviction is much improved since Afghan             Ghazni was responsible for at least four
The Afghan police learned how to use
                                            judges are less inclined to dismiss scientific       IED events since early April 2012, which
the test kits.                              evidence developed by Afghans. The pros-             targeted coalition forces and local national
                                            ecutors requested Task Force Shahkine start          construction workers. The operation effec-
                                            training other ANSF in Khost province. The           tively disrupted the IED network operating
                                            LEP is working with ANSF and appropriate             in the vicinity of Qalati and demonstrated
                                            U.S. forces to have the test kits and resupply       the ability of ANSF, partnered with the In-
                                            available through the ANSF supply chain.             vestigative Surveillance Unit, to conduct
                                       •	   On May 2, 2012, Task Force Spartan LEPs              evidence-based operations.
                                            coordinated with Naval Surface Warfare
                                            personnel, Khost ANP CID chief and the           Command Intelligence
                                            TF Shahkine commander on the training
                                            of Khost Afghan National Police CID offi-        Operations Center
                                            cers and TF Shahkine officers with home-         The Command Intelligence Operations Center
                                            made explosives precursor test kits. In ad-      continued to expand its analytical support to in-
                                            dition to the ANP CID/Shahkine officers,         vestigative elements worldwide by collecting, as-
                                            the LEPs invited Khost prosecutors and           sessing and forwarding criminal intelligence to
                                            Khost primary court judges to attend and         Army CID field elements in support of criminal
                                            observe the training. The desired outcome        investigations. The CIOC continues to expand
                                            was that, at the conclusion of the training,     the Army’s e-Guardian Program, which allowed
                                            the judges would take “judicial notice” of       Army law enforcement to share and disseminate
                                            the homemade explosives test kits as viable      terrorist threat information with the FBI, other
                                            evidence when testing was performed by           DoD law enforcement agencies and local civil-
                                            ANP, properly preserved and documented           ian law enforcement authorities. It also acts as
                                            for prosecutors. At the conclusion of the in-    a liaison to the FBI’s National Joint Terrorism
                                            struction, the LEPs engaged the judges and       Task Force. Personnel attached to the National
                                            prosecutors in a discussion on the training      JTTF and Regional JTTFs have assisted the FBI
                                            observed. In particular, the judges were in      in several investigations concerning former Iraqi
                                            agreement that positive test results obtained    insurgents who entered the United States under
                                            using the homemade explosives test kits          various immigration programs. Additionally,
                                            would be valuable evidence in determining        CIOC members have been leading an initiative
                                            the guilt of a suspect. The judges approved      at the National JTTF to identify potential insider
                                            of the ANP conducting any testing of sus-        threats posed by DoD contractors working in
                                            pected materials and were pleased to ob-         support of U.S. military operations in the United
                                            serve the training.                              States and overseas.
                                       •	   On May 7, 2012, Provincial Response Com-
                                            pany, Ghazni, with Investigative Surveil-        Significant Investigative Cases
                                            lance Unit LEPs, Investigative Surveillance
                                            Unit Ghazni and Task Force 50, conducted         AJ Hughes Executive Sentenced for Fraudulent
                                            a cordon and search of a compound belong-        Certifications
                                            ing to the leader of an IED network operat-      Overview: Gentex self-reported to the
                                            ing west of Forward Opertaing Base Ghaz-         contracting officer that the steel screw provided
                                            ni. The search yielded five insurgents hiding    by AJ Hughes Screw Products Company since
                                            in two separate “spider holes.” The detainees    the summer of 2006 did not meet contract

80 SEMIANNUAL REPORT TO THE CONGRESS
specifications, and Gentex unknowingly                Result: Per pretrial agreement, Tremaine pleaded
submitted false claims when they requested            guilty in Federal District Court, Buffalo, N.Y.,
payment for the Advanced Combat Helmet. AJ            to violating 18 U.S.C. § 287, False, Fictitious,
Hughes falsified the certificates of compliance       or Fraudulent Claims, and § 1001(a)(3), False
claiming the steel and finish met contract            Document. He was sentenced to two 12-month
specifications. These false statements resulted       terms of confinement to run concurrently,
in Gentex unknowingly submitting false claims         ordered to make restitution of $134,271 directly
when they requested payment for the Advanced          to the Army, and was fined $10,000.
Combat Helmet. A joint investigation by Army          In September 2011, Tremaine and AJ Hughes
CID, NCIS and DCIS revealed that Gregory              were debarred from government contracting
Tremaine, vice president of AJ Hughes, changed        until January 2014. Additionally, although there
both the type of steel and type of finish used to     was insufficient credible information to establish
make the screws it was subcontracted to provide       that Debbie Tremaine, president, AJ Hughes
Gentex, the primary contractor, without the           Screw Products Company, was complicit in the
approval or knowledge of Gentex, and did so with      fraudulent criminal activity, the investigative
full knowledge of the government requirements.        efforts were sufficient to support a fact-based
He then falsified certificates of compliance on       debarment of Debbie Tremaine.
each shipping invoice to Gentex for screws he
knew were destined for use on the Advanced            Soldier Sentenced to Two Life Sentences for                 “The soldier planned
Combat Helmet under contracts with the Army.          Plotting to Inflict Mass Casualties                         to place the explosive
Further, Tremaine admitted he had personally          Overview: A joint investigation by the Army
altered AJ Hughes’ internal production drawings       CID, FBI and Killeen Police Department estab-
                                                                                                                        devices inside a
surrounding the Advanced Combat Helmet                lished that a private first class left Fort Camp-                   Killeen, Texas,
so if asked for a drawing he could provide the        bell, Ky., without authorization and traveled              restaurant frequented
fictitious one that would conceal the fact that AJ    to Killeen, Texas. He purchased six pounds of                by military members
Hughes was not using the required steel screws.       smokeless gun powder, three boxes of shotgun              with the intent to inflict
He also admitted to intentionally failing to notify   shells and an ammunition magazine for a pistol,
Gentex that the screw finish was obtained from        intending to construct two explosive devices.
                                                                                                                      mass casualties...”
an unapproved vendor, and that he instructed          The soldier planned to place the explosive devic-
all AJ Hughes employees to not advise Gentex          es inside a Killeen, Texas, restaurant frequented
of either change. In March 2009, the Defense          by military members with the intent to inflict
Supply Center Philadelphia issued a Safety            mass casualties and to shoot anyone fleeing the
Message through the Army Central Management           building after he detonated the explosive devices.
Office and ordered the recall of more than            Based on information provided by a concerned
44,000 Advanced Combat Helmet identified              citizen who witnessed his suspicious behavior
as potentially containing nonconforming               while purchasing the supplies, the Killeen Police
screws. Between May 2009 and April 2011, the          Department and FBI arrested the soldier before
Fort Drum, N.Y., Fraud Branch Office secured          he completed the act.
in excess of 1.8 million screws which, with           Result: In May 2012, the soldier was found
the cooperation of Project Manager Soldier            guilty by jury in Federal District Court and
Survivability, the Army Central Management            sentenced to two consecutive life terms and an
Office and the Defense Logistics Agency, were         additional fifty five years to be served consecu-
removed from the effected Advanced Combat             tively. He was found guilty of violating 18 U.S.C.
Helmets to insure no nonconforming screws             § 2332a(a)(2)(D), Attempted Use of a Weapon
could accidentally be returned to the logistical/     of Mass Destruction; § 1114(3) and 1113, At-
supply pipeline. The collection of more than          tempted Murder of Officers or Employees of the
1.8 million screws represents the 100-percent         United States; § 924(c)(1)(A)(i), Possession of a
collection of nonconforming screws for all            Weapon in Furtherance of a Federal Crime of
Gentex manufactured Advanced Combat                   Violence (Firearm); § 924(c)(1)(A) and (B)(ii),
Helmets fielded to the Army.                          Possession of a Weapon in Furtherance of a Fed-
                                                      eral Crime of Violence (Destructive Device).

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 81
Services



                               Soldiers Convicted of Stealing Rifles Sold to a        reduction in rank, forfeiture all pay and allow-
                               Gang                                                   ances, and was dishonorably discharged from
                               Overview: A joint investigation with the FBI           the service.
                               and the Bureau of Alcohol, Tobacco and Explo-
                               sives established that three soldiers broke into       Sergeant Admits to Stealing $137,000 in Private
                               the temporary arms room within the central             and Government Property
                               receiving point warehouse of Fort Irwin, Calif.,       Overview: The Fort Bliss Housing Management
                               and stole 26 AK-74 assault rifles and a Dragunov       Office reported thefts of appliances and furni-
                               sniper rifle. Two of the soldiers traveled to Fres-    ture (e.g., washing machines, dryers, beds and
                               no, Calif., where they sold rifles to contacts with-   dressers) from barracks and government stor-
                               in a criminal street gang with which one soldier       age buildings. A joint investigation conducted
                               was affiliated. Thirteen weapons were recovered.       with the FBI established that several stolen items
                               Result: The soldiers pleaded guilty in general         were being sold at a local thrift store. Additional
                               courts-martial and were sentenced to a total of        investigation identified a sergeant first class as-
                               38 years confinement, reduction in ranks and           signed to the Fort Bliss Housing Management
                               bad conduct discharges. The UCMJ articles that         Office who admitted to breaking into buildings
                               one or more of the soldiers were guilty of violat-     and stealing both government and personal
                               ing included: Articles 80-An Attempt to Com-           property totaling more than $137,000. Approxi-
                               mit an Offense; 81-Conspiracy; 108-Damaging            mately $46,000 of the property was recovered.
                               and Wrongful Disposition of Military Property;         Result: At a general court-martial, the sergeant
                               109-Destruction of Property other than United          pleaded guilty to violating UCMJ Articles 92 –
                               States Military Property; 112a-Wrongful Pos-           Failure to Obey a Regulation; 108 – Wrongful
                               session of Controlled Substances with the Intent       Disposition of Military Property; and 121 – Lar-
                               to Distribute; 121-Larceny of Military Firearms;       ceny and Wrongful Appropriation. He was sen-
                               and 134-Prejudicial to the Good Order and Dis-         tenced to 19 months confinement, reduced in
                               cipline of the Armed Forces.                           rank and received a bad conduct discharge.


                                                                                      Naval Audit Service
                               Soldier Sentenced to Life for Murder

Navy                           Overview: A military police sergeant stationed
                               at Fort Campbell, Ky., was arrested by the Ken-
                               tucky State Police in 2007 and charged with
                                                                                      The mission of the Naval Audit Service is
                                                                                      to provide independent and objective audit
                               murdering his wife and stepmother. The State           services to assist Department of the Navy
                               of Kentucky prosecuted this joint investigation        leadership in assessing risk to improve efficiency,
                               twice, each time with a hung jury the result. After    accountability and program effectiveness.
                               coordinating with Kentucky State Police, Army          NAVAUDSVC works closely with senior Navy
                               CID was the lead investigative agency, with the        and Marine Corps officials to develop a risk-
                               Fort Campbell Office of the Staff Judge Advocate       based annual audit plan addressing critical areas
                               assuming prosecutorial jurisdiction. Evidence          officials feel merit additional oversight.
                               collected by Kentucky State Police during the
                               crime scene examination and the soldier’s arrest       In the past six months, NAVAUDSVC audits
                               was submitted to the Army Criminal Investiga-          have addressed such significant DoN issues as the
                               tion Laboratory for additional forensic examina-       maintenance and protection of bulk fuel facilities
                               tion. In January 2012, USACIL discovered pieces        (fuel farms), the safeguarding of the personally
                               of glass on the soldier’s clothing which matched       identifiable information of service members and
                               the glass collected from the crime scene. This         civilians, the implementation of (the Defense
                               evidence directly linked the soldier to the scene      Department’s primary tool for measuring
                               and the victims’ deaths.                               contractors’ progress) on the Virginia Class
                               Result: In a general court-martial conducted in        Submarine program and more. At the request of
                               May 2012, the sergeant was found guilty on all         the undersecretary of the Navy, NAVAUDSVC
                               charges and specifications. He was sentenced to        continues to test the responsiveness of DoN
                               life in prison without the possibility of parole, a    sexual assault hotlines. Also in the past six

82 SEMIANNUAL REPORT TO THE CONGRESS
months, NAVAUDSVC’s assist reports for the           revise Navy aviation fuel transaction processing
NCIS identified approximately $1.3 million in        policy to require: (1) unit personnel participat-
potential fraud (for a total of approximately $2.7   ing in each type of aircraft fueling transaction
million in FY 2012).                                 to communicate the fuel quantity issued to each
                                                     aircraft to the aviation unit personnel responsi-
In FY 2013, NAVAUDSVC will continue                  ble for processing fuel transactions from the Fu-
working with senior DoN officials and providing      els Automated System Enterprise Server; and (2)
them with an expert and impartial assessment of      aviation unit personnel responsible for process-
critical DoN issues, making recommendations          ing fuel transactions verify the aircraft bureau
as needed to address identified conditions and       numbers cited within aviation fuel transaction
help prevent their recurrence.                       documentation are for aircraft that are assigned
                                                     to the aviation unit prior to recording the obli-
Joint Warfighting and                                gation. Management concurred with all recom-
                                                     mendations.
Readiness                                            Report No. N2012-0036
Reporting of Navy Aviation Fuel Consumption          Department of the Navy Bulk Fuel Facilities and
Overview: The audit objective was to verify that     Farms–Southwest Region, Defense Fuel Support
the Navy was accurately reporting aviation fuel      Point San Pedro, California
consumption.                                         Overview: The audit objective was to verify that
Findings: NAVAUDSVC found that the Navy, in          Defense Fuel Support Point San Pedro fuel fa-
response to the Oct. 2010 secretary of the Navy      cilities and Pier 12: (1) are in compliance with
energy directives that tasked reporting quanti-      federal and state standards for underground and
ties of consumption for each category of energy      aboveground bulk fuel storage tanks; (2) are op-
usage, underreported aviation fuel consumption       erating within federal environmental standards             NAVAUDSVC reviewed Defense Fuel
by about 12 percent. The Navy Energy Coordi-         and have appropriate contingency plans in place            Support Point San Pedro fuel facilities.
nation Office (Chief of Naval Operations N45E)       to protect the environment and groundwater
underreported fuel consumption due to using          sources; and (3) have effective physical security
data sources that did not include fuel consump-      controls and antiterrorism measures in place to
tion from all Navy aviation units. Understating      ensure the protection of the Navy’s fuel farms.
Navy aviation fuel consumption impairs Navy          Findings: NAVAUDSVC found that DFSP San
management from setting appropriate metrics          Pedro and Pier 12 are in compliance with federal
and milestones to reach the secretary of the         and state environmental standards and have ap-
Navy energy goals.                                   propriate contingency plans in place. However,
Result: NAVAUDSVC recommended that the               fuel storage facilities are not in compliance with
deputy chief of naval operations for fleet readi-    federal and state standards for bulk fuel tanks.
ness and logistics, whose Navy Energy Coordi-        Specifically, NAVAUDSVC identified areas of
nation Office responded to the secretary of the      noncompliance with maintenance requirements
Navy energy directive, establish a process for       and with adherence to regulatory agencies’
reporting Navy aviation fuel consumption and         guidelines. This occurred due to Defense Logis-
use data sources that include all Navy aircraft,     tics Agency Energy’s insufficient accountability
including Navy Reserve aviation units and any        to regulatory agencies, industry’s best business
additional units currently excluded from the         practices and subject matter experts’ recom-
Aviation Cost Evaluation System and Chief of         mendations, and also to DoN’s lack of oversight
Naval Air Training consumption reporting.            of the bulk fuel storages tanks owned by DoN.
To improve the accuracy of aviation unit fuel        If noncompliance with federal and state stan-
reporting through the process of reconciling         dards continues to occur, there is a risk of cor-
fuel provider transactions to unit records, NA-      rosion and deterioration to the fuel tanks, pos-
VAUDSVC recommended that the command-                sibly resulting in groundwater contamination
ers, Naval Air Forces, Pacific and Atlantic, which   and the community’s drinking water supply. A
are responsible for most Navy aviation units,        complete physical security plan is not in place

                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 83
Services



                                   at DFSP San Pedro. Roles and responsibilities          ing fuel and water reports. In addition to the
                                   between DLA and Naval Weapons Station Seal             recording deviations, oversight was limited, and
                                   Beach have not been clearly delineated. Without        personnel were not trained on recording and re-
                                   a complete physical security program in place,         porting fuel usage. As a result, the Navy Energy
                                   there is a potential for inadequate protection         Usage Reporting System was not properly main-
                                   and safeguarding of the key assets at DFSP San         tained;, and ships may not accurately record and
                                   Pedro. In addition, DLA did not establish an an-       report fuel usage and transactions, which could
                                   titerrorism program or implement the minimal           potentially affect the accuracy of data stored in
                                   antiterrorism standards. DLA was not account-          the system and impact burn rates and budgeting
                                   able for complying with DoD standards because          decisions. While the fuel consumption data in
                                   of insufficient oversight. If corrective actions are   the Navy Energy Usage Reporting System may
                                   not taken there is a potential for inadequate pro-     be sufficient for higher-level decision-making,
                                   tection and safeguarding of the key assets.            reliability is reduced when used for decisions re-
                                   Result: NAVAUDSVC recommended that the                 quiring more precise information, such as fuel
                                   commander, Navy Region Southwest, establish            consumption for a specific class of ships or a
                                   an agreement with DLA Energy to ensure tanks           single ship.
                                   are not returned to service unless the mandatory       Result: NAVAUDSVC recommended standard-
                                   repairs are completed and the tank has passed          izing fuel and water reports, automating the
                                   an integrity test; take actions to ensure that DLA     process and updating policies for recording and
                                   Energy Americas West complies with all fed-            reporting fuel consumption data. In addition,
                                   eral, state and local requirements for operation,      a recommendation was made to conduct an
                                   maintenance and repair of underground and              evaluation on the accuracy of ships’ fuel gauge
                                   aboveground fuel storage tanks; develop and im-        systems. To eliminate inconsistencies, recom-
                                   plement roles and responsibilities between DLA,        mendations were also made to increase over-
                                   Naval Weapons Station Seal Beach and DFSP              sight of the process and to establish effective
                                   San Pedro to ensure a complete physical security       training programs for ship personnel in regard
                                   program is established; and provide oversight to       to recording and reporting ship fuel consump-
                                   ensure the antiterrorism roles and responsibili-       tion. Management concurred with all 18 recom-
                                   ties are established and effectively implemented.      mendations.
                                   NAVAUDSVC also recommended that the com-               Report No. N2012-0048
                                   mander, Naval Weapons Station Seal Beach, in-
                                   tegrate the DFSP San Pedro tenant command              Department of the Navy Bulk Fuel Storage
                                   into the installation physical security program        Facilities and Farms–Mid Atlantic Region,
                                   and develop a memorandum of understanding              Craney Island
                                   with local law enforcement agencies. Manage-           Overview: The audit objective was to verify that
                                   ment concurred with all 16 recommendations.            Craney Island was operating within federal stan-
                                   Report No. N2012-0046                                  dards, had appropriate contingency plans and
                                                                                          had effective controls for antiterrorism/force
                                   Reporting of Navy Maritime Fuel Consumption            protection in place.
NAVAUDSVC reviewed Craney Island   Overview: The audit objective was to verify that       Findings: NAVAUDSVC found that Craney Is-
bulk fuel storage facilities.      Navy ship fuel consumption was accurately re-          land is not operating the fuel storage facility and
                                   ported.                                                the oily wastewater treatment plant within fed-
                                   Findings: Although fuel consumption data re-           eral environmental standards. The oily wastewa-
                                   corded by 25 selected ships in the Navy Energy         ter pipeline which runs from the Craney Island
                                   Usage Reporting System was 97 percent accurate,        terminal, under the Elizabeth River, to Naval
                                   NAVAUDSVC found deviations in the monthly              Station Norfolk has leaked twice since January
                                   data for 61 and 44 months of F76 and JP5 fuel re-      2011. The pipeline released approximately 300
                                   ports, respectively. These deviations were attrib-     gallons of oily wastewater and was temporar-
                                   uted to: (1) inconsistent processes for recording      ily repaired awaiting a permanent solution. In
                                   and reporting fuel consumption;(2) manual data         addition, regular tank and pipeline inspections
                                   entry errors; (3) formula errors; and (4) miss-        and maintenance were not in compliance with

84 SEMIANNUAL REPORT TO THE CONGRESS
requirements. For example, the oily wastewater       ports, the supporting documentation that was
internal tank inspections were overdue and ex-       available did not match the total fuel consumed
ternal tank inspections were never conducted         reported in Navy Energy Usage Reporting Sys-
since construction in 1999. In addition, annual      tem. Additionally, there were inconsistencies in
cathodic protection inspections have only been       the types of fuel consumption supporting docu-
conducted once since 1999 on the oily wastewa-       mentation maintained by the ships. In addition,
ter tanks and never since 1998 on the pipeline.      20 time-chartered ships within the Sealift Pro-
Finally, the Navy accepted into service (while       gram did not report their fuel consumption data,
still under warranty) one above-ground fuel-         totaling 11.6 million gallons. As a result, while
storage tank even though the cathodic protec-        fuel consumption data in Navy Energy Usage
tion failed. However the Navy allowed the war-       Reporting System may be sufficient for higher
ranty to expire and will now incur an expense        level decision-making, the reliability is reduced
of approximately $300,000 to repair the cathodic     when used for decisions requiring more precise
protection. As for the contingency and the anti-     information, such as fuel consumption for a spe-
terrorism plans, NAVAUDSVC could not deter-          cific class of ships or a single ship.
mine if the contingency plans were properly sub-     Result: NAVAUDSVC recommended that Mili-
mitted because there was a lack of maintained        tary Sealift Command develop policy guidance
documentation. The antiterrorism plan was not        on fuel consumption reporting requirements,
fully implemented and approved as required. In       detailing specific types of fuel consumption data
addition, there was a discrepancy with the Re-       that are required to be maintained to ensure
stricted Level Designation.                          standardization among the project management
Result: NAVAUDSVC recommended that DoN               offices. In addition, MSC should establish con-
leadership establish an inspection and mainte-       trols and provide oversight to ensure all ships
nance schedule and develop controls to ensure        follow the DoN record retention policy for fuel
warranty items are tracked and repaired prior        consumption data. In addition, project manag-
to acceptance. In addition, establish and imple-     ers, or their appointed representatives, should
ment controls for submission and retention of        obtain fuel consumption supporting documen-
contingency plans and ensure that the antiter-       tation from the ships and reconcile it to the fuel
rorism plan is properly implemented and ap-          consumption data reported in the Navy Energy
proved. Also, determine the correct Restricted       Usage Reporting System to ensure data accura-
Level Designation for the Craney Island fuel fa-     cy. In addition, time-chartered ships within the
cility. Management concurred with all 16 recom-      Military Sealift Command should be required to
mendations.                                          report fuel consumed on a monthly basis. Man-
Report No. N2012-0053                                agement concurred with all four recommenda-
                                                     tions.
Military Sealift Command Ships’ Energy               Report No. N2012-0054
Consumption
Overview: The audit objective was to verify that     Aviation Fuel Accounting at Marine Corps Air
the Military Sealift Command ships’ fuel con-        Station Yuma
sumption was accurately reported.                    Overview: The audit objective was to verify that
Findings: NAVAUDSVC found that MSC ships’            Marine Corps Air Station Yuma was accurately
fuel consumption data was not accurately re-         accounting for and reporting aviation fuel dur-
ported for FY 2010. Supporting documentation         ing August to November 2011 at the time a fuel
was available for an estimated 81 percent of FY      pipeline leak was discovered.
2010 Navy Energy Usage Reporting System re-          Findings: Overall, NAVAUDSVC found that
ports. However, Military Sealift Command did         MCAS Yuma personnel accurately accounted                   NAVAUDSVC reviewed fuel
not have supporting ship-generated documenta-        for and reported JP-8 fuel on the audited end-of-          consumption reporting.

tion available to verify the accuracy of fuel con-   month Department of Defense Form 1348-8 fuel
sumption as required for an estimated 19 per-        reports for August through November 2011. The
cent of the Navy Energy Usage Reporting System       audit team reconciled these four end-of-month
reports. For an estimated 36 percent of fuel re-     fuel reports, which reported total operational

                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 85
Services



                               fuel loss of 70,403 gallons during September       associated with tactical ground activity.
                               through November 2011, to source documenta-        NAVAUDSVC also found that Marine Corps
                               tion (e.g., fuel truck logs). NAVAUDSVC identi-    and Navy ground units were not consistently
                               fied an accounting discrepancy for three of the    maintaining required receipts of fuel purchases
                               four months, with the largest in the amount of     and were not consistently reconciling their fuel
                               5,240 gallons.                                     purchases. This occurred partly because the
                               Result: MCAS Yuma personnel revised the            ground units did not have established internal
                               November 2011 closing physical inventory by        operating procedures explaining required fuel
                               5,240 gallons to correct the manually-recorded,    management practices. In addition, DoN lacked
                               month-end fuel quantity for two fuel storage       corporate guidance outlining required fuel
                               tanks. The MCAS Yuma commanding officer            management practices of bulk fuel transactions
                               gained assurance that no further accounting er-    (e.g., document retention and reconciliation
                               rors were involved with the revised fuel loss of   procedures). The fuel management weaknesses
                               75,643 gallons reported for September to No-       identified foster an environment in which
                               vember 2011. NAVAUDSVC did not make any            inaccurate and improper fuel transactions can
                               recommendations to management.                     go undetected within the Fuel enterprise server.
                               Report No. N2012-0055                              Also, without working to address the reporting
                                                                                  limitations of fuel purchase data for tactical
                               Accounting and Reporting of Marine Corps and       ground units, DoN’s ability to understand fuel
                               Navy Fuel Consumption for Tactical Ground          data for ground units is limited (e.g., whether
                               Units                                              it supports tactical activity). Additionally, not
                               Overview: The audit object was to determine        having an accurately established and validated
                               whether a process was in place to accurately       baseline of fuel consumption and purchase data
                               record and report Navy and Marine Corps            may limit DoN ability to accurately measure
                               expeditionary fuel consumption for tactical        progress toward achievement of certain energy
                               ground components (units).                         goals.
NAVAUDSVC reviewed DoN fuel    Findings: NAVAUDSVC found that DoN                 Result: NAVAUDSVC recommended that
consumption.                   lacked an effective process to accurately record   Navy and Marine Corps management develop
                               and report fuel consumption data for tactical      a plan of action with milestones to ensure
                               ground units, as tasked in the October 2010        appropriate data is captured related to tactical
                               Secretary of the Navy Energy Directives. The       (e.g., operational energy) ground activities;
                               directives required reporting of current fuel      the establishment of separate detailed
                               consumption quantities and documentation           methodologies for collecting and reporting
                               of past, current and projected future tactical     their services’ ground fuel data related to
                               energy use. According to Marine Corps and          tactical activities; and all relevant ground units/
                               Navy representatives, at the time of the October   commands that purchase or consume fuel,
                               2010 SECNAV directives, DoN recognized that        develop and implement standardized internal
                               it lacked a reliable fuel consumption collection   operating procedures that explain required fuel
                               process for recording and reporting tactical       management practices. Management concurred
                               energy use. As an alternative, fuel-purchase       with all six recommendations.
                               data was used to report fuel “consumption”         Report No. N2012-0058
                               data in response to the SECNAV reporting
                               requirement. However, NAVAUDSVC’s review           Acquisition Processes and
                               found that portions of the Marine Corps’ and
                               Navy’s fuel-purchase data reported to SECNAV       Contract Management
                               (as fuel consumption) for tactical ground units
                               were over- and under-reported. This occurred       Navy’s Management of Unmanned Systems
                               partly because the Fuel enterprise server, a       Overview: The audit objective was to verify
                               fuel purchase database used by both services       whether the DoN has developed a comprehen-
                               to collect and report fuel consumption to          sive and integrated master plan for unmanned
                               the SECNAV, could not identify transactions        systems, and established an oversight framework

86 SEMIANNUAL REPORT TO THE CONGRESS
for the development, testing, acquisition and        Findings: NAVAUDSVC found that earned
fielding of unmanned systems.                        value management, the DoD primary tool for
Findings: NAVAUDSVC found that DoN has               measuring contractors’ progress, was not fully
taken positive steps to improve unmanned sys-        implemented and used to monitor acquisition
tems program management, but its approach            program cost, schedule and performance for
does not provide reasonable assurance that its       the Virginia Class Submarine program, an
investments in unmanned systems will facili-         acquisition category I program, at Huntington
tate their integration into the force structure      Ingalls Incorporated-Newport News and
efficiently in accordance with guidance. In ad-      General Dynamics Electric Boat in accordance
dition, DoN has not established a governance         with DoD requirements. Specifically, the
process, involving senior DoN leadership, to en-     Virginia Class Submarine contractors’ earned
sure discipline for the program decision-making      value management systems did not fully comply
process within the Department by adjudicating        with all of the 32 DoD-established earned
and resolving issues to ensure achievement of        value management systems guidelines and the
SECNAV’s objectives and goals for unmanned           supervisor of shipbuilding, Newport News and
systems.                                             the supervisor of shipbuilding, Groton, did not
Result: NAVAUDSVC recommended that the               provide formal surveillance over their respective
deputy to the undersecretary of the Navy for         contractors’ earned value management
plans, policy, oversight and integration coordi-     implementation.
nate with chief of naval operations, the comman-     Result: NAVAUDSVC did not make
dant of the Marine Corps and the assistant sec-      recommendations in this report because the
retary of the Navy (research, development and        actions being taken by the Department of Navy
acquisition) to: (1) designate an existing organi-   Center for Earned Value Management and
zation within DoN to be the Office of Primary        Naval Sea Systems Command in response to
Responsibility that has comprehensive oversight      previous Naval Audit earned value management
to (a) maintain awareness of the unmanned sys-       reports and other agency reviews should address
tems programs through continuous coordina-           the internal control weaknesses identified in
tion; (b) conduct routine assessments of individ-    this audit report. However, the Virginia Class
ual and community unmanned systems program           Submarine Program Office, both supervisors of
direction, status, performance, and goals to eval-   shipbuilding and the contractors acknowledged
uate progress toward SECNAV’s objectives and         the weaknesses identified and each party has
goals for unmanned systems; and (c) look across      made efforts to mitigate or resolve the identified
DoN Unmanned Systems programs for oppor-             earned value management system deficiencies.
tunities for efficiencies or process improvements    Report No. N2012-0031
for recommendation to Department leadership;
and (2) establish a governance process, involving    Information Assurance,
senior DoN leadership to ensure discipline for
the program decision-making process within the       Security and Privacy
Department by adjudicating and resolving issues
to ensure achievement of SECNAV’s objectives         Managing Personally Identifiable Information at
and goals for unmanned systems.                      Navy Operational Support Centers
Report No. N2012-0051                                Overview: The audit objective was to determine
                                                     whether internal controls over personally iden-
Implementation of Earned Value Management            tifiable information within Navy Operational
for the Virginia Class Submarine Program             Support Centers were in place and operating ef-
Overview: The audit objective was to verify that     fectively to protect the information from unau-
earned value management was implemented              thorized disclosure.
in accordance with DoD requirements and              Findings: NAVAUDSVC found that NOSCs es-
used to monitor acquisition program costs,           tablished a Privacy Act program that had some             NAVAUDSVC reviewed the Navy’s
schedules and performance for the Virginia           internal controls in place and was operating ef-          master plan for unmanned systems.

Class Submarine program.                             fectively. However, the NOSCs did not have suf-

                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 87
Services



                               ficient internal controls to mitigate the risk of     Financial Management
                               unauthorized disclosure of PII and protect the
                               confidentiality of records containing this infor-     Business Process Reengineering Efforts for
                               mation. NAVAUDSVC observed several internal           Selected Department of the Navy Business
                               control weaknesses in the administration of the       System Modernizations: Shipyard Management
                               Privacy Act program. Specifically, NAVAUDS-           Information System Investment for Corporate
                               VC found that: (1) disposal methods at eight of       Software
                               the nine NOSCs visited did not render records         Overview: This audit is one in a series to verify
                               containing PII unrecognizable; (2) all NOSCs          that supporting documentation was accurate
                               visited had weak physical and electronic safe-        and met the business process reengineering
                               guards; (3) semiannual PII spot checks were not       requirements defined in DoD policy and guid-
NAVAUDSVC reviewed Navy
reengineering efforts.         conducted and properly documented at five of          ance, which implements the FY 2010 National
                               the nine NOSCs visited; (4) a Privacy Act State-      Defense Authorization Act’s requirements that
                               ment was not included on 32 of 47 locally gener-      defense business systems undergoing modern-
                               ated forms used to collect PII at eight of the nine   ization meet specific business process reengi-
                               NOSCs visited; and (5) mandated 2011 PII train-       neering requirements.
                               ing was incomplete at one NOSC visited. Addi-         Findings: NAVAUDSVC found that Naval Sea
                               tionally, NAVAUDSVC noted that PII was not            Systems Command personnel could not provide
                               included as an assessable unit under the FY 2011      sufficient documentation for the business pro-
                               Managers’ Internal Control Program at seven of        cess reengineering of the Shipyard Management
                               the nine NOSCs visited. These conditions gen-         Information System Investment for Corporate
                               erally occurred because there was insufficient        Software to show that they met the FY 2010
                               monitoring and oversight of the Privacy Act pro-      National Defense Authorization Act’s require-
                               gram and DoN guidance was not being followed.         ments.
                               When internal controls are not properly imple-        Result: Naval Sea Systems Command was rec-
                               mented and executed, the risk of compromising         ommended to establish management internal
                               PII increases. Furthermore, the lack of internal      controls to ensure that all documentation that
                               controls limits the ability to plan for and respond   supports Business Process Reengineering As-
                               to potential unintended releases, breaches or un-     sessment Form responses is maintained and
                               authorized disclosures. This could result in iden-    readily accessible, to which they concurred.
                               tity theft or fraud, which would have a negative      Report No. N2012-0030
                               impact on the NOSCs, DoN and the individuals
                               whose PII is compromised.                             Business Process Reengineering Efforts for
                               Result: NAVAUDSVC recommended that the                Selected Department of the Navy Business
                               commander, Navy Reserve Forces Command,               System Modernizations: Naval Air Systems
                               establish controls and perform periodic reviews       Command Depot Maintenance System
                               to ensure that (1) the disposal process at NOSCs      Overview: This audit is one in a series of audits
                               is adequate to render PII records unrecognizable      to verify that supporting documentation was ac-
                               or beyond reconstruction; (2) PII is properly         curate and met the business process reengineer-
                               secured at all times; (3) NOSCs are conducting        ing requirements defined in DoD policy and
                               semiannual spot checks and that proper docu-          guidance. This policy and guidance implements
                               mentation of the inspections is maintained; (4)       the FY 2010 National Defense Authorization
                               a Privacy Act statement is included on all locally    Act’s requirements that defense business systems
                               generated NOSC forms used to collect PII; and         undergoing modernization meet specific Busi-
                               (5) PII training is completed and documented          ness Process Reengineering requirements.
                               by all NOSC personnel, as required by pertinent       Findings: NAVAUDSVC found that the Naval
                               guidance. Additionally, commander, Navy Re-           Air Systems Command Depot Maintenance
                               serve Forces Command, should include PII as an        System documentation explicitly addressed the
                               assessable unit in the Managers’ Internal Control     DoD enterprise architecture requirements. It
                               Program.                                              also showed their intent to streamline operations
                               Report No. N2012-0063                                 and make processes more efficient by updating

88 SEMIANNUAL REPORT TO THE CONGRESS
operations and reducing legacy systems. How-        audit, NAVAUDSVC did not make a DoN-wide
ever, a study of various systems solutions that     conclusion. Not adhering to merit system prin-
included commercial-off-the-shelf options has       ciples when hiring employees can negatively im-
not been performed since 1995.                      pact the DoN missions, reputation and finances.
Result: This resulted in a recommendation that      Result: NAVAUDSVC recommended the direc-
Naval Air Systems Command perform a current         tor, Office of Civilian Human Resources Head-
commercial-off-the-shelf cost versus benefits re-   quarters, resolve outstanding issues associated
view to verify whether the 1995 analysis remains    with three cases and refer cases to the Office of
valid, to which they concurred.                     General Counsel as appropriate, develop and
Report No. N2012-0034                               implement a strategy to ensure prohibited per-
                                                    sonnel practices and administrative errors are
Business Process Reengineering Efforts for          identified and corrected; clarify internal Office of
Selected Department of the Navy Business            Civilian Human Resources headquarters policy;
System Modernizations: Maintenance Figure of        and develop and implement mandatory training
Merit/Mission Readiness Assessment System           and assign civilian hiring as an assessable unit.
Overview: This audit is one in a series of audits   In addition, NAVAUDSVC recommended the
to verify that supporting documentation was ac-     deputy assistant secretary, Civilian Human Re-
curate and met the business process reengineer-     sources, issue a DoN–wide memorandum em-
ing requirements defined in DoD policy and          phasizing adherance to the merit system prin-
guidance. This policy and guidance implements       ciples, avoiding prohibited personnel practices
the FY 2010 National Defense Authorization          and clarifying internal guidance. Management
Act’s requirements that defense business systems    took or planned appropriate corrective action
undergoing modernization meet specific Busi-        on all recommendations.
ness Process Reengineering requirements.            Report No. N2012-0042
Findings: NAVAUDSVC found that Fleet Forces
Command’s Maintenance Figure of Merit/Mis-          Impact of Physical Readiness Training on
sion Readiness Assessment System reasonably         Personnel Safety
meets the FY 2010 National Defense Authoriza-       Overview: The audit objective was to verify                          “... NAVAUDSVC
tion Act.                                           that Navy commands: (1) implemented controls                         found the Navy’s
Result: There are no audit recommendations in       to mitigate the risk of mishaps associated with
this review.                                        physical readiness training; and (2) effectively
                                                                                                                   fitness culture did not
Report No. N2012-0037                               and efficiently implemented the Physical Readi-                   maximize sustained
                                                    ness Program to ensure the Navy maximized                          individual physical
                                                    readiness and operational effectiveness.                                   readiness.”
Other                                               Findings: NAVAUDSVC found that Navy
                                                    commands reviewed, often did not implement
Hiring Select Retired Department of the Navy        controls to mitigate the risk of mishaps associ-
Military Officers into Civilian Positions           ated with physical readiness training by ensur-
Overview: The audit objective was to determine      ing personnel were properly screened prior to
whether the hiring practice of selected retired     participating in the physical fitness assessment.
DoN military officers into civilian positions       Specifically, NAVAUDSVC found that sailors
DoN civilian was in compliance of laws and          were allowed to participate in physical fitness as-
regulations.                                        sessments because of control breakdowns that:
Findings: NAVAUDSVC’s limited-scope review          (1) allowed sailors without a current periodic
of hiring selected eight Navy commanders and        health assessment to participate; and (2) allowed
captains, and Marine Corps lieutenant colonels      at-risk sailors identified through the physical
and colonels, respectively into civilian general    activity risk factor questionnaire to participate
schedule-14/15 or equivalent positions, identi-     without being cleared by an authorized medical
fied instances of potential prohibited personnel    department representative. While NAVAUDS-
practices, apparent violations of law and admin-    VC found that the Navy Physical Readiness
istrative errors. Due to the limited scope of the   Program was being implemented at commands

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 89
Services



                               reviewed, it was implemented inconsistently in       supporting documentation, misinterpretation
                               a way that could affect readiness and operational    of requirements, information being unavailable
                               effectiveness. In addition, NAVAUDSVC found          to the planners, errors in the mathematical com-
                               the Navy’s fitness culture did not maximize sus-     putations, recurrence of line items previously
                               tained individual physical readiness. As a result,   found to be in error and noncompliance with
                               the Navy runs the risk of additional physical        existing guidance. As a result, NAVAUDSVC
                               training-related mishaps, such as the five deaths    identified a total of approximately $65.79 million
                               that were identified in FY 2010 as physical train-   in scoping issues.
                               ing-related.                                         Result: NAVAUDSVC recommended that Ma-
                               Result: NAVAUDSVC recommended that the               rine Corps management direct reductions in
                               Physical Readiness Program Office develop a          scope for the over-scoped and unsupported line
                               process that excludes sailors from participat-       items in military construction projects; review
                               ing in the physical fitness assessments without a    the under-scoped line items and make appropri-
                               current periodic health assessment and develop-      ate adjustments as supporting documentation
                               ment of a set of performance measures, and pro-      dictates; and establish controls to ensure that
                               vide continuous oversight to ensure personnel        the methodology used to develop project cost
                               are properly screened by an authorized medical       estimates is accurate, sufficiently documented
                               department representative prior to participating     and maintained on file in accordance with exist-
                               in the physical fitness assessment. Additionally,    ing guidance. Marine Corps management con-
                               to further cultivate the Navy’s fitness culture,     curred with all four of the recommendations.
                               NAVAUDSVC recommended that the Physi-                Report No. N2012-0047
                               cal Readiness Program Office also require Navy
                               commands to conduct random physical fitness          FY 2012 Second Quarter Test of Department
                               assessments, or parts thereof, to determine if       of the Navy Sexual Assault-Related Phone
                               personnel are consistently maintaining fitness       Numbers
                               standards. Management concurred with seven           Overview: The audit objective was to determine
                               recommendations and did not concur with two.         whether DoN sexual assault-related phone
                               Report No. N2012-0057                                numbers were advertised on DoN installation
                                                                                    websites, and that initial responses to phone
                               Department of the Navy Proposed FY 2013              calls made to those numbers were timely and
                               Military Construction Projects Related to the        appropriate. This audit was requested by the
                               Marine Corps’ Guam Relocation Effort                 undersecretary of the Navy.
NAVAUDSVC tested Navy Sexual   Overview: The audit objective was to determine       Findings: NAVAUDSVC’s fifth test of sexual
Assault phone numbers.         whether the project scope requirements for se-       assault-related phone numbers found overall
                               lected military construction projects related to     improvement in the responses to auditor-placed
                               the Marine Corps relocation were valid, prop-        phone calls to sexual assault-related phone
                               erly scoped and sufficiently supported.              numbers. On Feb. 15, 2012, NAVAUDSVC
                               Findings: NAVAUDSVC found that all four pro-         placed 230 phone calls covering 238 installations
                               posed FY 2013 military construction projects         to DoN sexual assault-related phone numbers.
                               related to the relocation of Marine Corps forces     NAVAUDSVC found 11 percent (26 of 230) of
                               from Okinawa, Japan to Guam represented valid        the auditor-placed phone calls were improperly
                               needs. These proposed projects were initially        handled. NAVAUDSVC searched 246 DoN
                               valued at approximately $343.30 million. Al-         component websites to determine whether
                               though guidance existed for the preparation of       activities had posted a phone number that
                               the military construction projects, NAVAUDS-         reached a victim advocate or sexual assault
                               VC found that all four projects contained over-      response coordinator 24 hours per day.
                               scoped and unsupported line items, totaling ap-      NAVAUDSVC found that 100 percent of Navy
                               proximately $70.28 million. NAVAUDSVC also           Reserve standalone NOSCs and Marine Corps
                               identified under-scoped line items that totaled      activities posted numbers; however, the Navy
                               approximately $4.30 million. These scoping is-       (98 percent) and the Marine Corps Reserves (88
                               sues existed due to inaccurate and insufficient      percent) have room for improvement.

90 SEMIANNUAL REPORT TO THE CONGRESS
Result: NAVAUDSC briefed the results to               Excellence in Operations and
the undersecretary of the Navy; the assistant
secretary of the Navy, Manpower and Reserve           Investigations
Affairs; and Navy representatives, Navy Reserves
and Marine Forces Reserve. The undersecretary;        NCIS Obtains Confession in USS Miami Arson
the assistant secretary of the Navy, Manpower         NCIS identified a suspect and obtained
and Reserve Affairs; and representatives from         confessions for two deliberate fires set aboard
each component agreed that improvements               a nuclear attack submarine undergoing
were still necessary and would be made. The           renovations. The blaze aboard the USS Miami
undersecretary requested that NAVAUDSVC               on May 23, 2012, injured seven people and
conduct additional quarterly tests until two          caused $440 million in damage. The fire started
consecutive quarterly tests showed all four           in the forward portion of the submarine while
components advertised a 24/7 sexual assault-          it was in dry dock and burned for more than 12
related phone number on 100 percent of their          hours. Due to the extensive damage, NCIS and
installation websites, and 95 percent of the phone    the Bureau of Alcohol, Tobacco, Firearms and
calls to those numbers were properly handled.         Explosives were unable to determine how or
Report No. N2012-0044                                 where it started. On June 16, workers discovered           NCIS investigated fires aboard a
                                                      another fire, this time under the Miami’s                  submarine.
                                                      hull, before it could cause significant damage.
Naval Criminal                                        Investigators recovered evidence indicating it
                                                      was set intentionally. In addition to launching an
Investigative Service                                 exhaustive on-site investigation, NCIS compared
                                                      lists of employees in the area during the two
The Naval Criminal Investigative Service is the
                                                      fires. Analysts narrowed the number of potential
primary law enforcement and counterintelligence
                                                      suspects from more than 100 to a small group of
arm of the DoN. It works closely with other
                                                      crew members, military personnel and civilian
federal, state, local and international police and
                                                      shipyard workers, including Casey James Fury.
security services on serious crimes affecting
                                                      Investigators conducted an in-depth background
the DoN, including homicide, sexual assault,
                                                      investigation and found that Fury was receiving
procurement fraud and other crimes against
                                                      treatment for mental health issues. NCIS
persons and property. NCIS also has a significant
                                                      interrogated Fury and administered polygraph
national security mission, investigating such
                                                      examinations. In sworn statements, he denied
crimes as terrorism, espionage and computer
                                                      involvement in the first fire while admitting
intrusion. In the combating terrorism arena,
                                                      he set the second fire. When polygraph results
NCIS provides both offensive and defensive
                                                      indicated deception, Fury confessed he started
capabilities to the DoN. In the offensive context
                                                      both fires. Fury was charged in the District Court
(performing the “counterterrorism” mission),
                                                      with two counts of arson and remains in jail.
NCIS conducts investigations and operations
aimed at interdicting terrorist activities. In the
                                                      Counterintelligence Efforts Recognized
defensive context (performing the “antiterrorism”
                                                      NCIS received the following awards for inves-
mission), NCIS supports key DoN leaders with
                                                      tigative and operational excellence:
protective services and performs vulnerability
                                                      •	 The FBI Director’s Award for significant
assessments of military installations and areas to
                                                           contributions in counterintelligence.
which naval expeditionary forces deploy. NCIS
                                                      •	 Three DoD Counterintelligence and Hu-
also leverages its investigative capabilities as it
                                                           man Intelligence Enterprise Awards: (1) the
conducts its indications and warning mission for
                                                           Office of Special Projects was recognized in
the DoN, fusing threat information from an array
                                                           the CI Investigations (Team) category for its
of sources and disseminating threat products to
                                                           work on the espionage case that led to the
naval elements around the world on a 24-hour
                                                           conviction of Petty Officer 2nd Class Bryan
basis. Below are investigative highlights of NCIS
                                                           Martin; (2) an intelligence analyst received
cases for the current reporting period.
                                                           the individual CI Collection award for re-

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 91
Services



“Another tip led to the             porting on Bahrain’s Arab Spring protests;        fession and identified the victims. Within two
                                    and (3) the NCIS representative to U.S. Af-       days, a military protection order was issued that
recovery of $240,000                rica Command received the National Mili-          prohibited him from contact with juveniles. An-
worth of Marine Corps               tary Intelligence Association’s Colonel John      other tip led to the recovery of $240,000 worth
night vision goggles                Lansdale DoD CI Award in recognition of           of Marine Corps night vision goggles and other
and other restricted                his “extraordinary contribution” to the DoD       restricted military gear allegedly stolen from the
military gear allegedly             CI Enterprise. In addition, a special agent in    government. Because of the tipster’s informa-
                                    the National Security Directorate was rec-        tion, NCIS conducted an investigation, identi-
stolen from the govern-             ognized with the John F. O’Hara CI Career         fied the suspect and obtained a confession.
ment.”                              Achievement Award for “sustained, selfless
                                    service of the highest order, and extraordi-      Deployments
                                    nary and long-lasting contributions to DoD        During the reporting period, 107 NCIS person-
                                    and the United States.”                           nel deployed to Afghanistan (88), the Horn of
                                                                                      Africa (13), Kuwait (3), Bahrain (2), and Iraq
                                NCIS employees received the following awards          (1). These deployments supported several warf-
                                for investigative and operational excellence: U.S.    ighting efforts, to include the Joint Counterin-
                                Attorney’s Office, District of Washington, D.C.,      telligence Unit–Afghanistan, the International
                                recognition for outstanding efforts in the inves-     Contract Corruption Task Force, Joint Field
                                tigation and prosecution of Stewart Nozette, an       Office Afghanistan, the U.S. Special Operations
                                espionage and compromise case that resulted in        Command, the Commander Joint Task Force,
                                a 13-year sentence.                                   and the counter-piracy efforts of Combined Task
                                •	 The DoN Meritorious Civilian Service               Force–151.
                                     Award for providing “crucial counterintel-
                                     ligence      support to an ongoing sensitive     Threats from Foreign Intelligence Services
                                     activity of national importance.”                In early 2012, three NCIS special agents assigned
                                •	 The DoD Counterintelligence and Human              to the Joint Counterintelligence Unit-Afghani-
                                     Intelligence Enterprise Award individual CI      stan, Detachment Kandahar, conducted an op-
                                     Collection award for reporting on Bahrain’s      eration that led to identifying and capturing an
                                     Arab Spring protests.                            Afghan national working on behalf of a foreign
                                •	 The National Military Intelligence Associa-        government recognized as a hostile Tier-One
                                     tion’s Colonel John Lansdale DoD CI Award        threat. The individual, who was questioned and
                                     in recognition of “extraordinary contribu-       confessed to a long-standing relationship with
                                     tion” to the DoD CI Enterprise.                  the hostile government, remains in U.S. custody
                                •	 The John F. O’Hara CI Career Achieve-              as an enemy combatant.
                                     ment Award for “sustained, selfless service
                                     of the highest order and extraordinary and       Multinational Cooperation in Afghanistan
                                     long-lasting contributions to DoD and the        Two recent war-zone murder investigations ex-
                                     United States.”                                  emplify NCIS successes in using law enforcement
                                                                                      skills and expertise to collect evidence admis-
                                Hotline Text Tips Prove Effective                     sible in Afghanistan courts, and in collaborat-
                                Launched in 2011, the NCIS Text and Web Tip           ing with joint task forces and local prosecutors
                                Hotline has been a valuable source of informa-        to bring suspects to justice. In both incidents,
                                tion. For example, during this reporting period a     agents quickly secured the area and simultane-
                                tip received via the text hotline led to an active-   ously gained and provided insight into green-
                                duty sailor confessing to downloading child por-      on-blue “insider” incidents that commanders
                                nography and molesting his 3-year-old daughter        used to better understand and potentially pre-
                                and infant son. The tipster notified NCIS about       vent future security seams and attacks. The cases
                                a Facebook page with pedophilia-related posts         also demonstrated the level of cooperation with
                                and a photo of what appeared to be base hous-         joint task forces and local prosecutors who bring
                                ing aboard a naval installation. NCIS identified      suspects to justice and NCIS’ ability to collect
                                and interrogated the suspect, obtained a con-         evidence admissible in Afghanistan courts.

 92 SEMIANNUAL REPORT TO THE CONGRESS
In the first case, three Afghan civilian contrac-          tralia, Canada, China, France, India, Jordan,
tors were implicated in the death of a U.S. civil-         Peru, the Republic of Korea, Serbia and New
ian working for the U.S. Army Corps of Engi-               Zealand.
neers whose body was discovered in a cave at a        •	   Participated in 11 significant engagement
military training facility in Kabul. One contrac-          activities, including the Counter Transna-
tor was convicted and sentenced to 16 years con-           tional Organized Crime Conference in Co-
finement, a second was released to the Afghan              lombia, a Jordanian Directorate of Military
Counterterrorism Prosecutive Directorate, and              security exchange, a technical assistance
the third was acquitted but remains in Afghan              seminar in Kosovo, and subject matter ex-
custody pending appellate review. The second               pert exchanges with members of the Austra-
incident involved investigating an Afghan army             lian security and intelligence communities.
soldier who shot and killed a Marine Corps lance      •	   Actively engaged with several international
corporal in January 2012. An Afghan trial court            law enforcement organizations, includ-
found the soldier guilty in August and sentenced           ing INTERPOL, Europol, the International
him to 20 years in prison.                                 Association of Chiefs of Police, the Inter-
                                                           national Criminal Investigative Training
Biometrics                                                 Assistance Program, the International Law
The NCIS Biometrics program continues to ex-               Enforcement Association, and the Law En-
pand the identity intelligence analytic efforts and        forcement Attaché Group.
make important contributions to the larger U.S.       •	   Conducted liaison events during the Na-
government interagency and international bio-              tional Organization of Black Law Enforce-
metrics effort. With more than 100 desktop and             ment Executives, Women in Federal Law
handheld biometrics devices deployed to NCIS               Enforcement, National Asian Peace Offi-
field elements worldwide, personnel added 962              cers’ Association and International Associa-
collections to federal databases during this re-           tion of Chiefs of Police conferences.
porting period, resulting in one alert, 115 posi-
tive matches and 33 watch-list nominations.           Partnerships with the Australian Government
                                                      NCIS’s global engagement strategy is focused on
International and Law Enforcement Engagement          leveraging the skills and knowledge of partners
The Security Training Assistance and Assess-          to amplify and extend the Department’s ability
ment Teams supported security cooperation ef-         to identify, investigate and neutralize threats. As
forts and assisted foreign and domestic partner       part of an aggressive global engagement strategy,
capacity-building through training seminars           NCIS further strengthened information sharing
for 225 members of partner law enforcement            and operational partnerships with four key Aus-
and security organizations. During the report-        tralian security and intelligence organizations:
ing period, STAAT conducted the following:            the Australian Secret Intelligence Organisation,
three week-long seminars in Southeast Asia on         the Defense Intelligence Organisation, the Aus-              NCIS conducted international and law
port law enforcement and security; three Mari-        tralian Federal Police and the Royal Australian              enforcement engagements.
time Interception Operations and International        Navy Maritime Intelligence Support Center.
Ship and Port Security Code Seminars in South         Such partnerships allow NCIS to leverage Aus-
America; and several Assessment Methodology           tralia’s access to information sources and have
Seminars in Africa on electronic security sys-        led to several joint operational opportunities.
tems, security lighting design, waterside security    Through relationships with the Australians,
and use of biometrics to enhance security.            NCIS recently gained access to new streams of
NCIS’s relationships with civilian and foreign        intelligence not typically available across the U.S.
law enforcement and security services continue        Intelligence Community. Analysts have used
to play a critical factor in ensuring the safety      the information to enhance classified threat as-
of forward-deployed naval assets. Since March         sessments provided in support of U.S. Marines
2012 NCIS has engaged in the following:               deployed to Darwin, Australia and other DoN
•	 Hosted 14 foreign delegations at NCIS              force protection efforts in Asia.
     headquarters, including visitors from Aus-

                                                                                                             APRIL 1, 2012 TO SEPTEMBER 30, 2012 93
Services



                                        Successful Teamwork with                                  cide of a Navy service member in Illinois,
                                                                                                  watch standers were able to quickly relay the
                                        Law Enforcement Agencies                                  information through NCIS field elements to
                                                                                                  AFOSI and local authorities conducting the
                                        Cold Cases                                                investigation.
                                        Two cold cases involving Navy service members        •	   An Army CID watch stander provided real-
                                        from 1993 and 2007 were successfully resolved             time threat warning information from the
                                        through collaboration with local authorities in           Multiple Threat Alert Center directly to
                                        San Diego and Norfolk. In one case, two civilians         CID protective operations details support-
                                        were convicted and sent to prison for killing two         ing a NATO summit in Chicago.
                                        sailors in 1993. In the other, two repeat sexual     •	   By working with the FBI and other MCIOs,
                                        assault offenders were identified and brought to          NCIS quickly notified seniors that the sus-
                                        justice, and a police officer in Florida was pros-        pect in a public deadly shooting had no di-
                                        ecuted for a rape he committed as an active-duty          rect DoD affiliation.
                                        service member nearly seven years earlier in
                                        Norfolk. The double-murder case in San Diego
                                        was reopened in 2009 when NCIS conducted             War of 1812 Commemoration
                                        “touch DNA” tests on the victims’ clothing and       NCIS continues to ensure senior leaders have
                                        cigarette butts that were collected at the scene.    the most current and complete information
                                        The DNA profiles matched two known samples,          for making force protection decisions in
                                        including that of the original suspect. The two      support of the Navy’s multi-year War of 1812
                                        suspects were found guilty of first-degree mur-      commemoration. Dozens of field office and
                                        der, and in March 2012 both were sentenced to        headquarters personnel have been heavily
                                        two consecutive life terms without the possibil-     involved in providing and updating assessments
 NCIS supports the Navy’s War of 1812   ity of parole. The other case dates from 2007,       of possible threats and risks to Navy, Marine
 commemoration.
                                        when NCIS was notified about photos of an un-        Corps and Coast Guard assets participating in
                                        conscious woman being sexually assaulted by          “Sailabration” events. Throughout the reporting
                                        four men wearing Navy uniforms. The victim           period, special agents and analysts conducted
                                        could not be identified, and the case went cold.     intelligence research and coordinated with local
                                        In 2009, NCIS located and obtained confessions       law enforcement forces to interpret and give
                                        from the two suspects who were still on active       context to threats at the local and national level
                                        duty. NCIS was then able to identify and locate      in more than a dozen major cities.
                                        the woman, who was unaware of the assault, and
                                        the two suspects who had left the Navy. All four     Protective Service Operations
                                        were found guilty of various rape-related of-        The Protective Operations Field Office developed
                                        fenses and sentenced in Norfolk Circuit Court        initiatives that leverage existing resources and
                                        within the past year.                                expertise and have improved efficiency. One
                                                                                             program uses the civilian law enforcement
                                        Information Sharing Among Military Criminal          experience of reservists assigned to field offices.
“The effort is an inno-                                                                      To date, 24 volunteer reservists from around the
vative example of mul-                  Investigative Organizations
                                        NCIS is leading the effort to increase informa-      world have received training and credentials
tiplying the force and                  tion sharing among the military criminal in-         that allow them to deploy in support of NCIS
strengthening liaison                   vestigative organizations. The Multiple Threat       protective service operations. The effort is an
relationships with local                Alert Center at NCIS headquarters embedded           innovative example of multiplying the force
                                        representatives from the Marine Corps and            and strengthening liaison relationships with
authorities.”                                                                                local authorities. Using reservists enabled the
                                        Army CID in its 24/7 Watch Analytic Center.
                                        The collocation of MCIO watch nodes stream-          Protective Operations Field Office to support
                                        lines awareness and information dissemination        an unprecedented number of special events,
                                        throughout DoD. Notable examples:                    including War of 1812 bicentennial activities, a
                                        •	 When the Air Force notified the Multiple          NATO summit, Fleet Weeks and several foreign
                                             Threat Alert Center about the possible sui-     dignitary visits, in addition to executing its
                                                                                             primary mission to protect high-risk billets.

 94 SEMIANNUAL REPORT TO THE CONGRESS
During the reporting period, 255 protective             Department of Commerce and ICE to identify
service missions in more than 35 countries were         serious threats to the technology supply chain.
completed.
                                                        Acquisition Fraud
Important Initiatives                                   The NCIS Economic Crimes Program complet-
                                                        ed the first phase of a proactive outreach effort
Sexual Assault                                          designed to increase awareness and protection
NCIS realigned the Family and Sexual Violence           of Navy and Marine Corps acquisition entities
Program in a shift toward a dedicated, multidis-        that execute some 346,000 contracting actions
ciplinary team response to adult sexual assault,        each year. The program, a risk-based approach
child abuse and domestic violence complaints.           for evaluating and assessing vulnerability at all
The reorganization also addresses specific Ma-          356 acquisition entities, also improves the pro-
rine Corps requirements from the comman-                cess for receiving and aggressively responding to
dant’s Sexual Assault Prevention and Response           fraud-mitigating information. The acquisition
Campaign Plan 2012. The pilot program, which            commands were divided into three tiers based
is underway at Camp Lejeune and Camp Pend-              on the current level of NCIS support and per-
leton, and at Navy bases in Norfolk and San Di-         sonal contact. NCIS conducted on-site assess-
ego, is expected to expedite resolution of sexual       ments at all Tier III commands, many of which
assault complaints and enhance partnerships             have been underserved since the beginning of
with the Navy Judge Advocate General’s Corps,           the Global War on Terror and provided personal
the Navy Bureau of Medicine and Surgery, and            points of contact, assessed potential vulnerabili-
victim advocacy services. In addition, NCIS             ties, conducted fraud awareness briefs, identified
adapted advanced curriculum from Army CID               potential sources and evaluated requirements
to improve a course on sexual assault investiga-        for future fraud support.
tions and interviews. This coursework fulfills
DoD requirements and recommendations from               Cyber Efforts
the General Accounting Office.                          NCIS provides intelligence to DoN and DoD
                                                        decision-makers on adversarial countries’ open-
Research, Development and Acquisition                   source intelligence collection efforts against
Protection                                              DoN and its contractors. The 44 specially trained
NCIS has 97 agents specifically certified to            agents and 73 support staff in the Cyber Field
protect the $17.8 billion the Department has            Office continue to aggressively expand offensive
budgeted for research, development, testing             operations to gain insight into the online activi-
and evaluation. To ensure the most sensitive            ties targeting U.S. policy-makers and others re-           NCIS supports Cyber Field Office

Navy information receives the highest level of          sponsible for protecting information of econom-            operations.

protection, NCIS identified the six most critical       ic and military value. Since March 2012 more
technologies and developed a threat-based plan.         than 336 intelligence information reports have
The second phase, realigning resources against          been generated from 22 ongoing operations.
the 20 programs that use those technologies and
the 153 DoN programs with “critical program             Insider Threat
information” elements, is underway. In June 2012        NCIS added two cyber-trained analysts to the
NCIS deployed an initiative to enhance critical         NCIS Insider Threat Program. This analytical
technology protection by sharing information            capability enhances the program’s ability to ana-
and combining capability and authority of               lyze multiple data sets and information sources
government agencies with counterintelligence,           to help identify and attribute potential and ac-
cyber and criminal investigative missions. So           tual insider threat activity on Navy information
far, NCIS has established two interagency task          networks. The analysts will assist in supporting
forces. The first is a collaborative effort with FBI,   operations and investigations, prepare intelli-
DoD and U.S. government agencies focused on             gence assessments, develop investigative cyber
the technology corridor in Raleigh-Durham,              leads information, and evaluate new technology
N.C. The other is a collaborative effort with the       for improving threat analysis.

                                                                                                             APRIL 1, 2012 TO SEPTEMBER 30, 2012 95
Services



                                      Significant Investigative Cases                       his integrated circuit inventory, all of which was
                                                                                            seized from his business location in connec-
                                      Two Convicted of Importing and Selling                tion with the execution of a search warrant on
                                      Counterfeit Computer Hardware                         Oct. 8, 2009. Aljaff was ordered to pay $177,862
                                      Overview: In January 2009 ICE requested NCIS          in restitution to the semiconductor companies
                                      assistance in a large-scale investigation of sev-     whose trademarks were infringed as a result of
                                      eral California-based companies suspected of          his criminal conduct. Neil Felahy, MVP Micro’s
                                      importing and selling counterfeit integrated cir-     operations manager, pleaded guilty of the same
                                      cuits. Through the efforts of the joint task force,   violations and was sentenced to 20 months in
                                      NCIS helped identify inferior microchips and          prison, three years supervised release, and 500
                                      stop the flawed electronic switches from enter-       hours of community service. MVP Micro, Al-
                                      ing the military supply chain. Because of the         jaff, Felahy, and their associated businesses were
                                      numerous applications in military and weapons         debarred from receiving U.S. government con-
                                      systems, integrated circuits directly affect op-      tracts for 10 years.
                                      erational readiness and the safety of Navy and
                                      Marine Corps members and their aircraft, ves-         Civilian Sentenced for Embezzling $600,000
                                      sels, and equipment. Beginning in September           from Navy Recycling Program
                                      2007, Customs and Border Protection began             Overview: In April 2010, NCIS became aware
                                      seizing shipments of counterfeit electronics          of a possible embezzling scheme involving the
                                      from China. In October 2009, NCIS and ICE             recycling program aboard Naval Air Station
                                      agents executed arrest warrants for the owner         Patuxent River, Md. Although a recycling con-
                                      of MVP Micro and several business associates.         tract expired in 2003, agents discovered during
                                      Agents executed search warrants at their homes        a joint investigation with DCIS and IRS that the
NCIS investigated embezzlement from   and businesses, seizing evidence consistent with      contractor was allowed to make pickups from
the Navy Recycling Program.
                                      counterfeiting and distributing microcircuits.        several naval installations. Instead of paying the
                                      Thousands of counterfeit integrated circuits, in-     Navy for the recycled scrap metal, however, the
                                      cluding some falsely marked “military-grade,”         contractor was instructed to pay the manager
                                      were sold to more than 400 businesses and com-        of the recycling program directly. In six years,
                                      mands, including Naval Sea Systems Command            the employee had deposited 124 checks worth
                                      ,which maintains the Navy’s ships and systems.        $631,000 into his personal bank accounts.
                                      This case was part of a comprehensive initiative      Result: The civilian pleaded guilty to violating 18
                                      targeting counterfeit items entering U.S. military    U.S.C. § 641-Theft of Government Funds, and 26
                                      and government supply chains. The following           U.S.C. § 7206(1)-Filing a False Tax Return, in the
                                      task force members participated in Operation          U.S. District Court for the District of Maryland,
                                      Chain Reaction: NCIS, DCIS, ICE-Homeland              Southern Division. He was sentenced in May
                                      Security Investigations, U.S. Customs and Bor-        2012 to 30 months incarceration, three years su-
                                      der Protection, FBI, Army CID, GSA OIG, DLA           pervised release, and ordered to pay $631,057 in
                                      OIG, AFOSI and NASA OIG.                              restitution to the Navy and $134,795 to the IRS.
                                      Result: Mustafa Abdul Aljaff, owner of MVP Mi-
                                      cro and Felahy’s brother-in-law, pleaded guilty       Suspect Identified from National Center for
                                      to violating 18 U.S.C. § 371, Conspiracy, and §       Missing and Exploited Children Photo
                                      2320, Trafficking in Counterfeit Goods, and was       Overview: In January 2012 NCIS was noti-
                                      sentenced in February 2012 in the U.S. District       fied through the National Center for Missing
                                      Court. Aljaff was sentenced to 30 months in pris-     and Exploited Children that explicit images of
                                      on, three years supervised release and 250 hours      a child thought to be a military dependent had
                                      of community service. As part of the plea agree-      been discovered on a child pornography website.
                                      ment, Aljaff agreed to forfeit industrial machin-     NCIS reviewed the images and identified a sport
                                      ery to the U.S. government, which is designed to      utility vehicle at what appeared to be a military
                                      be used in the examination, testing, packaging,       swimming pool and a girl in a bathing suit. In-
                                      demarking and marking of integrated circuits;         vestigators identified the location as a military
                                      computers and computer network servers; and           recreation center on Naval Station Pearl Harbor,

96 SEMIANNUAL REPORT TO THE CONGRESS
Hawaii, and the SUV as the personally owned           Result: French authorities indicted the online
vehicle of a Navy second class petty officer liv-     actor using the screen name Zyklon B for hack-
ing on the island. Agents were able to positively     ing into numerous U.S., French and German
identify the suspect after matching items in the      websites. Although the individual confessed to
photos with his belongings, as well as identify       the charges, he will not face judicial discipline
the girl in the photographs as the sailor’s 8-year-   because of his age.
old daughter. During a forensic interview, the
child reported that her father had been sexually      Ringleader in Sham Navy Marriages Sentenced                      “The petty officer
abusing her for several years. When electronic        Overview: NCIS began an investigation of mar-                      introduced the
evidence was seized from the sailor’s home and        riage fraud in 2009 upon allegations that a sailor
examined, investigators found 17,463 National         entered into marriage with a foreign national to
                                                                                                                  couples, facilitated the
Center for Missing and Exploited Children hits        obtain basic allowance for housing benefits. Dur-            marriage ceremonies
for known victims of child pornography.               ing interrogation, she told NCIS and ICE agents             and helped the service
Result: In trial by general courts-martial held       that a shipmate on the USS Kearsarge, a petty                   members apply for
in July 2012 the petty officer pleaded guilty to      officer, introduced her to a cousin and arranged            the additional housing
multiple violations of UCMJ Articles 120-Rape         for their marriage. She also told investigators
of a Child; 125-Sodomy; and 134-Production            that the petty officer arranged the marriage of
                                                                                                                             allowance.”
and Distribution of Child Pornography. He was         another sailor serving on the ship. Investigation
sentenced to 75 years confinement, dishonor-          determined that while the petty officer was on
able discharge, forfeiture of all pay and allow-      active duty, he and an airman conspired to ar-
ances, reduction in rank and to register as a sex     range marriages between Navy members and
offender.                                             illegal aliens. The petty officer introduced the
                                                      couples, facilitated the marriage ceremonies and
International Effort Stops Hacker                     helped the service members apply for the addi-
Overview: In May 2012 an online actor known           tional housing allowance. He then took a por-
as Zyklon B successfully compromised the Mili-        tion of the benefits and threatened the service
tary Sealift Command procurement website and          members if they failed to follow through. When
posted screenshots of internal network pages to       NCIS investigators interrogated the petty officer,
a public website. The site was hacked through a       he claimed that he had not received payment for
Structured Query Language injection attack and        arranging marriages and was unaware his cousin
command officials verified that the screenshots       was in a fraudulent marriage.
captured sensitive system information intended        Result: All four were tried and sentenced in the
FOUO. Army CID notified NCIS with informa-            U.S. District Court for the Eastern District of
tion linking Zyklon B to an Internet Protocol ad-     Virginia, Norfolk Division. The foreign spouses
dress used in other attacks on U.S. government        were deported. The petty officer, who was sepa-
and military websites. Together with the Navy         rated at the end of his enlistment in June 2010,
Cyber Defense Operations Center, NCIS and the         pleaded not guilty to all charges. He was convict-
MSC confirmed that the site had been attacked         ed of violating 8 U.S.C. § 1325(c) and 2 – Mar-
using the identified IP address. NCIS notified        riage Fraud, 18 U.S.C. §§ 371–Conspiracy, 287
French authorities, and through collaboration         and 2–False Claims, 1512(b)(3)–Witness Tam-
with the French Ministry of the Interior Cyber        pering, and 1001(a)(2)–False Statements. In Feb-
Crime, Zyklon B was apprehended in June 2012          ruary 2012 he was sentenced to serve 52 months
at his home in Nantes, France. During question-       incarceration, three years supervised release,
ing, the juvenile using the Zyklon B moniker          and ordered to pay more than $134,000 restitu-
admitted he unlawfully accessed the MSC web-          tion to the Navy. The second sailor was adminis-
site as well as other DoD, and U.S. and French        tratively separated in October 2011. He pleaded
government websites. The estimated loss to MSC        guilty in November 2011 to violating 18 U.S.C. §
was more than $47,000. This was a joint investi-      371–Conspiracy and was sentenced to five years
gation with the French Ministry of Interior Cy-       probation with six months home detention and
ber Crime Unit, NASA, Army CID, AFOSI and             payment of more than $62,000 restitution. The
Department of Energy.                                 female sailor was separated in April 2010 with

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 97
Services



                                  an other than honorable discharge. Both she and       2014 and of all Department financial statements
                                  the airman pleaded guilty to violating 18 U.S.C.      by 2017. The secretary also called for personnel
                                  § 641 and 2–Theft of Government Property. In          to increase emphasis on asset accountability and
                                  March 2010 she was sentenced to five years pro-       execute a full review over financial controls.
                                  bation with six months on home detention, and         During the second half of FY 2012, the AFAA
                                  ordered to pay more than $43,000 restitution;         completed nine asset accountability audits, eight
                                  in February 2010 the airman was sentenced to          system accounting conformance audits and
                                  366 days imprisonment, three years supervised         three other audits to directly support Air Force
                                  release, and ordered to pay more than $57,000         financial improvement and audit readiness.
                                  restitution.
                                                                                        During the second half of FY 2012, the AFAA

                                  Air Force Audit Agency
                                                                                        published 59 centrally directed audit reports,

Air Force                         The Air Force Audit Agency mission is to pro-
                                  vide all levels of Air Force management timely,
                                                                                        made more than 94 recommendations to Air
                                                                                        Force senior officials and identified $895.9
                                                                                        million in potential monetary benefits. The
                                  relevant and quality audit services by reviewing      following paragraphs provide and synopsize a
                                  and promoting the economy, effectiveness and          few examples of AFAA audit coverage related
                                  efficiency of operations; assessing and improving     specifically to DoD management challenge areas.
                                  Air Force fiduciary stewardship and the accu-
                                  racy of financial reporting; and evaluating pro-      Joint Warfighting and
                                  grams and activities and assisting management
                                  in achieving intended results. The AFAA is com-       Readiness
                                  mitted to reaching out to Air Force customers at
                                  all levels. To support Air Force decision makers,     Mobility Graduate Flying Training Program
                                  the AFAA has approximately 680 personnel at           Overview: AFAA determined whether pilots
                                  more than 50 worldwide locations. The AFAA            completed required aircraft graduate flying
                                  conducts centrally directed, Air Forcewide au-        training events and major command personnel
                                  dits in numerous functional areas to support          accurately identified graduate flying hour
                                  Air Force senior leaders. Installation-level audit    requirements.
                                  teams provide additional audit services to instal-    Findings: Pilots completed required aircraft
                                  lation commanders.                                    graduate flying training events at all three
AFAA reviewed mobility graduate                                                         major commands reviewed, but Air Force
flying training.
                                  To provide Air Force officials timely, responsive,    Reserve Command and Air Mobility Command
                                  balanced and value-added audit services, AFAA         personnel overstated training hour requirements
                                  audit planning methods include frequent con-          by 41 and 15 percent, respectively.
                                  tact with Air Force senior leaders and joint audit    Result: Reducing graduate training flying
                                  planning groups. The FY 2012 Audit Plan was           hours by 1,050 hours will allow the Air Force
                                  prepared in partnership with Air Force decision       to put $83.9 million to better use over the next
                                  makers to address the most significant areas of       six years (execution year and the Future Years
                                  management concern. As such, AFAA ongo-               Defense Program). During the audit, Air Force
                                  ing and planned audits address many of the Air        Reserve Command took appropriate corrective
                                  Force’s most critical programs and initiatives, in-   action, and headquarters Air Force published a
                                  cluding topics on electronic warfare, intelligence    memo requiring personnel perform a midyear
                                  gathering, force management, installation secu-       review of annual flying hour allocation against
                                  rity, control of nuclear-related material, aircraft   execution to identify trends, inefficiencies, and
                                  systems acquisition, health initiatives and audit-    program shortfalls. In addition, AFAA made one
                                  able financial statement preparation.                 recommendation to Air Mobility Command to
                                                                                        improve management of the Mobility Graduate
                                  The secretary of defense called for the Department    Flying Training Program.
                                  to achieve audit readiness of the Statement of        Report No. F2012-0004-FD4000
                                  Budgetary Resources by the end of calendar year

98 SEMIANNUAL REPORT TO THE CONGRESS
Air Reserve Technician Program                        personnel identified training events appropriate
Overview: AFAA determined whether Air Force           for simulator usage, they could improve simu-
Reserve Command personnel complied with               lator utilization. Underutilization of simulators
congressional mandates by utilizing technician        was systematic across Air Mobility Command
positions to facilitate operational unit readiness.   wings as 43 percent of the aircrews at nine of 10
Findings: Air Force Reserve Command person-           wings used the aircraft when simulators were a
nel did not comply with congressional mandates        viable, more cost-effective training option. In
to employ only 50 technicians at headquarters         addition, 47 pilots completed 78 continuation
organizations; 86 technicians at headquarters         training events, valued at more than $2.7 mil-            AFAA reviewed mobility aircrew
organizations did not support the reserve mis-        lion, not needed to maintain currency.                    continuation training.

sion as Congress intended.                            Result: Fully utilizing simulators for simulator-
Result: Properly utilizing these positions fa-        appropriate events could allow the Air Force to
cilitates reserve units’ readiness and potentially    more efficiently use $385 million in flying hours
avoids $9.5 million in annual payroll costs.          in six years (execution year and the Future Years
AFAA recommended Air Force Reserve Com-               Defense Program). By limiting continuation
mand identify the 50 authorized positions, elim-      training to valid training needs, AFAA projected
inate all excess positions from the headquarters      Air Mobility Command could more efficiently
organizations and monitor those positions to          use $83 million in flying hours over six years
preclude assignment of more positions beyond          (execution year and the Future Years Defense
the statutory authorization.                          Program). AFAA made two recommendations
Report No. F2012-0007-FD4000                          to improve the training program by requiring
                                                      simulator training on simulator-appropriate
Special Duty Assignments                              events and justifying proficiency training.
Overview: AFAA determined whether Air Force           Report No. F2012-0011-FD4000
functional and career field managers accurately
identified special duty manning requirements.         Information Assurance,
Findings: Air Force functional and career field
managers did not accurately identify special          Security and Privacy
duty manning requirements, misstating in 21
percent of special duty career fields.                Continuous Monitoring of Air Force Systems
Result: Accurate manpower levels are essential        Security Controls
to shaping the force and accomplishing the            Overview: AFAA determined whether the Air
Air Force mission in the most economical and          Force decentralized continuous monitoring
efficient manner. Reducing 171 unused special         program effectively maintained Air Force
duty career field manpower requirements will          information system security. Specifically, AFAA
provide the Air Force with $142 million in            determined whether information assurance
funds put to better use over the next six years       managers properly assessed information system
(execution year and the Future Years Defense          security controls and effectively implemented
Program). AFAA made one recommendation to             system security plan, configuration management
improve program management.                           and control processes.
Report No. F2012-0010-FD4000                          Findings: Information assurance managers did
                                                      not properly assess information system security
Mobility Aircrew Continuation Training                and information assurance, and program
Overview: AFAA determined whether Air Mo-             managers did not effectively implement system
bility Command personnel effectively identified       security plan, configuration management or
training events appropriate for simulator usage,      control processes.
aircrews maximized simulator usage for events         Result: Reliable configuration management
identified as simulator-appropriate and aircrews      and control processes, combined with proper
efficiently managed continuation training re-         assessments and documentation of individual
quirements.                                           system security postures, significantly reduce
Findings: Although Air Mobility Command               the risk of unauthorized network access or

                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 99
Services



                                 unauthorized access going undetected. AFAA           suspended assets.
                                 made three recommendations to improve the            Report No. F2012-0008-FC4000
                                 continuous monitoring program.
                                 Report No. F2012-0006-FB4000
                                                                                      Financial Management
                                 Acquisition Processes and                            Program Management Administration Costs
                                 Contract Management                                  Overview: AFAA determined whether Air Force
                                                                                      personnel properly budgeted, expended and
                                 Foreign Military Sales Contractor Logistics          reported program management administration
                                 Support                                              costs.
                                 Overview: AFAA determined whether Air                Findings: Air Force personnel improperly
                                 Force personnel properly managed T-6 and             budgeted for these administration costs,
                                 T-38 foreign military sales contractor logistics     expended administration funds on inappropriate
                                 support costs in accordance with agreements.         or questionable expenditures, expended
                                 Specifically, AFAA determined whether Air            administration funds at an inconsistent level
                                 Force personnel properly allocated, identified       of support across programs, and did not use
AFAA reviewed T-6 and T-38 FMS
                                 and billed contract costs.                           standard methodologies to identify costs, provide
contract costs.                  Findings: Air Force personnel properly allocated     sufficient support for budget submissions or
                                 costs in proportion to flying hour participation     accurately report costs in program reviews.
                                 but did not properly identify support costs for      Result: As a result, Air Force personnel relied on
                                 allocation to bill participating foreign military    inconsistent and unsupported budget estimates to
                                 sales countries.                                     establish program management administration
                                 Result: As a result, the Air Force under and         efficiency savings targets of more than $1.7
                                 overbilled these countries $846,913 and              billion above the Future Years Defense Program.
                                 $808,365, respectively, between FYs 2007 and         In addition, program managers authorized
                                 2009. Properly identifying and billing logistics     purchases that exceeded the amount required
                                 support costs improves accuracy of billings to       to manage their programs and the program
                                 foreign military sales countries and allows the      review briefings were inaccurate in all program
                                 Air Force to better manage limited funding.          offices reviewed. Finally, reducing inappropriate
                                 AFAA made one recommendation to improve              expenditures, estimated at nearly $12 million
                                 management of the T-6 and T-38 foreign military      over the Future Years Defense Program, could
                                 sales contractor logistics support costs.            assist in meeting efficiency savings targets.
                                 Report No. F2012-0008-FC2000                         AFAA made five recommendations to assist
                                                                                      Air Force acquisition officials to better manage
                                 Suspended Assets                                     program management costs, progress towards
                                 Overview: AFAA assessed whether personnel            efficiency targets and improve the decision
                                 timely resolved asset suspensions, properly          support process.
                                 coded suspended assets and accurately                Report No. F2012-0007-FB1000
                                 accounted for suspended assets.
                                 Findings: Air Force personnel did not timely         Travel Compensatory Time
                                 resolve suspensions, properly code suspended         Overview: AFAA determined whether Air Force
                                 assets or accurately account for suspended assets.   personnel given travel compensatory time were
                                 Result: As a result of poor accountability, Air      in travel status, received appropriate supervisory
                                 Force leaders did not have total asset visibility    approval, and did not receive travel compensa-
                                 and control for more than $38 million of             tory time on holidays.
                                 suspended assets. Further, timely resolution of      Findings: Travelers incorrectly received travel
                                 suspensions and properly coding suspended            compensatory time on holidays. Specifically, 39
                                 assets would save the Air Force $281 million         (87 percent) of 45 randomly selected transac-
                                 and resolve asset shortages. AFAA made three         tions occurring on holidays allotted 243.5 hours
                                 recommendations to improve management of             of travel compensatory time.

100 SEMIANNUAL REPORT TO THE CONGRESS
Result: Based on a statistical projection of the     did not properly plan, support and report
sample results, Air Force personnel improperly       targeted savings.
received at least $306,417 of travel compensa-       Result: As a result, Air Force management can-
tory time during the period reviewed. Imple-         not rely on nearly all the $2.4 billion in reported
menting corrective actions should provide more       efficiency savings. Properly planning, supporting
efficient use of $1,532,085 over the Future Years    and reporting efficiency data provides full dis-
Defense Program. AFAA made one recommen-             closure in financial assessment updates, reveals
dation to improve travel compensatory time           potential inconsistencies, provides better vis-
management.                                          ibility for making needed program changes and
Report No. F2012-0008-FB1000                         provides Air Force officials improved informa-
                                                     tion for optimal resource decisions. AFAA made
Medical Special Pay                                  one recommendation to improve efficiency ini-
Overview: AFAA determined whether Air                tiatives.
Force officials accurately identified special pay    Report No. F2012-0016-FD1000
fund requirements, effectively managed funds
execution, and de-obligated unliquidated ob-         Health Care
ligation balances no longer needed in a timely
manner.                                              Teleradiology Program
Findings: Officials accurately identified special    Overview: AFAA determined whether Air Force
pay fund requirements. However, during FYs           officials effectively utilized teleradiology capacity
2007 through 2011, medical officials did not         and performed required quality control assess-
effectively execute more than $36.8 million in       ments of radiology equipment.
unspent current year medical special pay funds       Findings: Radiologists at five of six teleradiol-
or timely de-obligate associated unliquidated        ogy hubs reviewed had the capacity to interpret
obligation balances totaling more than $36.7         almost 65,000 additional radiology studies annu-
million.                                             ally. In addition, responsible personnel did not              AFAA reviewed quality control
Result: Effectively managing special pay fund        perform 85 percent of required radiology equip-               assessments of radiology equipment.
execution identifies unneeded funds that can         ment quality control assessments.
be used for other current year military person-      Result: Fully implementing teleradiology capa-
nel appropriation requirements. De-obligating        bility will assist military radiologists in main-
$36.7 million in excess medical special pay un-      taining wartime skills and allow the DoD to
liquidated obligation balances allows the Air        avoid purchasing private sector radiological ser-
Force to immediately put these funds to better       vices costing approximately $10.6 million over
use. During the audit, management obtained ac-       six years (execution year and the Future Years
cess to financial systems that will enable medical   Defense Program). Although the audit did not
officials to improve management of current year      identify any adverse incidences because person-
funds. AFAA also made one recommendation to          nel did not perform quality control assessments,
strengthen medical special pay funds manage-         misinterpretations, as well as potential repeat
ment.                                                radiation exposure to patients, can occur when
Report No. F2012-0009-FD2000                         radiological equipment is not periodically tested
                                                     and re-calibrated. AFAA made one recommen-
Civil Engineering Efficiency Governance              dation to improve management of the teleradiol-
Process                                              ogy program workload.
Overview: AFAA assessed if the Air Force             Report No. F2012-0006-FD2000
Civil Engineer used the governance process to
manage efficiency initiatives. Specifically, AFAA    Community Action Information Board and
determined whether officials properly planned,       Integrated Delivery System
supported, and reported savings progress.            Overview: AFAA determined whether Air Force
Findings: Civil Engineering management did           officials consistently implemented Community
not use their governance process to manage the       Action Information Board and Integrated Deliv-
efficiency initiatives. Specifically, management     ery System across active duty, Air National Guard

                                                                                                             APRIL 1, 2012 TO SEPTEMBER 30, 2012 101
Services



                               and reserve forces. Specifically, AFAA determined            garding a trans-provisional Taliban com-
                               whether Air Force officials implemented essential            mander who was directly involved in facili-
                               program requirements; identified community                   tating improvised explosive device attacks
                               needs and timely developed community action                  in and around Kandahar, Afghanistan. This
                               plans; and monitored, evaluated and reported key             commander was in direct contact with
                               indicator metrics and helping-agency counseling              Haqqani network members who were seek-
                               workload.                                                    ing safety outside of Afghanistan. He was
                               Findings: AFAA audited 18 locations and deter-               subsequently captured based on AFOSI in-
                               mined Community Action Information Board                     formation.
“AFOSI operations near         and Integrated Delivery System officials either did     •	   AFOSI operations near Kandahar Air Field,
Kandahar Air Field,            not (1) implement all essential program require-             Afghanistan, facilitated the identification
                               ments; (2) identify community needs and timely               of, and consequential deliberate operations
Afghanistan, facilitated       development of community action plans; or (3)                against, several known Taliban facilita-
the identification of,         monitor, evaluate and report key indicator met-              tors who were in a single compound. Op-
and consequential              rics and helping-agency workload to Community                erations conducted by U.S. forces produced
deliberate operations          Action Information Board members.                            the capture of one facilitator and the neu-
against, several known         Result: AFAA identified several best practices               tralization of three others.
                               and made one recommendation to improve the              •	   AFOSI operations led to the identification
Taliban facilitators...”       Community Action Information Board and Inte-                 and capture of a Taliban sub-commander
                               grated Delivery System.                                      who was involved with planning and em-
                               Report No. F2012-0010-FD2000                                 placing at least three IEDs targeting the
                                                                                            Afghanistan National Police and coalition

                               Air Force Office of
                                                                                            forces. Two additional Taliban fighters were
                                                                                            identified and captured during the opera-

                               Special Investigations
                                                                                            tion.
                                                                                       •	   Subsequent to investigative efforts by AFO-
                                                                                            SI agents in the area of Bagram, Afghani-
                               Significant Activities                                       stan, multinational forces conducted an op-
                               •	   AFOSI established a Force Protection De-                eration resulting in the capture of five, and
                                    tachment in Iraq responsible for providing              neutralization of two, Taliban cell mem-
                                    dedicated counterintelligence support to                bers. Of those neutralized, one was identi-
                                    DoD personnel and resources located in Iraq.            fied as a trans-provisional sub-commander
                                    AFOSI worked closely with the Department                with well-known contacts, to include sev-
                                    of State, Defense Intelligence Agency, and              eral high-ranking Taliban commanders.
                                    U.S. Central Command to ensure the Force           •	   AFOSI members near Shindand, Afghani-
                                    Protection Detachment was properly aligned              stan, developed information crucial to lo-
                                    under the Chief of Mission. The eight-person            cating and neutralizing a remote controlled
                                    Force Protection Detachment supports the                vehicle borne IED near the entrance of a
                                    Office of Security Cooperation Iraq, while si-          coalition forces installation. After close
                                    multaneously providing CI support to force              coordination with available explosive ordi-
                                    protection efforts during ship port visits, air-        nance disposal personnel, the area was se-
                                    lift and other related activities in furtherance        cured and the device was neutralized with-
                                    of the overall DoD mission in Iraq. Force               out incident.
                                    Protection Detachment members establish            •	   While executing an operation, based on in-
                                    and leverage close relationships with host na-          formation collected by AFOSI agents near
                                    tion security and police services to identify,          Kandahar, Afghanistan, agents and coali-
                                    counter and mitigate threats against DoD el-            tion forces seized weapons, computers, and
                                    ements.                                                 alcohol from two compounds located on
                               •	   As a result of investigative activities, AFOSI          a coalition military base. The compounds
                                    members located near Kandahar Air Field,                were being used by multiple local national
                                    Afghanistan, developed CI information re-               contractors from Kandahar, some of whom

102 SEMIANNUAL REPORT TO THE CONGRESS
     were also suspected of providing funds to         imer admitted to conspiring with her husband to
     the Taliban.                                      cover-up the theft of JP-8 by preparing false fuel
•	   Following a lead, AFOSI members and               receipts that appeared to document legitimate
     Afghan National Police identified and de-         diesel fuel purchases for Latimer trucks when, in
     tained five Taliban fighters who were using       fact, there had been no purchase of diesel fuel. In
     a compound near a coalition forces base           carrying out this conspiracy, the Latimers were
     outside of Kandahar, Afghanistan. Of the          able to reduce the costs of their daily trucking
     five detained, one was further identified as      operation.
     a senior Taliban leader.                          Result: Doyle and Cynthia Latimer pleaded
•	   AFOSI imminent threat reporting provided          guilty on May 4, 2012, in Federal District
     to the Afghan National Directorate of Se-         Court to violating 18 U.S.C. § 371, Conspiracy
     curity led to the neutralization of two IEDs      to Defraud the United States. Doyle Latimer
     and three Taliban fighters as they were em-       was sentenced to serve 12 months and one day
     placing the devices.                              in prison, followed by two years of supervised
•	   Based on threat information identified and        release. Cynthia Latimer was ordered to serve
     developed by AFOSI agents in and around           two years of probation. Both were ordered to
     Bagram, Afghanistan, local forces were able       jointly pay $109,819 in restitution to the United
     to thwart a Taliban ambush on coalition           States.
     forces and Afghan National Security Forces.
                                                       Contractor Disclosure Leads to Administrative
Significant Investigative Cases                        Settlement
                                                       Overview: This joint investigation with
Trucking Contractor Steals Jet Fuel from               DCIS was initiated in April 2010 based upon
Military                                               information provided to the DoD IG Contractor
Overview: This investigation was initiated in          Disclosure Program from The Boeing Company.
December 2005 based upon information pro-              The disclosure referenced an allegation Boeing
vided by the FBI, Lawton, Okla. An informant           received through its ethics portal that some
had related that the Latimer Trucking Company          first-level managers at their Integrated Defense
had the contract for delivering Jet Propellant-8       Systems site in Wichita, Kan., had retroactively
fuel from local refineries to Altus AFB, Okla.,        adjusted time entries of their hourly employees
Tinker AFB, Okla. and Sheppard AFB, Texas.             in the electronic labor accounting system
                                                       (Autotime) so that those employees would not                 AFOSI investigated theft of jet fuel from
Three to four tanker trucks, each carrying ap-                                                                      the military by a trucking contractor.
proximately 7,500 gallons of JP-8 fuel per run,        incur corrective action for arriving late or leaving
made two runs daily. After picking up the fuel         work before the end of their shift. In an effort to
at the refinery, the driver returned to the Lat-       determine the number of questionable hours,
imer Trucking Company and unload 500-1500              Boeing’s auditors acquired data samples from
gallons in underground fuel tanks. The truck           their Autotime system and turnstile records for
would then proceed to the military installation        the time period September 2008 to March 2009.
to make its delivery. On Dec. 14, 2006, the FBI,       The review identified 1,087.3 questionable hours.
DCIS, and AFOSI executed federal search war-           Of these hours, Boeing found that 454.9 hours
rants and interviewed several Latimer Truck-           financially impacted DoD contracts involving
ing Company drivers. Samples taken from the            the Army’s B-52, VC-25, Airborne Laser and
truck’s operating fuel tested positive as JP-8. As     the Navy’s E-4B. The auditors then extrapolated
part of his plea, Doyle Latimer admitted that          these findings over the period of January 2003
from 2001 through 2007 he stole JP-8 jet fuel          to March 2009. As a result, Boeing calculated
belonging to the United States and intended for        the financial impact to DoD contracts to be
delivery to military bases by draining it from the     $400,066. DCIS and AFOSI reviewed Boeing’s
tankers and using it to operate his trucks. He         internal investigative efforts and determined all
further admitted that he knew his wife was cre-        methods and findings appeared to be in order.
ating false fuel receipts to cover-up the use of the   Result: This matter was referred to the Defense
JP-8 jet fuel in operating his trucks. Cynthia Lat-    Contract Management Agency for administrative

                                                                                                              APRIL 1, 2012 TO SEPTEMBER 30, 2012 103
Services



                                      action. An administrative settlement was            available website. As the investigation continued
                                      reached in which Boeing paid $400,066 to the        to unfold, additional evidence was obtained that
                                      government.                                         implicated the master sergeant and a third staff
                                                                                          sergeant in the theft of large quantities of military
                                      Combat Arms Range Personnel Steal Weapons           ammunition from the Seymour Johnson firing
                                      and Ammunition                                      range. However, investigation did not reveal any
                                      Overview: This investigation was initiated in       evidence showing the master sergeant or the
                                      October 2011, based upon information from           third staff sergeant sold the ammunition.
                                      a confidential source that four Air Forces          Result: In a general court-martial, the first staff
                                      members, three staff sergeants and one master       sergeant was found guilty of violating UCMJ
                                      sergeant, assigned to the combat arms range         Articles 92-Dereliction of Duties; 108-Wrongful
                                      on Seymour Johnson AFB, N.C., were stealing         Distribution of Military Property of the U.S.;
AFOSI investigated theft of weapons
                                      military weapons and ammunition and                 and 121-Larceny and Wrongful Appropriation
and ammunition.                       selling them from their on-base residences.         of Government Property. On June 30, 2012, he
                                      AFOSI monitored conversations between               was reprimanded and ordered to forfeit $1,800
                                      the first identified staff sergeant and master      in pay, fined $1,680, confined for six months and
                                      sergeant wherein they discussed that staff          reduced in grade. On Dec. 21, 2011, the master
                                      sergeant’s possession of stolen government          sergeant accepted nonjudicial punishment
                                      ammunition. Based upon this conversation,           for violating UCMJ Article 121-Larceny and
                                      AFOSI apprehended the staff sergeant when he        Wrongful Appropriation of U.S. Government
                                      attempted to access a storage unit at the combat    Property. He was reprimanded, ordered to forfeit
                                      arms range. A search of his vehicle revealed 16     $1,000 in pay and was reduced in grade. In a
                                      ammunition canisters, two military handguns,        general courts-martial, the second staff sergeant
                                      weapon magazines and more than 10,600               pleaded guilty to violating UCMJ Articles
                                      rounds of military ammunition. There was also       92-Dereliction of Duties; and 121-Larceny and
                                      a loaded handgun near the driver’s seat and         Wrongful Appropriation of U.S. Government
                                      an unloaded handgun in the front passenger’s        Property. On July 12, 2012, he was reprimanded
                                      seat. AFOSI searched the second staff sergeant’s    and ordered to forfeit $1,800 in pay, fined
                                      on-base residence and seized approximately          $1,808, confined for 146 days and reduced in
                                      9,600 rounds of military ammunition, various        grade. On Dec. 21, 2011, the third staff sergeant
                                      weapons parts and components of ballistic vests.    accepted nonjudicial punishment for violating
                                      Subsequently, AFOSI determined that the first       UCMJ Article 121-Larceny and Wrongful
                                      and second staff sergeant had been selling stolen   Appropriation of U.S. Government Property. He
                                      ammunition and weapon parts to 25 different         was reprimanded, ordered to forfeit $700 in pay
                                      civilian buyers through accounts with a publicly    and reduced in grade.




104 SEMIANNUAL REPORT TO THE CONGRESS
             5


Appendices
Appendix A




Audit, Inspection, and
Evaluation Reports Issued
Copies of reports may be obtained from the appropriate issuing office by contacting:

	DoD IG							Army Audit Agency
	(703) 604-8937						(703) 693-5679
	 www.dodig.mil/PUBS					www.hqda.army.mil/aaaweb

	 Naval Audit Service					      Air Force Audit Agency
	(202) 433-5525						(703) 696-7904
	 www.hq.navy.mil/navalaudit				www.afaa.af.mil

                                                                                            DoD IG                    Military Depts.                Total
  Joint Warfighting and Readiness                                                              9                             84                       93
  Information Assurance, Security, and Privacy                                                 8                             20                       28
  Acquisition Processes and Contract Management                                                21                            30                       51
  Financial Management                                                                         15                            64                       79
  Health                                                                                       6                             10                       16
  Equipping and Training Iraq and Afghan Security Forces                                       13                             0                       13
  Nuclear Enterprise                                                                           2                              0                       2
  Other                                                                                        5                              7                       12
  Total                                                                                        79                            215                     294


Acquisition Processes and Contract Management
 Agency           Report Number         Report Title                                                                                    Date
 DoD IG           DODIG-2012-072        DoD’s FY 2010 Purchases Made Through the Department of the Interior                             04/13/2012
 DoD IG           DODIG-2012-073        Natick Contracting Division's Management of Noncompetitive Awards Was Generally Justified       04/10/2012
 DoD IG           DODIG-2012-075        DoD Oversight of Private Security Contractors in Iraq Was Sufficient, but Contractors May Not   04/16/2012
                                        Deter Attacks on Office of Security Cooperation-Iraq Enduring Sites (Classified)
 DoD IG           DODIG-2012-076        Army Contracting Command-Rock Island Contracts Awarded Without Competition Were                 04/19/2012
                                        Properly Justified
 DoD IG           DODIG-2012-077        Naval Surface Warfare Center Crane Contracts Awarded Without Competition Were Adequately 04/24/2012
                                        Justified
 DoD IG           DODIG-2012-081        Navy Organic Airborne Surface Influence Sweep Program Needs Defense Contract                    04/27/2012
                                        Management Agency Support
 DoD IG           DODIG-2012-084        Air Force Aeronautical Systems Center Contracts Awarded Without Competition Were Properly       05/10/2012
                                        Justified
 DoD IG           DODIG-2012-085        American Recovery and Reinvestment Act-Army Corps of Engineers Los Angeles District             05/10/2012
                                        Contractor Performance and Reporting Controls Were Generally Effective
 DoD IG           DODIG-2012-091        The Army Needs to Recoup Funds Expended on Property Damaged in an Accident at a                 05/24/2012
                                        Development Subcontractor's Facility (For Official Use Only)


106 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number     Report Title                                                                                     Date
DoD IG      DODIG-2012-095    American Recovery and Reinvestment Act - Ineffective Controls Over the Contractor’s              06/05/2012
                              Performance and Reporting for Modernization of Navy Operational Support Center in
                              Charlotte, N.C.
DoD IG      DODIG-2012-098    Controls Governing the Procurement Automated Contract Evaluation System Need                     06/05/2012
                              Improvement (For Official Use Only)
DoD IG      DODIG-2012-099    Adequate Contract Support and Oversight Needed for the Tactical Wheeled Vehicle                  06/01/2012
                              Maintenance Mission in Kuwait (For Official Use Only)
DoD IG      DODIG-2012-101    Acquisition of the Navy Organic Airborne and Surface Influence Sweep Needs Improvement           06/13/2012
DoD IG      DODIG-2012-102    Better Cost-Control Measures Are Needed on the Army’s Cost-Reimbursable Services Contract        06/18/2012
                              for Logistics Support of Stryker Vehicles
DoD IG      DODIG-2012-115    Improved Oversight, but No Invoice Reviews and Potential Antideficiency Act Violation May        08/02/2012
                              Have Occurred on the Kuwait Observer Controller Team Task Orders
DoD IG      DODIG-2012-121    Audit of the Joint Land Attack Cruise Missile Defense Elevated Netted Sensor (For Official Use   09/07/2012
                              Only)
DoD IG      DODIG-2012-125    Inappropriate Leasing for the General Fund Enterprise Business System Office Space               09/11/2012
DoD IG      DODIG-2012-127    American Recovery and Reinvestment-Implementation of the Advanced Metering                       09/10/2012
                              Infrastructure Requirements for the Planning, Contractor’s Performance, and Reporting Was
                              Ineffective
DoD IG      DODIG-2012-132    Project Planning Resulted in Outstanding Building Deficiencies and Decreased Functionality of    09/14/2012
                              the Main Fire Station at Naval Station Great Lakes
DoD IG      DODIG-2012-134    Contingency Contracting: A Framework for Reform - 2012 Update                                    09/18/2012
DoD IG      DODIG-2012-136    DoD Education Activity Needed Better Planning for Military Construction Projects                 09/24/2012
USAAA       A-2012-0096-ALA   Audit of Earned Value Management - Program Executive Office, Aviation                            05/15/2012
USAAA       A-2012-0098-ALA   Modeling and Simulation Developmental Testing, U.S. Army Test and Evaluation Command             05/03/2012

USAAA       A-2012-0099-ALA   Audit of Earned Value Management-Program Executive Office, Missiles and Space                    05/03/2012
USAAA       A-2012-0100-ALA   Audit of Earned Value Management - Program Executive Office, Simulation, Training and            05/15/2012
                              Instrumentation
USAAA       A-2012-0101-ALC   Army's Acquisition Workforce Growth-Sustainment Funding                                          05/18/2012
USAAA       A-2012-0115-IEF   Audit of Recruiting Assistance Programs--Reserve Components (For Official Use Only)              06/04/2012
USAAA       A-2012-0132-ALE   Agreed-Upon Procedures Attestation of Payments to Subcontractors at Novo Selo, Bulgaria          07/05/2012
                              (For Official Use Only)
USAAA       A-2012-0134-ALC   Arlington National Cemetery Columbarium Court 9 Contract Management                              07/25/2012
USAAA       A-2012-0140-IEF   Service Support Contracts for the National Defense Center for Energy and Environment (For        07/23/2012
                              Official Use Only)
USAAA       A-2012-0142-ALC   Follow-up Audit of Contracting Operations in Support of Arlington National Cemetery              07/31/2012
USAAA       A-2012-0150-ALA   Army Rapid Acquisition Processes-Institutionalization                                            08/02/2012
USAAA       A-2012-0154-MTH   Follow-up Audit of Arlington National Cemetery Operations-Government Purchase Card               08/03/2012
USAAA       A-2012-0164-ALC   Restricted and Limited Competition, Office of the Deputy Assistant Secretary of the Army         08/23/2012
                              (Procurement) and U.S. Army Corps of Engineers Louisville District
USAAA       A-2012-0169-ALA   Commercial-Off-the-Shelf Software Sustainment Costs in Weapon Systems, Program Executive         09/04/2012
                              Office for Command, Control and Communications-Tactical
USAAA       A-2012-0172-ALC   Procurement Management Reviews, Office of the Deputy Assistant Secretary of the Army             09/06/2012
                              (Procurement) and U.S. Army Corps of Engineers
USAAA       A-2012-0176-ALA   Earned Value Management, Office of the Assistant Secretary of the Army (Acquisition, Logistics   09/11/2012
                              and Technology)
USAAA       A-2012-0188-IEE   Summary Result for Phase III Audits of the American Recovery and Reinvestment Act of 2009:       09/25/2012
                              Project Outcomes and Recipient Reporting
USAAA       A-2012-0194-ALE   Audit of Contract Planning in U.S. Army Africa                                                   09/26/2012
USAAA       A-2012-0203-FMF   Yuma Proving Ground Financial Transaction Analysis, Contract Costs (For Official Use Only)       09/28/2012
NAVAUDSVC   N2012-0031        Implementation of Earned Value Management for the Virginia Class Submarine                       04/5/2012
NAVAUDSVC   N2012-0038        Non-Acquisition Programs                                                                         04/26/2012


                                                                                                              APRIL 1, 2012 TO SEPTEMBER 30, 2012 107
Appendix A
Agency           Report Number          Report Title                                                                                        Date
NAVAUDSVC        N2012-0040             Purchased Property at Pearl Harbor Naval Shipyard                                                   05/02/2012
NAVAUDSVC        N2012-0045             Purchased Property at Norfolk Naval Shipyard                                                        06/12/2012
NAVAUDSVC        N2012-0051             Navy’s Management of Unmanned Systems                                                               06/27/2012
NAVAUDSVC        N2012-0052             Camp Lemonnier, Djibouti, Base Operating Support Contract                                           06/28/2012
NAVAUDSVC        N2012-0056             Contracts for Department of the Navy Aviation Maintenance                                           08/03/2012
NAVAUDSVC        N2012-0062             Contracts Awarded for the Naval Postgraduate School                                                 08/28/2012
AFAA             F-2012-0003-FC1000     Smart/Jones Buildings Joint Review (For Official Use Only)                                          04/25/2012
AFAA             F-2012-0008-FC2000     Foreign Military Sales Contractor Logistics Support                                                 04/13/2012
AFAA             F-2012-0008-FC4000     Suspended Assets                                                                                    04/03/2012



Financial Management
Agency         Report Number              Report Title                                                                                       Date
DoD IG         DODIG-2012-069             Action is Needed to Improve the Accuracy of DEERS Beneficiary Data                                 04/02/2012
DoD IG         DODIG-2012-082             DoD Can Improve Its Accounting for Residual Value From the Sale of U.S. Facilities in Europe       05/04/2012
DoD IG         DODIG-2012-087             Logistics Modernization Program System Procure-to-Pay Process Did Not Correct Material             05/29/2012
                                          Weaknesses
DoD IG         DODIG-2012-096             Defense Departmental Reporting System-Budgetary Was Not Effectively Implemented for the            05/31/2012
                                          Army General Fund
DoD IG         DODIG-2012-097             Independent Auditor's Report on the Attestation of the Existence, Completeness, and Rights         05/31/2012
                                          of the Department of the Navy's Aircraft
DoD IG         DODIG-2012-100             Independent Auditor's Report on the Examination of the Existence, Completeness, and Rights         06/07/2012
                                          of the Department of the Air Force's Aircraft, Intercontinental Ballistic Missiles, Satellites,
                                          Cruise Missiles and Aerial Targets/Drones
DoD IG         DODIG-2012-107             Defense Finance and Accounting Service Needs to Improve the Process for Reconcile the              07/09/2012
                                          Other Defense Organizations' Fund Balance with Treasury
DoD IG         DODIG-2012-108             Questionable Data Cast Doubt on the Need for Continuing the Defense Transportation                 08/31/2012
                                          Coordination Initiative
DoD IG         DODIG-2012-111             Enterprise Resource Planning Systems Schedule Delays and Reengineering Weaknesses                  07/13/2012
                                          Increase Risks to DoD’s Auditability Goals
DODIG          DODIG-2012-117             DoD Needs to Improve Controls Over Economy Act Orders with U.S. Agency for                         08/14/2012
                                          International Development.
DoD IG         DODIG-2012-118             Defense Finance and Accounting Service Needs to Strengthen Procedures to Comply with the           08/14/2012
                                          Federal Financial Management Improvement Act
DoD IG         DODIG-2012-130             DFAS Controls over Duplicate Payments in One Pay Were Generally Effective, But There Were          09/14/2012
                                          Opportunities for Improvement
DoD IG         DODIG-2012-131             Improvements Needed in How the Defense Finance and Accounting Service Adjusts and                  09/19/2012
                                          Supports Billing Rates
DoD IG         DODIG-2012-140             An Unreliable Chart of Accounts Affected Auditability of Defense Enterprise Accounting and         09/28/2012
                                          Management System Financial Data
DoD IG         DODIG-2012-144             Independent Auditor’s Report on the Agreed-Upon Procedures for Reviewing the FY 2012               09/28/2012
                                          Civilian Payroll Withholding Data and Enrollment Information
USAAA          A-2012-0091-FMF            Review of Arlington National Cemetery Controls Over Grave Site Accountability (For Official        04/18/2012
                                          Use Only)
USAAA          A-2012-0095-ALE            Agreed-Upon Procedures Attestation of Freight Tenders at Black Sea Support Team                    04/26/2012
                                          Transportation Office in Romania (For Official Use Only)
USAAA          A-2012-0106-IEE            Audit of Federal Employee Compensation Act Fraud Investigation, Phase II (For Official Use         05/16/2012
                                          Only)
USAAA          A-2012-0110-FMF            Examination of the Existence and Completeness of the Army's UC-35A Aircraft (For Official          05/23/2012
                                          Use Only)




108 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                     Date
USAAA       A-2012-0123-FMR      Examination of Federal Financial Management Improvement Act Validation, Logistics                07/19/2012
                                 Modernization Program System, Third Deployment--Selected Requirements
USAAA       A-2012-0136-FMR      Review of the Army’s Compliance with the Federal Managers’ Financial Integrity Act               08/09/2012
USAAA       A-2012-0145-FMF      Follow-up Audit of Arlington National Cemetery Budget Execution                                  07/31/2012
USAAA       A-2012-0147-FMF      Follow-up Audit--Other Revenue, Arlington National Cemetery                                      07/31/2012
USAAA       A-2012-0162-FMF      Yuma Proving Ground Financial Transaction Analysis, Award Fee Procedures (For Official Use       08/17/2012
                                 Only)
USAAA       A-2012-0166-FMF      Yuma Proving Ground Financial Transaction Analysis, Government Purchase Card Procedures          08/24/2012
                                 (For Official Use Only)
USAAA       A-2012-0167-IEO      Follow-up Audit of DoD Support to the 2009 Presidential Inaugural, Joint Force Headquarters      08/28/2012
                                 National Capital Region
USAAA       A-2012-0168-FMR      Recoveries of Prior Year Obligations, Logistics Modernization Program                            09/11/2012
USAAA       A-2012-0170-FMF      Basic Allowance for Subsistence Pay for Soldiers Participating in Field Training                 09/05/2012
USAAA       A-2012-0177-FMR      Examination of Federal Financial Management Improvement Act Compliance -- Requirements           09/14/2012
                                 Baseline Revalidation, Global Combat Support System-Army
USAAA       A-2012-0178-IEE      Army Workers' Compensation Program - Case Management                                             09/14/2012
USAAA       A-2012-0183-FMF      Defense Travel System Permission Levels Voucher Analysis, Deputy Assistant Secretary of the      09/20/2012
                                 Army (Financial Operations) (For Official Use Only)
USAAA       A-2012-0187-IEE      Audit of Federal Employee Compensation Act Fraud Investigation, Phase III (For Official Use      09/24/2012
                                 Only)
USAAA       A-2012-0188-IEE      Summary Result for Phase III Audits of the American Recovery and Reinvestment Act of 2009:       09/25/2012
                                 Project Outcomes and Recipient Reporting
USAAA       A-2012-0193-IEM      U.S. Army Criminal Investigation Command Assisted on Federal Grants and Cooperative              09/27/2012
                                 Agreements (For Official Use Only)
USAAA       A-2012-0198-IEM      U.S. Army Criminal Investigation Command Assisted on Miscellaneous Accounts (For                 09/27/2012
                                 Official Use Only)
NAVAUDSVC   N2012-0030           Business Process Reengineering Efforts for Selected Department of the Navy Business System       04/02/2012
                                 Modernizations; Shipyard Management Information System Investment for Corporate
                                 Software
NAVAUDSVC   N2012-0033           Government Commercial Purchase Card Program Internal Controls at Naval Beach Group One           04/10/2012
NAVAUDSVC   N2012-0034           Business Process Reengineering Efforts for Selected Department of the Navy Business System       04/10/2012
                                 Modernizations; Naval Air Systems Command Depot Maintenance System
NAVAUDSVC   N2012-0035           Government Commercial Purchase Card Transactions at Naval Facilities Engineering                 04/18/2012
                                 Command Southwest
NAVAUDSVC   N2012-0037           Business Process Reengineering Efforts for Selected Department of the Navy Business System       04/20/2012
                                 Modernizations; Maintenance Figure of Merit/Mission Readiness Assessment System
NAVAUDSVC   N2012-0041           Navy Mortuary Affairs Payment Process                                                            05/14/2012
NAVAUDSVC   N2012-0043           Controls Over Navy Cash Aboard Navy Ships                                                        05/25/2012
NAVAUDSVC   N2012-0049           Financial Management of the Navy Department Employees’ Recreation and Welfare Fund               06/21/2012
NAVAUDSVC   N2012-0050           Independent Attestation – Agreed-Upon Procedures Attestation Engagement of Assessing             06/22/2012
                                 Internal Controls Over Financial Reporting in the Department of the Navy,
                                 Phase 2
NAVAUDSVC   N2012-0059           United States-United Kingdom Polaris-Trident Trust Fund Financial Reports                        08/22/2012
NAVAUDSVC   N2012-0060           Opinion on the United States-United Kingdom Polaris-Trident Trust Fund Financial Reports         03/09/2012
NAVAUDSVC   N2012-0061           Common Access Card Potential Cost Savings                                                        08/23/2012
NAVAUDSVC   N2012-0066           Auditor General Advisory – Naval Audit Service Input for the FY 2012 Statement of Assurance      09/13/2012
NAVAUDSVC   N2012-0067           Bureau of Medicine and Surgery Process for Military Interdepartmental Purchase Requests          09/20/2012
NAVAUDSVC   N2012-0068           Government Commercial Purchase Card Program Controls at the Naval Research Laboratory            09/28/2012
AFAA        F-2012-0005-FB1000   Air Force Office of Special Investigations Emergency and Extraordinary Expense Funds             04/16/2012
AFAA        F-2012-0006-FB1000   Secretary of the Air Force Efficiency Objectives Governance Process                              04/16/2012
AFAA        F-2012-0007-FB1000   Program Management Administration Costs                                                          05/08/2012


                                                                                                                APRIL 1, 2012 TO SEPTEMBER 30, 2012 109
Appendix A
Agency         Report Number            Report Title                                                                                 Date
AFAA           F-2012-0008-FB1000       Travel Compensatory Time                                                                     06/08/2012
AFAA           F-2012-0009-FB1000       Air Force Smart Operations for the 21st Century Demolition Savings                           06/18/2012
                                        Determination and Validation
AFAA           F-2012-0007-FB3000       Memorandum Report of Audit, Follow-up Audit, Operating Materials and Supplies -              04/03/2012
                                        Uninstalled Missile Motor Accountability
AFAA           F-2012-0008-FB3000       Memorandum Report of Audit, Operating Materials and Supplies - Munitions Accountability      04/04/2012
AFAA           F-2012-0009-FB3000       Memorandum Report of Audit, Operating Materials and Supplies - Tactical Missile              04/04/2012
                                        Accountability
AFAA           F-2012-0010-FB3000       Memorandum Report of Audit, Operating Materials and Supplies - Target Accountability         04/04/2012
AFAA           F-2012-0011-FB3000       Memorandum Report of Audit, General Fund Military Equipment - Intercontinental Ballistic     04/12/2012
                                        Missiles
AFAA           F-2012-0012-FB3000       Memorandum Report of Audit, General Fund Military Equipment - Remotely Piloted Aircraft      04/12/2012
                                        in the United States Air Forces Central Area of Responsibility
AFAA           F-2012-0013-FB3000       Memorandum Report of Audit, Operating Materials and Supplies - Cruise Missile                04/24/2012
                                        Accountability
AFAA           F-2012-0014-FB3000       Memorandum Report of Audit, Working Capital Fund: Spending Authority Collections -           04/24/2012
                                        Maintenance
AFAA           F-2012-0015-FB3000       Memorandum Report of Audit, Operating Materials and Supplies - Drone Accountability          07/12/2012
AFAA           F-2012-0016-FB3000       Memorandum Report of Audit, Follow-up Audit, Operating Materials and Supplies - Spare        08/27/2012
                                        Engine Accountability
AFAA           F-2012-0007-FB4000       Information Technology Efficiency Initiatives Baseline Validation                            07/18/2012
AFAA           F-2012-0008-FB4000       Air Force Efficiency Target Savings Progress Tracking                                        08/22/2012
AFAA           F-2012-0002-FC1000       Enterprise Sourcing Group Cost Savings Methodology                                           04/05/2012
AFAA           F-2012-0007-FC3000       Financial Audit of the Joint Surveillance Target Attack Radar System Aircraft Re-Engining    04/27/2012
                                        Program
AFAA           F-2012-0009-FD1000       Kelly Cooperative Agreement Closeout                                                         04/12/2012
AFAA           F-2012-0011-FD1000       FY 2012 Great Falls Air National Guard Gas Utilities Privatization Economic Analysis         06/11/2012
AFAA           F-2012-0012-FD1000       Baseline Adjustments to the Annual Energy Management Report                                  07/12/2012
AFAA           F-2012-0015-FD1000       Interim Report of Audit, Gabreski Air National Guard NY Electric Utilities Privatization     08/01/2012
                                        Economic Analysis
AFAA           F-2012-0016-FD1000       Civil Engineering Efficiency Governance Process                                              08/28/2012
AFAA           F-2012-0007-FD2000       Chapel Tithes and Offering Fund                                                              04/03/2012
AFAA           F-2012-0009-FD2000       Medical Special Pay                                                                          08/28/2012
AFAA           F-2012-0005-FD4000       Services Lodging Operations                                                                  04/25/2012



Health Care
Agency         Report Number            Report Title                                                                                Date
DoD IG         DODIG-2012-086           Evaluation of DoD Contracts Regarding Combating Trafficking in Persons: Afghanistan         05/15/2012
DoD IG         DODIG-2012-088           Guam Medical Staffing Plan Needs Improvement to Ensure Eligible Beneficiaries Will Have     05/16/2012
                                        Adequate Access to Health Care
DoD IG         DODIG-2012-106           Needs to Improve the Billing System for Health Care Provided to Contractors at Medical      06/27/2012
                                        Treatment Facilities in Southwest Asia
DoD IG         DODIG-2012-112           Reporting the Daily Location of Deployed Service Members Generally Adequate; However,       07/18/2012
                                        the Navy Needed Improvement
DoD IG         DODIG-2012-120           Assessment of DoD Wounded Warrior Matters – Wounded Warrior Battalion – West                08/22/2012
                                        Headquarters and Southern California Units
DoD IG         DODIG-2012-123           Assessment of the Federal Voting Assistance Program Implementation of the Military and      08/31/2012
                                        Overseas Voter Empowerment Act
USAAA          A-2012-0087-ALE          Deployment Health Assessments, U.S. Army Europe                                             04/09/2012



110 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                     Date
USAAA       A-2012-0093-IEM      Behavioral Health Programs, Fort Bliss and William Beaumont Army Medical Center (For             04/25/2012
                                 Official Use Only)
USAAA       A-2012-0144-IEM      Preventive Health Care Initiatives, Weight Management and Tobacco Cessation, U.S. Army           08/22/2012
                                 Medical Command
USAAA       A-2012-0148-FMP      Medical Stocks--Korea, U.S. Army Medical Department Activity-Korea                               08/07/2012
USAAA       A-2012-0158-IEM      Follow-up Audit of Army Warrior Care and Transition Program                                      08/14/2012
NAVAUDSVC   N2012-0064           Verification of Navy Physician Licensing, Privileging, and Malpractice Reporting                 08/28/2012
AFAA        F-2012-0010-FD1000   Air Force Heritage Program Radiation Safety                                                      06/08/2012
AFAA        F-2012-0006-FD2000   Teleradiology Program                                                                            04/02/2012
AFAA        F-2012-0008-FD2000   Civilian Medical Assessments                                                                     07/17/2012
AFAA        F-2012-0010-FD2000   Community Action Information Board and Integrated Delivery System                                08/29/2012



Information Assurance, Security, and Privacy
Agency      Report Number        Report Title                                                                                     Date
DoD IG      DODIG-2012-080       Improvements Are Needed to the Defense Finance and Accounting Service Information                04/24/2012
                                 Assurance Vulnerability Management Program (For Official Use Only)
DoD IG      DODIG-2012-090       Improvements Needed to Strengthen the Defense Enrollment Eligibility Reporting System            05/22/2012
                                 Security Posture (For Official Use Only)
DoD IG      DODIG-2012-114       Assessment of Security within the Department of Defense – Security Policy                        07/27/2012
DoD IG      DODIG-2012-122       DoD Should Procure Compliant Physical Access Control Systems to Reduce the Risk of               08/29/2012
                                 Unauthorized Access (For Official Use Only)
DoD IG      DODIG-2012-124       DoD Efforts to Protect Critical Program Information – The Navy’s EA-18G Program (Classified)     08/30/2012
DoD IG      DODIG-2012-133       Lacks Policy and Strategic Plans for Terrorist Watchlist Nomination Process (Classified)         09/27/2012
DoD IG      DoDIG-2102-142       Summary of FY 2011 Inspections on Security, Intelligence, Counterintelligence, and               09/28/2012
                                 Technology Protection Practices at DoD Research, Development, Test, and Evaluation
                                 Facilities (For Official Use Only)
DoD IG      DODIG-2012-145       Summary of Information Assurance Weaknesses as Reported by Audit Reports Issued From             09/28/2012
                                 Aug. 1, 2011, Through July 31, 2012 (For Official Use Only)
USAAA       A-2012-0088-FMT      Audit of Information Technology Costs Associated with Sustainment, Restoration, and              04/10/2012
                                 Modernization Projects
USAAA       A-2012-0107-FMT      Disposal of Excess Information Technology Equipment, Office of the Chief Information             05/24/2012
                                 Officer/G-6
USAAA       A-2012-0113-FMT      Printer Management, Chief Information Officer/G-6                                                05/31/2012
USAAA       A-2012-0127-FMT      Bandwidth Requirements for Connecting Army Installations to the Global Information Grid,         07/02/2012
                                 Chief Information Officer/G-6
USAAA       A-2012-0133-FMT      Follow-up Audit of Installation Campus Area Network Connectivity--Phases I, II, and III, Chief   07/06/2012
                                 Information Officer/G-6
USAAA       A-2012-0200-FMT      Audit of Army Materiel Command Cyber Program and the Audit of Army’s Reporting of                09/28/2012
                                 Cyber Events/Incidents for Army Materiel Command Systems
USAAA       A-2012-0201-FMT      Enterprise Email Lessons Learned, Office of the Chief Information Officer/G-6                    09/28/2012
NAVAUDSVC   N2012-0063           Managing Personally Identifiable Information at Naval Operational Support Centers                08/28/2012
NAVAUDSVC   N2012-0070           Navy Compliance with Department of Defense Information Assurance Certification and               09/28/2012
                                 Accreditation Process
AFAA        F-2012-0005-FB2000   Memorandum Report of Audit, Automated Funds Management Application Controls 2                    04/04/201
AFAA        F-2012-0006-FB2000   Memorandum Report of Audit, Positive Inventory Control Fusion - Application Controls             04/12/2012
AFAA        F-2012-0007-FB2000   Memorandum Report of Audit, Comprehensive Engine Management System Accounting                    06/11/2012
                                 Conformance
AFAA        F-2012-0008-FB2000   Memorandum Report of Audit, Reliability, Availability, Maintainability Support System for        06/13/2012
                                 Electronic Combat Pods - Accounting Conformance



                                                                                                                 APRIL 1, 2012 TO SEPTEMBER 30, 2012 111
Appendix A


Agency         Report Number            Report Title                                                                                 Date
AFAA           F-2012-0009-FB2000       Memorandum Report of Audit, Automated Funds Management General Controls                      06/26/2012
AFAA           F-2012-0010-FB2000       Memorandum Report of Audit, Expeditionary Combat Support System Accounting                   06/26/2012
                                        Conformance - Base Equipment Management
AFAA           F-2012-0011-FB2000       Memorandum Report of Audit, Integrated Missile Database Accounting Conformance               09/06/2012
AFAA           F-2012-0006-FB4000       Continuous Monitoring of Air Force Systems Security Controls                                 04/16/2012
AFAA           F-2012-0011-FC2000       Memorandum Report of Audit, Job Order Cost Accounting System II Accounting                   09/05/2012
                                        Conformance
AFAA           F-2012-0012-FD4000       Memorandum Report of Audit, Military Personnel Data System Accounting Conformance            08/24/2012
AFAA           F-2012-0013-FD4000       Memorandum Report of Audit, Follow-up Audit, Air Reserve Order Writing System                08/27/2012
                                        Reserve Accounting Conformance Requirements



Joint Warfighting and Readiness
Agency             Report Number        Report Title                                                                                Date
DoD IG             DODIG-2012-071       DoD Management of the Redistribution Property Assistance Team Operations in Kuwait          04/10/2012
DoD IG             DODIG-2012-074       Investigation of U.S. Central Command Referral; Non-Compliance with Interrogation           04/11/2012
                                        Policy (Classified)
DoD IG             DODIG-2012-105       Review of Stability Operations Information Centers in Afghanistan (For Official Use Only)   06/18/2012
DoD IG             DODIG-2012-110       Better Oversight Needed for the National Guard’s Weapons of Mass Destruction Civil          07/02/2012
                                        Support Teams
DoD IG             DODIG-2012-119       Most Geographic Combatant Commands Effectively Planned and Executed Disaster Relief         08/14/2012
                                        Operations, but Improvements Could Be Made
DoD IG             DODIG-2012-129       General Purpose Forces Enablers Support to Special Operations Forces Works Effectively,     09/13/2012
                                        but Opportunities Exist for Improvement (Classified Report)
DoD IG             DODIG-2012-137       U.S. Pacific Command’s Petroleum War Reserve Requirements and Stocks (Classified            09/26/2012
                                        Report)
DoD IG             DODIG-2012-138       Wholesale Accountability Procedures Need Improvement for the Redistribution Property        09/26/2012
                                        Assistance Team Operations
DoD IG             DODIG-2012-139       Improvements Needed in Transparency and Accountability of U.S. Army Reserve                 09/8/2012
                                        Component Equipment Transfers (For Official Use Only)
USAAA              A-2012-0076-MTS      Training for Financial Management Units                                                     04/04/2012
USAAA              A-2012-0082-MTH      Audit of Deployment Extension Incentive Pay for the Active Component                        05/02/2012
USAAA              A-2012-0083-MTE      Audit of Commander’s Emergency Response Program and Iraqi Commander’s Emergency             04/02/2012
                                        Response Program Closeout in Iraq
USAAA              A-2012-0089-MTE      Audit of the Foreign Excess Personal Property Program--Phase II                             04/16/2012
USAAA              A-2012-0090-IEI      Audit of Joint Basing Facilities                                                            06/15/2012
USAAA              A-2012-0092-MTE      Management Controls Over Payments for Overseas Contingency Operations                       04/27/2012
                                        Transportation, U.S. Army Central Command and U.S. Military Surface Deployment and
                                        Distribution Command
USAAA              A-2012-0094-IEE      Audit of Environmental Remediation of Chemical Demilitarization Base Realignment and        05/01/2012
                                        Closure Sites
USAAA              A-2012-0097-MTE      Audit of Property Accountability-Afghanistan                                                05/01/2012
USAAA              A-2012-0102-MTH      Use of Mobile Training Teams for Institutional Training                                     05/09/2012
USAAA              A-2012-0103-MTH      Audit of Deployment Extension Stabilization Pay                                             05/09/2012
USAAA              A-2012-0104-ALS      Examination of the Army Ideas for Excellence Program, Idea Number NECR10040C:               05/30/2012
                                        Container Stenciling, Crane Army Ammunition Activity
USAAA              A-2012-0105-FMP      Managing Training Assets in Alaska, U.S. Army, Alaska                                       05/15/2012
USAAA              A-2012-0108-FMP      Watercraft Technical Manuals, Hawaii                                                        05/30/2012




112 SEMIANNUAL REPORT TO THE CONGRESS
Agency   Report Number     Report Title                                                                                  Date
USAAA    A-2012-0109-MTH   Attestation Review of the U.S. Army Manpower Analysis Agency Requirements                     05/22/2012
                           Determination Model
USAAA    A-2012-0111-MTE   Audit of Contractor Payments-Afghanistan (For Official Use Only)                              06/08/2012
USAAA    A-2012-0112-FMP   Watercraft Readiness and Operations, U.S. Army Reserve, Hawaii                                06/05/2012
USAAA    A-2012-0114-IEE   Army Workers’ Compensation Program: Use of Return-to-Work Programs and Initiatives            06/06/2012
USAAA    A-2012-0116-ALS   Audit of Specific Procurement Actions Involving Communications Security Materiel              06/01/2012
USAAA    A-2012-0117-FMP   Management of U.S. Forces Korea Tax-Exempt Fuel Coupons, U.S. Army 411th                      06/04/2012
                           Contracting Support Brigade, U.S. Army Corps of Engineers--Far East District, and the
                           Army and Air Force Exchange Service (For Official Use Only)
USAAA    A-2012-0118-MTE   Agreed-Upon Procedures Attestation-Common Access Cards at Camp Leatherneck,                   06/07/2012
                           Afghanistan (For Official Use Only)
USAAA    A-2012-0119-ALS   Audit of the Command Supply Discipline Program--Active Army                                   06/07/2012
USAAA    A-2012-0120-ALE   Audit of Operating Tempo Fund Use, U.S. Army Europe                                           06/14/2012
USAAA    A-2012-0121-ALA   Electronic Warfare Capabilities                                                               06/20/2012
USAAA    A-2012-0122-MTP   Audit of Army Health Affairs Actions Taken to Implement Fort Hood Recommendations             06/20/2012
                           (For Official Use Only)
USAAA    A-2012-0124-MTH   U.S. Army Reserve Retirement Points System, U.S. Army Human Resources Command                 06/14/2012
USAAA    A-2012-0125-MTP   Time-Sensitive Report, Audit of the Army Materiel Command’s Army Protection Program           06/14/2012
USAAA    A-2012-0126-ALS   Audit of the Command Supply Discipline Program--Army National Guard                           06/22/2012
USAAA    A-2012-0128-FMP   Agreed-Upon Procedures: Investigative Support Golf Course Operations - Korea (For             06/22/2012
                           Official Use Only)
USAAA    A-2012-0129-ALS   Audit of the Command Supply Discipline Program--U.S. Army Reserve Command                     06/22/2012
USAAA    A-2012-0130-FMI   Audit of U.S. Army Special Operations Command Materiel Development                            07/05/2012
USAAA    A-2012-0131-ALS   Implementation of Item Unique Identification Program Requirements; Audit of Property          07/02/2012
                           Accountability of Training Aids, Devices, Simulators, and Simulations Equipment During
                           Fielding; Program Executive Office for Simulation, Training and Instrumentation
USAAA    A-2012-0135-MTT   Nonstandard Equipment Training                                                                07/13/2012
USAAA    A-2012-0137-ALM   U.S. Army’s End-of-Life Cycle Fleet Management, U.S. Army TACOM Life Cycle                    07/19/2012
                           Management Command
USAAA    A-2012-0138-ALM   Audit of Army Prepositioned Stocks, War Reserve Secondary Items Requirements (For             07/20/2012
                           Official Use Only)
USAAA    A-2012-0139-IEM   Child, Youth and School Services Facility Requirements. Fort Bliss, Texas (For Official Use   07/20/2012
                           Only)
USAAA    A-2012-0141-MTE   Follow-up Audit of Combat Support Services-Kuwait-Government Property Visibility,             08/09/2012
                           Camp Arifjan, Kuwait
USAAA    A-2012-0143-IEM   Family Readiness Support Assistant Staffing and Utilization, Office of the Assistant Chief    08/02/2012
                           of Staff for Installation Management
USAAA    A-2012-0146-MTE   Audit of Bulk Fuel Accountability in Afghanistan-Phase II (For Official Use Only)             09/27/2012
USAAA    A-2012-0151-ALM   National Source of Repair Selection Process-Phase II                                          08/02/2012
USAAA    A-2012-0152-FMP   Deployment Health Assessments, Hawaii                                                         08/14/2012
USAAA    A-2012-0155-ALE   Audit of Newly Fielded Equipment (For Official Use Only)                                      08/21/2012
USAAA    A-2012-0156-MTE   Management Controls Over DoD Activity Address Codes Multiclass Purchases, Office of           08/10/2012
                           the Deputy Chief of Staff, G-4
USAAA    A-2012-0157-ALS   Communications Security Materiel in Storage (For Official Use Only)                           08/09/2012
USAAA    A-2012-0159-ALS   Property Accountability of Training Aids, Devices, Simulators, and Simulations                08/14/2012
                           Equipment During Fielding
USAAA    A-2012-0160-MTE   Property Accountability Over Unit Equipment Shipped to Afghanistan, Office of the             08/21/2012
                           Deputy Chief of Staff, G-4
USAAA    A-2012-0161-IEO   Overseas Contingency Operations Resource Reporting, Office of the Assistant Chief of          08/17/2012
                           Staff for Installation Management


                                                                                                         APRIL 1, 2012 TO SEPTEMBER 30, 2012 113
Appendix A


Agency             Report Number        Report Title                                                                             Date
USAAA              A-2012-0163-ALS      Second Destination Transportation Funding Requirements                                   08/21/2012
USAAA              A-2012-0165-ALM      Predeployment Training Equipment                                                         08/23/2012
USAAA              A-2012-0171-ALS      Time-Sensitive Report for the Audit of Second Destination Transportation Funding         09/24/2012
                                        Execution
USAAA              A-2012-0173-ALS      Examination of Army Suggestion Program, Suggestion Number SESR11007C: Fuel Point         09/07/2012
                                        Realignment, Hunter Army Airfield
USAAA              A-2012-0174-ALS      Audit of Spare Parts Turn-in, Property Accountability Recovery Team Procedures           09/11/2012
USAAA              A-2012-0179-MTS      Follow-up Audit of Army Operational Plans for Contractor Support on the Battlefield      09/14/2012
USAAA              A-2012-0180-MTH      Human Dimension Contract Tasks, U.S. Army Capabilities Integration Center, Joint Base    09/18/2012
                                        Langley-Eustis, Virginia
USAAA              A-2012-0181-ALS      Examination of Resubmitted Army Suggestion Program, Suggestion Number                    09/19/2012
                                        SESR09014C-R: Reuse of M109A5 Fire Support Combined Arms Tactical Trainer
                                        Component Parts, Office of the Administrative Assistant to the Secretary of the Army
USAAA              A-2012-0184-MTE      Audit of Found on Installation Property (For Official Use Only)                          09/20/2012
USAAA              A-2012-0185-MTP      Audit of Training Ammunition Requirements for Civilian Guards, U.S. Army Materiel        09/26/2012
                                        Command
USAAA              A-2012-0186-MTE      Financial Transparency in the Afghan Transportation Network-South Contract, Bagram       09/21/2012
                                        Airfield, Afghanistan (For Official Use Only)
USAAA              A-2012-0196-ALS      Follow-up Audit of Shop Floor Automation                                                 09/26/2012
USAAA              A-2012-0197-ALM      Contractor Logistics Support                                                             09/27/2012
USAAA              A-2012-0199-ALS      Management of Aviation Maintenance Operations for Rotary Wing Aircraft, 11th             09/28/2012
                                        Aviation Command
USAAA              A-2012-0202-ALM      Audit of Army Prepositioned Stock, Accountability and Shelf-Life Management (For         09/28/2012
                                        Official Use Only)
USAAA              A-2012-0204-FMF      Direct Contributions from Afghanistan Security Forces Fund (For Official Use Only)       09/28/2012
NAVAUDSVC          N2012-0036           Reporting of Navy Aviation Fuel Consumption                                              04/19/2012
NAVAUDSVC          N2012-0046           Department of the Navy Bulk Fuel Facilities and Farms – Southwest Region, Defense Fuel   06/14/2012
                                        Support Point San Pedro, CA
NAVAUDSVC          N2012-0048           Reporting of Navy Maritime Fuel Consumption                                              06/21/2012
NAVAUDSVC          N2012-0053           Department of the Navy Bulk Fuel Storage Facilities and Farms – Mid-Atlantic             06/29/2012
                                        Region, Craney Island
NAVAUDSVC          N2012-0054           Military Sealift Command Ships’ Energy Consumption                                       07/09/2012
NAVAUDSVC          N2012-0055           Aviation Fuel Accounting at Marine Corps Air Station Yuma                                07/06/2012
NAVAUDSVC          N2012-0058           Accounting and Reporting of Marine Corps and Navy Fuel Consumption for Tactical          08/08/2012
                                        Ground Units
NAVAUDSVC          N2012-0065           Relocation of Carrier Air Wing Five                                                      08/31/2012
AFAA               F-2012-0009-FC2000   Aircraft Demilitarization                                                                06/28/2012
AFAA               F-2012-0010-FC2000   Propulsion Support Equipment                                                             08/16/2012
AFAA               F-2012-0009-FC4000   Small Arms and Light Weapons Management                                                  04/04/2012
AFAA               F-2012-0010-FC4000   Airborne Readiness Spares Packages                                                       05/22/2012
AFAA               F-2012-0013-FD1000   Military Munitions Response Program Management                                           07/25/2012
AFAA               F-2012-0014FD1000    Hazardous Materials Management                                                           07/26/2012
AFAA               F-2012-0007-FD3000   Core Function Master Plans (Classified)                                                  05/22/2012
AFAA               F-2012-0004-FD4000   Mobility Graduate Flying Training Program                                                04/02/2012
AFAA               F-2012-0006-FD4000   Air Guard Recruiting Assistance Program                                                  05/14/2012
AFAA               F-2012-0007-FD4000   Air Reserve Technician Program                                                           07/05/2012
AFAA               F-2012-0008-FD4000   Civilian Leadership Development Program                                                  07/06/2012
AFAA               F-2012-0009-FD4000   Follow-up Audit, Upgrade Training Program                                                07/12/2012


114 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number         Report Title                                                                                 Date
AFAA        F-2012-0010-FD4000    Special Duty Assignments                                                                     08/07/2012
AFAA        F-2012-0011-FD4000    Mobility Aircrew Continuation Training                                                       08/22/2012



Equipping and Training Iraq and Afghan Security Forces
Agency     Report Number         Report Title                                                                                Date
DoD IG     DODIG-2012-034.2      Assessment of Afghan National Security Forces Metrics—Quarterly (Classified)                05/15/2012

DoD IG     DODIG-2012-083        Additional Guidance and Training Needed to Improve Afghan National Army                     05/07/2012
                                 Pharmaceutical Distribution
DOD IG     DODIG-2012-089        Better Contract Oversight Could Have Prevented Deficiencies in the Detention Facility       05/17/2012
                                 in Parwan, Afghanistan
DoD IG     DODIG-2012-092        Development of Individual Equipment Requirements for the Afghan National Army               05/25/2012
                                 Needs Improvement
DoD IG     DODIG-2012-093        Improving Army Contract Award and Management for Small Arms Acquired Using                  05/30/2012
                                 Afghanistan Security Forces Funds
DoD IG     DODIG-2012-094        Afghan National Police Requirements Were Not Clearly Defined But Contract                   05/30/2012
                                 Administration Improved
DoD IG     DODIG-2012-103        Accountability of Night Vision Devices Procured for the Afghan National Security Forces     06/18/2012
                                 Needs Improvement
DoD IG     DODIG-2012-104        DoD Needs to Improve Vocational Training Efforts to Develop the Afghan National             06/18/2012
                                 Security Forces Infrastructure Maintenance Capabilities
DoD IG     DODIG-2012-109        Assessment of U.S. Government and Coalition Efforts to Develop the Afghan Local Police      07/09/2012
DoD IG     DODIG-2012-128        Fees and Surcharges Assessed on Afghanistan Security Forces Fund Orders Need                09/19/2012
                                 Improved Cost Accounting
DoD IG     DODIG-2012-135        Mi-17 Overhauls Had Significant Cost Overruns and Schedule Delays (For Official Use         09/24/2012
                                 Only)
DoD IG     DODIG-2012-141        Assessment of U.S. Government and Coalition Efforts to Train, Equip and Field the Afghan    09/28/2012
                                 Air Force (For Official Use Only)
DoD IG     DODIG-2012-034.3      Assessment of Afghan National Security Forces Metrics—Quarterly (Classified)                09/28/2012



Nuclear Enterprise
Agency     Report Number         Report Title                                                                                Date
DoD IG     DoDIG-2012-079        Review of United States Air force Nuclear Weapon Security Program (Classified)              04/20/2012

DoD IG     DoDIG-2012-113        Assessment of Air Force Global Strike Command Organizational Structures, Roles and          08/07/2012
                                 Responsibilities




                                                                                                                APRIL 1, 2012 TO SEPTEMBER 30, 2012 115
Appendix A


Other
 Agency            Report Number        Report Title                                                                             Date
 DoD IG            DODIG-2012-070       Oversight Review of the FY 2011 External Reviews of the Quality Control Systems of the   04/02/2012
                                        Military Department Audit Agencies
 DoD IG            DODIG-2012-078       Program Management Assessment of a USDI SAP (Phase I) (Classified)                       04/24/2012

 DoD IG            DODIG-2012-116       External Quality Control Review of the Defense Information Systems Agency Audit          07/20/2012
                                        Organization
 DoD IG            DODIG-2012-126       Quality Control Review of the Defense Commissary Agency Internal Audit Function          09/10/2012
 DoD IG            DODIG-2012-143       ISO 9001:2008 Quality Assurance Assessment of Defense Acquisition University             09/27/2012
                                        Processes
 NAVAUDSVC         N2012-0032           Ethics Program at the Chief of Naval Personnel                                           04/9/2012
 NAVAUDSVC         N2012-0039           Department of the Navy Civilian Drug/Free Workplace Program – Compliance                 05/02/2012
 NAVAUDSVC         N2012-0042           Hiring Select Retired Department of the Navy Military Officers into Civilian Positions   05/22/2012
 NAVAUDSVC         N2012-0044           FY 2012 Second Quarter Test of Department of the Navy Sexual                             06/07/2012
                                        Assault/Related Phone Numbers
 NAVAUDSVC         N2012-0047           Department of the Navy Proposed FY 2013 Military Construction Projects Related to        06/18/2012
                                        the U.S. Marine Corps’ Guam Relocation Effort
 NAVAUDSVC         N2012-0057           Impact of Physical Readiness Training on Personnel Safety                                08/07/2012
 NAVAUDSVC         N2012-0069           FY 2012 Third Quarter Test of Department of the Navy Sexual Assault/Related Phone        09/28/2012
                                        Numbers


▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a) (6).




116 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                            Appendix B




                                                             Reports Containing Potential
                                                                      Monetary Benefits
                                                                                                      Potential Monetary Benefits
                                                                                                                     Funds Put to Better
                                 Reports Issued                                      Date         Disallowed Costs
                                                                                                                            Use

  DODIG-2012-069 Action Is Needed to Improve the Completeness and Accuracy
                                                                                  04/02/2012            N/A                $7,000,000
  of DEERS Beneficiary Data

  DODIG-2012-091 The Army Needs to Recoup Funds Expended on Property
                                                                                  05/24/2012            N/A                $8,430,780
  Damaged in an Accident at a Development Subcontractor’s Facility
  DODIG-2012-102 Better Cost-Control Measures Are Needed on the Army's Cost-
                                                                                  06/18/2012            N/A              $152,400,000
  Reimbursable Services Contract for Logistics Support of Stryker Vehicles
  DODIG-2012-106 DoD Needs to Improve the Billing System for Health Care
                                                                                  06/27/2012            N/A               $13,822,841
  Provided to Contractors at Medical Treatment Facilities in Southwest Asia
  DODIG-2012-115 Improved Oversight, but No Invoice Reviews and Potential
                                                                                                      $70,000
  Antideficiency Act Violation May Have Occurred on the Kuwait Observer           08/02/2012                                   N/A
                                                                                                    (Questioned)
  Controller Team Task Orders
  DODIG-2012-117 DoD Needs to Improve Controls Over Economy Act Orders
                                                                                  08/14/2012            N/A               $17,600,000
  with U.S. Agency for International Development
  DODIG-2012-122 DoD Should Procure Compliant Physical Access Control
                                                                                  08/29/2012            N/A               $75,224,295
  Systems to Reduce the Risk of Unauthorized Access
  DODIG-2012-108 Questionable Data Cast Doubt on the Need for Continuing
                                                                                  08/31/2012            N/A               $49,100,000
  the Defense Transportation Coordination Initiative
  DODIG-2012-121 Audit of the Joint Land Attack Cruise Missile Defense Elevated
                                                                                  09/07/2012            N/A              $2,474,100,000
  Netted Sensor
  DODIG-2012-130 DFAS Controls Over Duplicate Payments in One Pay Were
                                                                                  09/14/2012            N/A                 $162,542
  Generally Effective, But There Were Opportunities for Improvement
  DODIG-2012-132 Project Planning Resulted in Outstanding Building
  Deficiencies and Decreased Functionality of the Main Fire Station at Naval      09/14/2012            N/A               $24,736,000
  Station Great Lakes
  DODIG-2012-135 Mi-17 Overhauls Had Significant Cost Overruns and Schedule
                                                                                  09/27/2012            N/A               $16,400,000
  Delays
  Total                                                                                               $70,000           $2,838,976,458


▶ Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6) (See Appendix
A).




                                                                                                     APRIL 1, 2012 TO SEPTEMBER 30, 2012 117
Appendix C




Follow-up Activities
Decision status of DoD IG issued audit, inspection and evaluation reports and dollar value of recommendations that funds be put to
better use.
                                                                                     Number                     Funds Put
                                        Status                                                               to Better Use 1
                                                                                                            ($ in thousands)
  A.    For which no management decision had been made by the
                                                                                        32
        beginning of the reporting period.                                                                     $4,374
  B.    Which were issued during the reporting period.                                  79                   $2,839,047
        Subtotals (A+B)                                                                111                   $2,843,421
                                                                                                              $203,698

  C.    For which a management decision was made during the reporting period.
       (i)	 dollar value of recommendations that were agreed to by management.
             - based on proposed management action                                      64
             - based on proposed legislative action
       (ii)	 dollar value of recommendations that were not agreed to by
             management.
                                                                                                              $203,698 2


  D.   For which no management decision has been made by the                            47
       end of the reporting period.                                                                          $2,639,723
        Reports for which no management decision was made within six months of
                                                                                       103
        issue (as of Sept. 30, 2012).                                                                             0

1.	 DoD IG issued audit reports during the period involving $70,000 in “questioned costs.”
2.	 On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary benefits can-
    not be determined until those actions are completed.
3.	 DoD IG Report Nos. D-2011-106, “The Department of the Navy Spent Recovery Act Funds on Photovoltaic Projects That Were
    Not Cost-Effective”; D-2011-108, “ Geothermal Energy Development Project at Naval Air Station Fallon, Nevada Did Not Meet
    Recovery Act Requirements”; D-2011-109, “American Recovery and Reinvestment Act “Heating, Ventilation, and Air Conditioning
    Replacement” Project at Naval Support Activity Norfolk - Planning and Initial Execution Could Have Been Improved”; D-2011-
    112, “Counterintelligence Interviews for U.S.-Hired Contract Linguists Could Be More Effective”; DODIG-2012-025, “Review of
    Matters Related to the Office of the Assistant Secretary of Defense (Public Affairs) Retired Military Analyst Outreach Activities”;
    DODIG-2012-044, “Status of Recommendations to Improve the Nuclear Enterprise – Phase II”; DODIG-2012-053, “Investigation of
    Sensitive Compartmented Information Leaks in the DOD”; DODIG-2012-055, “Inspection of DoD Detainee Transfers and Reliance
    on Assurances”; DODIG-2012-056, “Report on Sensitive Compartmented Information Leaks in the Department of Defense”; and,
    DODIG-2012-057, “Guidance Needed to Prevent Military Construction Projects From Exceeding the Approved Scope of Work,” had
    no decision as of Sept. 30, 2012, but action to achieve a decision is in process.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 USC, Appendix, Section 5(a)(8),(9), & (10).




118 SEMIANNUAL REPORT TO THE CONGRESS
Status of action on central internal audits period ending Sept. 30, 2012

                                                                                                                            Funds Put
                                           Status                                            Number                      to Better Use 1
                                                                                                                        ($ in thousands)

  DoD IG
      Action in Progress - Beginning of Period                                                 103                           $29,700
      Action Initiated - During Period                                                         66   2
                                                                                                                           $2,839,047
      Action Completed - During Period                                                          41                          $59,7403
      Action in Progress - End of Period                                                       128                              04
  Military Departments
      Action in Progress - Beginning of Period                                                 537                         $4,947,781
      Action Initiated - During Period                                                         216                         $1,832,575
      Action Completed - During Period                                                         160                          $103,534
      Action in Progress - End of Period                                                      601 5                        $6,007,1365

1.	 DoD IG opened audit reports during the period involving $70,000 in “questioned costs.”
2.	 Adjusted for two re-opened reports.
3.	 Included are recouped “questioned costs” of $35,000.
4.	 On certain reports (primarily from prior periods) with audit estimated monetary benefits of $1,119 million, DoD IG agreed that
    the resulting monetary benefits can only be estimated after completion of management action, which is ongoing.
5.	 Incorporates retroactive adjustments.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 USC Appendix, Section 5(b) (2) & (3).




                                                                                                        APRIL 1, 2012 TO SEPTEMBER 30, 2012 119
Appendix D




Contract Audit Reports Issued1
                                                                         Dollars
                                                                       Examined             Questioned
  Type of audit2                                Reports Issued       ($ in millions)          Costs3            Funds Put to Better Use

  Incurred Costs, Ops Audits, Special Audits         2,586             $24,354.6              $1,715.0                   $10.14

  Forward Pricing Proposals                           875              $53,682.5                 ---                   $4,704.9 5

  Cost Accounting Standards                           337                $126.6                 $94.2                      ---

  Defective Pricing                                   22                (Note 6)                $36.5                      ---

  Totals                                             3,820             $78,163.7              $1,845.7                  $4,715.0

Note 1. This schedule represents DCAA contract audit reports issued during the six months ended Sept. 30, 2012. This schedule includes
   any audits that DCAA performed on a reimbursable basis for other government agencies and the associated statistics may also be
   reported in other OIGs’ Semiannual Reports to Congress. Both “Questioned Costs” and “Funds Put to Better Use” represent potential
   cost savings. Because of limited time between availability of management information system data and legislative reporting require-
   ments, there is minimal opportunity for DCAA to verify the accuracy of reported data. Accordingly, submitted data is subject to
   change based on subsequent DCAA authentication. In prior semiannual reporting periods, DCAA reported the total number of as-
   signments completed. The total number of assignments completed during the six months ended Sept. 30, 2012 was 6,475. Some com-
   pleted assignments do not result in a report issued because they are part of a larger audit or because the scope of the work performed
   does not constitute an audit or attestation engagement under generally accepted government auditing standards, so the number of
   audit reports issued is less than the total number of assignments completed.
Note 2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as: Incurred
   Costs – Audits of direct and indirect costs charged to government contracts to determine that the costs are reasonable, allocable,
   and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation Supplement, and provi-
   sions of the contract. Also included under incurred cost audits are Operations Audits, which evaluate a contractor’s operations and
   management practices to identify opportunities for increased efficiency and economy; and Special Audits, which include audits of
   terminations and claims.
Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders, costs for re-
   determinable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed practices, failure to
   consistently follow a disclosed or established cost accounting practice, or noncompliance with a Cost Accounting Standard regulation.
Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing data (the Truth
   in Negotiations Act).
Note 3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws, and/or
   contractual terms.
Note 4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds could be
   used more effectively if management took action to implement cost reduction recommendations.
Note 5. Represents potential cost reductions that may be realized during contract negotiations.
Note 6. Defective pricing dollars examined are not reported because the original value was included in the audits associated with the
   original forward pricing proposals.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 USC Appendix, Section 8(f)(1).




120 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                    Appendix E




                                                                         Status of Action on Post-
                                                                                Award Contracts1
                                                                                       Costs Questioned
                                                         Number of Reports               ($ in millions)              Disallowed Costs6
      Open Reports:
       Within Guidelines2                                        532                        $1,116.5                          N/A7
        Overage, greater than 6 months3                          600                        $1,505.4                          N/A
        Overage, greater than 12 months4                         498                        $ 1,262.8                         N/A
        In Litigation5                                           177                        $2,239.1                          N/A
      Total Open Reports                                        1,807                       $6,123.8                          N/A
      Closed Reports                                             405                        $1,048.1                $692.0 (66.0 percent)8
      All Reports                                                2212                       $7,171.9                  $692.0 (9.6 percent)

1.	      This schedule represents the status of DCAA reports on incurred costs, defective pricing, equitable adjustments, accounting and
         related internal control systems, and noncompliance with the Cost Accounting Standards as reported by DoD Components. The
         status of action on significant post-award contract audits is reported in accordance with DoD Instruction 7640.02, “Policy for
         Follow-up on Contract Audit Reports”. Because of limited time between availability of the data and reporting requirements, there
         is minimal opportunity to verify the accuracy of the reported data.
2.	      These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Instruction 7640.02 as
         described in footnotes 3 and 4 below.
3.	      OMB Circular A-50 requires that audit reports be resolved within six months after report issuance. Generally, an audit is resolved
         when the contracting officer determines a course of action which is documented and approved in accordance with agency policy.
4.	      DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of issuance. Generally,
         disposition is achieved when the contractor implements audit recommendations, the contracting officer negotiates a settlement
         with the contractor, or the contracting officer issues a final decision pursuant to the Disputes Clause.
5.	      Of the 177 reports in litigation, 49 are under criminal investigation.
6.	      Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
7.	      N/A (not applicable). Disallowance of cost occurs when an audit report has been dispositioned (closed) during the reporting period
         and as a result would not be applicable when reporting data on open reports.
8.	      Contracting officers disallowed $692.0 million (66.0 percent) of the $1.048.1 million questioned as a result of significant post-award
         contract audits during the period. The contracting officer disallowance rate of 66.0 percent represents an increase from the disal-
         lowance rate of 39.2 percent for the prior reporting period.

▶ Fulfills requirement of DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports,” Enclosure 2, Section (1)(d).




                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 121
Appendix F




Status of Reports with
Action Pending
Report: D-2002-010, Armed Svc Blood Program Defense Blood Stan-          approved, document plans for issuance of the armor kits.
dard System, 10/22/2001                                                  Reason Action Not Completed: Although action was initiated in late
Description of Action: Commercial-Off-The-Shelf solution to correct      2008, Army has yet to establish validated armor kit requirements for
the inventory counting and interface problems has been selected. A       the FMTV.
contract for development/implementation/deployment of a Enter-           Principal Action Office: Army
prise Blood Management System has been awarded.
Reason Action Not Completed: Delays due to system configuration          Report: D-2008-090, Controls Over Reconciling Army Working Capital
and verification of commercial products which must be completed          Fund Inventory Records, 05/13/2008
prior to deployment.                                                     Description of Action: The Army is working to update its regulations,
Principal Action Office: Air Force, ASD(HA)                              policies, and procedures for performing the annual and end-of-day
                                                                         inventory reconciliations.
Report: D-2006-077, DoD Security Clearance Process at Requesting         Reason Action Not Completed: The Army has coordinated the
Activities, 04/19/2006                                                   revision of policy and guidance, which is expected to be published
Description of Action: Updating DoD Personnel Security Clearance         this year. Requested systems changes to the Logistics Modernization
Program policies to include information on investigative responsi-       Program have not been funded.
bilities, security clearance systems, submission processes, levels of    Principal Action Office: Army
security clearances, and training requirements.
Reason Action Not Completed: Current guidance is dated Janu-             Report: D-2008-118, Host Nation Support of U.S. Forces in Korea,
ary 1987. ECD on DoDI 5200.2 was 6/12. ECD on the related Manual         08/25/2008
is 2014. AF consolidating several current security instructions into a   Description of Action: Update DoD FMR 7000.14-R, Volume 12,
single publication. ECD is 2/13. AR 380-67 on hold by Army JAG pend-     Chapter 24, to address the exchange rate used to value the dollar
ing completion of DoD guidance.                                          equivalent when recording obligation of burdensharing funds, and
Principal Action Office: USD(I), Army, Air Force                         the differences in accounting and disbursing procedures for labor cost
                                                                         sharing funds.
Report: D-2008-002, DoD Salary Offset Program, 10/09/2007                Reason Action Not Completed: Extensive time required to complete
Description of Action: Make modifications to existing systems to         coordination between DoD Components and revise DoD guidance.
properly compute salary offsets for military members, retirees, and      Principal Action Office: USD(C)
annuitants.
Reason Action Not Completed: Extensive time required to make             Report: D-2009-028, Organizational Structure and Managers Internal
modifications to existing systems.                                       Control Program for the Assistant Secretary of Defense and American
Principal Action Office: DFAS                                            Forces Information Service, 12/10/2008
                                                                         Description of Action: Investigate potential misuse of funds, im-
Report: D-2008-066, FY 2006 and FY 2007 DoD Purchases Made               proper contracting, and statutory violations.
Through the Department of the Interior, 03/19/2008                       Reason Action Not Completed: The formal Antideficiency Act Viola-
Description of Action: Publish guidance/manual to address defi-          tion Investigations are ongoing.
ciencies in interagency acquisitions on the proper use of Non-DoD        Principal Action Office: ASD(PA)
contracts.
Reason Action Not Completed: The Army delayed staffing the draft         Report: D-2009-030, Marine Corps Implementation of the Urgent Uni-
directive pending a determination regarding future use of Directives     versal Needs Process for Mine Resistant Ambush Protected Vehicles,
within the Department of the Army. The Draft Directive was reformat-     12/05/2008
ted as a manual for issuance and as an Appendix to the Army’s Federal    Description of Action: Report is FOUO.
Acquisition Regulation Supplement.                                       Reason Action Not Completed: Marine Corps action was on hold
Principal Action Office: Army                                            pending Joint Staff issuing revised guidance. Joint Staff issued revised
                                                                         guidance in January 2012. Marine Corps has not yet updated their
Report: D-2008-089, Planning Armor Requirements for the Family of        guidance.
Medium Tactical Vehicles, 05/09/2008                                     Principal Action Office: USMC
Description of Action: Update the capabilities documents for the
FMTV to include armor kit requirements. Once these requirements are      Report: D-2009-037, TRICARE Controls Over Claims Prepared By Third-

122 SEMIANNUAL REPORT TO THE CONGRESS
Party Billing Agencies, 12/31/2009                                       Freight Transportation, 04/09/2009
Description of Action: Resolve legal relationship between providers      Description of Action: Use data mining to monitor problematic pay-
and billing agencies in accordance with requirements.                    ments for duplicate payment indicators.
Reason Action Not Completed: Subsequent to mediation discussions         Reason Action Not Completed: Enterprise Data Warehousing and
between the TRICARE Management Activity and DoD IG, the TMA is           data mining solutions to assist with the pre-payment and post-pay-
seeking ways to satisfy the intent of this recommendation.               ment processes will be analyzed and implemented through an internal
Principal Action Office: ASD(HA)                                         controls effort sponsored by the DASD (Transportation Policy) and
                                                                         DFAS. The ECD is February 2013.
Report: D-2009-051, Controls Over Time and Attendance Reporting at       Principal Action Office: USD(AT&L)
the National Geospatial-Intelligence Agency, 02/09/2009
Description of Action: Revise guidance to improve internal controls      Report: D-2009-098, Status of the Defense Emergency Response Fund
over time and attendance, especially the use of overtime and compen-     in Support of the Global War on Terror, 07/30/2009
satory time.                                                             Description of Action: Review the Fund for GWOT obligations and
Reason Action Not Completed: Awaiting the issuance of the final          deobligate all unliquidated obligations, withdraw all excess funds
NGA instruction addressing time and attendance.                          provided to the DoD Components, and transfer the funds to the U.S.
Principal Action Office: NGA                                             Treasury.
                                                                         Reason Action Not Completed: Extensive time needed to coordinate
Report: D-2009-059, Air Force Management of the U.S. Government          deobligation of unliquidated obligations, withdrawal of excess funds,
Aviation Into-Plane Reimbursement Card Program, 03/06/2009               and transference of funds to U.S. Treasury.
Description of Action: Develop Air Force specific guidance and           Principal Action Office: USD(C)
procedures on the use of the AIR Card. Develop a training program to
ensure training for all personnel involved in AIR functions.             Report: D-2009-104, Sanitization and Disposal of Excess Information
Reason Action Not Completed: Extensive time required to staff and        Technology Equipment, 09/21/2009
get approval of regulation. ECD Nov. 12, 2012.                           Description of Action: DoD CIO is updating DoDD 8500.01, DoDI
Principal Action Office: Air Force                                       8500.02, and DoDI 8510.01.
                                                                         Reason Action Not Completed: Extended time is required for revision
Report: D-2009-062, Internal Controls Over DoD Cash and Other Mon-       of DoD guidance series.
etary Assets, 03/25/2009                                                 Principal Action Office: DoD CIO
Description of Action: Improve internal controls over cash and other
monetary assets by establishing a special control account, developing    Report: D-2009-108, U.S. Air Forces Central War Reserve Materiel
policies and procedures, and monitoring cash usage. Develop non-         Contract, 09/23/2009
cash methods of payment for contingency operations.                      Description of Action: The DCAA will audit direct costs under the old
Reason Action Not Completed: Corrective actions cannot be imple-         WRM contract and perform required surveillance of internal controls.
mented until coordination with the OMB and/or the Department of          Reason Action Not Completed: DCAA has not completed its audit
the Treasury is complete. Extensive coordination needed between          work.
DoD and its Components, and with the Treasury and OMB.                   Principal Action Office: DCAA
Principal Action Office: USD(C), DFAS
                                                                         Report: D-2010-015, DoD Civil Support During the 2007 and 2008
Report: D-2009-064, FY 2007 DoD Purchases Made Through the Na-           California Wildland Fires, 11/13/2009
tional Institutes of Health, 03/24/2009                                  Description of Action: Update joint publication to add clarity to the
Description of Action: Develop mandatory training to address how         process of staffing FEMA mission assignments, on the legal employ-
the rules and regulations governing multiple-award contracts differ      ment of surveillance by DoD assets providing assistance to civil
from those governing the General Services Administration’s Federal       authorities, and on specific events for command and control handoff
Supply Schedules, including the award and administration of task and     guidance.
delivery orders.                                                         Reason Action Not Completed: Extensive time required to develop,
Reason Action Not Completed: Updating policy and in-processing           coordinate and implement the guidance.
Federal Acquisition Regulation changes takes time. Developing train-     Principal Action Office: JCS, USD(C)
ing materials to be consistent with the Federal Acquisition Regulation
changes also takes time.                                                 Report: D-2010-023, Review of Defense Technical Information Center
Principal Action Office: USD(AT&L)                                       Internal Controls, 12/03/2009
Report: D-2009-066, Marine Corps’ Management of the Recovery and         Description of Action: Revise the DoD Financial Management
Reset Programs, 04/01/2009                                               Regulation to require DoD organizations to report reimbursable fees
Description of Action: Update USMC guidance to comply with De-           separately from reimbursable authority.
partmental guidance on prioritizing requirements.                        Reason Action Not Completed: The USD Comptroller is further
Reason Action Not Completed: The USMC’s Ground Equipment Reset           researching reimbursable budget authorities.
Strategy document was under revision and awaiting approval by the        Principal Action Office: USD(C)
Commandant of the Marine Corps.
Principal Action Office: USMC                                            Report: D-2010-024, Contracted Advisory and Assistance Services for
                                                                         the U.S. Army Future Combat Systems, 11/24/2009
Report: D-2009-072, Monitoring Power Track Payments for DoD              Description of Action: Report is FOUO.

                                                                                                           APRIL 1, 2012 TO SEPTEMBER 30, 2012 123
Appendix F

Reason Action Not Completed: Extensive time required to coordi-            Principal Action Office: USD(C)
nate and issue guidance.
Principal Action Office: USD(AT&L)                                         Report: D-2010-051, Defense Contract Management Agency Acquisi-
                                                                           tion Workforce for Southwest Asia, 04/08/2010
Report: D-2010-026, Joint Civilian Orientation Conference Program,         Description of Action: Revise DoDI 5000.66 to require military depart-
12/09/2009                                                                 ments and defense agencies to develop guidance to identify acquisi-
Description of Action: Update DoDI 5410.19 to clarify how to admin-        tion, technology and logistics workforce requirements in accordance
ister and manage the JCOC program. Initiate a preliminary Antidefi-        with other DoD instructions and the Financial Management Regula-
ciency Act review of the use of JCOC fees received since the inception     tion.
of the Miscellaneous Receipts Statute.                                     Reason Action Not Completed: Extensive time required to revise and
Reason Action Not Completed: The WHS review has been completed             coordinate instructions/guidance.
and is being elevated through the chain of command for coordination        Principal Action Office: USD(AT&L)
and approval. A complete rewrite of DoDI 5410.19 is underway.
Principal Action Office: ASD(PA), WHS                                      Report: D-2010-065, Validity and Security of Selected DoD Civilian
                                                                           Employee Accounts (U), 05/25/2010
Report: D-2010-028, Rapid Acquisition and Fielding of Materiel Solu-       Description of Action: Classified
tions by the Navy, 12/15/2009                                              Reason Action Not Completed: Extensive time required to review
Description of Action: Report is FOUO.                                     and validate potentially invalid accounts and apply corrections.
Reason Action Not Completed: Long-term corrective actions are              Principal Action Office: DFAS
ongoing.
Principal Action Office: Navy                                              Report: D-2010-069, Central Issue Facility at Fort Benning and Related
                                                                           Army Policies, 06/21/2010
Report: D-2010-035, Defense Logistics Agency Contracts for M2              Description of Action: Improve the process for recovering Organi-
Machine Gun Spare Parts in Support of Operations in Southwest Asia,        zational Clothing and Individual Equipment items from civilians and
01/11/2010                                                                 contractor employees on completion of their mission.
Description of Action: Evaluate the metrics used to manage the             Reason Action Not Completed: Corrective actions are on schedule.
product quality deficiency reporting process and update the DLA Joint      Principal Action Office: USD(AT&L)
Product Quality Deficiency Report instruction.
Reason Action Not Completed: Extensive time required to develop,           Report: D-2010-075, Foreign Allowances and Differentials Paid to DoD
coordinate and implement the guidance.                                     Civilian Employees Supporting Overseas Contingency Operations,
Principal Action Office: DLA                                               08/17/2010
                                                                           Description of Action: Finalize and issue uniform DoD-wide policies
Report: D-2010-036, Controls Over Navy Military Payroll Disbursed in       and procedures to accurately and consistently authorize foreign allow-
Support of Operations in Southwest Asia at San Diego-Area Disbursing       ances and differentials. Review foreign allowances and differential paid
Centers, 01/22/2010                                                        records to identify inaccuracies and make the necessary adjustments.
Description of Action: Develop an electronic storage capability for        Reason Action Not Completed: Extensive time required to coordi-
supporting documentation.                                                  nate with DoD Components and Agencies. Additional time needed to
Reason Action Not Completed: Navy planned to commence the                  evaluate the scope of the inaccuracies and take the necessary correc-
Training Requirements and Information Management System imple-             tive actions.
mentation within the U.S. in Sept. 2012, with a completion date of         Principal Action Office: DFAS
January 2013. Implementation of new version of TRIM that can accom-
modate overseas users will proceed immediately afterward.                  Report: D-2010-078, Air Force Use of Time-and-Materials Contracts in
Principal Action Office: Navy                                              Southwest Asia, 08/16/2010
                                                                           Description of Action: The Air Force Center for Engineering and
Report: D-2010-043, Deferred Maintenance and Carryover on the              Environment will review invoices for Time-and-Materials task orders,
Army Abrams Tank, 03/02/2010                                               will request DCAA audit assistance and will obtain reimbursements
Description of Action: Report is FOUO.                                     for incorrect charges with attention to $24.3 million for labor charges
Reason Action Not Completed: The proposed change has been in-              invoiced by the contractors but not authorized by the task orders.
corporated into the revised Financial Management Regulation, which         Reason Action Not Completed: The AFCEE has not received funds
will be published in the near future.                                      that they requested from U.S. Forces- Iraq to conduct the review. The
Principal Action Office: USD(C)                                            Defense Contract Audit Agency audit work is ongoing.
                                                                           Principal Action Office: Air Force
Report: D-2010-048, DoD Methodology for the Valuation of Excess,
Obsolete, and Unserviceable Inventory and Operating Materials and          Report: D-2010-081, Army Use of Time-and-Materials Contracts in
Supplies, 03/25/2010                                                       Southwest Asia, 08/27/2010
Description of Action: Develop methodologies for estimating net            Description of Action: The Army Contracting Command will establish
realizable value of excess, obsolete, and unserviceable inventory, oper-   a plan for reviewing invoices for 18 contracts and request DCAA assis-
ating material and supplies, munitions, and missiles.                      tance. ACC-Aberdeen Proving Ground and White Sands Missile Range
Reason Action Not Completed: Reorganization within the office and          will review contracts and task orders. DCAA will conduct incurred cost
developing methodologies for different assets takes time to complete.      audits on the contractor for FY 2006 and FY 2007. ACC will pursue a

124 SEMIANNUAL REPORT TO THE CONGRESS
refund from the contractor, if appropriate.                               Reason Action Not Completed: Extensive time required to revise and
Reason Action Not Completed: The ACC and Defense Contract Audit           coordinate guidance.
Agency have not completed reviews of task orders and audits of            Principal Action Office: DoD CIO, ASD(PA), DISA
incurred costs.
Principal Action Office: Army                                             Report: D-2011-028, Contracts Supporting the Broad Area Maritime
                                                                          Surveillance Program, 12/23/2010
Report: D-2010-086, Audit of the Utility Tax Relief Program in Ger-       Description of Action: Develop an agency improvement policy that
many, 09/29/2010                                                          will require all letters of delegation be modified to include necessary
Description of Action: Develop regulatory guidance requiring eligible     surveillance and inspection requirements.
civilian personnel to participate in the Utility Tax Avoidance Program    Reason Action Not Completed: Additional time required to finalize
in Germany; and develop a standard form to prove participation or         guidance.
ineligibility for the program.                                            Principal Action Office: DCMA
Reason Action Not Completed: Long-term corrective actions are in
process.                                                                  Report: D-2011-032, Audit of the Logistics Civil Augmentation Pro-
Principal Action Office: USD(P&R)                                         gram IV Support Contract, 01/07/2011
                                                                          Description of Action: Army will issue guidance for assigning person-
Report: D-2010-088, Accountability and Disposition of Government          nel to supervise contractors performance for functions closely associ-
Furnished Property in Conjunction With the Iraq Drawdown - Logistics      ated with inherently governmental duties.
Civil Augmentation Program, 09/30/2010                                    Reason Action Not Completed: Army has not yet issued guidance
Description of Action: Defense Contract Management Agency-Iraq to         regarding contractor performance closely associated with inherently
(1) provide a sufficiently supported account of all management deci-      governmental duties. Eleven of twelve recommendations have been
sions and actions taken concerning the acceptance, use and disposi-       completed.
tion of unused trash trucks; (2) determine whether personnel or cost      Principal Action Office: Army
recovery actions were warranted; and (3) determine proper disposition
of the trucks.                                                            Report: D-2011-036, Competition Should Be Used for Instructor Ser-
Reason Action Not Completed: Government attempts to negotiate             vices for the Mine Resistant Ambush Protected Vehicles, 02/03/2011
the final cost have reached an impasse and the government is pro-         Description of Action: The Army will complete a formal investigation
ceeding to issue a Contracting Officer’s Final Decision. A decision was   of the Anti Deficiency Act violation, will comply with DoD reporting
expected by Sept 30. 2012.                                                requirements and will provide a copy of the preliminary and final
Principal Action Office: DCMA                                             investigation report to the DoD IG.
                                                                          Reason Action Not Completed: The Army is conducting a formal ADA
Report: D-2010-091, DoD Needs to Improve Management and Over-             investigation of the violation.
sight of Operations at the Theater Retrograde-Camp Arifjan, Kuwait,       Principal Action Office: Army
09/30/2010
Description of Action: Develop appropriate performance require-           Report: D-2011-037, Audit of the Marine Corps Fulfillment of the
ments for processing materiel that are applicable, auditable and          Urgent Universal Need Statement for the Laser Dazzler, 02/09/2011
measurable and coordinate those requirements with the Contracting         Description of Action: Perform a review of the circumstances that
Officer for inclusion in the newly awarded contract.                      led to the purchase of the 28 Compact High Power Laser Dazzlers and
Reason Action Not Completed: The mission has significantly                initiate administrative action, if appropriate.
changed over the last few months making the current changes               Reason Action Not Completed: Awaiting the results of an ongoing
nonapplicable. The new requirement is being refined by the support-       criminal investigation.
ing activity. The current performance work statement will be revised      Principal Action Office: Navy
to add performance requirements for processing materials that are
applicable, auditable, and measurable. Estimated completion of this       Report: D-2011-043, Fleet Industrial Supply Center Ship Maintenance
action is Jan 10. 2013.                                                   Contracts in Southwest Asia, 02/22/2011
Principal Action Office: Army                                             Description of Action: Revise internal guidance and conduct market
                                                                          research to identify potential new contractors.
Report: D-2011-020, DoD Controls Over Information Placed on Pub-          Reason Action Not Completed: Extensive time required to finalize
licly Accessible Web Sites Require Better Execution, 11/29/2010           guidance and conduct market research at centralized level.
Description of Action: Update guidance for information posted to          Principal Action Office: Navy
publicly accessible Web sites; require annual assessment and docu-
mentation of DoD Internet services and use of Internet-based capabili-    Report: D-2011-045, American Recovery and Reinvestment Act Proj-
ties; provide enforcement procedures for annual certification require-    ect-Solar and Lighting at Naval Station Norfolk, Virginia, 02/25/2011
ments; mandate procedures to register Internet addresses and contact      Description of Action: Develop plans to use the funds resulting
information; ensure implementation of policies on the use of DoD          from the bid-savings and the project’s termination in accordance
Internet services and Internet based capabilities; require an inventory   with Under Secretary of Defense (Comptroller)/Chief Financial Officer
capability and a registration system for public DoD Web sites; expand     memorandum.
distribution of Operations Security and threat assessment reports; and    Reason Action Not Completed: Corrective actions are on schedule.
identify the system that will maintain the inventory of DoD publicly      Principal Action Office: USD(AT&L)
accessible Web sites.

                                                                                                             APRIL 1, 2012 TO SEPTEMBER 30, 2012 125
Appendix F

Report: D-2011-047, Improvements Needed in Contract Adminis-                 Report: D-2011-083, Audit of DoD Suspension and Debarment Deci-
tration of the Subsistence Prime Vendor Contract for Afghanistan,            sions and Reporting Into the Excluded Parties List System, 07/14/2011
03/2/2011                                                                    Description of Action: Review and improve the suspension and
Description of Action: DLA will modify contracts to incorporate fair         debarment process for referring poorly performing contractors for
and reasonable prices, compute and recover overpayments, and cor-            potential suspensions or debarments; and develop a training program
rect a fiscal year appropriations billing error.                             to inform contracting personnel of the suspension and debarment
Reason Action Not Completed: Corrective actions are on schedule.             program and the process for referring poorly performing contractors.
Principal Action Office: DLA                                                 Reason Action Not Completed: Long-term corrective actions are in
                                                                             process.
Report: D-2011-050, DoD Needs to Improve High Dollar Overpayment             Principal Action Office: USD(AT&L)
Review and Reporting, 03/16/2011
Description of Action: Develop procedures for reviewing information          Report: D-2011-089, Audit of the Defense Information Systems
on corrections, including recalls, offsets, and rejects for overpayments.    Agency Controls Over the Center for Computing Services, 07/22/2011
Also, implement a methodology to include statistically sampling com-         Description of Action: Report is FOUO.
mercial pay entitlement systems for improper payments.                       Reason Action Not Completed: Extensive time required to coordi-
Reason Action Not Completed: Extensive time required to coordi-              nate and issue guidance.
nate and develop procedures and a methodology.                               Principal Action Office: DISA
Principal Action Office: USD(C)
                                                                             Report: D-2011-090, Audit of FY 2008 Marine Corps Global War on
Report: D-2011-060, Audit of Marine Corps Small Arms Accountability          Terror-Related Costs Processed Through the Standard Accounting,
at Activities Relocating as Part of the Defense Posture Review Initiative,   Budgeting and Reporting System, 07/22/2011
04/22/2011                                                                   Description of Action: Update Marine Corps Order 7300.21A “Marine
Description of Action: Update Marine Corps Order 8300.1C to include          Corps Financial Management Standard Operating Procedure Manual,”
additional guidance for small arms accountability.                           Oct. 2, 2008.
Reason Action Not Completed: Extensive time required to update,              Reason Action Not Completed: Extensive time required to update,
review, and issue guidance.                                                  review, and issue guidance.
Principal Action Office: Navy                                                Principal Action Office: Navy

Report: D-2011-071, U.S. Air Force Academy Could Have Significantly          Report: D-2011-096, Audit of the DoD Information Assurance Vulner-
Improved Planning, Funding, and Initial Execution of the American            ability Management Program, 08/12/2011
Recovery and Reinvestment Act Solar Array Project, 06/16/2011                Description of Action: Report is FOUO.
Description of Action: Determine accountability for the categoriza-          Reason Action Not Completed: Time required to coordinate and is-
tion of Recovery Act solar array project costs at a utility company; and     sue policy guidance.
develop policies and procedures for planning and funding energy              Principal Action Office: DoD CIO, JCS, STRATCOM
projects with public utility companies, which prevent unauthorized
advanced payment of project funds.                                           Report: D-2011-098, Defense Finance and Accounting Service Needs
Reason Action Not Completed: An Antideficiency Act investigation is          to Improve Controls Over the Completeness and Accuracy of the Cash
underway, and has a suspense date of late October or early November          Management Report, 08/15/2001
2012 for completion.                                                         Description of Action: Monitor the DFAS working group’s corrective
Principal Action Office: Air Force                                           actions and audit readiness efforts regarding the Fund Balance With
                                                                             Treasury account for Other Defense Organizations.
Report: D-2011-077, Improved Management Can Reduce Costs of the              Reason Action Not Completed: Long-term corrective actions are in
Maintenance, Repair, and Operations Prime Vendor Contract for the            process.
Republic of Korea, 06/24/2011                                                Principal Action Office: USD(C)
Description of Action: Report is FOUO.
Reason Action Not Completed: Extensive time to develop and award             Report: D-2011-099, Followup Audit of Impact of Legislation and
contract.                                                                    Directives on Personal Commercial Solicitation of Military Personnel,
Principal Action Office: DLA                                                 08/23/2011
                                                                             Description of Action: Military Services to update financial training
Report: D-2011-080, DoD and DoS Need Better Procedures to Moni-              in an effort to increase junior enlisted Service members’ awareness
tor and Expend DoD Funds for the Afghan National Police Training             regarding the need for, and value of, filing complaints for deceptive or
Program, 07/07/2011                                                          abusive life insurance marketing practices and unsuitable insurance
Description of Action: The DSCA will perform a review for potential          products.
Antideficiency Act violations and take appropriate action for funds          Reason Action Not Completed: The Services are strengthening train-
that were improperly obligated. The DCAA will conduct audit work to          ing to highlight filing complaints for deceptive or abusive life insur-
verify that DynCorp did not double-bill claimed costs under DoD and          ance marketing practices.
Department of State contracts from Dec. 30, 2010, through July 15,           Principal Action Office: USD(P&R)
2011.
Reason Action Not Completed: Corrective actions are on schedule.             Report: D-2011-101, Controls Over Army Deployable Disbursing Sys-
Principal Action Office: DSCA, DCAA                                          tem Payments Need Improvement, 08/19/2011

126 SEMIANNUAL REPORT TO THE CONGRESS
Description of Action: Publish guidance on standardizing how                Report: D-2011-115, DoD Cannot Ensure Contractors Protected
electronic payments made through local depository accounts will be          Controlled Unclassified Information for Weapon Systems Contracts,
recorded in the Deployable Disbursing System.                               09/30/2011
Reason Action Not Completed: Additional time required to coordi-            Description of Action: Report is FOUO.
nate and issue guidance.                                                    Reason Action Not Completed: Time required to develop policy and
Principal Action Office: Army, USD(C)                                       obtain public comments.
                                                                            Principal Action Office: USD(AT&L)
Report: D-2011-102, Afghan National Police Training Program Would
Benefit From Better Compliance With the Economy Act and Reimburs-           Report: D-2011-116, American Recovery and Reinvestment Act Wind
able Agreements, 08/25/2011                                                 Turbine Projects at Long-Range-Radar Sites in Alaska Were Not Ad-
Description of Action: The DSCA will perform a review for potential         equately Planned, 09/30/2011
Antideficiency Act violations and take appropriate action for funds         Description of Action: Cancel three wind turbine projects.
that were improperly obligated.                                             Reason Action Not Completed: Termination proceedings are in pro-
Reason Action Not Completed: Corrective actions are on schedule.            cess, and $5M has been deobligated thus far.
Principal Action Office: DSCA                                               Principal Action Office: USD(AT&L)

Report: D-2011-107, Improvements Needed in Procedures for Certify-          Report: D-2011-117, ARRA Requirements and Contracting for the
ing Medical Providers and Processing and Paying Medical Claims in the       Bachelor Enlisted Quarters at Camp Pendleton, 09/30/2011
Philippines, 09/09/2011                                                     Description of Action: Require Public Works Department person-
Description of Action: ASD (Health Affairs) is implementing recom-          nel to comply with Marine Corps Order P11000.5G, requirements for
mendations to improve the certification of medical providers and the        project documentation, including completing DD Form 1391s and
claims payment process in the Philippines.                                  maintaining supporting documentation.
Reason Action Not Completed: Long-term corrective actions are               Reason Action Not Completed: Corrective actions are on schedule.
ongoing.                                                                    Principal Action Office: Navy
Principal Action Office: ASD(HA)
                                                                            Report: D-2011-119, ARRA-Improper Planning of the Administrative
Report: D-2011-111, Guidance for Petroleum War Reserve Stock Needs          Buildings Project at Camp Lejeune, N.C., 09/30/2011
Clarification (U), 09/27/2011                                               Description of Action: Require Marine Corps Base Camp Lejeune
Description of Action: The Report is Classified.                            Public Works officials to track and assess the completion of DD Form
Reason Action Not Completed: The revised DoD 4140.25 Directive              1391s, economic analyses, and National Environmental Policy Act
and Manual are expected to be published in 2nd quarter 2013.                reviews in accordance with Marine Corps Order P11000.5G.
Principal Action Office: USD(AT&L), JCS                                     Reason Action Not Completed: Corrective actions are on schedule.
                                                                            Principal Action Office: Navy

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(b)(4).




                                                                                                               APRIL 1, 2012 TO SEPTEMBER 30, 2012 127
Appendix G




Contract Audits with
Significant Findings
DoD IG
Report No. DODIG-2012-102                                                 Date: June 18, 2012
Subject: Better Cost-Control Measures Are Needed on the Army’s Cost-Reimbursable Services Contract for Logistics Support of Stryker Vehicles
Report: $152.4 Million in Funds Put to Better Use
The Army’s cost-reimbursable services contract for logistics support of Stryker vehicles lacked adequate cost-control metrics and a tangible de-
liverable. The contractor was authorized to spend about $1.453 billion, but DoD IG calculated the operational support costs for Stryker vehicles
at about $1.117 billion for five years, resulting in about $335.9 million that the contractor used to accumulate inventory that could have been
put to better use. As a result of the audit, the Project Manager for Stryker Brigade Combat Team identified $152.4 million in excess inventory that
will be used to reduce Program Year 2011 and Program Year 2012 contract requirements.


Report No. DODIG-2012-117                                                 Date: Aug. 14. 2012
Subject: DoD Needs to Improve Controls Over Economy Act Orders with U.S. Agency for International Development
Report: $17.6 Million of Potential Funds Put to Better Use
U.S. Central Command and U.S. Forces-Afghanistan officials did not establish adequate controls over interagency acquisitions when transferring
$40.1 million in Commander's Emergency Response Program funds to the U.S. Agency for International Development using three Economy Act
Orders. DoD and USAID may have committed Antideficiency Act violations of $27.6 million and USAID improperly used $17.6 million of DoD
funds.


Report No. DODIG-2012-108                                                 Date: Aug. 31, 2012
Subject: Questionable Data Cast Doubt on the Need for Continuing the Defense Transportation Coordination Initiative
Report: $49.1 Million of Potential Funds Put to Better Use
The Defense Transportation Coordination Initiative Program Management Office personnel did not provide effective oversight of the DTCI
contract, valued at $1.76 billion. The third-party logistics contractor reported cost reductions of $167.4 million for 699,157 freight shipments.
However, the reductions were not verifiable because of questionable data and PMO officials did not deduct $56.9 million in program costs
from the reported cost reductions resulting in cost $7.5 million greater than cost reductions. The exercise of future contract options will require
implementing corrective actions to verify that program benefits occur and offset the contract costs. If future contract options are not exercised
$49.1 million of funds could be put to better use.


Report No. DODIG-2012-135                                                 Date: Sept. 27, 2012
Subject: Mi-17 Overhauls Had Significant Cost Overruns and Schedule Delays
Report: $16.4 Million of Unnecessary Costs
Army contracting and program management officials did not perform adequate oversight and management of Counter Narcoterrorism Tech-
nology Program Office contracts for the overhaul of Mi-17 aircraft. Specifically, the contracting officers and program management officials did
not adequately support the contractor’s oversight of its subcontractor. Further, the subcontractor denied quality assurance personnel access
to its overhaul facility. As a result, the subcontractor aircraft overhaul took 12 to 20 months longer than planned, failed to identify unsanc-
tioned parts that must be replaced, and cost the U.S. government $16.4 million in unnecessary costs.




128 SEMIANNUAL REPORT TO THE CONGRESS
DCAA
Audit Report No. 02211-2006S10100001                                      Date: April 6, 2012
Subject: Independent Audit of CY 2006 Incurred Direct Charges, Residual Expenses, and Facilities Capital Cost of Money
Prepared For: Defense Contract Management Agency – Cost and Pricing Center
Report: $33.3 Million Questioned Costs
The audit of the corporate incurred cost proposal questioned a net amount of $33.3 million. Major elements questioned include $24.8 million of
medical expenses due to ineligible dependents; $7.7 million of executive compensation over the Federal Acquisition Regulation compensation
cap; $1.3 million of out-of-period worker’s compensation costs; and a $2.0 million upward adjustment for actual franchise taxes in excess of the
estimates contained in the proposal.


Audit Report No. 06341-2011A17900001                                      Date: May 18, 2012
Subject: Independent Audit of Labor Charging
Prepared For: DCMA Munitions and Support Systems
Report: $14.2 Million Questioned Cost
The audit of the billed Time and Material labor and associated costs resulted in $14.2 million of questioned costs, including $11.3 million for
prime and subcontract employees not meeting the contractual education and/or experience requirements; $2.3 million of bonus, hazard, and
danger pay associated with the unqualified employees; $.4 million of indirect costs associated with the questioned labor billings; and $.2 million
for subcontractor labor billed in excess of cost.


Audit Report No. 01751-2012G17900001                                      Date: June 22, 2012
Subject: Independent Audit of Internal Restructuring Proposal
Prepared For: Department of the Navy, Supervisor of Shipbuilding
Report: $219.8 Million Questioned Cost
The audit of the restructuring proposal resulted in $219.8 million of questioned costs. Significant items questioned include $194.5 million of
proposed savings for years beyond the five year amortization period specified in Cost Accounting Standard 406, and $13.0 million of proposed
savings duplicated in the proposal.


Audit Report No. 02161-2011G10110001                                      Date: June 27, 2012
Subject: Independent Audit of Travel Costs
Prepared For: Department of the Army, Army Contracting Command – Rock Island
Report: $21.7 Million Questioned Cost
The audit of billed travel costs under a single contract resulted in questioning all of the billed costs because the contractor did not obtain ad-
vance written approval for the travel as required by the contract terms.


Audit Report No. 04201-2011G17200001                                      Date: January 23, 2012
Subject: Independent Audit of Compliance with Requirements Applicable to Research & Development and Internal Control Over Compliance in
Accordance with OMB A-133 for FY 2011
Prepared For: Department of the Air Force, Corporate Administrative Contracting Officer
Report: $10.4 Million Questioned Cost
The audit of the incurred cost proposal and compliance with OMB A-133 requirements resulted in $10.4 million questioned costs. Significant
questioned items include $9.3 million for vacant or underutilized facilities and related legal fees; $0.3 million of unreasonable costs for mem-
berships in multiple organizations that provide similar benefits or for membership costs related to lobbying; and $0.4 million of unreasonable
executive compensation.




                                                                                                              APRIL 1, 2012 TO SEPTEMBER 30, 2012 129
Appendix G

Audit Report No. 03181-2010D10180008                                      Date: July 10, 2012
Subject: Independent Audit of FY 2009 Direct Labor Costs Incurred and Invoiced
Prepared For: United States Army Intelligence and Security Command
Report: $76.9 Million Questioned Cost
The audit of the incurred and billed labor costs resulted in $76.9 million of questioned costs because the linguists did not meet the specific con-
tract language proficiency or medical requirements.


Audit Report No. 04411-2008Q10100001                                      Date: July 10, 2012
Subject: Independent Audit of FY 2008 Incurred Cost Submission
Prepared For: U.S. Department of Energy, Richland Operations Office
Report: $17.6 Million Questioned Cost
The audit of the incurred cost proposal resulted in $17.6 million of questioned costs. Significant items questioned include $15.1 million of pro-
fessional and consultant costs which were not supported by evidence of the work product and/or agreement; and $1 million of final subcon-
tract fee that was not related to completed work or milestones.


Audit Report No. 03711-2010A42098005                                      Date: July 25, 2012
Subject: Independent Audit of Cost or Pricing Data Provided During Negotiation
Prepared For: Department of the Air Force, Aeronautical Systems Center
Report: $11.2 Million Recommended Price Adjustment
The audit of the contractor’s compliance with 10 U.S.C. 2306a (Truth in Negotiations Act) resulted in a recommended price adjustment of $11.2
million for overstated material costs and related burdens because certain material items were included in the contractor’s proposal twice, and
the increased cost was included in the negotiated contract.


Audit Report No. 06321-2011M17200001                                      Date: July 26, 2012
Subject: Independent Audit of Request for Equitable Adjustment
Prepared For: Department of Veteran Affairs
Report: $11.7 Million Questioned Cost
The audit of the equitable adjustment request resulted in questioned costs of $11.7 million. The majority of the questioned costs resulted from
the contractor’s failure to provide adequate supporting documentation such as accounting records, banking records, and subcontractor agree-
ments or invoices, for various claimed items including $7.5 of financing and interest expenses; $1.4 million of subcontractor costs; and $0.7
million of insurance or bond premiums, real estate taxes, and architect fees.


Audit Report No. 02701-2006A10100003                                      Date: July 31, 2012
Subject: Independent Audit of FY 2006 Incurred Cost Audit
Prepared For: Defense Contract Management Agency, Cost and Pricing Corporate and Divisional Administrative Contracting Officer Group
Report: $76.6 Million Questioned Cost
The audit of the incurred cost proposal resulted in $76.6 million of questioned cost. Significant items questioned include $60.1 million of direct
material for which the contractor did not provide documentation of government inspection and acceptance and/or documentation demon-
strating the material costs were based on competitive awards; and $13.4 million of labor hour billings for employees or subcontractors who
did meet the contractual requirements for education, certification, or experience.


Audit Report No. 03541-2012A17100003                                      Date: Aug. 17, 2012
Subject: Independent Audit of Termination Settlement Proposal
Prepared For: Office of Assistant Secretary of Defense Health Affairs, TRICARE Management Activity
Report: $18.3 Million Questioned Cost
The audit of the termination settlement proposal questioned $18.3 million. Significant items questioned include $1.9 million of labor incurred
during a stop work period prior to contract termination, $4.5 million of indirect fringe, overhead, and general & administrative costs applicable
to questioned base costs; and $11.6 million of claimed unabsorbed overhead due to inappropriate use of the Eichleay formula.

130 SEMIANNUAL REPORT TO THE CONGRESS
Audit Report No. 04911-2010J10100001                                      Date: Aug. 21, 2012
Subject: Independent Audit of FY 2010 Final Allocated Direct Cost Report
Prepared For: National Aeronautics and Space Administration
Report: $78.6 Million Questioned Cost
The audit of the Final Allocated Direct Cost Report resulted in $78.6 million of questioned costs. Significant questioned items include $30.5 mil-
lion of questioned subcontract costs due to inadequate price competition, failure to evaluate cost overruns, and rework costs that should have
been absorbed by the subcontractor; $20 million of health and dental insurance costs for dependents because the contractor lacks adequate
documentation and internal controls to verify eligibility; $6.3 million of overtime costs without the contract required approvals; and $5.6 mil-
lion of separation pay that is unreasonable, incorrectly computed, or in excess of the amount recorded in the audited financial statements.


Audit Report No. 02131-2007A10100001                                      Date: Sept. 13, 2012
Subject: Independent Audit of Incurred Cost Proposal for FY 2007
Prepared For: U.S. Army Contracting Command, South West Asia Support Reachback Branch
Report: $30.6 Million Questioned Cost
The audit of the incurred cost proposal resulted in $30.6 million of questioned cost. Significant items questioned include $16.5 million of costs
incurred in a different accounting period yet included in the FY 2007 proposal; $7.3 million of costs that were not supported with adequate
documentation; and $4.1 million of unreasonable subcontract costs in excess of the ceiling amount of the subcontract.


Audit Report No. 04911-2006B10100001                                      Date: Sept. 19, 2012
Subject: Independent Audit of FY 2006 Final Incurred Cost Submission
Prepared For: Defense Contract Management Agency Los Angeles - Carson
Report: $58.2 Million Questioned Cost
The audit of the incurred cost submission resulted in $58.2 million questioned cost. Significant items questioned include $21.6 million of un-
auditable subcontract costs because the subcontractors are no longer in business and/or the records are unavailable; $15.6 million of claimed
subcontract costs in excess of the amount claimed in the subcontractor’s incurred cost submission; $5.1 million of claimed Employee Stock
Ownership Plan expenses in excess of the limitations on total plan and individual contributions contained in the Internal Revenue Code; and
$2.9 million of medical insurance costs due to lack of supporting documentation for the eligibility of claimed dependents.


Audit Report No. 01701-2011E10180003                                      Date: Sept. 21, 2012
Subject: Independent Audit of Outside the Continental United States Direct Labor Costs for Second Half of Calendar Year 2010
Prepared For: Department of the Army, Intelligence and Security Administration
Report: $28.8 Million Questioned Cost
The audit of the recorded labor costs resulted in $28.8 million of questioned costs including $28.7 million due to lack of contractually required
documentation for employee language testing, medical screenings, or dental screenings; and $0.1 million due to unreasonable compensation


Audit Report No. 06211-2006C10100003                                      Date: Sept. 26, 2012
Subject: Independent Audit of Incurred Cost Proposal for FY Ended March 31, 2006
Prepared For: Defense Contract Management Agency – Cost and Pricing Center
Report: $98 Million Questioned Cost
The audit of the incurred cost proposal resulted in net questioned cost of $98 million. Significant items questioned include $59.2 million of non-
billable or inadequately supported accrued costs; $6.2 million of questioned corporate or other segment allocations; $46.0 million of questioned
direct labor for employees who did not have the education or experience required by the contract for the labor category claimed; and an upward
adjustment of $38.6 million to claimed Time and Material costs for projects incorrectly excluded from the proposal.




                                                                                                             APRIL 1, 2012 TO SEPTEMBER 30, 2012 131
Appendix G


 Audit Report No. 06271-2002A10100103                                      Date: Sept. 26, 2012
 Subject: Independent Audit of Incurred Cost Proposal for FY 2002
 Prepared For: Defense Contract Management Agency – Cost and Pricing Center
 Report: $15 Million Questioned Cost
 The audit of the incurred cost proposal resulted in $15 million questioned costs. Significant items questioned include $4.9 million of subcontract
 costs which were not adequately supported with documentation to verify that services had been received; $3.3 million of costs paid from im-
 prest funds which were not adequately documented or approved in accordance with company policies; and $1.1 million of direct labor which
 was not supported by employee time sheets.


 Audit Report No. 03231-2005M10100049                                      Date: Sept. 28, 2012
 Subject: Independent Audit of Incurred Cost Proposal for FY 2005
 Prepared For: U.S. Department of Energy, Environment Management Consolidated Business Center
 Report: $17.9 Million Questioned Cost
 The audit of the incurred cost proposal resulted in $17.9 million questioned costs. Significant items questioned include $15.4 million related to
 fixed unit cost contracts because the contractor could not provide adequate support for the number of units claimed, and $0.7 million of ques-
 tioned labor costs due to missing or incomplete time sheets.

 Audit Report No. 06151-2006Y10100001                                      Date: Sept. 28, 2012
 Subject: Independent Audit of Incurred Cost for FY Ended Dec. 31, 2006
 Prepared For: Defense Contract Management Agency - Virginia
 Report: $24.8 Million Questioned Cost
 The audit of the incurred cost proposal resulted in $24.8 million of questioned costs. Significant items questioned include $4.3 million of claimed
 pension costs for which no supporting documentation was provided; $2.1 million of bonuses that were not supported with adequate justifica-
 tion or basis for award; $1.7 million of costs related to commercial projects; $1.8 million of direct labor due to employees without the required
 education or experience required by the contract or for whom resumes were not provided; and $1.4 million of subcontract labor billed in excess
 of cost.

 Audit Report No. 04411-2005N10100005                                      Date: Sept. 29, 2012
 Subject: Independent Audit of FY 2005 Incurred Cost
 Prepared For: Defense Contract Management Agency America’s Business Group, Houston
 Report: $48.1 Million Questioned Cost
 The audit of the incurred cost proposal resulted in $48.1 million of questioned costs. Significant items questioned include $12.5 million of in-
 terdivisional labor in excess of the amount incurred; $5.5 million of unreasonable Iraq premium pay; $16.5 million of subcontract costs which
 were not based on adequate price analysis, were not supported with adequate source documentation, or not yet incurred; and $11.7 million of
 unallowable indirect expenses.

 Audit Report No. 02131-2006H10100002                                      Date: Sept. 30, 2012
 Subject: Independent Audit of FY Ended Dec. 31, 2006 Incurred Cost Proposal
 Prepared For: U.S. Army Contracting Command, South West Asia Support Reachback Branch
 Report: $37.5 Million Questioned Cost
 The audit of the incurred cost proposal resulted in $37.5 million of questioned costs. Significant items questioned include $5.2 million of direct
 labor that was not supported by employee performance evaluations, time sheets, or employee agreements; $7.6 million of direct material costs
 that were not allocable to FY 2006; and $11.4 million of intercompany expenses for which no legible documentation was provided.

▶ Fulfills requirements of the National Defense Authorization Act for FY 2008 Section 845.




132 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                               Appendix H




                                                                        Results of Peer Reviews
Peer Review of Department of Defense IG by Department of Health and Human Services OIG
The Department of Health and Human Services OIG conducted an external peer review of DoD IG Office of Audit and issued a final
report on Dec. 2, 2009. DoD IG received a peer review rating of pass. There are no outstanding recommendations. A copy of the external
quality control review report can be viewed on at www.dodig.mil/audit.

Peer Review of U.S. Postal Service OIG by Department of Defense IG
DoD IG conducted an external quality control review of the United States Postal Service OIG audit organization and issued a final re-
port on March 31, 2010. USPS OIG received a peer review rating of pass. All outstanding recommendations have been implemented as
of March 31, 2011. A copy of the external quality control review report in its entirety can be viewed on the USPS OIG website at www.
uspsoig.gov.

Peer Review of DCIS Operations by the U.S. Department of Health and Human Services Office of Inspector General
The U.S. Department of Health and Human Services OIG conducted an external peer review of DCIS’s system of internal safeguards
and management procedures in effect through July 2011 and HHS OIG also conducted an evaluation to determine DCIS’ compliance
with applicable internal policies and procedures from April 2009 to July 2011. Since DCIS does not derive its statutory law enforcement
authority from the Attorney General or the Inspector General Act, it is not subject to the Council of the Inspectors General on Integrity
and Efficiency thus DCIS’s participation in this peer review was voluntary. After completing its review of DCIS, the HHS OIG issued a
final report dated Aug. 19, 2011, and concluded that the system of internal safeguards and management procedures for DCIS was in full
compliance with the quality standards established by CIGIE and the Attorney General guidelines. These safeguards and procedures pro-
vide reasonable assurance that DCIS is conforming to the professional standards for investigations established by CIGIE.

External Quality Control Review of the Defense Information Systems Agency Audit Organization
DoD IG conducted a review of the system of quality control for the audit organization of the Defense Information Systems Agency and
issued a final report on Aug. 7, 2012. As a result of significant deficiencies found, the DoD IG review team issued a fail opinion on the
DISA audit organization’s system of quality control used on audits for the review period ended March 31, 2011. The DoD IG found that
the DISA audit organization’s system of quality control for audits was designed in accordance with generally accepted government audit-
ing standards; however, DoD IG identified significant deficiencies in the audit organization’s compliance with its system of quality control
that do not provide reasonable assurance that DISA audit personnel were following established guidance, policies, procedures, and ap-
plicable auditing standards. DoD IG report included six recommendations and DISA concurred with all of them.

Quality Control Review of the Defense Commissary Agency Internal Audit Function
DoD IG reviewed the Defense Commissary Agency Office of Internal Audit system of quality control and issued a final report on Sept.
10, 2012. The DeCA audit organization received peer review opinion of pass. Although the DeCA system of internal controls received a
pass opinion, DoD IG identified five areas with findings relating to quality control, independence, audit planning, supervision, and audit
documentation. The findings DoD IG identified were not cumulatively significant enough to rise to the level of a deficiency or significant
deficiency. DeCA management concurred with all findings and recommendations.


▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(14),(15),(16).




                                                                                                        APRIL 1, 2012 TO SEPTEMBER 30, 2012 133
Appendix I




Acronyms
AAF		     Afghan Air Force                                    CTIP		    Combating Trafficking in Persons
AAFES 		  Army Air Force Exchange System                      DASD 		   Deputy Assistant Secretary of Defense
ACC 		    Army Contracting Command                            DCAA 		   Defense Contract Audit Agency
ADA 		    Antideficiency Act                                  DCIS		    Defense Criminal Investigative Service
AF		      Air Force                                           DCMA 		   Defense Contract Management Agency
AFAA 		   Air Force Audit Agency                              DD		      Department of Defense (Form)
AFB		     Air Force Base                                      DDRS		    Defense Departmental Reporting System
AFCEE 		  Air Force Center for Engineering and 		             DDRS-B		  Defense Departmental Reporting System-		
		Environment                                                 		Budgetary
AFOSI 		  Air Force Office of Special Investigations          DEAMS 		  Defense Enterprise Accounting and 		
AIR 		    Aviation Into-Plane Reimbursement                   		Management System
ALP		     Afghan local police                                 DECA		    Defense Commissary Agency
AMI		     Advanced Metering Infrastructure                    DEERS		   Defense Enrollment Eligibility Reporting 	
ANA 		    Afghan National Army                                		System
ANP 		    Afghan National Police                              DFAS 		   Defense Finance and Accounting Service
ANSF 		   Afghan National Security Forces                     DFSP		    Defense Fuel Support Point
APO		     Audit Policy and Oversight                          DIA		     Defense Intelligence Agency
AQD		     Acquisition Services Directorate                    DISA		    Defense Information Systems Agency
AR 		     Army Regulation                                     DLA 		    Defense Logistics Agency
ARRA 		   American Recovery and Reinvestment Act              DoD IG		  Department of Defense Inspector General
ASD(HA) 	 Assistant Secretary of Defense for Health 		        DoD(CIO)	 Department of Defense Chief Information
		Affairs                                                     		Officer
ASD(PA) 	 Assistant Secretary of Defense for Public Affairs   DoDEA		   Department of Defense Education Activity
ASFF		    Afghanistan Security Forces Fund                    DoDD 		   Department of Defense Directive
ATF		     Bureau of Alcohol, Tobacco, Firearms and 		         DoDI 		   Department of Defense Instruction
		Explosives                                                  DOI		     Department of Interior
AT&L		    Acquisition, Technology and Logistics               DoN 		    Department of the Navy
CDP		     Contractor Disclosure Program                       DoS 		    Department of State
CENTCOM	  U.S. Central Command                                DPA		     Deferred Prosecution Agreement
CERP 		   Commander’s Emergency Response Program              DSCA		    Defense Security Cooperation Agency
CIGIE 		  Council of Inspectors General for Integrity and     DSS 		    Defense Security Service
		Efficiency                                                  DTCI		    Defense Transportation Coordination Initiative
CIO 		    Chief Information Officer CID 		                    DTRA 		   Defense Threat Reduction Agency
		        Criminal Investigation Command                      DW&T		    Directorate of Whistleblowing and 			
CIOC		    Command Intelligence Operations Center              		Transparency
CITF		    Criminal Investigative Task Force                   EA		      Economy Act
C-JTSCC	  CENTCOM (U.S. Central Command)-Joint 		             ECD 		    Estimated Completion Date
		        Theater Support Contracting Command                 EFL-2		   Expeditionary Forensic Laboratory-2
CNTPO 	   Counter Narcoterrorism Technology Program           ERP 		    Enterprise Resource Planning
		Office                                                      FBI		     Federal Bureau of Investigation
COA		     Chart of Accounts                                   FDA		     Food and Drug Administration
COCOM	    Combatant Commands                                  FEMA 		   Federal Emergency Management Agency
COPSWA	   Comprehensive Oversight Plan for Southwest 	        FISMA		   Federal Information Security Management Act
		Asia                                                        FMTV 		   Family of Medium Tactical Vehicles
CST		     Civil Support Team                                  FMR		     Financial Management Regulation
CSTC-A		  Combined Security Transition Command-		             FOUO 		   For Official Use Only
		Afghanistan                                                 FVAP		    Federal Voting Assistance Program

134 SEMIANNUAL REPORT TO THE CONGRESS
G-1		       Personnel and Administrative Staff               OIG		       Office of Inspector General
G-4		       Logistics Staff                                  OMB		       Office of Management and Budget
G-6		       Information Management Staff                     OPR		       Office of Professional Responsibility
GAO		       Government Accountability Office                 OSD 		      Office of the Secretary of Defense
GFEBS 		    General Fund Enterprise Business System          PACE		      Procurement Automated Contract Evaluation
GSA 		      General Services Administration                  PDTE		      Predeployment Training Equipment
GSK		       GlaxoSmithKline, Inc.                            PII		       Personally Identifiable Information
GWOT 		     Global War on Terror                             PEO		       Program Executive Office
HHS 		      Department of Health and Human Services          PFPA 		     Pentagon Force Protection Agency
HSI		       Homeland Security Investigation                  PMO		       Program Management Office
IA		        Information Assurance                            P&O 		      Policy and Oversight
IC		        Intelligence Community                           POM		       Program Objective Memorandum
ICE 		      Immigration and Customs Enforcement              P&R 		      Personnel and Readiness
IED		       Improvised Explosive Device                      PSB		       Protective Services Battalion
IG 		       Inspector General                                RAPIDS		    Real-time Automated Personnel Identification
IRS 		      Internal Revenue Service                         		System
ISAF 		     International Security Assistance Force          RPAT		      Redistribution Property Assistance Team
ISO		       Investigations of Senior Officials               S-1		       Personnel Office
IT		        Information Technology                           SBIR		      Small Business Innovative Research
JAG 		      Judge Advocate General                           SECNAV	     Secretary of the Navy
JCOC 		     Joint Civilian Orientation Conference Program    SPO 		      Special Plans and Operations
JCS 		      Joint Chiefs of Staff                            STAAT		     Security Training Assistance and Assessment 	
JS 		       Joint Staff                                      		Teams
JTTF		      Joint Terrorism Task Force                       STTR		      Small Business Technology Transfer
LEP		       Law Enforcement Professionals Program            STRATCOM 	 Strategic Command
LMP		       Logistics Modernization Program                  TF		        Task Force
MCAS		      Marine Corps Air Station                         TMA 		      TRICARE Management Activity
MCIO		      Military Criminal Investigative Organization     TRIM 		     Training Requirements and Information
MDA 		      Missile DefenseAgency                            		Management
MEPCOM	     Military Entrance Processing Command             UCMJ		      Uniform Code of Military Justice
MOI		       Ministry of the Interior                         USAAA 		    U.S. Army Audit Agency
NAS		       Naval Air Station                                USACE 		    U.S. Army Corps of Engineers
NATO 		     North Atlantic Treaty Organization               USACID	     U.S. Army Criminal Investigation Command
NAVAUDSVC 	 Naval Audit Service                              USACIL 	    U.S. Army Criminal Investigation Laboratory
NAVFAC 	    Naval Facilities Engineering Command             USAID 		    U.S. Agency for International Development
NCIJTF		    National Cyber Investigative Joint Task Force    USD(AT&L) 	 Under Secretary of Defense (Acquisition,
NCIS 		     Naval Criminal Investigative Service             		          Technology and Logistics)
NCO		       Noncommissioned Officer                          USD(C) 		   Under Secretary of Defense (Comptroller)
NGA 		      National Geospatial Intelligence Agency          USD(P&R) 	  Under Secretary of Defense for Personnel and
NOSC		      Navy Operational Support Center                  		Readiness
NSA 		      National Security Agency                         USFOR-A	    U.S. Forces-Afghanistan
NTM-A		     North Atlantic Treaty Organization Training 		   USMC		      U.S. Marine Corps
		Mission-Afghanistan                                        WHS		       Washington Headquarters Services
NVD		       Night Vision Devices                             WMD		       Weapons of Mass Destruction
OASIS		     Organic Airborne and Surface Influence Sweep     WRI 		      Whistleblower Reprisal Investigations
OCO 		      Overseas Contingency Operations
OGC 		      Office of General Counsel

                                                                                         APRIL 1, 2012 TO SEPTEMBER 30, 2012 135
I N T E G R I T Y  E F F IC I E N C Y  AC C O U N TA B I L I T Y  E XC E L L E N C E




                   D epar tment of D efense │ I N S P E C TO R G E N E R A L

                                    4800 Mark Center Drive
                                  Alexandria, VA 22350-1500
                                        www.dodig.mil
                                 Defense Hotline 1.800.424.1500
Department of Defense                   Department of Defense
Inspector General                            Inspector General
4800 Mark Center Drive                  4800 Mark Center Drive
Alexandria, VA 22350-1500            Alexandria, VA 22350-1500

www.dodig.mil                                   www.dodig.mil

Defense Hotline 1.800.424.9098   Defense Hotline 1.800.424.9098
